                                   United States Department of Agriculture

                                   Report to the Secretary of Agriculture




December 1997
                                   Nationwide Data on
                                   Minority Participation
                                   in Farm Service Agency’s
                                   Farm Loan Programs -
                                   Phase III
                                   Volume 4 of 5
                                   New Mexico through South Dakota




Evaluation Report No. 50801-4-Hq
                            Demographics         1082
                        FSA’s Loan Portfolio     1087
                        FSA’s Application data   1098




USDA/OIG-A/50801-4-Hq                                   1081
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number    Percent
        NM                  Population       480,577      267,965     56%        11,862         2%      14,191      3%      6,692          1%      1,557          0%     178,310      37%
        Bernalillo County   Borrowers              0            0      0%             0         0%           0      0%          0          0%          0          0%           0       0%
                            Farms                504          270     54%             4         1%          24      5%          0          0%         69         14%         137      27%
                            Land in Farms    415,263      332,771     80%            30         0%           0      0%          0          0%     32,177          8%      50,285      12%

        NM                  Population          2,563       1,808     71%                7      0%          18      1%              2      0%          0          0%         728      28%
        Catron County       Borrowers              17          14     82%                0      0%           0      0%              0      0%          0          0%           3      18%
                            Farms                 236         160     68%                0      0%           0      0%              0      0%         17          7%          59      25%
                            Land in Farms   1,553,328   1,331,457     86%                0      0%           0      0%              0      0%     25,334          2%     196,537      13%

        NM                  Population         57,849      34,792     60%         1,094         2%         285      0%        242          0%        165          0%      21,271      37%
        Chaves County       Borrowers              58          50     86%             0         0%           1      2%          2          3%          0          0%           5       9%
                            Farms                 592         549     93%             0         0%           0      0%          0          0%         14          2%          29       5%
                            Land in Farms   3,112,271   2,922,517     94%             0         0%           0      0%          0          0%          0          0%     189,754       6%

        NM                  Population         23,794       6,491     27%           179         1%     8,945       38%         62          0%          8          0%       8,109      34%
        Cibola County       Borrowers               7           2     29%             0         0%         1       14%          0          0%          0          0%           4      57%
                            Farms                 184          75     41%             0         0%        41       22%          0          0%         23         13%          45      24%
                            Land in Farms   2,080,760     935,313     45%             0         0% 1,003,765       48%          0          0%     43,205          2%      98,477       5%

        NM                  Population         12,925       6,571     51%            29         0%          65      1%         15          0%         55          0%       6,190      48%
        Colfax County       Borrowers              17          13     76%             0         0%           1      6%          0          0%          0          0%           3      18%
                            Farms                 303         241     80%             0         0%           0      0%          0          0%         20          7%          42      14%
                            Land in Farms   2,085,387   2,035,733     98%             0         0%           0      0%          0          0%          0          0%      49,654       2%

        NM                  Population        42,207       28,331     67%         2,772         7%         242      1%        738          2%        109          0%      10,015      24%
        Curry County        Borrowers             55           53     96%             0         0%           0      0%          1          2%          0          0%           1       2%
                            Farms                610          588     96%             0         0%           0      0%          0          0%          6          1%          16       3%
                            Land in Farms    924,678      915,082     99%             0         0%           0      0%          0          0%          0          0%       9,596       1%

        NM                  Population          2,252       1,480     66%                2      0%          30      1%              0      0%              4      0%         736      33%
        DeBaca County       Borrowers              20          19     95%                0      0%           0      0%              0      0%              0      0%           1       5%
                            Farms                 191         168     88%                0      0%           0      0%              0      0%              9      5%          14       7%
                            Land in Farms   1,343,237   1,318,755     98%                0      0%           0      0%              0      0%              0      0%      24,482       2%

        NM                  Population       135,510       55,158     41%         1,968         1%         805      1%      1,013          1%        118          0%      76,448      56%
        Dona Ana County     Borrowers             28           17     61%             0         0%           2      7%          1          4%          0          0%           8      29%
                            Farms              1,271          679     53%             3         0%           5      0%          6          0%        211         17%         367      29%
                            Land in Farms    526,407      461,942     88%            25         0%           0      0%          0          0%     26,551          5%      37,889       7%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1082
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other             Hispanic
                                             Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number   Percent   Number    Percent
        NM                  Population         48,605      30,236     62%           742         2%         209         0%        163          0%        110      0%      17,145      35%
        Eddy County         Borrowers              36          22     61%             0         0%           0         0%          1          3%          0      0%          13      36%
                            Farms                 495         424     86%             0         0%           3         1%          0          0%         27      5%          41       8%
                            Land in Farms   1,138,681   1,101,002     97%             0         0%       2,360         0%          0          0%      6,250      1%      29,069       3%

        NM                  Population         27,676      13,241    48%            120         0%         194         1%         57          0%          3      0%      14,061      51%
        Grant County        Borrowers               4           4   100%              0         0%           0         0%          0          0%          0      0%           0       0%
                            Farms                 297         244    82%              0         0%           0         0%          0          0%         17      6%          36      12%
                            Land in Farms   1,209,335   1,171,586    97%              0         0%           0         0%          0          0%      4,422      0%      33,327       3%

        NM                  Population          4,156         597     14%                7      0%          16         0%         26          1%          5      0%       3,505      84%
        Guadalupe County    Borrowers              23           1      4%                0      0%           0         0%          2          9%          0      0%          20      87%
                            Farms                 271          66     24%                0      0%           0         0%          0          0%         70     26%         135      50%
                            Land in Farms   1,532,887   1,233,109     80%                0      0%           0         0%          0          0%          0      0%     299,778      20%

        NM                  Population            987         517     52%                2      0%              5      1%              1      0%          1      0%         461      47%
        Harding County      Borrowers              11           7     64%                0      0%              0      0%              0      0%          0      0%           4      36%
                            Farms                 195         132     68%                0      0%              0      0%              0      0%         16      8%          47      24%
                            Land in Farms   1,289,733   1,079,938     84%                0      0%              0      0%              0      0%          0      0%     209,795      16%

        NM                  Population         5,958        2,917     49%                9      0%          19         0%         29          0%          0      0%       2,984      50%
        Hidalgo County      Borrowers             17           13     76%                0      0%           0         0%          0          0%          0      0%           4      24%
                            Farms                147          133     90%                0      0%           0         0%          0          0%          6      4%           8       5%
                            Land in Farms    843,401      816,838     97%                0      0%           0         0%          0          0%      2,830      0%      23,733       3%

        NM                  Population         55,765      36,089    65%          2,546         5%         319         1%        165          0%         48      0%      16,598      30%
        Lea County          Borrowers              27          24    89%              0         0%           0         0%          0          0%          1      4%           2       7%
                            Farms                 544         526    97%              3         1%           0         0%          0          0%          6      1%           9       2%
                            Land in Farms   2,149,450   2,145,895   100%              0         0%           0         0%          0          0%        857      0%       2,698       0%

        NM                  Population         12,219       8,585     70%            60         0%         118         1%         21          0%          8      0%       3,427      28%
        Lincoln County      Borrowers              17          14     82%             0         0%           0         0%          0          0%          0      0%           3      18%
                            Farms                 338         252     75%             0         0%           0         0%          0          0%         29      9%          57      17%
                            Land in Farms   1,881,764   1,725,172     92%             0         0%           0         0%          0          0%          0      0%     156,592       8%

        NM                  Population        18,115       15,467    85%             88         0%         112         1%        421          2%         19      0%       2,008      11%
        Los Alamos County   Borrowers              0            0     0%              0         0%           0         0%          0          0%          0      0%           0       0%
                            Farms                  4            4   100%              0         0%           0         0%          0          0%          0      0%           0       0%
                            Land in Farms         10           10   100%              0         0%           0         0%          0          0%          0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1083
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White              African American Native American                Asian                  Other             Hispanic
                                             Total       Number      Percent     Number       Percent   Number    Percent   Number       Percent   Number   Percent   Number    Percent
        NM                  Population        18,110        9,113      50%           209         1%          87      0%         51          0%         22      0%       8,628      48%
        Luna County         Borrowers             25           21      84%             0         0%           0      0%          0          0%          1      4%           3      12%
                            Farms                185          138      75%             0         0%           0      0%          0          0%         19     10%          28      15%
                            Land in Farms    797,117      766,435      96%             0         0%           0      0%          0          0%          0      0%      30,682       4%

        NM                  Population         60,686       9,614      16%           282         0%    42,700       70%        218          0%        108      0%       7,764      13%
        McKinley County     Borrowers               7           2      29%             0         0%         3       43%          0          0%          0      0%           2      29%
                            Farms                 213          85      40%             0         0%       105       49%          0          0%         11      5%          12       6%
                            Land in Farms   3,224,090     750,821      23%             0         0% 2,426,323       75%          0          0%     23,762      1%      23,184       1%

        NM                  Population         4,264          615      14%                2      0%          12      0%              1      0%         11      0%       3,623      85%
        Mora County         Borrowers             10            3      30%                0      0%           0      0%              0      0%          0      0%           7      70%
                            Farms                398           22       6%                0      0%           3      1%              0      0%        153     38%         220      55%
                            Land in Farms    905,235      689,424      76%                0      0%         640      0%              0      0%     63,993      7%     151,178      17%

        NM                  Population         51,928      33,268     64%          2,650         5%       2,689      5%        872          2%         69      0%      12,380      24%
        Otero County        Borrowers              12           9     75%              0         0%           2     17%          0          0%          0      0%           1       8%
                            Farms                 477         424     89%              0         0%           0      0%          0          0%         20      4%          33       7%
                            Land in Farms   1,166,009   1,163,535    100%              0         0%           0      0%          0          0%          0      0%       2,474       0%

        NM                  Population         10,823       6,497      60%           124         1%          76      1%         35          0%         31      0%       4,060      38%
        Quay County         Borrowers              72          69      96%             0         0%           1      1%          0          0%          0      0%           2       3%
                            Farms                 586         528      90%             0         0%           0      0%          0          0%         22      4%          36       6%
                            Land in Farms   1,769,177   1,742,512      98%             0         0%           0      0%          0          0%          0      0%      26,665       2%

        NM                  Population         34,365       4,375      13%           117         0%       4,830     14%         40          0%         48      0%      24,955      73%
        Rio Arriba County   Borrowers              47          11      23%             0         0%           3      6%          0          0%          0      0%          33      70%
                            Farms                 964         (29)     -3%             0         0%          56      6%          3          0%        366     38%         568      59%
                            Land in Farms   1,552,865     389,606      25%             0         0%     971,261     63%          0          0%          0      0%     191,998      12%

        NM                  Population         16,702      11,702     70%            210         1%         114      1%         91          1%         37      0%       4,548      27%
        Roosevelt County    Borrowers              84          79     94%              0         0%           1      1%          0          0%          0      0%           4       5%
                            Farms                 734         713     97%              0         0%           0      0%          0          0%          9      1%          12       2%
                            Land in Farms   1,646,707   1,639,262    100%              0         0%           0      0%          0          0%          0      0%       7,445       0%

        NM                  Population        63,319       32,390      51%           844         1%      12,176     19%        455          1%         82      0%      17,372      27%
        Sandoval County     Borrowers             25            8      32%             0         0%           4     16%          1          4%          0      0%          12      48%
                            Farms                345           49      14%             0         0%          48     14%          0          0%         94     27%         154      45%
                            Land in Farms    770,155      220,272      29%             0         0%     435,850     57%          0          0%     29,016      4%      85,017      11%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1084
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White              African American Native American                Asian                  Other              Hispanic
                                             Total       Number      Percent     Number       Percent   Number    Percent   Number       Percent   Number    Percent   Number    Percent
        NM                  Population         91,605      45,813      50%           402         0%      33,108     36%        183          0%          90      0%      12,009      13%
        San Juan County     Borrowers              10           8      80%             0         0%           1     10%          0          0%           0      0%           1      10%
                            Farms                 641         452      71%             0         0%          71     11%          0          0%          46      7%          72      11%
                            Land in Farms   1,896,131   1,868,350      99%             0         0%           0      0%          0          0%       2,515      0%      25,266       1%

        NM                  Population         25,743       4,689      18%           145         1%         168      1%        116          0%         134      1%      20,491      80%
        San Miguel County   Borrowers              20           2      10%             0         0%           0      0%          0          0%           0      0%          18      90%
                            Farms                 661          16       2%             0         0%           4      1%          0          0%         265     40%         376      57%
                            Land in Farms   2,579,730   1,902,514      74%             0         0%      14,373      1%          0          0%     225,855      9%     436,988      17%

        NM                  Population        98,928       46,450      47%           505         1%       2,284      2%        439          0%        311       0%      48,939      49%
        Santa Fe County     Borrowers              4            2      50%             0         0%           1     25%          0          0%          0       0%           1      25%
                            Farms                313          149      48%             0         0%          14      4%          0          0%         58      19%          92      29%
                            Land in Farms    517,952      392,230      76%             0         0%      76,232     15%          0          0%          0       0%      49,490      10%

        NM                  Population          9,912       7,419      75%            29         0%          64      1%         12          0%           9      0%       2,379      24%
        Sierra County       Borrowers              25          14      56%             0         0%           1      4%          0          0%           2      8%           8      32%
                            Farms                 207         135      65%             0         0%           6      3%          0          0%          20     10%          46      22%
                            Land in Farms   1,233,794   1,183,296      96%             0         0%           0      0%          0          0%       8,555      1%      41,943       3%

        NM                  Population         14,764       5,972      40%           106         1%       1,424     10%        195          1%          10      0%       7,057      48%
        Socorro County      Borrowers              53          31      58%             0         0%           0      0%          1          2%           1      2%          20      38%
                            Farms                 413         201      49%             0         0%          10      2%          0          0%          85     21%         117      28%
                            Land in Farms   1,868,074   1,356,262      73%             0         0%           0      0%          0          0%      82,352      4%     429,460      23%

        NM                  Population        23,118        6,401      28%            46         0%       1,473      6%         70          0%        120       1%      15,008      65%
        Taos County         Borrowers             10            0       0%             0         0%           0      0%          0          0%          1      10%           9      90%
                            Farms                440          (12)     -3%             0         0%          27      6%          0          0%        166      38%         259      59%
                            Land in Farms    324,476      197,607      61%             0         0%           0      0%          0          0%          0       0%     126,869      39%

        NM                  Population         10,285       6,224      61%            34         0%         111      1%         20          0%           4      0%       3,892      38%
        Torrance County     Borrowers              32          25      78%             0         0%           0      0%          0          0%           0      0%           7      22%
                            Farms                 485         347      72%             0         0%           5      1%          0          0%          50     10%          83      17%
                            Land in Farms   1,797,466   1,608,025      89%             0         0%         683      0%          0          0%      50,255      3%     138,503       8%

        NM                  Population          4,124       2,718      66%                2      0%          10      0%              3      0%           1      0%       1,390      34%
        Union County        Borrowers              39          38      97%                0      0%           0      0%              0      0%           0      0%           1       3%
                            Farms                 460         432      94%                0      0%           0      0%              0      0%           9      2%          19       4%
                            Land in Farms   2,364,443   2,305,552      98%                0      0%           0      0%              0      0%       8,102      0%      50,789       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1085
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American             Asian              Other              Hispanic
                                             Total        Number     Percent     Number    Percent   Number    Percent   Number   Percent   Number    Percent   Number    Percent
        NM                Population         45,235        20,659      46%           448      1%       1,169      3%        139      0%          87      0%      22,733      50%
        Valencia County   Borrowers               9             2      22%             0      0%           0      0%          0      0%           0      0%           7      78%
                          Farms                 575           248      43%             0      0%          20      3%          4      1%         109     19%         194      34%
                          Land in Farms     349,231       244,037      70%             0      0%           0      0%          0      0%      23,492      7%      81,702      23%

        NM                Population       1,515,069       764,164     50%        27,642      2% 128,068          8%     12,587      1%       3,384      0%   579,224        38%
        STATE             Borrowers              821           577     70%             0      0%        22        3%          9      1%           6      1%       207        25%
                          Farms               14,279         8,409     59%            10      0%       442        3%         13      0%       2,042     14%     3,363        24%
                          Land in Farms   46,849,244    37,946,860     81%            55      0% 4,931,487       11%          0      0%     659,523      1% 3,311,319         7%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 1086
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CATRON, NEW MEXICO                                      CHAVES, NEW MEXICO                                   CIBOLA, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            17                          7                          58                      24                            7                      6
                              Loans                                43                      19                        120                          55                        11                       10
                              Principal and Interest   5,319,800                    247,004                  10,755,158                  1,237,462                  1,000,042                  192,167

WHITE                         Borrowers                            14     82%                  6     86%                  50     86%              21        88%                 2     29%              2     33%
                              Loans                                33     77%              11        58%             102         85%              45        82%                 3     27%              3     30%
                              Principal and Interest   4,599,809          86%       210,181          85%      9,314,798          87%       899,519          73%      319,471          32%      106,806       56%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   1      2%                  0      0%                 1     14%              0      0%
                              Loans                                 0      0%                  0      0%                   1      1%                  0      0%                 1      9%              0      0%
                              Principal and Interest                0      0%                  0      0%        166,963           2%                  0      0%       33,218           3%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                   2      3%                  2      8%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   9      8%                  9     16%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%        769,203           7%       333,467          27%                 0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             3     18%                  1     14%                   5      9%                  1      4%                 4     57%              4     67%
                              Loans                                10     23%                  8     42%                   8      7%                  1      2%                 7     64%              7     70%
                              Prinicpal and Interest     719,991          14%         36,823         15%        504,194           5%          4,476          0%      647,353          65%       85,362       44%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1087
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         COLFAX, NEW MEXICO                                      CURRY, NEW MEXICO                                   DE BACA, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            17                          3                          55                      22                        20                         8
                              Loans                                22                          5                     111                          49                        27                       10
                              Principal and Interest     962,939                      31,136                 10,564,311                  1,219,091                  1,504,719                   35,458

WHITE                         Borrowers                            13     76%                  2     67%                  53     96%              21        95%             19        95%              7     88%
                              Loans                                18     82%                  4     80%             105         95%              44        90%             26        96%              9     90%
                              Principal and Interest     765,564          80%         27,126         87%     10,239,808          97%     1,198,502          98%     1,222,232         81%       22,186       63%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             1      6%                  1     33%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 1      5%                  1     20%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest      77,704           8%          4,010         13%                   0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                   1      2%                  1      5%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   5      5%                  5     10%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%        194,854           2%         20,589          2%                 0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             3     18%                  0      0%                   1      2%                  0      0%                 1      5%              1     13%
                              Loans                                 3     14%                  0      0%                   1      1%                  0      0%                 1      4%              1     10%
                              Prinicpal and Interest     119,671          12%                  0      0%        129,649           1%                  0      0%      282,487          19%       13,272       37%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1088
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       DONA ANA, NEW MEXICO                                      EDDY, NEW MEXICO                                   GRANT, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            28                      11                            36                      17                            4                      0
                              Loans                                48                      20                            66                      19                            5                      0
                              Principal and Interest   4,922,175                    441,443                  3,447,587                      99,660                 606,957                            0

WHITE                         Borrowers                            17     61%                  8     73%                 22     61%                  9     53%                 4   100%               0      0%
                              Loans                                24     50%              13        65%                 41     62%              10        53%                 5   100%               0      0%
                              Principal and Interest   3,371,337          68%       251,261          57%     2,050,037          59%         72,760         73%     606,957         100%               0      0%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             2      7%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 2      4%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest     294,397           6%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             1      4%                  1      9%                  1      3%                  0      0%                 0      0%              0      0%
                              Loans                                 8     17%                  5     25%                  3      5%                  0      0%                 0      0%              0      0%
                              Principal and Interest     370,180           8%       144,030          33%       150,133           4%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             8     29%                  2     18%                 13     36%                  8     47%                 0      0%              0      0%
                              Loans                                14     29%                  2     10%                 22     33%                  9     47%                 0      0%              0      0%
                              Prinicpal and Interest     886,261          18%         46,151         10%     1,247,417          36%         26,901         27%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1089
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GUADALUPE, NEW MEXICO                                 HARDING, PT, NEW MEXICO                                HIDALGO, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            23                          9                          11                          2                     17                         6
                              Loans                                27                      10                             17                          3                     41                       19
                              Principal and Interest     312,914                      43,288                 1,186,437                       17,619                 3,813,463                  968,182

WHITE                         Borrowers                             1      4%                  1     11%                   7     64%                  1     50%             13        76%              5     83%
                              Loans                                 2      7%                  2     20%                  10     59%                  1     33%             33        80%            16      84%
                              Principal and Interest     181,968          58%         36,804         85%        518,848          44%          5,216         30%     2,585,879         68%      637,148       66%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             2      9%                  1     11%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 5     19%                  1     10%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest      53,093          17%            640          1%                   0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            20     87%                  7     78%                   4     36%                  1     50%                 4     24%              1     17%
                              Loans                                20     74%                  7     70%                   7     41%                  2     67%                 8     20%              3     16%
                              Prinicpal and Interest      77,854          25%          5,844         14%        667,589          56%         12,403         70%     1,227,584         32%      331,034       34%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1090
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             LEA, NEW MEXICO                                  LINCOLN, NEW MEXICO                                     LUNA, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            27                          9                         17                          9                     25                         8
                              Loans                                46                      10                            27                      13                        45                       14
                              Principal and Interest   3,728,713                    295,094                  2,545,209                      88,077                 3,439,185                  400,905

WHITE                         Borrowers                            24     89%                  8     89%                 14     82%                  7     78%             21        84%              5     63%
                              Loans                                42     91%                  9     90%                 19     70%              10        77%             34        76%              9     64%
                              Principal and Interest   3,580,288          96%       293,870        100%      2,207,173          87%         88,011       100%      2,906,744         85%      168,161       42%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                             1      4%                  0      0%                  0      0%                  0      0%                 1      4%              0      0%
                              Loans                                 1      2%                  0      0%                  0      0%                  0      0%                 2      4%              0      0%
                              Principal and Interest     118,306           3%                  0      0%                  0      0%                  0      0%       37,196           1%              0      0%

HISPANIC                      Borrowers                             2      7%                  1     11%                  3     18%                  2     22%                 3     12%              3     38%
                              Loans                                 3      7%                  1     10%                  8     30%                  3     23%                 9     20%              5     36%
                              Prinicpal and Interest      30,119           1%          1,224          0%       338,037          13%              66         0%      495,246          14%      232,744       58%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1091
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MCKINLEY, NEW MEXICO                                      MORA, NEW MEXICO                                  OTERO, PT, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                             7                          6                         10                          2                     12                         4
                              Loans                                11                          9                         11                          2                     15                         7
                              Principal and Interest     638,285                      84,719                   506,390                       1,562                 1,481,661                  154,447

WHITE                         Borrowers                             2     29%                  2     33%                  3     30%                  0      0%                 9     75%              3     75%
                              Loans                                 3     27%                  2     22%                  4     36%                  0      0%             11        73%              5     71%
                              Principal and Interest      76,114          12%         13,951         16%       437,887          86%                  0      0%     1,215,156         82%      138,224       89%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             3     43%                  3     50%                  0      0%                  0      0%                 2     17%              1     25%
                              Loans                                 4     36%                  4     44%                  0      0%                  0      0%                 3     20%              2     29%
                              Principal and Interest      70,872          11%         33,875         40%                  0      0%                  0      0%      184,198          12%       16,223       11%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             2     29%                  1     17%                  7     70%                  2   100%                  1      8%              0      0%
                              Loans                                 4     36%                  3     33%                  7     64%                  2   100%                  1      7%              0      0%
                              Prinicpal and Interest     491,298          77%         36,893         44%        68,502          14%          1,562       100%        82,307           6%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1092
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           QUAY, NEW MEXICO                                  RIO ARRIBA, PT, NEW MEXICO                              ROOSEVELT, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            72                      15                              47                      23                          84                       37
                              Loans                           125                          25                              81                      35                        211                        91
                              Principal and Interest   5,265,458                    171,943                    3,140,413                    294,562                  13,857,086                  1,661,862

WHITE                         Borrowers                            69     96%              13        87%                   11     23%                  7     30%               79        94%            34      92%
                              Loans                           120         96%              21        84%                   26     32%              11        31%             201         95%            83      91%
                              Principal and Interest   4,769,823          91%       142,456          83%         744,708          24%         39,811         14%     13,303,071          96% 1,517,555          91%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                             1      1%                  1      7%                    3      6%                  1      4%                   1      1%              1      3%
                              Loans                                 3      2%                  3     12%                    3      4%                  1      3%                   4      2%              4      4%
                              Principal and Interest     216,558           4%         14,415          8%         138,990           4%          6,115          2%       174,719            1%      114,013        7%

ASIAN                         Borrowers                             0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                  0      0%                   0      0%              0      0%

HISPANIC                      Borrowers                             2      3%                  1      7%                   33     70%              15        65%                   4      5%              2      5%
                              Loans                                 2      2%                  1      4%                   52     64%              23        66%                   6      3%              4      4%
                              Prinicpal and Interest     279,076           5%         15,072          9%       2,256,715          72%       248,636          84%       379,296            3%       30,294        2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1093
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SAN JUAN, NEW MEXICO                                  SAN MIGUEL, NEW MEXICO                                SANDOVAL, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            10                          5                         20                          7                     25                       12
                              Loans                                21                          6                         42                      19                        43                       22
                              Principal and Interest   1,524,826                      96,925                 2,219,448                    860,170                  2,053,038                  401,860

WHITE                         Borrowers                             8     80%                  4     80%                  2     10%                  2     29%                 8     32%              5     42%
                              Loans                                18     86%                  5     83%                 12     29%              12        63%             17        40%            12      55%
                              Principal and Interest   1,487,885          98%         85,907         89%     1,196,822          54%       784,677          91%     1,150,414         56%      375,585       93%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             1     10%                  0      0%                  0      0%                  0      0%                 4     16%              3     25%
                              Loans                                 2     10%                  0      0%                  0      0%                  0      0%                 6     14%              4     18%
                              Principal and Interest      18,903           1%                  0      0%                  0      0%                  0      0%      143,675           7%       11,578        3%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 1      4%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 1      2%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%       70,656           3%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             1     10%                  1     20%                 18     90%                  5     71%             12        48%              4     33%
                              Loans                                 1      5%                  1     17%                 30     71%                  7     37%             19        44%              6     27%
                              Prinicpal and Interest      18,039           1%         11,018         11%     1,022,626          46%         75,493          9%      688,292          34%       14,698        4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1094
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SANTA FE, S, NEW MEXICO                                SIERRA, NEW MEXICO                                   SOCORRO, NEW MEXICO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            4                          2                         25                      10                          53                       25
                              Loans                                9                          3                         45                      19                        128                        63
                              Principal and Interest     731,256                   141,808                  3,854,037                    706,471                  11,824,912                  2,016,032

WHITE                         Borrowers                            2     50%                  2   100%                  14     56%                  7     70%               31        58%            13      52%
                              Loans                                4     44%                  3   100%                  27     60%              13        68%               68        53%            29      46%
                              Principal and Interest     347,822         48%       141,808        100%      2,565,533          67%       402,773          57%      6,458,426          55% 1,070,405          53%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                            1     25%                  0      0%                  1      4%                  0      0%                   0      0%              0      0%
                              Loans                                4     44%                  0      0%                  2      4%                  0      0%                   0      0%              0      0%
                              Principal and Interest     310,225         42%                  0      0%       224,567           6%                  0      0%                   0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                   1      2%              1      4%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                   7      5%              6     10%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%       708,003            6%      217,990       11%

OTHER                         Borrowers                            0      0%                  0      0%                  2      8%                  1     10%                   1      2%              0      0%
                              Loans                                0      0%                  0      0%                  2      4%                  1      5%                   1      1%              0      0%
                              Principal and Interest               0      0%                  0      0%       290,327           8%          8,305          1%           7,185          0%              0      0%

HISPANIC                      Borrowers                            1     25%                  0      0%                  8     32%                  2     20%               20        38%            11      44%
                              Loans                                1     11%                  0      0%                 14     31%                  5     26%               52        41%            28      44%
                              Prinicpal and Interest      73,209         10%                  0      0%       773,610          20%       295,392          42%      4,651,297          39%      727,637       36%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1095
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            TAOS, NEW MEXICO                                 TORRANCE, NEW MEXICO                                      UNION, NEW MEXICO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            10                          4                         32                      14                          39                       15
                              Loans                                13                          4                         60                      23                        112                        42
                              Principal and Interest     755,472                      16,080                 3,031,401                    448,918                  10,705,789                  1,921,018

WHITE                         Borrowers                             0      0%                  0      0%                 25     78%              12        86%               38        97%            15    100%
                              Loans                                 0      0%                  0      0%                 47     78%              21        91%             111         99%            42    100%
                              Principal and Interest                0      0%                  0      0%     2,600,367          86%       448,800        100%      10,595,061          99% 1,921,018        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%

OTHER                         Borrowers                             1     10%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 1      8%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest      17,784           2%                  0      0%                  0      0%                  0      0%                   0      0%              0      0%

HISPANIC                      Borrowers                             9     90%                  4   100%                   7     22%                  2     14%                   1      3%              0      0%
                              Loans                                12     92%                  4   100%                  13     22%                  2      9%                   1      1%              0      0%
                              Prinicpal and Interest     737,689          98%         16,080       100%        431,035          14%            118          0%       110,729            1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1096
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       VALENCIA, WEST, NEW MEXICO                                 STATE OF NEW MEXICO
                                                         Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               9                          2                      821                        324
                              Loans                                  11                          3                    1,594                        629
                              Principal and Interest       260,104                      11,291                 115,959,185                  14,306,254

WHITE                         Borrowers                               2     22%                  1     50%              577         70%            223         69%
                              Loans                                   2     18%                  1     33%            1,168         73%            446         71%
                              Principal and Interest          5,446          2%            590          5%      91,425,448          79%     11,101,111         78%

AFRICAN AMERICAN              Borrowers                               0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                   22      3%              11         3%
                              Loans                                   0      0%                  0      0%                   36      2%              19         3%
                              Principal and Interest                  0      0%                  0      0%       2,054,989           2%       200,229           1%

ASIAN                         Borrowers                               0      0%                  0      0%                    9      1%                  6      2%
                              Loans                                   0      0%                  0      0%                   38      2%              26         4%
                              Principal and Interest                  0      0%                  0      0%       2,316,122           2%       716,716           5%

OTHER                         Borrowers                               0      0%                  0      0%                    6      1%                  1      0%
                              Loans                                   0      0%                  0      0%                    7      0%                  1      0%
                              Principal and Interest                  0      0%                  0      0%         470,798           0%          8,305          0%

HISPANIC                      Borrowers                               7     78%                  1     50%              207         25%              83        26%
                              Loans                                   9     82%                  2     67%              345         22%            137         22%
                              Prinicpal and Interest       254,658          98%         10,701         95%      19,691,830          17%      2,279,894         16%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                      Page 1097
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American             Asian            Hispanic
  NM CHAVES                Approved   No. of Applications             18        18   100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                     32                     0                   0                 0                0
                                      Completion to Approval                     4                     0                   0                 0                0
                                      Approval to Loan Closing                  34                     0                   0                 0                0

                           Rejected   No. of Applications             2         1    50%               0   0%          1       50%           0   0%          0      0%
                                      Receipt to Completion                    20                      0              29                     0               0
                                      Completion to Rejected                    0                      0             150                     0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     18                      0                   0                 0               0
                                     Completion to Withdrawn                    3                      0                   0                 0               0

 NM    CURRY COUNTY        Approved   No. of Applications            20        17    85%               0   0%          1       5%            0   0%          2     10%
                                      Receipt to Completion                    16                      0              30                     0              55
                                      Completion to Approval                   47                      0              52                     0              15
                                      Approval to Loan Closing                 25                      0              16                     0              11

                           Rejected   No. of Applications            11         8    73%               0   0%              0   0%            0   0%          3     27%
                                      Receipt to Completion                    12                      0                   0                 0              53
                                      Completion to Rejected                   42                      0                   0                 0               6

                           Withdrawn No. of Applications              4         2    50%               0   0%              0   0%            0   0%          2     50%
                                     Receipt to Completion                      0                      0                   0                 0               4
                                     Completion to Withdrawn                    0                      0                   0                 0              35

 NM    DONA ANA            Approved   No. of Applications             0         0     0%               0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                 0               0
                                      Completion to Approval                    0                      0                   0                 0               0
                                      Approval to Loan Closing                  0                      0                   0                 0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                 0               0
                                      Completion to Rejected                    0                      0                   0                 0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                 0               0
                                     Completion to Withdrawn                    0                      0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1098
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian             Hispanic
  NM TORRANCE              Approved   No. of Applications                6        1      17%               0   0%          2       33%           0   0%            3    50%
                                      Receipt to Completion                      19                        0              82                     0               55
                                      Completion to Approval                      9                        0               4                     0               29
                                      Approval to Loan Closing                   19                        0              46                     0                 7

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%           0      0%
                                      Receipt to Completion                          0                     0                   0                 0                0
                                      Completion to Rejected                         0                     0                   0                 0                0

                           Withdrawn No. of Applications                 6           3   50%               0   0%              1   17%           1   17%          1     17%
                                     Receipt to Completion                           0                     0                   0                 0                0
                                     Completion to Withdrawn                         0                     0                   0                 0                0

 NM    UNION COUNTY        Approved   No. of Applications            22          20      91%               0   0%              0   0%            0   0%           2      9%
                                      Receipt to Completion                      33                        0                   0                 0               28
                                      Completion to Approval                     15                        0                   0                 0               14
                                      Approval to Loan Closing                   35                        0                   0                 0               28

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%           0      0%
                                      Receipt to Completion                          0                     0                   0                 0                0
                                      Completion to Rejected                         0                     0                   0                 0                0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%            0   0%           0      0%
                                     Receipt to Completion                       24                        0                   0                 0                0
                                     Completion to Withdrawn                     42                        0                   0                 0                0

 NM    STATE               Approved   No. of Applications            66          56      85%               0   0%          3       5%            0   0%           7     11%
                                      Receipt to Completion                      27                        0              65                     0               47
                                      Completion to Approval                     21                        0              20                     0               21
                                      Approval to Loan Closing                   31                        0              36                     0               14

                           Rejected   No. of Applications            13           9      69%               0   0%          1       8%            0   0%           3     23%
                                      Receipt to Completion                      13                        0              29                     0               53
                                      Completion to Rejected                     37                        0             150                     0                6

                           Withdrawn No. of Applications             12              7   58%               0   0%              1   8%            1   8%           3     25%
                                     Receipt to Completion                           6                     0                   0                 0                3
                                     Completion to Withdrawn                         6                     0                   0                 0               23




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1099
                            Demographics         1101
                        FSA’s Loan Portfolio     1109
                        FSA’s Application data   1127




USDA/OIG-A/50801-4-Hq                                   1100
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American            Asian              Other             Hispanic
                                                Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
         NY                   Population       292,594        257,512    88%         24,068      8%        504      0%      4,869      2%        330      0%       5,311      2%
         Albany County        Borrowers              7              7   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Farms                391            391   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Land in Farms     57,889         57,889   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                   Population        50,470         49,453    98%            295      1%         95      0%        298      1%         16      0%         313      1%
         Allegany County      Borrowers             67             66    99%              1      1%          0      0%          0      0%          0      0%           0      0%
                              Farms                682            682   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Land in Farms    161,643        161,643   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                   Population      1,203,789       272,503    23%        369,113    31%       3,445      0%     31,210      3%      4,407      0%     523,111      43%
         Bronx County         Borrowers               0             0     0%              0     0%           0      0%          0      0%          0      0%           0       0%
                              Farms                   0             0     0%              0     0%           0      0%          0      0%          0      0%           0       0%
                              Land in Farms           0             0     0%              0     0%           0      0%          0      0%          0      0%           0       0%

         NY                   Population       212,160        201,385    95%          4,132      2%        338      0%      3,640      2%        187      0%       2,478      1%
         Broome County        Borrowers             39             38    97%              0      0%          1      3%          0      0%          0      0%           0      0%
                              Farms                517            517   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Land in Farms     97,869         97,869   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                   Population        84,234         80,757    96%            742      1%      1,851      2%        321      0%         29      0%         534      1%
         Cattaraugus County   Borrowers             81             81   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Farms                941            938   100%              0      0%          0      0%          0      0%          0      0%           3      0%
                              Land in Farms    203,704        202,880   100%              0      0%          0      0%          0      0%          0      0%         824      0%

         NY                   Population        82,313         77,719    94%          2,774      3%        259      0%        319      0%         40      0%       1,202      1%
         Cayuga County        Borrowers            106            105    99%              1      1%          0      0%          0      0%          0      0%           0      0%
                              Farms                873            869   100%              0      0%          0      0%          0      0%          0      0%           4      0%
                              Land in Farms    254,002        252,355    99%              0      0%          0      0%          0      0%          0      0%       1,647      1%

         NY                   Population       141,895        134,436    95%          2,297      2%        534      0%        506      0%         67      0%       4,055      3%
         Chautauqua County    Borrowers            158            156    99%              0      0%          1      1%          0      0%          0      0%           1      1%
                              Farms              1,679          1,670    99%              3      0%          0      0%          0      0%          0      0%           6      0%
                              Land in Farms    259,540        257,708    99%             42      0%          0      0%          0      0%          0      0%       1,790      1%

         NY                   Population        95,195         87,800    92%          4,913      5%        189      0%        649      1%        203      0%       1,441      2%
         Chemung County       Borrowers             18             18   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Farms                285            285   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                              Land in Farms     58,963         58,963   100%              0      0%          0      0%          0      0%          0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1101
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian              Other             Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
         NY                Population       51,768        50,615    98%            354      1%        143      0%        160      0%         20      0%         476      1%
         Chenango County   Borrowers            67            67   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms               796           796   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   188,008       188,008   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population       85,969        79,647    93%          3,330      4%        189      0%        649      1%         49      0%       2,105      2%
         Clinton County    Borrowers            14            14   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms               488           488   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   158,392       158,392   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population       62,982        59,246    94%          2,290      4%        102      0%        243      0%         80      0%       1,021      2%
         Columbia County   Borrowers            25            25   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms               484           480    99%              0      0%          0      0%          0      0%          0      0%           4      1%
                           Land in Farms   111,974       111,547   100%              0      0%          0      0%          0      0%          0      0%         427      0%

         NY                Population       48,963        47,838    98%            317      1%        131      0%        207      0%         23      0%         447      1%
         Cortland County   Borrowers            88            87    99%              0      0%          0      0%          0      0%          0      0%           1      1%
                           Farms               478           474    99%              0      0%          0      0%          0      0%          0      0%           4      1%
                           Land in Farms   138,620       137,755    99%              0      0%          0      0%          0      0%          0      0%         865      1%

         NY                Population       47,225        45,930    97%            447      1%        111      0%        183      0%         18      0%         536      1%
         Delaware County   Borrowers            25            25   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms               716           716   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   192,116       192,116   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population      259,462       222,791    86%         20,558      8%        337      0%      5,761      2%        250      0%       9,765      4%
         Dutchess County   Borrowers            13            13   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms               554           554   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   109,692       109,692   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population      968,532       822,166    85%        108,240    11%       5,357      1%     10,025      1%        495      0%      22,249      2%
         Erie County       Borrowers            59            58    98%              0     0%           0      0%          0      0%          0      0%           1      2%
                           Farms               995           992   100%              0     0%           0      0%          0      0%          0      0%           3      0%
                           Land in Farms   145,679       145,275   100%              0     0%           0      0%          0      0%          0      0%         404      0%

         NY                Population       37,152        35,227    95%            931      3%         91     0%         142      0%         13      0%         748      2%
         Essex County      Borrowers             4             3    75%              0      0%          1    25%           0      0%          0      0%           0      0%
                           Farms               195           195   100%              0      0%          0     0%           0      0%          0      0%           0      0%
                           Land in Farms    54,986        54,986   100%              0      0%          0     0%           0      0%          0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1102
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian                  Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
         NY                 Population        46,540         41,435    89%          1,508      3%      2,341      5%        121          0%         12          0%       1,123      2%
         Franklin County    Borrowers             63             61    97%              0      0%          2      3%          0          0%          0          0%           0      0%
                            Farms                512            512   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Land in Farms    138,299        138,299   100%              0      0%          0      0%          0          0%          0          0%           0      0%

         NY                 Population        54,191         52,817    97%            614      1%        100      0%        224          0%         25          0%         411      1%
         Fulton County      Borrowers             11             11   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Farms                184            184   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Land in Farms     35,343         35,343   100%              0      0%          0      0%          0          0%          0          0%           0      0%

         NY                 Population        60,060         57,660    96%          1,038      2%        671      1%        209          0%         31          0%         451      1%
         Genesee County     Borrowers             67             67   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Farms                545            545   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Land in Farms    171,722        171,722   100%              0      0%          0      0%          0          0%          0          0%           0      0%

         NY                 Population        44,739         40,902    91%          1,977      4%        112      0%        178          0%         48         0%        1,522      3%
         Greene County      Borrowers              3              2    67%              0      0%          0      0%          0          0%          1        33%            0      0%
                            Farms                222            222   100%              0      0%          0      0%          0          0%          0         0%            0      0%
                            Land in Farms     45,820         45,820   100%              0      0%          0      0%          0          0%          0         0%            0      0%

         NY                 Population          5,279         5,219    99%             12      0%         10      0%              6      0%              1      0%          31      1%
         Hamilton County    Borrowers               0             0     0%              0      0%          0      0%              0      0%              0      0%           0      0%
                            Farms                   1             1   100%              0      0%          0      0%              0      0%              0      0%           0      0%
                            Land in Farms           0             0                     0                  0                      0                      0                   0

         NY                 Population        65,797         64,990    99%            182      0%        106      0%        138          0%         11          0%         370      1%
         Herkimer County    Borrowers             64             62    97%              1      2%          0      0%          0          0%          1          2%           0      0%
                            Farms                636            636   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Land in Farms    163,072        163,072   100%              0      0%          0      0%          0          0%          0          0%           0      0%

         NY                 Population       110,943        100,179    90%          6,200      6%        418      0%        910          1%        100          0%       3,136      3%
         Jefferson County   Borrowers            103            103   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Farms                894            894   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                            Land in Farms    300,559        300,559   100%              0      0%          0      0%          0          0%          0          0%           0      0%

         NY                 Population      2,300,664       923,229    40%        797,802    35%       5,416      0%     106,022         5%      5,784          0%     462,411      20%
         Kings County       Borrowers               0             0     0%              0     0%           0      0%           0         0%          0          0%           0       0%
                            Farms                   3             3   100%              0     0%           0      0%           0         0%          0          0%           0       0%
                            Land in Farms           4             4   100%              0     0%           0      0%           0         0%          0          0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1103
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian               Other                 Hispanic
                                               Total        Number     Percent     Number    Percent   Number   Percent   Number    Percent   Number       Percent   Number    Percent
         NY                  Population        26,796         26,403    99%            110      0%         61      0%         88       0%              6      0%         128      0%
         Lewis County        Borrowers             80             79    99%              0      0%          1      1%          0       0%              0      0%           0      0%
                             Farms                617            617   100%              0      0%          0      0%          0       0%              0      0%           0      0%
                             Land in Farms    169,313        169,313   100%              0      0%          0      0%          0       0%              0      0%           0      0%

         NY                  Population        62,372         59,485    95%          1,380      2%        178      0%        322       1%         32          0%         975      2%
         Livingston County   Borrowers             38             38   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                             Farms                636            636   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                             Land in Farms    205,105        205,105   100%              0      0%          0      0%          0       0%          0          0%           0      0%

         NY                  Population        69,120         67,139    97%            716      1%        253      0%        409       1%         31          0%         572      1%
         Madison County      Borrowers            152            150    99%              0      0%          0      0%          0       0%          2          1%           0      0%
                             Farms                699            699   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                             Land in Farms    195,626        195,626   100%              0      0%          0      0%          0       0%          0          0%           0      0%

         NY                  Population       713,968        589,723    83%         82,876    12%       1,924      0%      12,421      2%        574          0%      26,450      4%
         Monroe County       Borrowers             10             10   100%              0     0%           0      0%           0      0%          0          0%           0      0%
                             Farms                511            511   100%              0     0%           0      0%           0      0%          0          0%           0      0%
                             Land in Farms    110,150        110,150   100%              0     0%           0      0%           0      0%          0          0%           0      0%

         NY                  Population        51,981         48,601    93%            343      1%         90      0%        213       0%         31          0%       2,703      5%
         Montgomery County   Borrowers             48             47    98%              0      0%          1      2%          0       0%          0          0%           0      0%
                             Farms                537            537   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                             Land in Farms    138,822        138,822   100%              0      0%          0      0%          0       0%          0          0%           0      0%

         NY                  Population      1,287,348     1,063,903    83%        105,315      8%      1,262      0%      38,434      3%      1,048          0%      77,386      6%
         Nassau County       Borrowers               0             0     0%              0      0%          0      0%           0      0%          0          0%           0      0%
                             Farms                  62            59    95%              0      0%          0      0%           3      5%          0          0%           0      0%
                             Land in Farms       1,890         1,890   100%              0      0%          0      0%           0      0%          0          0%           0      0%

         NY                  Population      1,487,536       726,755    49%        261,120    18%       2,793      0%     106,306      7%      3,932          0%     386,630      26%
         New York County     Borrowers               0             0     0%              0     0%           0      0%           0      0%          0          0%           0       0%
                             Farms                   0             0     0%              0     0%           0      0%           0      0%          0          0%           0       0%
                             Land in Farms           0             0     0%              0     0%           0      0%           0      0%          0          0%           0       0%

         NY                  Population       220,756        203,818    92%         11,973      5%      1,969      1%        779       0%        119          0%       2,098      1%
         Niagara County      Borrowers             54             53    98%              1      2%          0      0%          0       0%          0          0%           0      0%
                             Farms                749            746   100%              0      0%          0      0%          0       0%          0          0%           3      0%
                             Land in Farms    135,494        134,556    99%              0      0%          0      0%          0       0%          0          0%         938      1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1104
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian              Other             Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
         NY                Population      250,836       229,617    92%         12,638      5%        462      0%      2,089      1%        226      0%       5,804      2%
         Oneida County     Borrowers            98            96    98%              0      0%          0      0%          0      0%          2      2%           0      0%
                           Farms             1,051         1,045    99%              0      0%          3      0%          0      0%          0      0%           3      0%
                           Land in Farms   242,637       242,429   100%              0      0%          0      0%          0      0%          0      0%         208      0%

         NY                Population      468,973       414,524    88%         36,912      8%      3,159      1%      6,702      1%        481      0%       7,195      2%
         Onondaga County   Borrowers            46            44    96%              1      2%          1      2%          0      0%          0      0%           0      0%
                           Farms               636           628    99%              3      0%          0      0%          0      0%          0      0%           5      1%
                           Land in Farms   145,329       144,472    99%            211      0%          0      0%          0      0%          0      0%         646      0%

         NY                Population       95,101        91,496    96%          1,596      2%        216      0%        491      1%         36      0%       1,266      1%
         Ontario County    Borrowers            95            93    98%              1      1%          0      0%          0      0%          1      1%           0      0%
                           Farms               725           725   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   181,624       181,624   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population      307,647       260,968    85%         20,731      7%        702      0%      3,448      1%        263      0%      21,535      7%
         Orange County     Borrowers            42            40    95%              0      0%          0      0%          0      0%          2      5%           0      0%
                           Farms               641           632    99%              0      0%          0      0%          3      0%          0      0%           6      1%
                           Land in Farms   102,733       102,322   100%              0      0%          0      0%         83      0%          0      0%         328      0%

         NY                Population       41,846        37,890    91%          2,574      6%        187      0%        135      0%         31      0%       1,029      2%
         Orleans County    Borrowers            59            58    98%              0      0%          0      0%          0      0%          1      2%           0      0%
                           Farms               469           469   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   133,854       133,854   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population      121,771       119,132    98%            578      0%        417      0%        454      0%         31      0%       1,159      1%
         Oswego County     Borrowers            69            68    99%              0      0%          0      0%          0      0%          1      1%           0      0%
                           Farms               659           659   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms   112,334       112,334   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NY                Population       60,517        58,595    97%            757      1%        113      0%        308      1%         24      0%         720      1%
         Otsego County     Borrowers            57            56    98%              0      0%          0      0%          0      0%          0      0%           1      2%
                           Farms               867           863   100%              0      0%          0      0%          0      0%          0      0%           4      0%
                           Land in Farms   218,306       216,736    99%              0      0%          0      0%          0      0%          0      0%       1,570      1%

         NY                Population       83,941        80,016    95%            806      1%         93      0%        743      1%         37       0%      2,246      3%
         Putnam County     Borrowers             1             0     0%              0      0%          0      0%          0      0%          1     100%          0      0%
                           Farms                42            42   100%              0      0%          0      0%          0      0%          0       0%          0      0%
                           Land in Farms     3,803         3,803   100%              0      0%          0      0%          0      0%          0       0%          0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1105
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American            Asian               Other             Hispanic
                                                 Total        Number     Percent     Number    Percent   Number   Percent   Number    Percent   Number   Percent   Number    Percent
         NY                    Population      1,951,598       937,557    48%        390,842    20%       5,606      0%     229,830    12%       6,643      0%     381,120      20%
         Queens County         Borrowers               0             0     0%              0     0%           0      0%           0     0%           0      0%           0       0%
                               Farms                   2             2   100%              0     0%           0      0%           0     0%           0      0%           0       0%
                               Land in Farms           0             0     0%              0     0%           0      0%           0     0%           0      0%           0       0%

         NY                    Population       154,429        144,946    94%          5,024      3%        269      0%       2,177      1%        149      0%       1,864      1%
         Rensselaer County     Borrowers             31             31   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Farms                444            439    99%              0      0%          0      0%           0      0%          0      0%           5      1%
                               Land in Farms     92,683         91,848    99%              0      0%          0      0%           0      0%          0      0%         835      1%

         NY                    Population       378,977        303,081    80%         28,172      7%        611      0%      16,483      4%        391      0%      30,239      8%
         Richmond County       Borrowers              0              0     0%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Farms                  2              2   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Land in Farms          0              0     0%              0      0%          0      0%           0      0%          0      0%           0      0%

         NY                    Population       265,475        212,066    80%         24,352      9%        551      0%      10,511      4%        284      0%      17,711      7%
         Rockland County       Borrowers              0              0     0%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Farms                 27             27   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Land in Farms        831            831   100%              0      0%          0      0%           0      0%          0      0%           0      0%

         NY                    Population       111,974        107,708    96%          1,364      1%        811      1%        789       1%         27      0%       1,275      1%
         St. Lawrence County   Borrowers            169            166    98%              0      0%          3      2%          0       0%          0      0%           0      0%
                               Farms              1,367          1,358    99%              0      0%          5      0%          0       0%          0      0%           4      0%
                               Land in Farms    396,721        395,326   100%              0      0%          0      0%          0       0%          0      0%       1,395      0%

         NY                    Population       181,276        175,536    97%          2,131      1%        253      0%       1,321      1%         84      0%       1,951      1%
         Saratoga County       Borrowers             14             14   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Farms                443            443   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Land in Farms     70,404         70,404   100%              0      0%          0      0%           0      0%          0      0%           0      0%

         NY                    Population       149,285        138,428    93%          6,133      4%        242      0%       1,783      1%        210      0%       2,489      2%
         Schenectady County    Borrowers              2              2   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Farms                151            151   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                               Land in Farms     19,198         19,198   100%              0      0%          0      0%           0      0%          0      0%           0      0%

         NY                    Population        31,859         30,767    97%            369      1%         68      0%        102       0%         15      0%         538      2%
         Schoharie County      Borrowers             53             53   100%              0      0%          0      0%          0       0%          0      0%           0      0%
                               Farms                516            516   100%              0      0%          0      0%          0       0%          0      0%           0      0%
                               Land in Farms    117,799        117,799   100%              0      0%          0      0%          0       0%          0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 1106
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
         NY                Population        18,662         18,254    98%            148      1%         49      0%         39      0%              7      0%         165      1%
         Schuyler County   Borrowers             33             33   100%              0      0%          0      0%          0      0%              0      0%           0      0%
                           Farms                312            312   100%              0      0%          0      0%          0      0%              0      0%           0      0%
                           Land in Farms     65,323         65,323   100%              0      0%          0      0%          0      0%              0      0%           0      0%

         NY                Population        33,683         32,501    96%            513      2%         84      0%        212      1%         10          0%         363      1%
         Seneca County     Borrowers             49             49   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                386            386   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Land in Farms    115,071        115,071   100%              0      0%          0      0%          0      0%          0          0%           0      0%

         NY                Population        99,088         96,638    98%          1,135      1%        197      0%        540      1%         60          0%         518      1%
         Steuben County    Borrowers             86             86   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms              1,254          1,249   100%              0      0%          0      0%          0      0%          0          0%           5      0%
                           Land in Farms    363,293        363,293   100%              0      0%          0      0%          0      0%          0          0%           0      0%

         NY                Population      1,321,864     1,130,694    86%         77,303      6%      2,592      0%     22,415      2%      1,008          0%      87,852      7%
         Suffolk County    Borrowers              10            10   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                 587           575    98%              3      1%          0      0%          5      1%          0          0%           4      1%
                           Land in Farms      35,353        34,337    97%              0      0%          0      0%        616      2%          0          0%         400      1%

         NY                Population        69,277         58,243    84%          5,572      8%        119      0%        525      1%         71          0%       4,747      7%
         Sullivan County   Borrowers             10             10   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                306            301    98%              0      0%          0      0%          0      0%          0          0%           5      2%
                           Land in Farms     56,002         55,398    99%              0      0%          0      0%          0      0%          0          0%         604      1%

         NY                Population        52,337         51,256    98%            298      1%         91      0%        305      1%         20          0%         367      1%
         Tioga County      Borrowers             36             35    97%              0      0%          0      0%          0      0%          1          3%           0      0%
                           Farms                507            507   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Land in Farms    114,859        114,859   100%              0      0%          0      0%          0      0%          0          0%           0      0%

         NY                Population        94,097         83,475    89%          3,023      3%        248      0%      5,088      5%        146          0%       2,117      2%
         Tompkins County   Borrowers             48             47    98%              0      0%          0      0%          0      0%          1          2%           0      0%
                           Farms                441            441   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Land in Farms     91,822         91,822   100%              0      0%          0      0%          0      0%          0          0%           0      0%

         NY                Population       165,304        148,769    90%          7,198      4%        440      0%      1,902      1%        163          0%       6,832      4%
         Ulster County     Borrowers             23             22    96%              0      0%          0      0%          0      0%          1          4%           0      0%
                           Farms                433            433   100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Land in Farms     69,643         69,643   100%              0      0%          0      0%          0      0%          0          0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1107
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American            Asian               Other                 Hispanic
                                                 Total        Number     Percent     Number    Percent   Number   Percent   Number    Percent   Number       Percent   Number    Percent
         NY                   Population         59,209         58,059    98%            299      1%         99      0%        267       0%              9      0%         476      1%
         Warren County        Borrowers               0              0     0%              0      0%          0      0%          0       0%              0      0%           0      0%
                              Farms                  57             57   100%              0      0%          0      0%          0       0%              0      0%           0      0%
                              Land in Farms       5,811          5,811   100%              0      0%          0      0%          0       0%              0      0%           0      0%

         NY                   Population         59,330         56,097    95%          1,712      3%         93      0%        109       0%              6      0%       1,313      2%
         Washington County    Borrowers             126            125    99%              0      0%          1      1%          0       0%              0      0%           0      0%
                              Farms                 745            741    99%              0      0%          0      0%          0       0%              0      0%           4      1%
                              Land in Farms     205,954        205,212   100%              0      0%          0      0%          0       0%              0      0%         742      0%

         NY                   Population         89,123         84,263    95%          2,735      3%        226      0%        321       0%         60          0%       1,518      2%
         Wayne County         Borrowers             131            129    98%              0      0%          1      1%          0       0%          1          1%           0      0%
                              Farms                 919            919   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                              Land in Farms     174,627        174,627   100%              0      0%          0      0%          0       0%          0          0%           0      0%

         NY                   Population        874,866        640,558    73%        114,265    13%       1,029      0%      31,611      4%      1,209          0%      86,194      10%
         Westchester County   Borrowers               1              1   100%              0     0%           0      0%           0      0%          0          0%           0       0%
                              Farms                  97             97   100%              0     0%           0      0%           0      0%          0          0%           0       0%
                              Land in Farms       5,709          5,709   100%              0     0%           0      0%           0      0%          0          0%           0       0%

         NY                   Population         42,507         39,442    93%          1,840      4%         87      0%        117       0%         17          0%       1,004      2%
         Wyoming County       Borrowers              95             95   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                              Farms                 736            736   100%              0      0%          0      0%          0       0%          0          0%           0      0%
                              Land in Farms     209,889        209,889   100%              0      0%          0      0%          0       0%          0          0%           0      0%

         NY                   Population         22,810         22,330    98%            139      1%         46      0%         64       0%              1      0%         230      1%
         Yates County         Borrowers             109            109   100%              0      0%          0      0%          0       0%              0      0%           0      0%
                              Farms                 602            598    99%              4      1%          0      0%          0       0%              0      0%           0      0%
                              Land in Farms     102,024        102,024   100%              0      0%          0      0%          0       0%              0      0%           0      0%

         NY                   Population      17,990,455    12,460,189    69%      2,569,126    14%      50,540      0%     666,843      4%     29,731          0% 2,214,026        12%
         STATE                Borrowers            2,957         2,918    99%              6     0%          13      0%           0      0%         16          1%         4         0%
                              Farms               32,306        32,202   100%             13     0%           8      0%          11      0%          0          0%        72         0%
                              Land in Farms    7,457,932     7,443,357   100%            253     0%           0      0%         699      0%          0          0%    13,623         0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1108
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          ALBANY, NEW YORK                               ALLEGANY, NEW YORK                                  BROOME, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            7                      3                     67                       16                          39                      15
                              Loans                            15                         8                    195                       43                      106                         32
                              Principal and Interest   1,612,051                  430,847               7,502,891                  424,660               5,017,015                    258,415

WHITE                         Borrowers                            7   100%               3   100%              66        99%            16    100%                  38     97%              15      100%
                              Loans                            15      100%               8   100%             194        99%            43    100%              101        95%              32      100%
                              Principal and Interest   1,612,051       100%       430,847     100%      7,422,304         99%      424,660     100%      4,760,820          95%       258,415        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 1      1%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 1      1%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%       80,587           1%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  1      3%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  5      5%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       256,195           5%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1109
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CATTARAUGUS, NEW YORK                                CAYUGA, NEW YORK                               CHAUTAUQUA, NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                         81                        34                     106                       48                       158                        58
                              Loans                           218                       109                      330                      156                       398                       162
                              Principal and Interest   9,569,263                  1,844,525              19,185,602                 4,000,382              15,661,614                 2,158,459

WHITE                         Borrowers                         81      100%              34   100%              105        99%            47      98%              156       99%              57        98%
                              Loans                           218       100%            109    100%              328        99%           155      99%              393       99%             161        99%
                              Principal and Interest   9,569,263        100%      1,844,525    100%      19,174,850       100% 4,000,381         100%      15,637,987       100%      2,157,261        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  1      1%              1      2%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  2      1%              1      1%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%        10,751           0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                  1      1%                  1      2%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  1      0%                  1      1%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%           9,076         0%          1,198          0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                  1      1%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  4      1%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%         14,551          0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1110
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CHEMUNG, NEW YORK                               CHENANGO, NEW YORK                                  CLINTON, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        18                         7                     67                       31                          14                          7
                              Loans                            44                        22                    197                       85                          39                      27
                              Principal and Interest   1,129,334                    50,910              9,593,063                 1,185,101              2,230,867                    504,776

WHITE                         Borrowers                        18      100%               7   100%              67      100%             31    100%                  14   100%                   7   100%
                              Loans                            44      100%              22   100%             197      100%             85    100%                  39   100%               27      100%
                              Principal and Interest   1,129,334       100%         50,910    100%      9,593,063       100% 1,185,101         100%      2,230,867        100%        504,776        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1111
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        COLUMBIA, NEW YORK                                CORTLAND, NEW YORK                               DELAWARE, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        25                         9                      88                       22                          25                          9
                              Loans                            60                        22                     230                       46                          49                      24
                              Principal and Interest   7,234,302                 1,675,724              10,079,116                  270,903               2,358,285                    417,865

WHITE                         Borrowers                        25      100%               9   100%               87        99%            21      95%                 25   100%                   9   100%
                              Loans                            60      100%              22   100%              226        98%            45      98%                 49   100%               24      100%
                              Principal and Interest   7,234,302       100%      1,675,724    100%       9,667,003         96%      269,761     100%      2,358,285        100%        417,865        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  1      1%              1      5%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  4      2%              1      2%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%       412,114           4%         1,142       0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1112
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        DUTCHESS, NEW YORK                                     ERIE, NEW YORK                                   ESSEX, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        13                         6                      59                       30                          4                          0
                              Loans                            24                        12                     226                      130                          4                          0
                              Principal and Interest   1,605,926                  513,693               14,148,480                 4,784,400                267,600                              0

WHITE                         Borrowers                        13      100%               6   100%               58        98%            29      97%                 3     75%                  0      0%
                              Loans                            24      100%              12   100%              224        99%           128      98%                 3     75%                  0      0%
                              Principal and Interest   1,605,926       100%       513,693     100%      14,117,789       100% 4,774,101         100%         70,789         26%                  0      0%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 1     25%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 1     25%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%       196,811         74%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  1      2%              1      3%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  2      1%              2      2%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%        30,692           0%       10,298        0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1113
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        FRANKLIN, NEW YORK                                 FULTON, NEW YORK                                  GENESEE, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        63                        25                     11                         3                          67                      35
                              Loans                          185                         96                     27                         3                      211                        126
                              Principal and Interest   9,785,347                 1,929,189              1,534,566                   20,718               15,998,597                  2,688,344

WHITE                         Borrowers                        61        97%             24     96%             11      100%               3   100%                   67   100%               35      100%
                              Loans                          182         98%             95     99%             27      100%               3   100%               211      100%              126      100%
                              Principal and Interest   9,641,569         99%     1,910,290      99%     1,534,566       100%        20,718     100%      15,998,597        100%      2,688,344        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            2      3%              1      4%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                3      2%              1      1%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest    143,778           1%        18,899       1%                 0      0%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1114
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          GREENE, NEW YORK                                HERKIMER, NEW YORK                                JEFFERSON, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                      2                      64                       28                       103                        57
                              Loans                                5                      4                     171                       81                       382                       250
                              Principal and Interest    416,484                   104,022               10,082,543                 1,343,906              19,260,754                 5,438,048

WHITE                         Borrowers                            2     67%              1     50%              62        97%            26      93%              103     100%               57      100%
                              Loans                                4     80%              3     75%             165        96%            75      93%              382     100%              250      100%
                              Principal and Interest    373,847          90%      102,122       98%      9,913,083         98% 1,279,412          95%     19,260,754       100%      5,438,048        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  1      2%              1      4%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  4      2%              4      5%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        36,171           0%       12,718        1%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            1     33%              1     50%                  1      2%              1      4%                  0      0%                  0      0%
                              Loans                                1     20%              1     25%                  2      1%              2      2%                  0      0%                  0      0%
                              Principal and Interest     42,637          10%         1,901       2%       133,289           1%       51,775        4%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1115
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             LEWIS, NEW YORK                              LIVINGSTON, NEW YORK                                 MADISON, NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                         80                        38                      38                       17                       152                        67
                              Loans                           246                       156                      141                       97                       465                       205
                              Principal and Interest   14,382,109                 3,336,408              10,522,976                 3,059,523              26,448,216                 3,835,671

WHITE                         Borrowers                         79        99%             37     97%              38      100%             17    100%               150       99%              67      100%
                              Loans                           236         96%           146      94%             141      100%             97    100%               462       99%             205      100%
                              Principal and Interest   13,906,297         97%     3,245,408      97%     10,522,976       100% 3,059,523         100%      25,692,149         97%     3,835,671        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1      1%              1      3%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                             10         4%             10      6%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest     475,812           3%        91,000       3%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  2      1%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  3      1%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%        756,067          3%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1116
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         MONROE, NEW YORK                               MONTGOMERY, NEW YORK                                  NIAGARA, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        10                         5                      48                       17                           54                      15
                              Loans                            43                        28                     127                       50                       197                         61
                              Principal and Interest   2,731,274                  548,243               7,739,040                  1,173,557              14,189,773                  2,437,901

WHITE                         Borrowers                        10      100%               5   100%               47        98%            17    100%                   53     98%              15      100%
                              Loans                            43      100%              28   100%              125        98%            50    100%               195        99%              61      100%
                              Principal and Interest   2,731,274       100%       548,243     100%      7,676,098          99% 1,173,557        100%      14,084,519          99%     2,437,901        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                   1      2%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   2      1%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%        105,254           1%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  1      2%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                  2      2%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        62,941           1%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1117
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ONEIDA, NEW YORK                               ONONDAGA, NEW YORK                                   ONTARIO, NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         98                        54                      46                       15                           95                      44
                              Loans                           300                       130                      166                       76                       297                        178
                              Principal and Interest   17,180,138                 1,770,614              10,238,680                 1,896,568              20,799,815                  5,469,536

WHITE                         Borrowers                         96        98%             53     98%              44        96%            14      93%                  93     98%              43        98%
                              Loans                           292         97%           128      98%             163        98%            75      99%              291        98%             173        97%
                              Principal and Interest   17,065,239         99%     1,768,743    100%       9,959,434         97% 1,749,150          92%     20,411,130          98%     5,405,808          99%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  1      2%              1      7%                   1      1%                  1      2%
                              Loans                                 0      0%              0      0%                  2      1%              1      1%                   5      2%                  5      3%
                              Principal and Interest                0      0%              0      0%       237,134           2%      147,418        8%        281,280           1%         63,728          1%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  1      2%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  1      1%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%        42,112           0%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             2      2%              1      2%                  0      0%              0      0%                   1      1%                  0      0%
                              Loans                                 8      3%              2      2%                  0      0%              0      0%                   1      0%                  0      0%
                              Principal and Interest     114,898           1%         1,871       0%                  0      0%              0      0%        107,405           1%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1118
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ORANGE, NEW YORK                                 ORLEANS, NEW YORK                                   OSWEGO, NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         42                        32                      59                       26                           69                      22
                              Loans                           139                       115                      187                      100                       250                         94
                              Principal and Interest   16,481,361                 7,762,350              13,076,556                 3,346,792              15,746,835                  2,356,300

WHITE                         Borrowers                         40        95%             31     97%              58        98%            26    100%                   68     99%              22      100%
                              Loans                           137         99%           114      99%             184        98%           100    100%               249      100%               94      100%
                              Principal and Interest   16,314,589         99%     7,665,008      99%     13,073,323       100% 3,346,792         100%      15,596,369          99%     2,356,300        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             2      5%              1      3%                  1      2%              0      0%                   1      1%                  0      0%
                              Loans                                 2      1%              1      1%                  3      2%              0      0%                   1      0%                  0      0%
                              Principal and Interest     166,771           1%        97,342       1%          3,233          0%              0      0%        150,466           1%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1119
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          OTSEGO, NEW YORK                                PUTNAM, NEW YORK                               RENSSELAER, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        57                        26                         1                      0                         31                      11
                              Loans                          142                         76                         1                      0                         54                      22
                              Principal and Interest   9,073,020                 1,918,162                26,584                           0             4,385,768                    640,358

WHITE                         Borrowers                        56        98%             25     96%                 0      0%              0      0%                 31   100%               11      100%
                              Loans                          140         99%             74     97%                 0      0%              0      0%                 54   100%               22      100%
                              Principal and Interest   8,742,180         96%     1,820,389      95%                 0      0%              0      0%     4,385,768        100%        640,358        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 1   100%               0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 1   100%               0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%       26,584        100%               0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            1      2%              1      4%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                2      1%              2      3%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    330,840           4%        97,774       5%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1120
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SARATOGA, NEW YORK                              SCHENECTADY, NEW YORK                              SCHOHARIE, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        14                         8                          2                      1                         53                      21
                              Loans                            31                        20                          2                      1                     127                         52
                              Principal and Interest   4,155,091                 1,353,481                423,742                      9,502              7,120,818                    799,532

WHITE                         Borrowers                        14      100%               8   100%                   2   100%               1   100%                  53   100%               21      100%
                              Loans                            31      100%              20   100%                   2   100%               1   100%              127      100%               52      100%
                              Principal and Interest   4,155,091       100%      1,353,481    100%        423,742        100%          9,502    100%      7,120,818        100%        799,532        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1121
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SCHUYLER, NEW YORK                                 SENECA, NEW YORK                              ST LAWRENCE, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        33                        15                     49                       16                       169                        67
                              Loans                            91                        45                    106                       48                       692                       250
                              Principal and Interest   3,818,909                  530,493               6,865,488                  417,289               33,951,084                 4,402,301

WHITE                         Borrowers                        33      100%              15   100%              49      100%             16    100%               166       98%              65        97%
                              Loans                            91      100%              45   100%             106      100%             48    100%               685       99%             244        98%
                              Principal and Interest   3,818,909       100%       530,493     100%      6,865,488       100%       417,289     100%      33,466,070         99%     4,232,994          96%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  3      2%                  2      3%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  7      1%                  6      2%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%        485,014          1%       169,307           4%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1122
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          STEUBEN, NEW YORK                                SUFFOLK, NEW YORK                                SULLIVAN, NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         86                        40                     10                         5                         10                          3
                              Loans                           298                       181                      15                       10                          21                          4
                              Principal and Interest   16,830,163                 5,445,340               753,226                   126,253               2,705,206                    479,135

WHITE                         Borrowers                         86      100%              40   100%              10      100%               5   100%                  10   100%                   3   100%
                              Loans                           298       100%            181    100%              15      100%             10    100%                  21   100%                   4   100%
                              Principal and Interest   16,830,163       100%      5,445,340    100%       753,226        100%       126,253     100%      2,705,206        100%        479,135        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1123
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            TIOGA, NEW YORK                              TOMPKINS, NEW YORK                                   ULSTER, NEW YORK
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        36                        17                     48                       17                          23                      12
                              Loans                            72                        29                    162                       65                      106                         74
                              Principal and Interest   3,928,849                  369,811               7,663,879                 1,222,818              7,352,273                  2,503,595

WHITE                         Borrowers                        35        97%             17   100%              47        98%            17    100%                  22     96%              11        92%
                              Loans                            71        99%             29   100%             161        99%            65    100%              105        99%              73        99%
                              Principal and Interest   3,517,454         90%      369,811     100%      7,300,395         95% 1,222,818        100%      7,212,153          98%     2,494,874        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            1      3%              0      0%                 1      2%              0      0%                  1      4%                  1      8%
                              Loans                                1      1%              0      0%                 1      1%              0      0%                  1      1%                  1      1%
                              Principal and Interest    411,395          10%              0      0%      363,484           5%              0      0%       140,120           2%          8,721          0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1124
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WASHINGTON, NEW YORK                                  WAYNE, NEW YORK                               WESTCHESTER, NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       126                         78                     131                       56                          1                          1
                              Loans                           393                       265                      503                      237                          4                          4
                              Principal and Interest   30,356,338                 6,056,180              29,423,899                 4,670,523                376,459                   160,599

WHITE                         Borrowers                       125         99%             77     99%             129        98%            56    100%                  1   100%                   1   100%
                              Loans                           390         99%           263      99%             500        99%           237    100%                  4   100%                   4   100%
                              Principal and Interest   30,043,359         99%     5,967,208      99%     29,142,675         99% 4,670,523        100%        376,459       100%        160,599        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1      1%              1      1%                  1      1%              0      0%                 0      0%                  0      0%
                              Loans                                 3      1%              2      1%                  2      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest     312,979           1%        88,972       1%       170,164           1%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                  1      1%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  1      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%       111,060           0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1125
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WYOMING, NEW YORK                                    YATES, NEW YORK                                   STATE OF NEW YORK
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent     Portfolio        Percent    Delinquent       Percent
TOTAL                         Borrowers                         95                        33                     109                       19                     2,957                       1,243
                              Loans                           287                       122                      323                       75                     9,104                       4,308
                              Principal and Interest   18,144,740                 4,221,233              21,398,387                 1,406,406              542,564,396                  103,771,361

WHITE                         Borrowers                         95      100%              33   100%              109      100%             19    100%             2,918         99%           1,225         99%
                              Loans                           287       100%            122    100%              323      100%             75    100%             9,015         99%           4,265         99%
                              Principal and Interest   18,144,740       100%      4,221,233    100%      21,398,387       100% 1,406,406         100%      536,342,729          99% 102,907,296             99%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                    6      0%                   4      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   16      0%               11         0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%         751,177           0%        223,864           0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                   13      0%                   6      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   35      0%               20         0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%       2,154,882           0%        369,376           0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                    0      0%                   0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                    0      0%                   0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                    0      0%                   0      0%

OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                   16      1%                   5      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   26      0%                   7      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%       2,527,409           0%        161,610           0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                    4      0%                   3      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   12      0%                   5      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%         788,197           0%        109,214           0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1126
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American             Asian            Hispanic
  NY CAYUGA                Approved   No. of Applications             31        29   94%               0   0%          2       6%            0   0%           0     0%
                                      Receipt to Completion                     42                     0              33                     0                0
                                      Completion to Approval                    72                     0             121                     0                0
                                      Approval to Loan Closing                  40                     0              10                     0                0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    34                      0                   0                 0               0
                                      Completion to Rejected                  110                      0                   0                 0               0

                           Withdrawn No. of Applications             10         9    90%               0   0%              1   10%           0   0%          0      0%
                                     Receipt to Completion                     18                      0                   0                 0               0
                                     Completion to Withdrawn                   82                      0                   0                 0               0

 NY    CHATAUQUA           Approved   No. of Applications            27        22    81%               0   0%              0   0%            0   0%          5     19%
                                      Receipt to Completion                    55                      0                   0                 0             111
                                      Completion to Approval                   29                      0                   0                 0               4
                                      Approval to Loan Closing                 28                      0                   0                 0              10

                           Rejected   No. of Applications             9         9    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    11                      0                   0                 0               0
                                      Completion to Rejected                   18                      0                   0                 0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     36                      0                   0                 0               0
                                     Completion to Withdrawn                   88                      0                   0                 0               0

 NY    CORTLAND            Approved   No. of Applications            73        72    99%               0   0%              0   0%         1      1%          0      0%
                                      Receipt to Completion                    32                      0                   0              0                  0
                                      Completion to Approval                   22                      0                   0             78                  0
                                      Approval to Loan Closing                 46                      0                   0             42                  0

                           Rejected   No. of Applications             8         8    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    36                      0                   0                 0               0
                                      Completion to Rejected                   34                      0                   0                 0               0

                           Withdrawn No. of Applications             24        24    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     30                      0                   0                 0               0
                                     Completion to Withdrawn                    7                      0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1127
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  NY FRANKLIN              Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      36                        0                   0                0                0
                                      Completion to Approval                     11                        0                   0                0                0
                                      Approval to Loan Closing                   22                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 NY    GENESEE             Approved   No. of Applications            29          29      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      23                        0                   0                0               0
                                      Completion to Approval                      5                        0                   0                0               0
                                      Approval to Loan Closing                   49                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 NY    JEFFERSON           Approved   No. of Applications                8        8      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      54                        0                   0                0               0
                                      Completion to Approval                     25                        0                   0                0               0
                                      Approval to Loan Closing                   29                        0                   0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      67                        0                   0                0               0
                                      Completion to Rejected                     90                        0                   0                0               0

                           Withdrawn No. of Applications             10          10      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       19                        0                   0                0               0
                                     Completion to Withdrawn                     37                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1128
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NY MADISON               Approved   No. of Applications             55        55   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     42                     0                   0                0                0
                                      Completion to Approval                    97                     0                   0                0                0
                                      Approval to Loan Closing                  32                     0                   0                0                0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications             22        22    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     33                      0                   0                0               0
                                     Completion to Withdrawn                   74                      0                   0                0               0

 NY    ONTARIO             Approved   No. of Applications           126       124    98%               0   0%          2       2%           0   0%          0      0%
                                      Receipt to Completion                    14                      0              21                    0               0
                                      Completion to Approval                   23                      0               0                    0               0
                                      Approval to Loan Closing                 30                      0              97                    0               0

                           Rejected   No. of Applications             7         7    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    26                      0                   0                0               0
                                      Completion to Rejected                   17                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                   13                      0                   0                0               0

 NY    ORANGE              Approved   No. of Applications            63        63    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    50                      0                   0                0               0
                                      Completion to Approval                   51                      0                   0                0               0
                                      Approval to Loan Closing                 35                      0                   0                0               0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    56                      0                   0                0               0
                                      Completion to Rejected                   76                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     23                      0                   0                0               0
                                     Completion to Withdrawn                   23                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1129
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  NY SCHOHARIE             Approved   No. of Applications           122      120    98%               0   0%          2       2%           0   0%           0     0%
                                      Receipt to Completion                    54                     0              45                    0                0
                                      Completion to Approval                   42                     0              70                    0                0
                                      Approval to Loan Closing                 29                     0              21                    0                0

                           Rejected   No. of Applications            32       32    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   74                      0                   0                0               0
                                      Completion to Rejected                  16                      0                   0                0               0

                           Withdrawn No. of Applications             35       35    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    17                      0                   0                0               0
                                     Completion to Withdrawn                  22                      0                   0                0               0

 NY    ST LAWRENCE         Approved   No. of Applications            9         9    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   67                      0                   0                0               0
                                      Completion to Approval                  18                      0                   0                0               0
                                      Approval to Loan Closing                43                      0                   0                0               0

                           Rejected   No. of Applications            1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    0                      0                   0                0               0
                                      Completion to Rejected                   0                      0                   0                0               0

                           Withdrawn No. of Applications             6         6    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Withdrawn                   0                      0                   0                0               0

 NY    WYOMING             Approved   No. of Applications            19       19    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    4                      0                   0                0               0
                                      Completion to Approval                  30                      0                   0                0               0
                                      Approval to Loan Closing                41                      0                   0                0               0

                           Rejected   No. of Applications            1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   43                      0                   0                0               0
                                      Completion to Rejected                  36                      0                   0                0               0

                           Withdrawn No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Withdrawn                   0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1130
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  NY STATE                 Approved   No. of Applications           564      552    98%               0   0%          6       1%        1      0%           5     1%
                                      Receipt to Completion                    37                     0              33                 0                111
                                      Completion to Approval                   40                     0              64                78                   4
                                      Approval to Loan Closing                 35                     0              43                42                 10

                           Rejected   No. of Applications            71       71    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   50                      0                   0                0               0
                                      Completion to Rejected                  30                      0                   0                0               0

                           Withdrawn No. of Applications            126      125    99%               0   0%              1   1%           0   0%          0      0%
                                     Receipt to Completion                    22                      0                   0                0               0
                                     Completion to Withdrawn                  35                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1131
                            Demographics         1133
                        FSA’s Loan Portfolio     1146
                        FSA’s Application data   1179




USDA/OIG-A/50801-4-Hq                                   1132
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        NC                 Population      108,213       85,913      79%        20,763     19%        296          0%        482          0%         23          0%        736       1%
        Alamance County    Borrowers            28           16      57%            12     43%          0          0%          0          0%          0          0%          0       0%
                           Farms               725          692      95%            30      4%          0          0%          0          0%          0          0%          3       0%
                           Land in Farms   101,073       97,157      96%         3,393      3%          0          0%          0          0%          0          0%        523       1%

        NC                 Population       27,544       25,597     93%          1,662      6%         52          0%         48          0%              1      0%        184       1%
        Alexander County   Borrowers             6            6    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               507          507    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    52,974       52,974    100%              0      0%          0          0%          0          0%              0      0%          0       0%

        NC                 Population        9,590        9,316     97%            176      2%              8      0%              5      0%              0      0%         85       1%
        Alleghany County   Borrowers            22           22    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms               490          490    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    72,621       72,621    100%              0      0%              0      0%              0      0%              0      0%          0       0%

        NC                 Population       23,474       12,232     52%         11,078     47%         69          0%         27          0%              1      0%         67       0%
        Anson County       Borrowers            21           19     90%              2     10%          0          0%          0          0%              0      0%          0       0%
                           Farms               344          324     94%             20      6%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    70,697       70,697    100%              0      0%          0          0%          0          0%              0      0%          0       0%

        NC                 Population       22,209       21,910     99%            144      1%         21          0%         31          0%              1      0%        102       0%
        Ashe County        Borrowers            55           55    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms             1,033        1,025     99%              8      1%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   104,426      104,195    100%            231      0%          0          0%          0          0%              0      0%          0       0%

        NC                 Population       14,867       14,554     98%            156      1%         18          0%         20          0%              1      0%        118       1%
        Avery County       Borrowers            23           23    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               274          274    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    19,712       19,712    100%              0      0%          0          0%          0          0%              0      0%          0       0%

        NC                 Population       42,283       28,845      68%        13,155     31%         28          0%         48          0%         10          0%        197       0%
        Beaufort County    Borrowers             9            7      78%             2     22%          0          0%          0          0%          0          0%          0       0%
                           Farms               447          425      95%            22      5%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms   144,529      141,738      98%         2,791      2%          0          0%          0          0%          0          0%          0       0%

        NC                 Population       20,388        7,782      38%        12,512     61%         44          0%         14          0%              4      0%         32       0%
        Bertie County      Borrowers            64           33      52%            31     48%          0          0%          0          0%              0      0%          0       0%
                           Farms               456          385      84%            71     16%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   170,006      158,203      93%        11,803      7%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1133
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        NC                 Population       28,663       16,860      59%        11,167     39%        461      2%         21          0%              4      0%        150       1%
        Bladen County      Borrowers            83           57      69%            20     24%          5      6%          1          1%              0      0%          0       0%
                           Farms               607          513      85%            79     13%         15      2%          0          0%              0      0%          0       0%
                           Land in Farms   127,760      121,273      95%         5,874      5%        613      0%          0          0%              0      0%          0       0%

        NC                 Population       50,985       41,120     81%          9,172     18%        234      0%         75          0%              8      0%        376       1%
        Brunswick County   Borrowers            29           23     79%              6     21%          0      0%          0          0%              0      0%          0       0%
                           Farms               225          182     81%             43     19%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    39,667       39,667    100%              0      0%          0      0%          0          0%              0      0%          0       0%

        NC                 Population      174,821      158,117     90%         14,279      8%        479      0%        745          0%         28          0%      1,173       1%
        Buncombe County    Borrowers            10           10    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms             1,097        1,097    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    93,584       93,584    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        NC                 Population       75,744       69,306     92%          5,159      7%        131      0%        790          1%         14          0%        344       0%
        Burke County       Borrowers            15           15    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               348          345     99%              3      1%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    31,671       31,671    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        NC                 Population       98,935       84,964     86%         12,805     13%        303      0%        370          0%         10          0%        483       0%
        Cabarrus County    Borrowers             5            5    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               430          427     99%              3      1%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    63,067       63,067    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        NC                 Population       70,709       66,322     94%          3,864      5%         98      0%        105          0%              5      0%        315       0%
        Caldwell County    Borrowers             6            6    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               329          329    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    31,184       31,184    100%              0      0%          0      0%          0          0%              0      0%          0       0%

        NC                 Population        5,904        4,375     74%          1,481     25%         16      0%              8      0%              0      0%         24       0%
        Camden County      Borrowers             8            6     75%              2     25%          0      0%              0      0%              0      0%          0       0%
                           Farms                89           84     94%              5      6%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    43,056       42,935    100%            121      0%          0      0%              0      0%              0      0%          0       0%

        NC                 Population       52,556       47,188     90%          4,369      8%        264      1%        273          1%         12          0%        450       1%
        Carteret County    Borrowers             5            5    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               113          109     96%              4      4%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    64,031       63,356     99%            675      1%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1134
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        NC                 Population       20,693       12,099     58%          8,409     41%         24      0%         19          0%              6      0%        136       1%
        Caswell County     Borrowers            61           40     66%             21     34%          0      0%          0          0%              0      0%          0       0%
                           Farms               601          520     87%             81     13%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   125,428      125,428    100%              0      0%          0      0%          0          0%              0      0%          0       0%

        NC                 Population      118,412      105,795     89%         10,649      9%        224      0%        808          1%         15          0%        921       1%
        Catawba County     Borrowers            11           11    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               507          500     99%              7      1%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    62,854       62,854    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        NC                 Population       38,759       29,194      75%         8,794     23%        123      0%         68          0%         16          0%        564       1%
        Chatham County     Borrowers            21           20      95%             1      5%          0      0%          0          0%          0          0%          0       0%
                           Farms               926          903      98%            15      2%          0      0%          0          0%          0          0%          8       1%
                           Land in Farms   108,363      106,537      98%         1,278      1%          0      0%          0          0%          0          0%        548       1%

        NC                 Population       20,170       19,233     95%            358      2%        404      2%         39          0%              5      0%        131       1%
        Cherokee County    Borrowers             5            5    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               220          217     99%              0      0%          3      1%          0          0%              0      0%          0       0%
                           Land in Farms    23,929       23,929    100%              0      0%          0      0%          0          0%              0      0%          0       0%

        NC                 Population       13,506        8,314      62%         5,041     37%         23      0%         29          0%              4      0%         95       1%
        Chowan County      Borrowers            30           28      93%             2      7%          0      0%          0          0%              0      0%          0       0%
                           Farms               179          166      93%            13      7%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    53,902       53,173      99%           729      1%          0      0%          0          0%              0      0%          0       0%

        NC                 Population        7,155        7,028     98%             41      1%         39      1%              7      0%              0      0%         40       1%
        Clay County        Borrowers             4            4    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               161          161    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    16,405       16,405    100%              0      0%          0      0%              0      0%              0      0%          0       0%

        NC                 Population       84,714       66,152     78%         17,701     21%        113      0%        354          0%         18          0%        376       0%
        Cleveland County   Borrowers            12           11     92%              1      8%          0      0%          0          0%          0          0%          0       0%
                           Farms               714          705     99%              9      1%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    93,970       93,970    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        NC                 Population       49,587       32,816      66%        15,122     30%      1,350      3%         51          0%              6      0%        242       0%
        Columbus County    Borrowers            96           81      84%            12     13%          3      3%          0          0%              0      0%          0       0%
                           Farms             1,109          980      88%            95      9%         30      3%          0          0%              0      0%          4       0%
                           Land in Farms   162,634      154,164      95%         7,756      5%          0      0%          0          0%              0      0%        714       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1135
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        NC                  Population       81,613       57,796      71%        20,940     26%        299      0%        710      1%         47          0%      1,821       2%
        Craven County       Borrowers            13            9      69%             4     31%          0      0%          0      0%          0          0%          0       0%
                            Farms               327          300      92%            27      8%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    88,386       86,042      97%         2,344      3%          0      0%          0      0%          0          0%          0       0%

        NC                  Population      274,566      165,057      60%        86,216     31%      4,208      2%      5,488      2%        299          0%     13,298       5%
        Cumberland County   Borrowers            22           15      68%             7     32%          0      0%          0      0%          0          0%          0       0%
                            Farms               437          401      92%            28      6%          8      2%          0      0%          0          0%          0       0%
                            Land in Farms    98,531       97,055      99%         1,142      1%        334      0%          0      0%          0          0%          0       0%

        NC                  Population       13,736       11,965     87%          1,542     11%         65      0%         51      0%              3      0%        110       1%
        Currituck County    Borrowers             1            1    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                90           90    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    41,750       41,750    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                  Population       22,746       21,626     95%            807      4%         37      0%         76      0%              1      0%        199       1%
        Dare County         Borrowers             0            0      0%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                 7            7    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     7,046        7,046    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                  Population      126,677      112,937     89%         12,275     10%        383      0%        457      0%         23          0%        602       0%
        Davidson County     Borrowers             4            4    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               864          861    100%              3      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    92,192       92,192    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        NC                  Population       27,859       25,115     90%          2,473      9%         85      0%         52      0%              5      0%        129       0%
        Davie County        Borrowers             9            9    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               548          541     99%              7      1%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    68,718       68,489    100%            229      0%          0      0%          0      0%              0      0%          0       0%

        NC                  Population       39,995       25,635      64%        13,200     33%         97      0%         44      0%              4      0%      1,015       3%
        Duplin County       Borrowers            85           70      82%            14     16%          0      0%          0      0%              1      1%          0       0%
                            Farms             1,359        1,232      91%           127      9%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   248,518      240,836      97%         7,682      3%          0      0%          0      0%              0      0%          0       0%

        NC                  Population      181,835      108,722     60%         67,385     37%        406      0%      3,189      2%         79          0%      2,054       1%
        Durham County       Borrowers             4            3     75%              1     25%          0      0%          0      0%          0          0%          0       0%
                            Farms               160          155     97%              5      3%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    19,676       19,676    100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1136
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        NC                 Population       56,558       24,581      43%        31,565        56%         72          0%         64          0%         21          0%        255       0%
        Edgecombe County   Borrowers            58           54      93%             4         7%          0          0%          0          0%          0          0%          0       0%
                           Farms               376          354      94%            22         6%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms   180,400      178,456      99%         1,944         1%          0          0%          0          0%          0          0%          0       0%

        NC                 Population      265,878      195,660     74%         65,858        25%        535          0%      1,639          1%         84          0%      2,102       1%
        Forsyth County     Borrowers             1            1    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               647          640     99%              4         1%          0          0%          0          0%          0          0%          3       0%
                           Land in Farms    47,837       47,489     99%            115         0%          0          0%          0          0%          0          0%        233       0%

        NC                 Population       36,414       23,197      64%        12,791        35%         74          0%         54          0%              8      0%        290       1%
        Franklin County    Borrowers            38           33      87%             5        13%          0          0%          0          0%              0      0%          0       0%
                           Farms               549          482      88%            67        12%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   118,291      112,113      95%         6,178         5%          0          0%          0          0%              0      0%          0       0%

        NC                 Population      175,093      150,295     86%         22,602        13%        380          0%        896          1%         56          0%        864       0%
        Gaston County      Borrowers             1            1    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               293          290     99%              3         1%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    34,717       34,460     99%            257         1%          0          0%          0          0%          0          0%          0       0%

        NC                 Population        9,305        5,087      55%         4,176        45%              8      0%         13          0%              0      0%         21       0%
        Gates County       Borrowers            16           14      88%             2        13%              0      0%          0          0%              0      0%          0       0%
                           Farms               199          187      94%            12         6%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    64,532       63,436      98%         1,096         2%              0      0%          0          0%              0      0%          0       0%

        NC                 Population        7,196        6,707     93%                 1      0%        453          6%              6      0%              0      0%         29       0%
        Graham County      Borrowers             3            3    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               147          147    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms     8,882        8,882    100%                 0      0%          0          0%              0      0%              0      0%          0       0%

        NC                 Population       38,345       22,913      60%        14,872        39%         93          0%         99          0%         12          0%        356       1%
        Granville County   Borrowers            24           23      96%             1         4%          0          0%          0          0%          0          0%          0       0%
                           Farms               724          654      90%            70        10%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms   156,027      150,530      96%         5,497         4%          0          0%          0          0%          0          0%          0       0%

        NC                 Population       15,384        8,690      56%         6,505        42%         16          0%              3      0%              1      0%        169       1%
        Greene County      Borrowers            64           60      94%             4         6%          0          0%              0      0%              0      0%          0       0%
                           Farms               407          396      97%            11         3%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   112,291      110,958      99%         1,333         1%          0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1137
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        NC                 Population      347,420      247,891     71%         91,282     26%      1,606          0%      3,635          1%        119          0%      2,887       1%
        Guilford County    Borrowers            18           18    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               970          955     98%              9      1%          0          0%          0          0%          0          0%          6       1%
                           Land in Farms   113,654      113,339    100%              0      0%          0          0%          0          0%          0          0%        315       0%

        NC                 Population       55,516       25,915      47%        27,488     50%      1,707          3%        143          0%         26          0%        237       0%
        Halifax County     Borrowers            51           25      49%            25     49%          1          2%          0          0%          0          0%          0       0%
                           Farms               346          278      80%            56     16%         12          3%          0          0%          0          0%          0       0%
                           Land in Farms   204,443      192,299      94%        11,534      6%        610          0%          0          0%          0          0%          0       0%

        NC                 Population       67,822       50,553     75%         15,221     22%        591          1%        280          0%         18          0%      1,159       2%
        Harnett County     Borrowers            36           32     89%              3      8%          0          0%          0          0%          1          3%          0       0%
                           Farms               754          734     97%             20      3%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms   127,663      127,663    100%              0      0%          0          0%          0          0%          0          0%          0       0%

        NC                 Population       46,942       45,815     98%            647      1%        176          0%         62          0%              2      0%        240       1%
        Haywood County     Borrowers             6            6    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               812          812    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    69,961       69,961    100%              0      0%          0          0%          0          0%              0      0%          0       0%

        NC                 Population       69,285       65,606     95%          2,348      3%        192          0%        278          0%         15          0%        846       1%
        Henderson County   Borrowers            57           57    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               511          511    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    52,281       52,281    100%              0      0%          0          0%          0          0%          0          0%          0       0%

        NC                 Population       22,523        9,172      41%        12,952     58%        219          1%         94          0%              5      0%         81       0%
        Hertford County    Borrowers            24           15      63%             9     38%          0          0%          0          0%              0      0%          0       0%
                           Farms               195          168      86%            23     12%          0          0%          0          0%              0      0%          4       2%
                           Land in Farms    75,496       71,692      95%         3,692      5%          0          0%          0          0%              0      0%        112       0%

        NC                 Population       22,856        9,556      42%         9,840     43%      3,150         14%         85          0%              7      0%        218       1%
        Hoke County        Borrowers            10            6      60%             1     10%          3         30%          0          0%              0      0%          0       0%
                           Farms               173          152      88%             8      5%         13          8%          0          0%              0      0%          0       0%
                           Land in Farms    56,693       56,053      99%           317      1%        323          1%          0          0%              0      0%          0       0%

        NC                 Population        5,411        3,582     66%          1,778     33%              4      0%              3      0%              1      0%         43       1%
        Hyde County        Borrowers            20           19     95%              1      5%              0      0%              0      0%              0      0%          0       0%
                           Farms               136          136    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    93,728       93,728    100%              0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1138
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian              Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
        NC                Population       92,931       76,897      83%        14,821     16%        185          0%        342      0%         14          0%        672       1%
        Iredell County    Borrowers            24           22      92%             1      4%          0          0%          0      0%          1          4%          0       0%
                          Farms             1,143        1,130      99%             9      1%          0          0%          0      0%          0          0%          4       0%
                          Land in Farms   148,135      147,209      99%           633      0%          0          0%          0      0%          0          0%        293       0%

        NC                Population       26,846       23,507     88%            425      2%      2,650         10%        106      0%              3      0%        155       1%
        Jackson County    Borrowers             5            5    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                          Farms               187          187    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                          Land in Farms    13,310       13,310    100%              0      0%          0          0%          0      0%              0      0%          0       0%

        NC                Population       81,306       65,370     80%         14,331     18%        174          0%        151      0%         18          0%      1,262       2%
        Johnston County   Borrowers            27           27    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                          Farms             1,406        1,394     99%             12      1%          0          0%          0      0%          0          0%          0       0%
                          Land in Farms   230,402      230,402    100%              0      0%          0          0%          0      0%          0          0%          0       0%

        NC                Population        9,414        5,665      60%         3,670     39%              8      0%         18      0%              0      0%         53       1%
        Jones County      Borrowers            20           15      75%             4     20%              0      0%          0      0%              1      5%          0       0%
                          Farms               195          177      91%            18      9%              0      0%          0      0%              0      0%          0       0%
                          Land in Farms    68,577       65,642      96%         2,935      4%              0      0%          0      0%              0      0%          0       0%

        NC                Population       41,374       30,928     75%          9,310     23%        163          0%        169      0%              4      0%        800       2%
        Lee County        Borrowers            14           14    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                          Farms               301          294     98%              7      2%          0          0%          0      0%              0      0%          0       0%
                          Land in Farms    37,434       37,434    100%              0      0%          0          0%          0      0%              0      0%          0       0%

        NC                Population       57,274       34,136     60%         22,456     39%         69          0%        142      0%              8      0%        463       1%
        Lenoir County     Borrowers            38           31     82%              7     18%          0          0%          0      0%              0      0%          0       0%
                          Farms               531          513     97%             18      3%          0          0%          0      0%              0      0%          0       0%
                          Land in Farms   141,761      141,761    100%              0      0%          0          0%          0      0%              0      0%          0       0%

        NC                Population       50,319       45,359     90%          4,096      8%        118          0%        164      0%         12          0%        570       1%
        Lincoln County    Borrowers             8            7     88%              0      0%          0          0%          1     13%          0          0%          0       0%
                          Farms               425          422     99%              0      0%          0          0%          0      0%          0          0%          3       1%
                          Land in Farms    58,384       58,195    100%              0      0%          0          0%          0      0%          0          0%        189       0%

        NC                Population       35,681       33,820     95%          1,474      4%         72          0%        196      1%              5      0%        114       0%
        McDowell County   Borrowers             7            7    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                          Farms               194          194    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                          Land in Farms    21,218       21,218    100%              0      0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1139
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        NC                   Population       23,499       22,818     97%            384      2%         73      0%         58      0%              1      0%        165       1%
        Macon County         Borrowers            18           18    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               290          290    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    22,089       22,089    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       16,953       16,684     98%            135      1%         17      0%         29      0%              2      0%         86       1%
        Madison County       Borrowers            71           71    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,178        1,178    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    93,320       93,320    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       25,078       13,772      55%        11,149     44%         20      0%         38      0%              0      0%         99       0%
        Martin County        Borrowers            58           46      79%            12     21%          0      0%          0      0%              0      0%          0       0%
                             Farms               487          445      91%            42      9%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   131,767      126,524      96%         5,243      4%          0      0%          0      0%              0      0%          0       0%

        NC                   Population      511,433      360,554     70%        133,866     26%      1,869      0%      8,235      2%        216          0%      6,693       1%
        Mecklenburg County   Borrowers             2            2    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               280          280    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    27,901       27,901    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        NC                   Population       14,433       14,324     99%             23      0%         19      0%         17      0%              0      0%         50       0%
        Mitchell County      Borrowers            16           16    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               322          322    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    23,007       23,007    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       23,346       16,564     71%          5,986     26%         90      0%        142      1%              8      0%        556       2%
        Montgomery County    Borrowers             8            8    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               236          236    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    36,975       36,975    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       59,013       47,260      80%        10,832     18%        303      1%        145      0%              3      0%        470       1%
        Moore County         Borrowers            20           18      90%             2     10%          0      0%          0      0%              0      0%          0       0%
                             Farms               701          690      98%            11      2%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    86,982       86,381      99%           601      1%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       76,677       51,563      67%        24,067     31%        209      0%        221      0%         11          0%        606       1%
        Nash County          Borrowers            74           65      88%             8     11%          0      0%          0      0%          1          1%          0       0%
                             Farms               560          526      94%            34      6%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   179,051      176,263      98%         2,788      2%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1140
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        NC                   Population      120,284       94,288     78%         23,983     20%        426      0%        612      1%         51          0%        924       1%
        New Hanover County   Borrowers             0            0      0%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms                68           65     96%              3      4%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms     3,486        3,486    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        NC                   Population       20,798        8,371     40%         12,257     59%         40      0%         11      0%              3      0%        116       1%
        Northampton County   Borrowers            59           48     81%             11     19%          0      0%          0      0%              0      0%          0       0%
                             Farms               381          331     87%             50     13%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   155,213      155,213    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                   Population      149,838      108,890      73%        29,137     19%        867      1%      2,740      2%        169          0%      8,035       5%
        Onslow County        Borrowers            28           27      96%             1      4%          0      0%          0      0%          0          0%          0       0%
                             Farms               425          411      97%            11      3%          0      0%          0      0%          0          0%          3       1%
                             Land in Farms    63,992       62,892      98%         1,100      2%          0      0%          0      0%          0          0%          0       0%

        NC                   Population       93,851       75,055     80%         14,847     16%        273      0%      2,352      3%         45          0%      1,279       1%
        Orange County        Borrowers            18           14     78%              4     22%          0      0%          0      0%          0          0%          0       0%
                             Farms               433          416     96%             17      4%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    67,491       67,491    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        NC                   Population       11,372        8,317     73%          2,940     26%         33      0%         20      0%              1      0%         61       1%
        Pamlico County       Borrowers             3            2     67%              0      0%          0      0%          0      0%              1     33%          0       0%
                             Farms                82           82    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    44,000       44,000    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       31,298       19,259      62%        11,557     37%         55      0%        176      1%              5      0%        246       1%
        Pasquotank County    Borrowers            12            9      75%             3     25%          0      0%          0      0%              0      0%          0       0%
                             Farms               199          185      93%            14      7%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    83,218       82,282      99%           936      1%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       28,855       19,723      68%         8,739     30%         74      0%         42      0%              4      0%        273       1%
        Pender County        Borrowers            32           26      81%             4     13%          0      0%          1      3%              1      3%          0       0%
                             Farms               331          296      89%            35     11%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    65,136       62,505      96%         2,631      4%          0      0%          0      0%              0      0%          0       0%

        NC                   Population       10,447        6,959      67%         3,421     33%         18      0%         20      0%              1      0%         28       0%
        Perquimans County    Borrowers            47           41      87%             6     13%          0      0%          0      0%              0      0%          0       0%
                             Farms               226          211      93%            15      7%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    68,736       66,577      97%         2,159      3%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1141
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        NC                  Population       30,180       20,655      68%         9,080     30%        179      1%         14      0%              3      0%        249       1%
        Person County       Borrowers            37           21      57%            16     43%          0      0%          0      0%              0      0%          0       0%
                            Farms               476          419      88%            54     11%          3      1%          0      0%              0      0%          0       0%
                            Land in Farms   115,854      110,196      95%         5,320      5%        338      0%          0      0%              0      0%          0       0%

        NC                  Population      107,924       70,217      65%        35,813     33%        201      0%        692      1%         24          0%        977       1%
        Pitt County         Borrowers            62           55      89%             7     11%          0      0%          0      0%          0          0%          0       0%
                            Farms               583          560      96%            23      4%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   194,015      192,064      99%         1,951      1%          0      0%          0      0%          0          0%          0       0%

        NC                  Population       14,416       13,201     92%          1,053      7%         17      0%         25      0%              5      0%        115       1%
        Polk County         Borrowers             1            1    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               161          161    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    23,140       23,140    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                  Population      106,546       98,659     93%          6,350      6%        436      0%        346      0%         21          0%        734       1%
        Randolph County     Borrowers            16           16    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,293        1,285     99%              8      1%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   144,858      144,556    100%            302      0%          0      0%          0      0%          0          0%          0       0%

        NC                  Population       44,518       30,729     69%         12,798     29%        502      1%        192      0%              4      0%        293       1%
        Richmond County     Borrowers            32           32    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               222          219     99%              3      1%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    51,916       51,916    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                  Population      105,179       37,850      36%        26,125     25%     40,235     38%        231      0%         34          0%        704      1%
        Robeson County      Borrowers            77           25      32%            11     14%         29     38%          4      5%          0          0%          8     10%
                            Farms             1,193          709      59%            42      4%        437     37%          0      0%          0          0%          5      0%
                            Land in Farms   292,152      224,659      77%         2,559      1%     63,487     22%          0      0%          0          0%      1,447      0%

        NC                  Population       86,064       67,603     79%         17,492     20%        143      0%        183      0%         23          0%        620       1%
        Rockingham County   Borrowers            43           33     77%              7     16%          3      7%          0      0%          0          0%          0       0%
                            Farms               902          863     96%             39      4%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   130,879      130,879    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        NC                  Population      110,605       91,521     83%         17,719     16%        257      0%        441      0%         16          0%        651       1%
        Rowan County        Borrowers            12           12    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               751          738     98%             10      1%          3      0%          0      0%          0          0%          0       0%
                            Land in Farms   104,874      104,120     99%            754      1%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1142
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        NC                    Population       56,918       49,896     88%          6,488     11%         95      0%         91      0%              6      0%        342       1%
        Rutherford County     Borrowers             5            5    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               464          459     99%              5      1%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    55,309       55,309    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                    Population       47,297       30,016      63%        15,630     33%        847      2%         70      0%              7      0%        727       2%
        Sampson County        Borrowers           132          106      80%            21     16%          3      2%          1      1%              1      1%          0       0%
                              Farms             1,342        1,202      90%           115      9%         17      1%          0      0%              0      0%          8       1%
                              Land in Farms   266,067      258,091      97%         5,574      2%          0      0%          0      0%              0      0%      2,402       1%

        NC                    Population       33,754       18,867      56%        12,071     36%      2,413      7%         81      0%              4      0%        318       1%
        Scotland County       Borrowers             8            6      75%             0      0%          1     13%          0      0%              1     13%          0       0%
                              Farms               125          107      86%             7      6%         11      9%          0      0%              0      0%          0       0%
                              Land in Farms    53,690       50,214      94%           415      1%      3,061      6%          0      0%              0      0%          0       0%

        NC                    Population       51,765       45,102     87%          5,954     12%        153      0%        243      0%              4      0%        309       1%
        Stanly County         Borrowers            20           19     95%              1      5%          0      0%          0      0%              0      0%          0       0%
                              Farms               550          550    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    89,063       89,063    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        NC                    Population       37,223       34,787      93%         2,063      6%         45      0%         73      0%              1      0%        254       1%
        Stokes County         Borrowers            40           39      98%             1      3%          0      0%          0      0%              0      0%          0       0%
                              Farms             1,075        1,062      99%            10      1%          0      0%          0      0%              0      0%          3       0%
                              Land in Farms   104,733      104,203      99%             0      0%          0      0%          0      0%              0      0%        530       1%

        NC                    Population       61,704       58,160      94%         2,765      4%         64      0%         84      0%         29          0%        602       1%
        Surry County          Borrowers            21           18      86%             3     14%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,269        1,251      99%            11      1%          0      0%          0      0%          0          0%          7       1%
                              Land in Farms   121,404      120,586      99%             0      0%          0      0%          0      0%          0          0%        818       1%

        NC                    Population       11,268        7,930      70%           191      2%      3,046     27%         22      0%              1      0%         78       1%
        Swain County          Borrowers             5            3      60%             0      0%          2     40%          0      0%              0      0%          0       0%
                              Farms                80           73      91%             0      0%          7      9%          0      0%              0      0%          0       0%
                              Land in Farms     5,897        5,412      92%             0      0%        485      8%          0      0%              0      0%          0       0%

        NC                    Population       25,520       24,004     94%          1,185      5%         78      0%         98      0%              1      0%        154       1%
        Transylvania County   Borrowers            15           14     93%              1      7%          0      0%          0      0%              0      0%          0       0%
                              Farms               175          175    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    12,388       12,388    100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1143
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        NC                  Population        3,856        2,294     59%          1,542     40%              4      0%              5      0%              0      0%         11       0%
        Tyrrell County      Borrowers            23           18     78%              5     22%              0      0%              0      0%              0      0%          0       0%
                            Farms                96           96    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    67,698       67,698    100%              0      0%              0      0%              0      0%              0      0%          0       0%

        NC                  Population       84,211       69,624     83%         13,358     16%        290          0%        252          0%         12          0%        675       1%
        Union County        Borrowers            34           31     91%              3      9%          0          0%          0          0%          0          0%          0       0%
                            Farms             1,037        1,025     99%             12      1%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   167,379      167,379    100%              0      0%          0          0%          0          0%          0          0%          0       0%

        NC                  Population       38,892       21,019      54%        17,475     45%         67          0%         58          0%              2      0%        271       1%
        Vance County        Borrowers            26           18      69%             8     31%          0          0%          0          0%              0      0%          0       0%
                            Farms               289          260      90%            29     10%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    67,716       65,335      96%         2,381      4%          0          0%          0          0%              0      0%          0       0%

        NC                  Population      423,380      321,008      76%        87,565     21%      1,113          0%      8,076          2%        222          0%      5,396       1%
        Wake County         Borrowers            47           38      81%             9     19%          0          0%          0          0%          0          0%          0       0%
                            Farms               833          804      97%            29      3%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   119,855      117,513      98%         2,342      2%          0          0%          0          0%          0          0%          0       0%

        NC                  Population       17,265        6,571      38%         9,818     57%        763          4%         14          0%              1      0%         98       1%
        Warren County       Borrowers            47           30      64%            17     36%          0          0%          0          0%              0      0%          0       0%
                            Farms               325          263      81%            56     17%          6          2%          0          0%              0      0%          0       0%
                            Land in Farms    87,478       82,341      94%         4,657      5%        480          1%          0          0%              0      0%          0       0%

        NC                  Population       13,997        7,531     54%          6,351     45%              8      0%         34          0%              8      0%         65       0%
        Washington County   Borrowers            41           39     95%              2      5%              0      0%          0          0%              0      0%          0       0%
                            Farms               228          216     95%             12      5%              0      0%          0          0%              0      0%          0       0%
                            Land in Farms   102,944      102,598    100%            346      0%              0      0%          0          0%              0      0%          0       0%

        NC                  Population       36,952       35,725     97%            766      2%         56          0%        152          0%              4      0%        249       1%
        Watauga County      Borrowers            20           20    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               673          673    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    46,726       46,726    100%              0      0%          0          0%          0          0%              0      0%          0       0%

        NC                  Population      104,666       68,529      65%        33,683     32%        241          0%        815          1%         42          0%      1,356       1%
        Wayne County        Borrowers            38           32      84%             6     16%          0          0%          0          0%          0          0%          0       0%
                            Farms               902          867      96%            35      4%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   179,554      177,850      99%         1,704      1%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1144
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian              Other                 Hispanic
                                            Total        Number     Percent     Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        NC                Population        59,393        56,044     94%          2,818       5%         62      0%         97      0%         10          0%        362       1%
        Wilkes County     Borrowers             12            12    100%              0       0%          0      0%          0      0%          0          0%          0       0%
                          Farms              1,139         1,129     99%             10       1%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms    115,106       115,106    100%              0       0%          0      0%          0      0%          0          0%          0       0%

        NC                Population        66,061        40,461      61%        24,817      38%         63      0%        163      0%         20          0%        537       1%
        Wilson County     Borrowers             34            29      85%             5      15%          0      0%          0      0%          0          0%          0       0%
                          Farms                489           463      95%            26       5%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms    142,312       139,983      98%         2,329       2%          0      0%          0      0%          0          0%          0       0%

        NC                Population        30,488        28,755     94%          1,294       4%         22      0%         26      0%              3      0%        388       1%
        Yadkin County     Borrowers             34            34    100%              0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms                968           956     99%              4       0%          0      0%          0      0%              0      0%          8       1%
                          Land in Farms    103,773       102,401     99%              0       0%          0      0%          0      0%              0      0%      1,372       1%

        NC                Population        15,419        15,181     98%            151       1%         27      0%         11      0%              0      0%         49       0%
        Yancey County     Borrowers             25            25    100%              0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms                671           671    100%              0       0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms     38,394        38,394    100%              0       0%          0      0%          0      0%              0      0%          0       0%

        NC                Population      6,628,637     4,971,127     75%      1,449,142     22%     78,930      1%     50,593      1%      2,119          0%     76,726       1%
        STATE             Borrowers           2,710         2,256     83%            379     14%         50      2%          8      0%          9          0%          8       0%
                          Farms              51,854        49,374     95%          1,846      4%        565      1%          0      0%          0          0%         69       0%
                          Land in Farms   8,936,015     8,729,117     98%        127,671      1%     69,731      1%          0      0%          0          0%      9,496       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1145
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ALAMANCE, NORTH CAROLINA                                ALEXANDER, NORTH CAROLINA                               ALLEGHANY, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              28                          9                            6                          4                           22                      12
                              Loans                                  59                          9                           26                     14                               73                      38
                              Principal and Interest     1,772,182                       20,682                  1,738,471                    448,422                     3,028,800                   425,574

WHITE                         Borrowers                              16     57%                  4     44%                    6   100%                   4   100%                    22   100%               12      100%
                              Loans                                  26     44%                  4     44%                   26   100%              14       100%                    73   100%               38      100%
                              Principal and Interest     1,184,887          67%          18,609        90%       1,738,471        100%        448,422        100%         3,028,800       100%        425,574        100%

AFRICAN AMERICAN              Borrowers                              12     43%                  5     56%                    0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                  33     56%                  5     56%                    0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest        587,295         33%            2,073       10%                    0      0%                  0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1146
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ANSON, NORTH CAROLINA                                   ASHE, NORTH CAROLINA                                  AVERY, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             21                           9                         55                     10                             23                      10
                              Loans                                 48                          19                     124                        13                             47                      28
                              Principal and Interest    2,843,915                      168,457                 3,079,639                     61,982                   2,346,325                   655,427

WHITE                         Borrowers                             19     90%                   7     78%                 55   100%              10       100%                  23   100%               10      100%
                              Loans                                 42     88%                  17     89%             124      100%              13       100%                  47   100%               28      100%
                              Principal and Interest    2,733,117          96%         168,116       100%      3,079,639        100%         61,982        100%       2,346,325       100%        655,427        100%

AFRICAN AMERICAN              Borrowers                              2     10%                   2     22%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  6     13%                   2     11%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       110,798          4%              341         0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1147
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BEAUFORT, NORTH CAROLINA                                BERTIE, NORTH CAROLINA                                BLADEN, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                               9                          3                         64                     37                              83                      38
                              Loans                                  11                          4                     190                        99                             267                      97
                              Principal and Interest        389,526                        9,570               9,470,181                  2,276,091                   6,658,702                  1,151,654

WHITE                         Borrowers                               7     78%                  3   100%                  33     52%             16         43%                  57     69%              24        63%
                              Loans                                   9     82%                  4   100%                  95     50%             46         46%                 160     60%              45        46%
                              Principal and Interest        319,568         82%            9,570     100%      5,893,409          62%     1,504,858          66%      5,150,437          77%       638,277          55%

AFRICAN AMERICAN              Borrowers                               2     22%                  0      0%                 31     48%             21         57%                  20     24%              11        29%
                              Loans                                   2     18%                  0      0%                 95     50%             53         54%                  89     33%              47        48%
                              Principal and Interest         69,959         18%                  0      0%     3,576,772          38%       771,233          34%      1,144,242          17%       367,259          32%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   5      6%                  2      5%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                  17      6%                  4      4%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%        204,450           3%         70,059          6%

ASIAN                         Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   1      1%                  1      3%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   1      0%                  1      1%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%        159,572           2%         76,059          7%

OTHER                         Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1148
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BRUNSWICK, NORTH CAROLINA                                BUNCOMBE, NORTH CAROLINA                                BURKE, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              29                          15                           10                          2                         15                          5
                              Loans                                  56                          34                           16                          5                         38                      20
                              Principal and Interest     1,984,493                      503,833                     636,548                     10,518                   1,312,901                   123,165

WHITE                         Borrowers                              23     79%                   9     60%                   10   100%                   2   100%                  15   100%                   5   100%
                              Loans                                  38     68%                  18     53%                   16   100%                   5   100%                  38   100%               20      100%
                              Principal and Interest     1,289,322          65%         137,113         27%         636,548        100%         10,518        100%       1,312,901       100%        123,165        100%

AFRICAN AMERICAN              Borrowers                               6     21%                   6     40%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  18     32%                  16     47%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest        695,170         35%         366,720         73%                    0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1149
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CABARRUS, NORTH CAROLINA                                 CALDWELL, NORTH CAROLINA                                CAMDEN, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               5                           3                            6                          2                          8                          4
                              Loans                                  16                          14                           13                          3                         28                          7
                              Principal and Interest        408,832                      29,380                     423,540                         747                    981,696                     44,370

WHITE                         Borrowers                               5   100%                    3   100%                     6   100%                   2   100%                   6     75%                  2     50%
                              Loans                                  16   100%                   14   100%                    13   100%                   3   100%                  24     86%                  3     43%
                              Principal and Interest        408,832       100%           29,380       100%          423,540        100%             747       100%         886,177         90%         21,340         48%

AFRICAN AMERICAN              Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  2     25%                  2     50%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  4     14%                  4     57%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%          95,520        10%         23,030         52%

NATIVE AMERICAN               Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1150
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CARTERET, NORTH CAROLINA                                CASWELL, NORTH CAROLINA                                CATAWBA, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               5                          1                          61                     18                              11                          2
                              Loans                                   9                          1                      153                        39                              22                          7
                              Principal and Interest        424,270                          145                4,603,509                    317,157                      933,844                   212,560

WHITE                         Borrowers                               5   100%                   1   100%                   40     66%                  8     44%                  11   100%                   2   100%
                              Loans                                   9   100%                   1   100%                   99     65%             27         69%                  22   100%                   7   100%
                              Principal and Interest        424,270       100%               145     100%       3,684,360          80%       232,856          73%         933,844       100%        212,560        100%

AFRICAN AMERICAN              Borrowers                               0      0%                  0      0%                  21     34%             10         56%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  54     35%             12         31%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%        919,149          20%        84,301          27%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1151
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CHATHAM, NORTH CAROLINA                                  CHOWAN, NORTH CAROLINA                                 CLAY, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              21                           6                          30                          6                          4                          3
                              Loans                                  37                          13                          52                     21                             11                          9
                              Principal and Interest     2,278,112                      302,980                  3,445,026                    181,076                     962,341                   373,129

WHITE                         Borrowers                              20     95%                   6   100%                   28     93%                  6   100%                   4   100%                   3   100%
                              Loans                                  35     95%                  13   100%                   49     94%             21       100%                  11   100%                   9   100%
                              Principal and Interest     2,072,488          91%         302,980       100%       3,189,342          93%       181,076        100%         962,341       100%        373,129        100%

AFRICAN AMERICAN              Borrowers                               1      5%                   0      0%                   2      7%                  0      0%                  0      0%                  0      0%
                              Loans                                   2      5%                   0      0%                   3      6%                  0      0%                  0      0%                  0      0%
                              Principal and Interest        205,624          9%                   0      0%        255,684           7%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1152
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CLEVELAND, NORTH CAROLINA                               COLUMBUS, NORTH CAROLINA                                CRAVEN, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              12                          0                           96                     44                             13                          4
                              Loans                                  28                          0                       198                        93                             19                          6
                              Principal and Interest     1,126,914                               0               9,136,046                    936,285                     673,328                   138,629

WHITE                         Borrowers                              11     92%                  0      0%                   81     84%             36         82%                  9     69%                  3     75%
                              Loans                                  26     93%                  0      0%               171        86%             82         88%                 13     68%                  5     83%
                              Principal and Interest        928,821         82%                  0      0%       8,697,406          95%       906,199          97%        567,338         84%       136,011          98%

AFRICAN AMERICAN              Borrowers                               1      8%                  0      0%                   12     13%                  7     16%                  4     31%                  1     25%
                              Loans                                   2      7%                  0      0%                   24     12%             10         11%                  6     32%                  1     17%
                              Principal and Interest        198,093         18%                  0      0%         402,826           4%        29,202           3%        105,990         16%          2,617          2%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                    3      3%                  1      2%                  0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    3      2%                  1      1%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%           35,814          0%            884          0%                  0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1153
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CUMBERLAND, NORTH CAROLINA                                CURRITUCK, NORTH CAROLINA                              DAVIDSON, NORTH CAROLINA
                                                         Portfolio         Percent   Delinquent        Percent     Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                               22                          10                           1                          1                          4                          0
                              Loans                                   47                          22                           1                          1                          5                          0
                              Principal and Interest      1,859,581                      162,638                       28,385                     1,846                     227,837                             0

WHITE                         Borrowers                               15     68%                   6     60%                   1   100%                   1   100%                   4   100%                   0      0%
                              Loans                                   27     57%                   8     36%                   1   100%                   1   100%                   5   100%                   0      0%
                              Principal and Interest      1,565,481          84%         122,143         75%           28,385      100%           1,846       100%          227,837      100%                   0      0%

AFRICAN AMERICAN              Borrowers                                7     32%                   4     40%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   20     43%                  14     64%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest         294,101         16%          40,495         25%                   0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                                0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                                0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1154
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        DAVIE, NORTH CAROLINA                                 DUPLIN, NORTH CAROLINA                                DURHAM, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                              9                          2                         85                     29                              4                          3
                              Loans                                 16                          3                     175                        72                              7                          5
                              Principal and Interest       915,871                      30,617                6,817,032                    889,527                        97,701                    9,994

WHITE                         Borrowers                              9   100%                   2   100%                  70     82%             20         69%                  3     75%                  2     67%
                              Loans                                 16   100%                   3   100%              132        75%             46         64%                  5     71%                  3     60%
                              Principal and Interest       915,871       100%           30,617      100%      5,468,941          80%       789,794          89%           87,838       90%          6,598         66%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                 14     16%                  9     31%                  1     25%                  1     33%
                              Loans                                  0      0%                  0      0%                 42     24%             26         36%                  2     29%                  2     40%
                              Principal and Interest                 0      0%                  0      0%     1,111,824          16%        99,734          11%            9,863       10%          3,396         34%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%       236,266           3%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1155
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       EDGECOMBE, NORTH CAROLINA                                 FORSYTH, NORTH CAROLINA                               FRANKLIN, NORTH CAROLINA
                                                         Portfolio         Percent   Delinquent        Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               58                          30                          1                          0                          38                      11
                              Loans                                  185                          97                          4                          0                          58                      18
                              Principal and Interest     12,355,569                   2,727,903                       67,057                             0               3,115,653                   376,378

WHITE                         Borrowers                               54     93%                  29     97%                  1   100%                   0      0%                  33     87%                  9     82%
                              Loans                                  171     92%                  95     98%                  4   100%                   0      0%                  52     90%              15        83%
                              Principal and Interest     11,437,778          93%      2,006,185          74%          67,057      100%                   0      0%       3,054,748         98%       365,134          97%

AFRICAN AMERICAN              Borrowers                                4      7%                   1      3%                  0      0%                  0      0%                   5     13%                  2     18%
                              Loans                                   14      8%                   2      2%                  0      0%                  0      0%                   6     10%                  3     17%
                              Principal and Interest         917,791          7%         721,718         26%                  0      0%                  0      0%           60,905         2%         11,244          3%

NATIVE AMERICAN               Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1156
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GASTON, NORTH CAROLINA                                 GATES, NORTH CAROLINA                                 GRAHAM, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                              1                          1                         16                          8                          3                          3
                              Loans                                  5                          5                         41                     24                              6                          4
                              Principal and Interest       706,470                     228,564                1,162,785                    172,665                      171,288                    84,580

WHITE                         Borrowers                              1   100%                   1   100%                  14     88%                  7     88%                  3   100%                   3   100%
                              Loans                                  5   100%                   5   100%                  38     93%             22         92%                  6   100%                   4   100%
                              Principal and Interest       706,470       100%          228,564      100%      1,086,998          93%       171,723          99%         171,288      100%          84,580       100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  2     13%                  1     13%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  3      7%                  2      8%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%         75,787          7%            942          1%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1157
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GRANVILLE, NORTH CAROLINA                                GREENE, NORTH CAROLINA                                 GUILFORD, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              24                          11                          64                     18                              18                          8
                              Loans                                  44                          26                      110                        30                              61                      35
                              Principal and Interest     4,456,522                   1,230,181                   5,701,381                    401,991                    2,295,786                   456,319

WHITE                         Borrowers                              23     96%                  10     91%                  60     94%             16         89%                  18   100%                   8   100%
                              Loans                                  38     86%                  20     77%                  99     90%             25         83%                  61   100%               35      100%
                              Principal and Interest     3,277,388          74%         513,805         42%      5,558,601          97%       396,579          99%       2,295,786       100%        456,319        100%

AFRICAN AMERICAN              Borrowers                               1      4%                   1      9%                   4      6%                  2     11%                   0      0%                  0      0%
                              Loans                                   6     14%                   6     23%                  11     10%                  5     17%                   0      0%                  0      0%
                              Principal and Interest     1,179,134          26%         716,376         58%        142,780           3%          5,411          1%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1158
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HALIFAX, NORTH CAROLINA                                 HARNETT, NORTH CAROLINA                                HAYWOOD, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             51                          24                          36                     15                              6                          0
                              Loans                                165                          76                          76                     34                              7                          0
                              Principal and Interest    8,883,867                   1,653,655                   5,423,761                    602,204                      464,116                             0

WHITE                         Borrowers                             25     49%                  10     42%                  32     89%             14         93%                  6   100%                   0      0%
                              Loans                                 65     39%                  25     33%                  71     93%             33         97%                  7   100%                   0      0%
                              Principal and Interest    4,345,380          49%         672,211         41%      5,083,936          94%       599,878        100%          464,116      100%                   0      0%

AFRICAN AMERICAN              Borrowers                             25     49%                  14     58%                   3      8%                  0      0%                  0      0%                  0      0%
                              Loans                                 95     58%                  51     67%                   4      5%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    4,052,724          46%         981,445         59%        304,247           6%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              1      2%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  5      3%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       485,763          5%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                   1      3%                  1      7%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   1      1%                  1      3%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%          35,578          1%          2,326          0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1159
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HENDERSON, NORTH CAROLINA                                HERTFORD, NORTH CAROLINA                                HOKE, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              57                          30                           24                     10                             10                          6
                              Loans                                 189                      113                              57                     20                             23                      15
                              Principal and Interest    12,517,148                   3,268,457                    2,074,148                    465,280                     870,440                     86,750

WHITE                         Borrowers                              57   100%                   30   100%                    15     63%                  7     70%                  6     60%                  5     83%
                              Loans                                 189   100%               113      100%                    38     67%             16         80%                 16     70%              12        80%
                              Principal and Interest    12,517,148        100%       3,268,457        100%        1,720,688          83%       458,184          98%        408,348         47%         74,086         85%

AFRICAN AMERICAN              Borrowers                               0      0%                   0      0%                    9     38%                  3     30%                  1     10%                  1     17%
                              Loans                                   0      0%                   0      0%                   19     33%                  4     20%                  3     13%                  3     20%
                              Principal and Interest                  0      0%                   0      0%         353,459          17%          7,096          2%        235,920         27%         12,664         15%

NATIVE AMERICAN               Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  3     30%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  4     17%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%        226,172         26%                  0      0%

ASIAN                         Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                   0      0%                    0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1160
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HYDE, NORTH CAROLINA                                  IREDELL, NORTH CAROLINA                                JACKSON, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             20                          12                          24                          2                           5                          3
                              Loans                                 59                          40                          49                          2                          10                          6
                              Principal and Interest    2,908,566                      691,308                  1,953,182                     26,896                      557,154                   112,736

WHITE                         Borrowers                             19     95%                  10     83%                  22     92%                  2   100%                    5   100%                   3   100%
                              Loans                                 56     95%                  36     90%                  47     96%                  2   100%                   10   100%                   6   100%
                              Principal and Interest    2,889,956          99%         681,643         99%      1,941,849          99%        26,896        100%          557,154       100%        112,736        100%

AFRICAN AMERICAN              Borrowers                              1      5%                   2     17%                   1      4%                  0      0%                   0      0%                  0      0%
                              Loans                                  3      5%                   4     10%                   1      2%                  0      0%                   0      0%                  0      0%
                              Principal and Interest        18,610          1%            9,665         1%          10,264          1%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                   1      4%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   1      2%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%            1,070         0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1161
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       JOHNSTON, NORTH CAROLINA                                 JONES, NORTH CAROLINA                                   LEE, NORTH CAROLINA
                                                        Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              27                          12                         20                          4                         14                          4
                              Loans                                  51                          24                         36                     12                             40                      18
                              Principal and Interest     3,061,268                      351,831                 1,288,252                    200,788                   3,211,772                   986,995

WHITE                         Borrowers                              27   100%                   12   100%                  15     75%                  2     50%                 14   100%                   4   100%
                              Loans                                  51   100%                   24   100%                  25     69%                  7     58%                 40   100%               18      100%
                              Principal and Interest     3,061,268        100%          351,831       100%      1,015,662          79%       176,859          88%      3,211,772       100%        986,995        100%

AFRICAN AMERICAN              Borrowers                               0      0%                   0      0%                  4     20%                  2     50%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                 10     28%                  5     42%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%       150,129          12%        23,929          12%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               0      0%                   0      0%                  1      5%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                  1      3%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                  0      0%                   0      0%       122,461          10%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1162
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LENOIR, NORTH CAROLINA                                  LINCOLN, NORTH CAROLINA                                MACON, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             38                           8                           8                          1                         18                          4
                              Loans                                 64                          15                          17                          1                         25                          5
                              Principal and Interest    1,822,453                       68,698                  1,273,410                       2,144                  1,262,001                      9,677

WHITE                         Borrowers                             31     82%                   4     50%                   7     88%                  1   100%                  18   100%                   4   100%
                              Loans                                 51     80%                   6     40%                  15     88%                  1   100%                  25   100%                   5   100%
                              Principal and Interest    1,569,010          86%          34,083         50%        982,997          77%          2,144       100%       1,262,001       100%           9,677       100%

AFRICAN AMERICAN              Borrowers                              7     18%                   4     50%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 13     20%                   9     60%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       253,444         14%          34,615         50%                   0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                   1     13%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   2     12%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%        290,413          23%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1163
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MADISON, NORTH CAROLINA                                 MARTIN, NORTH CAROLINA                                MCDOWELL, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             71                          19                         58                     17                                7                          2
                              Loans                                139                          34                     121                        44                               11                          2
                              Principal and Interest    3,533,455                      228,165                  8,007,964                 1,745,681                       261,908                      3,014

WHITE                         Borrowers                             71   100%                   19   100%                  46     79%             12         71%                    7   100%                   2   100%
                              Loans                                139   100%                   34   100%                  96     79%             30         68%                   11   100%                   2   100%
                              Principal and Interest    3,533,455        100%          228,165       100%       7,590,296         95%     1,626,537          93%          261,908       100%           3,014       100%

AFRICAN AMERICAN              Borrowers                              0      0%                   0      0%                 12     21%                  5     29%                    0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                 25     21%             14         32%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%       417,668           5%       119,143           7%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1164
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MECKLENBURG, NORTH CAROLINA                               MITCHELL, NORTH CAROLINA MONTGOMERY, NORTH CAROLINA
                                                          Portfolio         Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                                 2                          0                          16                          5                          8                          4
                              Loans                                     4                          0                          29                          9                         29                      25
                              Principal and Interest          197,179                              0                822,768                       9,545                  3,121,203                 1,206,616

WHITE                         Borrowers                                 2   100%                   0      0%                  16   100%                   5   100%                   8   100%                   4   100%
                              Loans                                     4   100%                   0      0%                  29   100%                   9   100%                  29   100%               25      100%
                              Principal and Interest          197,179       100%                   0      0%        822,768        100%           9,545       100%       3,121,203       100%      1,206,616        100%

AFRICAN AMERICAN              Borrowers                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                    0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1165
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MOORE, NORTH CAROLINA                                  MURPHY, NORTH CAROLINA                                NASH, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                             20                          4                          5                          1                          74                      22
                              Loans                                 39                          7                          6                          1                         164                      55
                              Principal and Interest    1,461,792                         8,525                    49,913                             6             13,405,040                  1,229,652

WHITE                         Borrowers                             18     90%                  4   100%                   5   100%                   1   100%                   65     88%              21        95%
                              Loans                                 37     95%                  7   100%                   6   100%                   1   100%                  153     93%              54        98%
                              Principal and Interest    1,446,160          99%            8,525     100%           49,913      100%                   6   100%      12,919,586          96%     1,225,362        100%

AFRICAN AMERICAN              Borrowers                              2     10%                  0      0%                  0      0%                  0      0%                   8     11%                  1      5%
                              Loans                                  2      5%                  0      0%                  0      0%                  0      0%                  10      6%                  1      2%
                              Principal and Interest        15,632          1%                  0      0%                  0      0%                  0      0%        475,692           4%          4,290          0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   1      1%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   1      1%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%           9,761          0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1166
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       NORTHAMPTON, NORTH CAROLINA                                ONSLOW, NORTH CAROLINA                                 ORANGE, NORTH CAROLINA
                                                          Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                                59                          32                          28                          8                         18                          8
                              Loans                                   181                      108                             53                     14                             47                      25
                              Principal and Interest      11,635,706                   4,443,959                   1,229,274                     55,486                   2,950,004                   842,396

WHITE                         Borrowers                                48     81%                  23     72%                  27     96%                  8   100%                  14     78%                  5     63%
                              Loans                                   147     81%                  82     76%                  52     98%             14       100%                  34     72%              17        68%
                              Principal and Interest       9,163,089          79%      3,137,118          71%      1,224,720        100%         55,486        100%       2,010,421         68%       286,292          34%

AFRICAN AMERICAN              Borrowers                                11     19%                   9     28%                   1      4%                  0      0%                  4     22%                  3     38%
                              Loans                                    34     19%                  26     24%                   1      2%                  0      0%                 13     28%                  8     32%
                              Principal and Interest       2,472,618          21%      1,306,841          29%            4,554         0%                  0      0%        939,583         32%       556,104          66%

NATIVE AMERICAN               Borrowers                                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                                 0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                     0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                    0      0%                   0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1167
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PAMLICO, NORTH CAROLINA                                PASQUOTANK, NORTH CAROLINA                               PENDER, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent      Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              3                          0                            12                          5                         32                      18
                              Loans                                  4                          0                            26                          8                         82                      42
                              Principal and Interest       237,402                              0                1,335,121                     38,981                   4,417,839                 1,483,365

WHITE                         Borrowers                              2     67%                  0      0%                     9     75%                  3     60%                 26     81%              15        83%
                              Loans                                  2     50%                  0      0%                    20     77%                  3     38%                 50     61%              33        79%
                              Principal and Interest        82,054         35%                  0      0%        1,189,699          89%        29,491          76%      3,575,010         81%     1,374,931          93%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                     3     25%                  2     40%                  4     13%                  1      6%
                              Loans                                  0      0%                  0      0%                     6     23%                  5     63%                 24     29%                  2      5%
                              Principal and Interest                 0      0%                  0      0%          145,423          11%          9,489         24%        274,955          6%          2,618          0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                     0      0%                  0      0%                  1      3%                  1      6%
                              Loans                                  0      0%                  0      0%                     0      0%                  0      0%                  6      7%                  6     14%
                              Principal and Interest                 0      0%                  0      0%                     0      0%                  0      0%        444,559         10%         93,071          6%

OTHER                         Borrowers                              1     33%                  0      0%                     0      0%                  0      0%                  1      3%                  1      6%
                              Loans                                  2     50%                  0      0%                     0      0%                  0      0%                  2      2%                  1      2%
                              Principal and Interest       155,348         65%                  0      0%                     0      0%                  0      0%        123,315          3%         12,745          1%

HISPANIC                      Borrowers                              0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1168
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PERQUIMANS, NORTH CAROLINA                                PERSON, NORTH CAROLINA                                 PITT, NORTH CAROLINA
                                                         Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                               47                          10                         37                     12                              62                      20
                              Loans                                  106                          16                     111                        52                             126                      50
                              Principal and Interest      3,840,031                       50,004                  4,600,068                   781,316                   5,042,817                    627,651

WHITE                         Borrowers                               41     87%                   9     90%                 21     57%                  5     42%                  55     89%              17        85%
                              Loans                                   94     89%                  15     94%                 61     55%             26         50%                 108     86%              38        76%
                              Principal and Interest      3,403,328          89%          48,751         97%      3,052,370         66%       525,232          67%      4,689,008          93%       547,415          87%

AFRICAN AMERICAN              Borrowers                                6     13%                   1     10%                 16     43%                  7     58%                   7     11%                  3     15%
                              Loans                                   12     11%                   1      6%                 50     45%             26         50%                  18     14%              12        24%
                              Principal and Interest         436,702         11%            1,253         3%      1,547,698         34%       256,084          33%        353,809           7%         80,236         13%

NATIVE AMERICAN               Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1169
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         POLK, NORTH CAROLINA                                 RANDOLPH, NORTH CAROLINA                                RICHMOND, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              1                          0                           16                          9                          32                      18
                              Loans                                  1                          0                           35                     13                              99                      60
                              Principal and Interest          8,327                             0               2,440,953                     68,048                    7,738,600                 2,162,303

WHITE                         Borrowers                              1   100%                   0      0%                   16   100%                   9   100%                   32   100%               18      100%
                              Loans                                  1   100%                   0      0%                   35   100%              13       100%                   99   100%               60      100%
                              Principal and Interest          8,327      100%                   0      0%       2,440,953        100%         68,048        100%        7,738,600       100%      2,162,303        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                    0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1170
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ROBESON, NORTH CAROLINA                                 ROCKINGHAM, NORTH CAROLINA                               ROWAN, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent      Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             77                          45                            43                     13                             12                          1
                              Loans                                183                      112                               73                     21                             31                          1
                              Principal and Interest    5,952,259                   1,545,657                     2,606,118                    417,933                   1,101,465                      2,817

WHITE                         Borrowers                             25     32%                  14     31%                    33     77%             10         77%                 12   100%                   1   100%
                              Loans                                 68     37%                  43     38%                    54     74%             18         86%                 31   100%                   1   100%
                              Principal and Interest    2,391,830          40%         764,677         49%        2,212,528          85%       401,595          96%      1,101,465       100%           2,817       100%

AFRICAN AMERICAN              Borrowers                             11     14%                   6     13%                     7     16%                  3     23%                  0      0%                  0      0%
                              Loans                                 16      9%                   8      7%                    11     15%                  3     14%                  0      0%                  0      0%
                              Principal and Interest       373,808          6%          60,604          4%          238,589           9%        16,338           4%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             29     38%                  20     44%                     3      7%                  0      0%                  0      0%                  0      0%
                              Loans                                 71     39%                  50     45%                     8     11%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    2,228,281          37%         688,186         45%          155,001           6%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              4      5%                   0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 10      5%                   0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       347,003          6%                   0      0%                     0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                     0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              8     10%                   5     11%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 18     10%                  11     10%                     0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest       611,337         10%          32,191          2%                     0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1171
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RUTHERFORD, NORTH CAROLINA                               SAMPSON, NORTH CAROLINA                                SCOTLAND, NORTH CAROLINA
                                                         Portfolio         Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                                5                          1                      132                        76                               8                          4
                              Loans                                    7                          1                      337                       174                              14                          9
                              Principal and Interest         201,091                        7,715                17,367,276                 4,042,852                    1,321,998                   242,641

WHITE                         Borrowers                                5   100%                   1   100%               106        80%             58         76%                   6     75%                  3     75%
                              Loans                                    7   100%                   1   100%               273        81%            140         80%                  10     71%                  7     78%
                              Principal and Interest         201,091       100%             7,715     100%       15,777,322         91%     3,533,499          87%         945,515         72%       150,625          62%

AFRICAN AMERICAN              Borrowers                                0      0%                  0      0%                  21     16%             14         18%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  56     17%             28         16%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%       1,177,439          7%       418,063          10%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                                0      0%                  0      0%                   3      2%                  3      4%                   1     13%                  1     25%
                              Loans                                    0      0%                  0      0%                   4      1%                  4      2%                   2     14%                  2     22%
                              Principal and Interest                   0      0%                  0      0%        185,844           1%        66,092           2%         320,281         24%         92,017         38%

ASIAN                         Borrowers                                0      0%                  0      0%                   1      1%                  1      1%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   3      1%                  2      1%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%        105,990           1%        25,198           1%                   0      0%                  0      0%

OTHER                         Borrowers                                0      0%                  0      0%                   1      1%                  0      0%                   1     13%                  0      0%
                              Loans                                    0      0%                  0      0%                   1      0%                  0      0%                   2     14%                  0      0%
                              Principal and Interest                   0      0%                  0      0%        120,679           1%                  0      0%           56,202         4%                  0      0%

HISPANIC                      Borrowers                                0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1172
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       STANLY, NORTH CAROLINA                                  STOKES, NORTH CAROLINA                                SURRY, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             20                          10                         40                          6                         21                          4
                              Loans                                 81                          58                         74                     11                             30                          6
                              Principal and Interest    5,634,171                   1,952,754                   2,174,141                   127,311                   1,509,054                     15,698

WHITE                         Borrowers                             19     95%                   9     90%                 39     98%                  6   100%                  18     86%                  3     75%
                              Loans                                 74     91%                  51     88%                 73     99%             11       100%                  26     87%                  5     83%
                              Principal and Interest    5,446,103          97%      1,881,944          96%      2,154,681         99%       127,311        100%       1,415,584         94%         15,354         98%

AFRICAN AMERICAN              Borrowers                              1      5%                   1     10%                  1      3%                  0      0%                  3     14%                  1     25%
                              Loans                                  7      9%                   7     12%                  1      1%                  0      0%                  4     13%                  1     17%
                              Principal and Interest       188,068          3%          70,810          4%         19,461          1%                  0      0%          93,470         6%            344          2%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1173
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SWAIN, NORTH CAROLINA                                  TRANSYLVANIA, NORTH CAROLINA TYRRELL, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent      Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              5                          1                            15                     11                             23                      16
                              Loans                                  5                          1                            66                     51                             69                      43
                              Principal and Interest       148,265                        4,415                   5,450,676                 2,345,558                   3,593,857                 1,462,604

WHITE                         Borrowers                              3     60%                  0      0%                    14     93%             10         91%                 18     78%              13        81%
                              Loans                                  3     60%                  0      0%                    65     98%             50         98%                 62     90%              40        93%
                              Principal and Interest        54,383         37%                  0      0%         5,443,739       100%      2,344,858        100%       3,472,099         97%     1,446,603          99%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                     1      7%                  1      9%                  5     22%                  3     19%
                              Loans                                  0      0%                  0      0%                     1      2%                  1      2%                  7     10%                  3      7%
                              Principal and Interest                 0      0%                  0      0%              6,937         0%            700          0%        121,758          3%         16,000          1%

NATIVE AMERICAN               Borrowers                              2     40%                  1   100%                      0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  2     40%                  1   100%                      0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest        93,881         63%            4,415     100%                      0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                     0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1174
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        UNION, NORTH CAROLINA                                  VANCE, NORTH CAROLINA                                 WAKE, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             34                          12                         26                     11                             47                      23
                              Loans                                104                          43                         56                     27                             99                      42
                              Principal and Interest    6,865,257                   1,184,060                  1,674,018                    203,444                   6,569,259                 1,464,425

WHITE                         Borrowers                             31     91%                  10     83%                 18     69%                  6     55%                 38     81%              17        74%
                              Loans                                 96     92%                  37     86%                 39     70%             18         67%                 84     85%              33        79%
                              Principal and Interest    6,324,448          92%      1,162,125          98%     1,323,805          79%       128,941          63%      6,067,831         92%     1,398,507          95%

AFRICAN AMERICAN              Borrowers                              3      9%                   2     17%                  8     31%                  5     45%                  9     19%                  6     26%
                              Loans                                  8      8%                   6     14%                 17     30%                  9     33%                 15     15%                  9     21%
                              Principal and Interest       540,809          8%          21,935          2%       350,213          21%        74,504          37%        501,428          8%         65,918          5%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1175
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WARREN, NORTH CAROLINA                                  WASHINGTON, NORTH CAROLINA                               WATAUGA, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent      Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             47                          23                            41                     15                              20                          2
                              Loans                                104                          50                        140                        62                              39                          8
                              Principal and Interest    6,274,299                   2,058,667                    12,382,068                  3,304,634                    1,885,728                     46,572

WHITE                         Borrowers                             30     64%                  13     57%                    39     95%             14         93%                  20   100%                   2   100%
                              Loans                                 51     49%                  23     46%                133        95%             56         90%                  39   100%                   8   100%
                              Principal and Interest    4,749,210          76%      1,494,700          73%       12,283,342          99%     3,299,490        100%        1,885,728       100%          46,572       100%

AFRICAN AMERICAN              Borrowers                             17     36%                  10     43%                     2      5%                  1      7%                   0      0%                  0      0%
                              Loans                                 53     51%                  27     54%                     7      5%                  6     10%                   0      0%                  0      0%
                              Principal and Interest    1,525,089          24%         563,967         27%            98,726          1%          5,144          0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                     0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1176
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WAYNE, NORTH CAROLINA                                   WILKES, NORTH CAROLINA                                WILSON, NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             38                          12                         12                          2                         34                          9
                              Loans                                 63                          20                         21                          3                         85                      37
                              Principal and Interest    2,872,489                      667,082                   828,843                     11,021                   3,559,346                   162,687

WHITE                         Borrowers                             32     84%                   9     75%                 12   100%                   2   100%                  29     85%                  8     89%
                              Loans                                 52     83%                  14     70%                 21   100%                   3   100%                  64     75%              32        86%
                              Principal and Interest    2,646,360          92%         657,117         99%       828,843        100%         11,021        100%       3,151,155         89%       153,232          94%

AFRICAN AMERICAN              Borrowers                              6     16%                   3     25%                  0      0%                  0      0%                  5     15%                  1     11%
                              Loans                                 11     17%                   6     30%                  0      0%                  0      0%                 21     25%                  5     14%
                              Principal and Interest       226,129          8%            9,965         1%                  0      0%                  0      0%        408,191         11%          9,455          6%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                   0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1177
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       YADKIN, NORTH CAROLINA                                  YANCEY, NORTH CAROLINA                                 STATE OF NORTH CAROLINA
                                                       Portfolio         Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent    Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                             34                           6                          25                          6                    2,710                      1,040
                              Loans                                 90                          15                          48                     14                        6,406                      2,690
                              Principal and Interest    1,922,586                       65,352                  1,668,899                     54,635                  318,110,124                  60,067,702

WHITE                         Borrowers                             34   100%                    6   100%                   25   100%                   6   100%             2,256         83%            801         77%
                              Loans                                 90   100%                   15   100%                   48   100%              14       100%             5,218         81%          2,106         78%
                              Principal and Interest    1,922,586        100%           65,352       100%       1,668,899        100%         54,635        100%      280,862,529          88%     50,919,148         85%

AFRICAN AMERICAN              Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                  379     14%            201         19%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%            1,020         16%            500         19%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%      30,492,553          10%      7,985,311         13%

NATIVE AMERICAN               Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                   50      2%              28         3%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                  116      2%              62         2%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%       3,935,487           1%       921,653           2%

ASIAN                         Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                    8      0%                  3      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                   22      0%                  9      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%       1,347,537           0%       194,328           0%

OTHER                         Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                    9      0%                  2      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                   12      0%                  2      0%
                              Principal and Interest                 0      0%                   0      0%                   0      0%                  0      0%         860,680           0%         15,071          0%

HISPANIC                      Borrowers                              0      0%                   0      0%                   0      0%                  0      0%                    8      0%                  5      0%
                              Loans                                  0      0%                   0      0%                   0      0%                  0      0%                   18      0%              11         0%
                              Prinicpal and Interest                 0      0%                   0      0%                   0      0%                  0      0%         611,337           0%         32,191          0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1178
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  NC ASHE                  Approved   No. of Applications             25        25   100%              0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     27                     0                    0                0                0
                                      Completion to Approval                    11                     0                    0                0                0
                                      Approval to Loan Closing                  19                     0                    0                0                0

                           Rejected   No. of Applications             2         2    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              5         3    60%               0   0%               0   0%           0   0%          2     40%
                                     Receipt to Completion                      4                      0                    0                0              44
                                     Completion to Withdrawn                    6                      0                    0                0               0

 NC    CASWELL             Approved   No. of Applications            19        10    53%           9       47%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    22                 36                        0                0               0
                                      Completion to Approval                    5                  9                        0                0               0
                                      Approval to Loan Closing                 15                 18                        0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 NC    CLEVELAND           Approved   No. of Applications             7         7    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     5                      0                    0                0               0
                                      Completion to Approval                   17                      0                    0                0               0
                                      Approval to Loan Closing                 16                      0                    0                0               0

                           Rejected   No. of Applications             3         1    33%               0   0%               0   0%           0   0%          2     67%
                                      Receipt to Completion                    71                      0                    0                0              31
                                      Completion to Rejected                   53                      0                    0                0              25

                           Withdrawn No. of Applications              3         2    67%           1       33%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     18                  0                        0                0               0
                                     Completion to Withdrawn                   21                123                        0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1179
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African              Native
 State      Servicing Office    Decision           Average Days       Total     White            American             American             Asian            Hispanic
  NC COLUMBUS                   Approved   No. of Applications             41        29   71%           7       17%          5       12%           0   0%           0     0%
       (Combines Columbus,                 Receipt to Completion                     40                26                   62                     0                0
         Bladen, and Robeson)              Completion to Approval                    37                19                   14                     0                0
                                           Approval to Loan Closing                  14                16                   17                     0                0

                                Rejected   No. of Applications             6         2    33%           3       50%          1       17%           0   0%          0      0%
                                           Receipt to Completion                   111                 68                   85                     0               0
                                           Completion to Rejected                   45                 20                    6                     0               0

                                Withdrawn No. of Applications              5         5    100%              0   0%               0   0%            0   0%          0      0%
                                          Receipt to Completion                     21                      0                    0                 0               0
                                          Completion to Withdrawn                   20                      0                    0                 0               0

 NC    CRAVEN                   Approved   No. of Applications             1         1    100%              0   0%               0   0%            0   0%          0      0%
                                           Receipt to Completion                     0                      0                    0                 0               0
                                           Completion to Approval                    0                      0                    0                 0               0
                                           Approval to Loan Closing                 20                      0                    0                 0               0

                                Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                           Receipt to Completion                     0                      0                    0                 0               0
                                           Completion to Rejected                    0                      0                    0                 0               0

                                Withdrawn No. of Applications              0         0     0%               0   0%               0   0%            0   0%          0      0%
                                          Receipt to Completion                      0                      0                    0                 0               0
                                          Completion to Withdrawn                    0                      0                    0                 0               0

 NC    EDGECOMB                 Approved   No. of Applications            19        17    89%           2       11%              0   0%            0   0%          0      0%
                                           Receipt to Completion                    42                 23                        0                 0               0
                                           Completion to Approval                   15                  0                        0                 0               0
                                           Approval to Loan Closing                 26                 22                        0                 0               0

                                Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                           Receipt to Completion                     0                      0                    0                 0               0
                                           Completion to Rejected                    0                      0                    0                 0               0

                                Withdrawn No. of Applications              8         7    88%               1   13%              0   0%            0   0%          0      0%
                                          Receipt to Completion                      0                      0                    0                 0               0
                                          Completion to Withdrawn                    0                      0                    0                 0               0




Source: APPL Database
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1180
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  NC GREENE                Approved   No. of Applications             16        15   94%           1       6%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     31                 0                        0                0                0
                                      Completion to Approval                    12                42                        0                0                0
                                      Approval to Loan Closing                  17                13                        0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     28                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 NC    HENDERSON           Approved   No. of Applications             5         5    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    31                      0                    0                0               0
                                      Completion to Approval                   32                      0                    0                0               0
                                      Approval to Loan Closing                 34                      0                    0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 NC    HERTFORD            Approved   No. of Applications             2         2    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    12                      0                    0                0               0
                                      Completion to Approval                   42                      0                    0                0               0
                                      Approval to Loan Closing                 10                      0                    0                0               0

                           Rejected   No. of Applications             3         1    33%               2   67%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1181
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African              Native
 State   Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  NC IREDELL                Approved   No. of Applications             25        25   100%              0   0%               0   0%           0   0%           0     0%
                                       Receipt to Completion                     39                     0                    0                0                0
                                       Completion to Approval                     7                     0                    0                0                0
                                       Approval to Loan Closing                  25                     0                    0                0                0

                            Rejected   No. of Applications             4         3    75%           1       25%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    68                 31                        0                0               0
                                       Completion to Rejected                    4                  0                        0                0               0

                            Withdrawn No. of Applications              2         2    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      3                      0                    0                0               0
                                      Completion to Withdrawn                   58                      0                    0                0               0

 NC    LENOIR               Approved   No. of Applications             2         1    50%           1       50%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     1                 24                        0                0               0
                                       Completion to Approval                    6                  0                        0                0               0
                                       Approval to Loan Closing                  0                 25                        0                0               0

                            Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                    0                0               0
                                       Completion to Rejected                    0                      0                    0                0               0

                            Withdrawn No. of Applications              0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      0                      0                    0                0               0
                                      Completion to Withdrawn                    0                      0                    0                0               0

 NC    MADISON              Approved   No. of Applications            32        32    100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                    22                      0                    0                0               0
                                       Completion to Approval                   18                      0                    0                0               0
                                       Approval to Loan Closing                 32                      0                    0                0               0

                            Rejected   No. of Applications             4         4    100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                    38                      0                    0                0               0
                                       Completion to Rejected                   17                      0                    0                0               0

                            Withdrawn No. of Applications             20        20    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      3                      0                    0                0               0
                                      Completion to Withdrawn                    6                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1182
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African              Native
 State  Servicing Office   Decision           Average Days       Total     White              American             American            Asian            Hispanic
  NC MARTIN                Approved   No. of Applications             12        9      75%           3       25%              0   0%           0   0%           0     0%
                                      Receipt to Completion                    43                   41                        0                0                0
                                      Completion to Approval                   11                   14                        0                0                0
                                      Approval to Loan Closing                 39                   22                        0                0                0

                           Rejected   No. of Applications             0            0    0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                        0                     0                    0                0               0
                                      Completion to Rejected                       0                     0                    0                0               0

                           Withdrawn No. of Applications              1         1      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     45                        0                    0                0               0
                                     Completion to Withdrawn                  143                        0                    0                0               0

 NC    NASH                Approved   No. of Applications             2         2      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    31                        0                    0                0               0
                                      Completion to Approval                   13                        0                    0                0               0
                                      Approval to Loan Closing                 13                        0                    0                0               0

                           Rejected   No. of Applications             2         2      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    60                        0                    0                0               0
                                      Completion to Rejected                   10                        0                    0                0               0

                           Withdrawn No. of Applications              3         3      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     50                        0                    0                0               0
                                     Completion to Withdrawn                   11                        0                    0                0               0

 NC    NORTHAMPTON         Approved   No. of Applications             5         4      80%           1       20%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    21                   20                        0                0               0
                                      Completion to Approval                   21                   17                        0                0               0
                                      Approval to Loan Closing                 40                   28                        0                0               0

                           Rejected   No. of Applications             0            0    0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                        0                     0                    0                0               0
                                      Completion to Rejected                       0                     0                    0                0               0

                           Withdrawn No. of Applications              0            0    0%               0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                         0                     0                    0                0               0
                                     Completion to Withdrawn                       0                     0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                    Page 1183
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African              Native
 State  Servicing Office   Decision           Average Days       Total     White              American             American            Asian            Hispanic
  NC PERQUIMANS            Approved   No. of Applications             11        9      82%               2   18%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     1                        0                    0                0                0
                                      Completion to Approval                    1                        0                    0                0                0
                                      Approval to Loan Closing                 57                        0                    0                0                0

                           Rejected   No. of Applications             1            1   100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                        0                     0                    0                0               0
                                      Completion to Rejected                       0                     0                    0                0               0

                           Withdrawn No. of Applications              0            0    0%               0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                         0                     0                    0                0               0
                                     Completion to Withdrawn                       0                     0                    0                0               0

 NC    PITT                Approved   No. of Applications            10         9      90%           1       10%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     9                    0                        0                0               0
                                      Completion to Approval                   11                    6                        0                0               0
                                      Approval to Loan Closing                 28                   31                        0                0               0

                           Rejected   No. of Applications             2         1      50%               1   50%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    14                        0                    0                0               0
                                      Completion to Rejected                    0                        0                    0                0               0

                           Withdrawn No. of Applications              3            3   100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                         7                     0                    0                0               0
                                     Completion to Withdrawn                       1                     0                    0                0               0

 NC    ROCKINGHAM          Approved   No. of Applications            18         9      50%           9       50%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    33                   94                        0                0               0
                                      Completion to Approval                   10                   26                        0                0               0
                                      Approval to Loan Closing                 21                   12                        0                0               0

                           Rejected   No. of Applications             0            0    0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                        0                     0                    0                0               0
                                      Completion to Rejected                       0                     0                    0                0               0

                           Withdrawn No. of Applications              4         3      75%               1   25%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     32                        0                    0                0               0
                                     Completion to Withdrawn                   21                        0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                    Page 1184
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African              Native
 State     Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  NC SAMPSON                  Approved   No. of Applications             27        22   81%           5       19%              0   0%           0   0%           0     0%
       (Combines Duplin and              Receipt to Completion                     20                10                        0                0                0
         Sampson)                        Completion to Approval                    24                 5                        0                0                0
                                         Approval to Loan Closing                  17                31                        0                0                0

                              Rejected   No. of Applications             8         8    100%              0   0%               0   0%           0   0%          0      0%
                                         Receipt to Completion                    24                      0                    0                0               0
                                         Completion to Rejected                   21                      0                    0                0               0

                              Withdrawn No. of Applications              5         5    100%              0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                      1                      0                    0                0               0
                                        Completion to Withdrawn                    6                      0                    0                0               0

 NC    UNION                  Approved   No. of Applications             5         4    80%           1       20%              0   0%           0   0%          0      0%
                                         Receipt to Completion                    26                 73                        0                0               0
                                         Completion to Approval                   28                 25                        0                0               0
                                         Approval to Loan Closing                 15                 30                        0                0               0

                              Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                         Receipt to Completion                     0                      0                    0                0               0
                                         Completion to Rejected                    0                      0                    0                0               0

                              Withdrawn No. of Applications              0         0     0%               0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                      0                      0                    0                0               0
                                        Completion to Withdrawn                    0                      0                    0                0               0

 NC    WAKE                   Approved   No. of Applications            24        20    83%           4       17%              0   0%           0   0%          0      0%
       (Combines Chatham,                Receipt to Completion                    29                 76                        0                0               0
         Wake, and Harnett)              Completion to Approval                   29                 11                        0                0               0
                                         Approval to Loan Closing                 28                 17                        0                0               0

                              Rejected   No. of Applications             1         1    100%              0   0%               0   0%           0   0%          0      0%
                                         Receipt to Completion                     0                      0                    0                0               0
                                         Completion to Rejected                    0                      0                    0                0               0

                              Withdrawn No. of Applications              5         4    80%               1   20%              0   0%           0   0%          0      0%
                                        Receipt to Completion                      0                      0                    0                0               0
                                        Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1185
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  NC WILKES                Approved   No. of Applications             15        15   100%              0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     40                     0                    0                0                0
                                      Completion to Approval                     6                     0                    0                0                0
                                      Approval to Loan Closing                  17                     0                    0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     51                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 NC    WILSON              Approved   No. of Applications            12         9    75%           3       25%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     7                  2                        0                0               0
                                      Completion to Approval                   50                 19                        0                0               0
                                      Approval to Loan Closing                 36                 34                        0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    37                      0                    0                0               0
                                      Completion to Rejected                   61                      0                    0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                   90                      0                    0                0               0

 NC    STATE               Approved   No. of Applications           355       300    85%          50       14%          5       1%           0   0%          0      0%
                                      Receipt to Completion                    27                 40                   62                    0               0
                                      Completion to Approval                   18                 14                   14                    0               0
                                      Approval to Loan Closing                 24                 19                   17                    0               0

                           Rejected   No. of Applications            40        30    75%           7       18%          1       3%           0   0%          2      5%
                                      Receipt to Completion                    35                 34                   85                    0              31
                                      Completion to Rejected                   16                  9                    6                    0              25

                           Withdrawn No. of Applications             76        70    92%           4       5%               0   0%           0   0%          2      3%
                                     Receipt to Completion                     11                  0                        0                0              44
                                     Completion to Withdrawn                   19                 31                        0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1186
                            Demographics         1188
                        FSA’s Loan Portfolio     1195
                        FSA’s Application data   1214




USDA/OIG-A/50801-4-Hq                                   1187
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         ND                 Population        3,174         3,160    100%                 3      0%         10          0%              0      0%              0      0%              1      0%
         Adams County       Borrowers            56            55     98%                 0      0%          1          2%              0      0%              0      0%              0      0%
                            Farms               353           353    100%                 0      0%          0          0%              0      0%              0      0%              0      0%
                            Land in Farms   594,587       594,587    100%                 0      0%          0          0%              0      0%              0      0%              0      0%

         ND                 Population       12,545        12,389     99%             27         0%         57          0%         38          0%              0      0%         34          0%
         Barnes County      Borrowers           105           105    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Farms               839           839    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   858,267       858,267    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         ND                 Population        7,198         4,408     61%                 0      0%      2,760         38%              3      0%              3      0%         24          0%
         Benson County      Borrowers            93            90     97%                 0      0%          3          3%              0      0%              0      0%          0          0%
                            Farms               635           625     98%                 0      0%          6          1%              0      0%              0      0%          4          1%
                            Land in Farms   777,675       774,419    100%                 0      0%      3,256          0%              0      0%              0      0%          0          0%

         ND                 Population        1,108         1,105    100%                 0      0%              3      0%              0      0%              0      0%              0      0%
         Billings County    Borrowers            31            31    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms               242           242    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   818,893       818,893    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                 Population        8,011         7,916     99%                 6      0%         58          1%         15          0%              0      0%         16          0%
         Bottineau County   Borrowers           100            99     99%                 0      0%          1          1%          0          0%              0      0%          0          0%
                            Farms               798           798    100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   950,031       950,031    100%                 0      0%          0          0%          0          0%              0      0%          0          0%

         ND                 Population        3,596         3,580    100%                 0      0%              4      0%              4      0%              2      0%          6          0%
         Bowman County      Borrowers            22            22    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms               343           340     99%                 0      0%              0      0%              0      0%              0      0%          3          1%
                            Land in Farms   677,945       672,287     99%                 0      0%              0      0%              0      0%              0      0%      5,658          1%

         ND                 Population        3,002         2,970     99%                 1      0%         11          0%              6      0%              0      0%         14          0%
         Burke County       Borrowers            46            46    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                            Farms               462           462    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                            Land in Farms   559,385       559,385    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         ND                 Population       60,131        57,919     96%             66         0%      1,552          3%        214          0%         19          0%        361          1%
         Burleigh County    Borrowers            99            99    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Farms               795           795    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Land in Farms   877,382       877,382    100%              0         0%          0          0%          0          0%          0          0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1188
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         ND                Population        102,874        99,986     97%            274         0%        918          1%        973          1%         23          0%        700          1%
         Cass County       Borrowers             108           108    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               1,004         1,004    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms   1,070,528     1,070,528    100%              0         0%          0          0%          0          0%          0          0%          0          0%

         ND                Population         6,064          6,004     99%                 4      0%         45          1%              3      0%              0      0%              8      0%
         Cavalier County   Borrowers            136            136    100%                 0      0%          0          0%              0      0%              0      0%              0      0%
                           Farms                743            743    100%                 0      0%          0          0%              0      0%              0      0%              0      0%
                           Land in Farms    855,458        855,458    100%                 0      0%          0          0%              0      0%              0      0%              0      0%

         ND                Population         6,107          6,032     99%                 8      0%         21          0%         13          0%              0      0%         33          1%
         Dickey County     Borrowers             85             85    100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms                552            552    100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    627,774        627,774    100%                 0      0%          0          0%          0          0%              0      0%          0          0%

         ND                Population         2,899          2,876     99%                 1      0%              9      0%              6      0%              0      0%              7      0%
         Divide County     Borrowers             66             66    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                527            527    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    725,974        725,974    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                Population          4,005         3,596     90%                 0      0%        377          9%              6      0%              0      0%         26          1%
         Dunn County       Borrowers             183           160     87%                 0      0%         21         11%              1      1%              1      1%          0          0%
                           Farms                 650           641     99%                 0      0%          9          1%              0      0%              0      0%          0          0%
                           Land in Farms   1,352,738     1,352,738    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         ND                Population         2,951          2,897      98%                0      0%         49          2%              1      0%              0      0%          4          0%
         Eddy County       Borrowers             70             69      99%                0      0%          1          1%              0      0%              0      0%          0          0%
                           Farms                312            308      99%                0      0%          0          0%              0      0%              0      0%          4          1%
                           Land in Farms    369,140        361,610      98%                0      0%          0          0%              0      0%              0      0%      7,530          2%

         ND                Population         4,830          4,814    100%                 0      0%              5      0%              4      0%              0      0%              7      0%
         Emmons County     Borrowers             92             91     99%                 0      0%              0      0%              0      0%              0      0%              1      1%
                           Farms                759            759    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    834,293        834,293    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                Population         3,983          3,949     99%                 0      0%         22          1%              2      0%              0      0%         10          0%
         Foster County     Borrowers             69             69    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                           Farms                297            297    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms    366,292        366,292    100%                 0      0%          0          0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1189
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                   White             African American Native American                   Asian                  Other                 Hispanic
                                                  Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         ND                     Population         2,108          2,087     99%                 0      0%         12          1%              8      0%              0      0%              1      0%
         Golden Valley County   Borrowers             51             51    100%                 0      0%          0          0%              0      0%              0      0%              0      0%
                                Farms                219            219    100%                 0      0%          0          0%              0      0%              0      0%              0      0%
                                Land in Farms    505,461        505,461    100%                 0      0%          0          0%              0      0%              0      0%              0      0%

         ND                     Population        70,683         66,128     94%          1,413         2%      1,198          2%        849          1%         42          0%      1,053          1%
         Grand Forks County     Borrowers            138            136     99%              0         0%          2          1%          0          0%          0          0%          0          0%
                                Farms                751            751    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                                Land in Farms    769,225        769,225    100%              0         0%          0          0%          0          0%          0          0%          0          0%

         ND                     Population          3,549         3,501     99%                 1      0%         32          1%              5      0%              0      0%         10          0%
         Grant County           Borrowers             126           108     86%                 0      0%         17         13%              1      1%              0      0%          0          0%
                                Farms                 598           598    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                                Land in Farms   1,019,300     1,019,300    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         ND                     Population         3,303          3,286     99%                 0      0%              8      0%              5      0%              0      0%              4      0%
         Griggs County          Borrowers             55             55    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Farms                382            382    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Land in Farms    396,154        396,154    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                     Population         3,445          3,428    100%                 0      0%              7      0%              6      0%              1      0%              3      0%
         Hettinger County       Borrowers             87             87    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Farms                427            427    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Land in Farms    688,468        688,468    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                     Population         3,332          3,321    100%                 0      0%              0      0%              4      0%              0      0%              7      0%
         Kidder County          Borrowers            122            121     99%                 0      0%              0      0%              0      0%              1      1%              0      0%
                                Farms                499            499    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Land in Farms    723,816        723,816    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                     Population         5,383          5,368    100%                 0      0%              5      0%              2      0%              0      0%              8      0%
         La Moure County        Borrowers             68             68    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Farms                679            679    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                Land in Farms    669,049        669,049    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                     Population         2,847          2,832     99%                 1      0%              4      0%              1      0%              0      0%          9          0%
         Logan County           Borrowers             57             57    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                                Farms                472            467     99%                 0      0%              0      0%              0      0%              0      0%          5          1%
                                Land in Farms    598,832        594,032     99%                 0      0%              0      0%              0      0%              0      0%      4,800          1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1190
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                   Asian                  Other                 Hispanic
                                              Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         ND                 Population          6,528         6,493     99%                 4      0%         13          0%              5      0%              0      0%         13          0%
         McHenry County     Borrowers             157           157    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                            Farms                 889           886    100%                 0      0%          0          0%              0      0%              0      0%          3          0%
                            Land in Farms   1,048,701     1,043,583    100%                 0      0%          0          0%              0      0%              0      0%      5,118          0%

         ND                 Population         4,021          4,002    100%                 1      0%              6      0%              6      0%              0      0%              6      0%
         McIntosh County    Borrowers             65             65    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                483            483    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    544,767        544,767    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                 Population          6,383         5,426     85%                 2      0%        898         14%              3      0%              0      0%         54          1%
         McKenzie County    Borrowers              54            44     81%                 0      0%          9         17%              1      2%              0      0%          0          0%
                            Farms                 741           732     99%                 0      0%          5          1%              0      0%              0      0%          4          1%
                            Land in Farms   1,165,695     1,161,555    100%                 0      0%      4,140          0%              0      0%              0      0%          0          0%

         ND                 Population         10,457         9,857     94%                 3      0%        549          5%              9      0%              1      0%         38          0%
         McLean County      Borrowers             134           127     95%                 0      0%          6          4%              0      0%              0      0%          1          1%
                            Farms                 926           922    100%                 0      0%          4          0%              0      0%              0      0%          0          0%
                            Land in Farms   1,128,346     1,128,346    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         ND                 Population         9,808          9,493      97%            12         0%        224          2%         36          0%              1      0%         42          0%
         Mercer County      Borrowers             53             49      92%             0         0%          4          8%          0          0%              0      0%          0          0%
                            Farms                527            521      99%             0         0%          6          1%          0          0%              0      0%          0          0%
                            Land in Farms    531,643        516,098      97%             0         0%     15,545          3%          0          0%              0      0%          0          0%

         ND                 Population         23,700        23,168     98%             12         0%        399          2%         47          0%              0      0%         74          0%
         Morton County      Borrowers             165           165    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Farms                 923           919    100%              0         0%          0          0%          0          0%              0      0%          4          0%
                            Land in Farms   1,233,663     1,229,093    100%              0         0%          0          0%          0          0%              0      0%      4,570          0%

         ND                 Population          7,021         5,591     80%                 4      0%      1,387         20%         14          0%              0      0%         25          0%
         Mountrail County   Borrowers             109            99     91%                 0      0%          9          8%          0          0%              1      1%          0          0%
                            Farms                 745           745    100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   1,000,679     1,000,679    100%                 0      0%          0          0%          0          0%              0      0%          0          0%

         ND                 Population         4,410          4,391    100%                 2      0%              6      0%              3      0%              0      0%              8      0%
         Nelson County      Borrowers             59             59    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                482            482    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    552,707        552,707    100%                 0      0%              0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1191
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number       Percent
         ND                Population        2,381         2,338     98%                 0      0%         39      2%              0      0%              0      0%              4      0%
         Oliver County     Borrowers            32            32    100%                 0      0%          0      0%              0      0%              0      0%              0      0%
                           Farms               326           326    100%                 0      0%          0      0%              0      0%              0      0%              0      0%
                           Land in Farms   384,213       384,213    100%                 0      0%          0      0%              0      0%              0      0%              0      0%

         ND                Population        9,238         8,978     97%             14         0%        146      2%         12          0%              1      0%         87          1%
         Pembina County    Borrowers           103           102     99%              0         0%          0      0%          0          0%              1      1%          0          0%
                           Farms               624           624    100%              0         0%          0      0%          0          0%              0      0%          0          0%
                           Land in Farms   600,845       600,845    100%              0         0%          0      0%          0          0%              0      0%          0          0%

         ND                Population        5,052         5,011     99%                 2      0%         23      0%         15          0%              0      0%              1      0%
         Pierce County     Borrowers            85            84     99%                 1      1%          0      0%          0          0%              0      0%              0      0%
                           Farms               501           501    100%                 0      0%          0      0%          0          0%              0      0%              0      0%
                           Land in Farms   586,244       586,244    100%                 0      0%          0      0%          0          0%              0      0%              0      0%

         ND                Population       12,681        12,001     95%             20         0%        577      5%         29          0%              5      0%         49          0%
         Ramsey County     Borrowers            38            38    100%              0         0%          0      0%          0          0%              0      0%          0          0%
                           Farms               511           511    100%              0         0%          0      0%          0          0%              0      0%          0          0%
                           Land in Farms   639,709       639,709    100%              0         0%          0      0%          0          0%              0      0%          0          0%

         ND                Population        5,921         5,872     99%                 4      0%         13      0%              7      0%              1      0%         24          0%
         Ransom County     Borrowers            41            40     98%                 0      0%          0      0%              0      0%              1      2%          0          0%
                           Farms               451           451    100%                 0      0%          0      0%              0      0%              0      0%          0          0%
                           Land in Farms   485,012       485,012    100%                 0      0%          0      0%              0      0%              0      0%          0          0%

         ND                Population        3,160         3,106     98%             14         0%         23      1%         11          0%              0      0%              6      0%
         Renville County   Borrowers            20            20    100%              0         0%          0      0%          0          0%              0      0%              0      0%
                           Farms               396           396    100%              0         0%          0      0%          0          0%              0      0%              0      0%
                           Land in Farms   503,575       503,575    100%              0         0%          0      0%          0          0%              0      0%              0      0%

         ND                Population       18,148        17,595     97%             21         0%        400      2%         82          0%              4      0%         46          0%
         Richland County   Borrowers           103           103    100%              0         0%          0      0%          0          0%              0      0%          0          0%
                           Farms               956           952    100%              0         0%          0      0%          0          0%              0      0%          4          0%
                           Land in Farms   799,606       798,791    100%              0         0%          0      0%          0          0%              0      0%        815          0%

         ND                Population       12,772         4,204      33%            28         0%      8,457     66%         13          0%              5      0%         65          1%
         Rolette County    Borrowers            57            48      84%             0         0%          8     14%          1          2%              0      0%          0          0%
                           Farms               486           437      90%             0         0%         49     10%          0          0%              0      0%          0          0%
                           Land in Farms   522,536       452,458      87%             0         0%     70,078     13%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1192
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         ND                Population         4,549          4,523     99%                 1      0%         10          0%              5      0%              0      0%         10          0%
         Sargent County    Borrowers             65             65    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                           Farms                481            475     99%                 0      0%          0          0%              0      0%              0      0%          6          1%
                           Land in Farms    495,509        490,085     99%                 0      0%          0          0%              0      0%              0      0%      5,424          1%

         ND                Population         2,148          2,137     99%                 0      0%              9      0%              1      0%              0      0%              1      0%
         Sheridan County   Borrowers             83             83    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                419            419    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    521,343        521,343    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                Population         3,761            905     24%                 3      0%      2,812         75%         12          0%              0      0%         29          1%
         Sioux County      Borrowers             79             40     51%                 1      1%         37         47%          1          1%              0      0%          0          0%
                           Farms                200            177     89%                 0      0%         23         12%          0          0%              0      0%          0          0%
                           Land in Farms    745,815        745,815    100%                 0      0%          0          0%          0          0%              0      0%          0          0%

         ND                Population           907            903    100%                 0      0%              3      0%              0      0%              0      0%              1      0%
         Slope County      Borrowers             23             23    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                270            270    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    785,713        785,713    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                Population        22,832         22,471     98%             17         0%        138          1%         77          0%              3      0%        126          1%
         Stark County      Borrowers            108            107     99%              0         0%          0          0%          1          1%              0      0%          0          0%
                           Farms                788            788    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    841,736        841,736    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         ND                Population         2,420          2,411    100%                 0      0%              2      0%              2      0%              0      0%              5      0%
         Steele County     Borrowers             74             73     99%                 0      0%              0      0%              0      0%              1      1%              0      0%
                           Farms                335            335    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    439,846        439,846    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                Population         22,241        21,873     98%             46         0%        140          1%         96          0%              2      0%         84          0%
         Stutsman County   Borrowers             106           106    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms                 988           988    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   1,269,572     1,269,572    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         ND                Population         3,627          3,562     98%                 2      0%         53          1%              5      0%              0      0%              5      0%
         Towner County     Borrowers             74             73     99%                 0      0%          1          1%              0      0%              0      0%              0      0%
                           Farms                462            462    100%                 0      0%          0          0%              0      0%              0      0%              0      0%
                           Land in Farms    591,185        591,185    100%                 0      0%          0          0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1193
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                   Asian                  Other                 Hispanic
                                              Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         ND                Population          8,752          8,568     98%             12         0%         43          0%         22          0%              6      0%        101          1%
         Traill County     Borrowers             122            122    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms                 517            517    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms     501,057        501,057    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         ND                Population         13,840         13,231     96%             17         0%         97          1%         54          0%              0      0%        441          3%
         Walsh County      Borrowers             133            133    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms                 780            780    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms     737,273        737,273    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         ND                Population          57,921        54,131     93%          1,385         2%        946          2%        566          1%         36          0%        857          1%
         Ward County       Borrowers               77            77    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms                1,107         1,103    100%              0         0%          0          0%          0          0%          0          0%          4          0%
                           Land in Farms    1,160,916     1,157,098    100%              0         0%          0          0%          0          0%          0          0%      3,818          0%

         ND                Population          5,864          5,846    100%                 2      0%              6      0%              3      0%              0      0%              7      0%
         Wells County      Borrowers              81             80     99%                 0      0%              0      0%              0      0%              1      1%              0      0%
                           Farms                 638            638    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms     750,913        750,913    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         ND                Population          21,129        19,953     94%             18         0%      1,004          5%         42          0%              2      0%        110          1%
         Williams County   Borrowers               69            67     97%              0         0%          1          1%          0          0%              1      1%          0          0%
                           Farms                  833           833    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    1,182,658     1,182,658    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         ND                Population         638,800    601,592        94%          3,451         1%     25,590          4%      3,345          1%        157          0%      4,665          1%
         STATE             Borrowers            4,434      4,295        97%              2         0%        121          3%          6          0%          8          0%          2          0%
                           Farms               31,123     30,980       100%              0         0%        102          0%          0          0%          0          0%         41          0%
                           Land in Farms   39,438,144 39,307,392       100%              0         0%     93,019          0%          0          0%          0          0%     37,733          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1194
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ADAMS, NORTH DAKOTA                                    BARNES, NORTH DAKOTA                                 BENSON, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             56                      26                        105                        33                             93                     42
                              Loans                             202                         89                        288                        99                         253                       133
                              Principal and Interest   14,406,623                  2,529,724                  18,543,609                 2,040,926                  20,096,648                 3,167,860

WHITE                         Borrowers                             55     98%              26      100%              105      100%              33       100%                  90     97%             41         98%
                              Loans                             200        99%              89      100%              288      100%              99       100%              244        96%            130         98%
                              Principal and Interest   14,190,528          99%     2,529,724        100%      18,543,609       100%      2,040,926        100%      15,723,255         78%     3,165,455        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              1      2%                  0      0%                  0      0%                  0      0%                  3      3%                  1      2%
                              Loans                                  2      1%                  0      0%                  0      0%                  0      0%                  9      4%                  3      2%
                              Principal and Interest      216,096           1%                  0      0%                  0      0%                  0      0%      4,373,393         22%          2,405          0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1195
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BILLINGS, NORTH DAKOTA                                BOTTINEAU, NORTH DAKOTA                               BOWMAN, NORTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            31                          8                     100                        54                             22                          9
                              Loans                                84                      21                        295                       142                             44                     20
                              Principal and Interest   5,694,637                    219,543                  16,266,847                 1,650,576                   4,138,402                   419,719

WHITE                         Borrowers                            31   100%                   8   100%               99        99%             53         98%                 22   100%                   9   100%
                              Loans                                84   100%               21      100%              294      100%             141         99%                 44   100%              20       100%
                              Principal and Interest   5,694,637        100%        219,543        100%      16,176,138         99%     1,644,235        100%       4,138,402       100%        419,719        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  1      1%                  1      2%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      0%                  1      1%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%         90,709          1%          6,341          0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1196
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BURKE, NORTH DAKOTA                                   BURLEIGH, NORTH DAKOTA                                  CASS, NORTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            46                      18                         99                        30                         108                       25
                              Loans                            154                         46                        304                        90                         213                       66
                              Principal and Interest   7,033,690                    372,853                  18,137,058                 1,275,164                  14,264,025                1,403,780

WHITE                         Borrowers                            46   100%               18      100%               99      100%              30       100%              108     100%              25       100%
                              Loans                            154      100%               46      100%              304      100%              90       100%              213     100%              66       100%
                              Principal and Interest   7,033,690        100%        372,853        100%      18,137,058       100%      1,275,164        100%      14,264,025      100%      1,403,780        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1197
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CAVALIER, NORTH DAKOTA                                CORSON SD,PT, NORTH DAKOTA                             DICKEY, NORTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         136                        41                          19                        14                             85                     28
                              Loans                             243                        75                          68                        49                         227                        82
                              Principal and Interest   16,649,161                   720,643                    4,192,834                   954,345                  13,189,851                 1,983,743

WHITE                         Borrowers                         136     100%               41      100%                    2     11%                  2     14%                 85   100%              28       100%
                              Loans                             243     100%               75      100%                    5      7%                  5     10%             227      100%              82       100%
                              Principal and Interest   16,649,161       100%        720,643        100%         282,079           7%        64,947           7%     13,189,851       100%      1,983,743        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%               16        84%             11         79%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%               54        79%             35         71%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       3,505,043         84%       828,653          87%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                   1      5%                  1      7%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   9     13%                  9     18%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        405,713          10%        60,746           6%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1198
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       DIVIDE, NORTH DAKOTA                                  DUNN, PT, NORTH DAKOTA                                 EDDY, NORTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            66                      21                        183                        61                             70                     40
                              Loans                            210                         66                        580                       218                         221                       134
                              Principal and Interest   9,618,990                    426,013                  40,095,349                 8,470,624                  16,229,780                 4,154,835

WHITE                         Borrowers                            66   100%               21      100%              160        87%             45         74%                 69     99%             40       100%
                              Loans                            210      100%               66      100%              468        81%            123         56%             217        98%            134       100%
                              Principal and Interest   9,618,990        100%        426,013        100%      27,318,554         68%     1,115,518          13%     15,955,837         98%     4,154,835        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%              21        11%             15         25%                  1      1%                  0      0%
                              Loans                                 0      0%                  0      0%             110        19%             94         43%                  4      2%                  0      0%
                              Principal and Interest                0      0%                  0      0%     12,455,507         31%     7,342,064          87%        273,942          2%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  1      1%                  1      2%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      0%                  1      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       264,760           1%        13,042           0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%         56,528          0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1199
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       EMMONS, NORTH DAKOTA                                    FOSTER, NORTH DAKOTA                                 GOLDEN VALLEY, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent      Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             92                      38                         69                        24                                51                          7
                              Loans                             329                        144                        181                        71                            124                        14
                              Principal and Interest   17,746,478                  1,828,228                  10,058,711                 1,499,124                      8,095,090                    70,680

WHITE                         Borrowers                             91     99%              38      100%               69      100%              24       100%                     51   100%                   7   100%
                              Loans                             327        99%             144      100%              181      100%              71       100%                 124      100%              14       100%
                              Principal and Interest   17,646,959          99%     1,828,228        100%      10,058,711       100%      1,499,124        100%          8,095,090       100%         70,680        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%

HISPANIC                      Borrowers                              1      1%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                  2      1%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Prinicpal and Interest        99,518          1%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                              Page 1200
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GRAND FORKS, NORTH DAKOTA                                GRANT, NORTH DAKOTA                                 GRIGGS, NORTH DAKOTA
                                                         Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                          138                        88                        107                        48                             55                     25
                              Loans                              370                       243                        380                       163                         131                        51
                              Principal and Interest    25,646,417                 4,945,183                  21,521,442                 2,205,872                  7,165,806                    495,849

WHITE                         Borrowers                          136       99%              87        99%             106        99%             47         98%                 55   100%              25       100%
                              Loans                              368       99%             242      100%              378        99%            161         99%             131      100%              51       100%
                              Principal and Interest    25,452,692         99%     4,940,625        100%      21,384,620         99%     2,199,437        100%      7,165,806        100%        495,849        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              2      1%                  1      1%                  1      1%                  1      2%                  0      0%                  0      0%
                              Loans                                  2      1%                  1      0%                  2      1%                  2      1%                  0      0%                  0      0%
                              Principal and Interest       193,725          1%          4,558          0%       136,821           1%          6,435          0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1201
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HETTINGER, NORTH DAKOTA                                 KIDDER, NORTH DAKOTA                                 LA MOURE, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             87                      30                        122                        49                              68                     15
                              Loans                             340                        140                        393                       148                          134                        38
                              Principal and Interest   16,268,116                  2,868,991                  22,328,398                 2,033,413                   8,150,270                    252,623

WHITE                         Borrowers                             87   100%               30      100%              121        99%             49       100%                   68   100%              15       100%
                              Loans                             340      100%              140      100%              392      100%             148       100%               134      100%              38       100%
                              Principal and Interest   16,268,116        100%      2,868,991        100%      22,259,335       100%      2,033,413        100%       8,150,270        100%        252,623        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  1      1%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  1      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%         69,062          0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1202
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LOGAN, NORTH DAKOTA                                   MCHENRY, NORTH DAKOTA                                 MCINTOSH, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             57                      32                        157                        68                              65                     23
                              Loans                             224                        107                        445                       189                          268                        92
                              Principal and Interest   12,144,302                  1,657,550                  28,007,209                 1,859,888                  11,480,139                    846,553

WHITE                         Borrowers                             57   100%               32      100%              157      100%              68       100%                   65   100%              23       100%
                              Loans                             224      100%              107      100%              445      100%             189       100%               268      100%              92       100%
                              Principal and Interest   12,144,302        100%      1,657,550        100%      28,007,209       100%      1,859,888        100%      11,480,139        100%        846,553        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1203
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MCKENZIE, PT, NORTH DAKOTA MCLEAN, PT, NORTH DAKOTA                                                           MERCER, PT, NORTH DAKOTA
                                                         Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              54                      30                        134                        38                               53                     17
                              Loans                              196                        111                        475                       158                           177                        69
                              Principal and Interest    14,294,575                  1,596,634                  26,232,521                 2,746,147                   13,045,157                  2,723,485

WHITE                         Borrowers                              44     81%              22        73%             127        95%             33         87%                   49     92%             13         76%
                              Loans                              145        74%              71        64%             446        94%            145         92%               145        82%             41         59%
                              Principal and Interest     7,525,419          53%     1,063,907          67%     24,497,657         93%     2,422,163          88%       9,656,831          74%       674,211          25%

AFRICAN AMERICAN              Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               9     17%                  8     27%                  6      4%                  5     13%                    4      8%                  4     24%
                              Loans                                  50     26%              40        36%              28         6%             13          8%                   32     18%             28         41%
                              Principal and Interest     6,636,745          46%       532,727          33%      1,699,590          6%       323,984          12%       3,388,327          26%     2,049,274          75%

ASIAN                         Borrowers                               1      2%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   1      1%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest       132,411           1%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                  1      1%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  1      0%                  0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%         35,275          0%                  0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                             Page 1204
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MORTON, NORTH DAKOTA                                  MOUNTRAIL, PT, NORTH DAKOTA                             NELSON, NORTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent      Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         165                        49                          109                        49                             59                     26
                              Loans                             565                       161                          321                       171                         134                        76
                              Principal and Interest   39,123,900                 6,475,008                    19,463,952                 4,239,871                  7,149,829                  1,265,916

WHITE                         Borrowers                         165     100%               49      100%                 99        91%             40         82%                 59   100%              26       100%
                              Loans                             565     100%              161      100%                264        82%            122         71%             134      100%              76       100%
                              Principal and Interest   39,123,900       100%      6,475,008        100%        15,908,113         82%     2,348,993          55%     7,149,829        100%      1,265,916        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                    9      8%                  9     18%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                56        17%             49         29%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        3,517,387         18%     1,890,877          45%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                    1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    1      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%           38,453          0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                    0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1205
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       OLIVER, NORTH DAKOTA                                  PEMBINA, NORTH DAKOTA                                 PIERCE, NORTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            32                          9                     103                        45                             85                     30
                              Loans                                91                      18                        309                       159                         243                        78
                              Principal and Interest   4,372,040                    128,179                  20,031,938                 2,323,376                  10,246,600                   334,196

WHITE                         Borrowers                            32   100%                   9   100%              102        99%             45       100%                  84     99%             30       100%
                              Loans                                91   100%               18      100%              306        99%            159       100%              240        99%             78       100%
                              Principal and Interest   4,372,040        100%        128,179        100%      19,948,732       100%      2,323,376        100%       9,957,928         97%       334,196        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  1      1%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  3      1%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%        288,672          3%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  3      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%         83,206          0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1206
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RAMSEY, NORTH DAKOTA                                  RANSOM, NORTH DAKOTA                                 RENVILLE, NORTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            38                      17                        41                        14                              20                          6
                              Loans                            109                         63                        89                        31                              45                     13
                              Principal and Interest   6,621,870                    827,995                  4,812,910                   204,135                   3,292,273                    175,829

WHITE                         Borrowers                            38   100%               17      100%              40        98%             14       100%                   20   100%                   6   100%
                              Loans                            109      100%               63      100%              88        99%             31       100%                   45   100%              13       100%
                              Principal and Interest   6,621,870        100%        827,995        100%      4,777,843         99%       204,135        100%       3,292,273        100%        175,829        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 1      2%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 1      1%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        35,067          1%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1207
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RICHLAND, NORTH DAKOTA                                ROLETTE, NORTH DAKOTA                                SARGENT, NORTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         103                        33                        57                        29                             65                     25
                              Loans                             231                        88                       132                        70                         206                        87
                              Principal and Interest   14,022,782                   828,421                  8,281,674                 1,307,924                   8,115,003                   705,488

WHITE                         Borrowers                         103     100%               33      100%              48        84%             26         90%                 65   100%              25       100%
                              Loans                             231     100%               88      100%             114        86%             58         83%             206      100%              87       100%
                              Principal and Interest   14,022,782       100%        828,421        100%      6,836,727         83%       516,736          40%      8,115,003       100%        705,488        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 8     14%                  3     10%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%             17        13%             12         17%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%     1,397,824         17%       791,188          60%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 1      2%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 1      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        47,124          1%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1208
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SHERIDAN, NORTH DAKOTA                                   SIOUX, NORTH DAKOTA                                 SLOPE, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             83                      26                         79                        47                             23                          9
                              Loans                             250                        109                        424                       212                             70                     29
                              Principal and Interest   12,787,135                    995,393                  26,584,375                 5,366,785                  5,016,472                    635,071

WHITE                         Borrowers                             83   100%               26      100%               40        51%             24         51%                 23   100%                   9   100%
                              Loans                             250      100%              109      100%              254        60%            116         55%                 70   100%              29       100%
                              Principal and Interest   12,787,135        100%        995,393        100%      12,457,773         47%     2,752,797          51%     5,016,472        100%        635,071        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%              10         2%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%       195,493           1%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%              37        47%             23         49%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%             157        37%             96         45%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%     13,814,985         52%     2,613,988          49%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  3      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%       116,125           0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1209
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         STARK, NORTH DAKOTA                                  STEELE, NORTH DAKOTA                                 STUTSMAN, NORTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                         108                        28                         74                        33                          106                       43
                              Loans                             337                       109                        153                        73                          306                      120
                              Principal and Interest   17,608,292                 1,391,520                  13,647,540                   907,054                  15,263,554                 1,182,786

WHITE                         Borrowers                         107       99%              28      100%               73        99%             33       100%               106     100%              43       100%
                              Loans                             336     100%              109      100%              152        99%             73       100%               306     100%             120       100%
                              Principal and Interest   17,342,292         98%     1,391,520        100%      13,638,185       100%        907,054        100%      15,263,554       100%      1,182,786        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             1      1%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 1      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest      266,001          2%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%          9,355          0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1210
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       TOWNER, NORTH DAKOTA                                    TRAILL, NORTH DAKOTA                                 WALSH, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             74                      33                        122                        43                         133                       54
                              Loans                             175                         72                        301                       136                         323                      153
                              Principal and Interest   11,896,929                  1,536,103                  16,260,242                 1,315,914                  18,471,891                3,452,391

WHITE                         Borrowers                             73     99%              32        97%             122      100%              43       100%              133     100%              54       100%
                              Loans                             173        99%              70        97%             301      100%             136       100%              323     100%             153       100%
                              Principal and Interest   11,687,348          98%     1,487,586          97%     16,260,242       100%      1,315,914        100%      18,471,891      100%      3,452,391        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              1      1%                  1      3%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                  2      1%                  2      3%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest      209,581           2%         48,517          3%                  0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1211
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WARD, NORTH DAKOTA                                     WELLS, NORTH DAKOTA                                 WILLIAMS, NORTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             77                      21                         81                        44                              69                     26
                              Loans                             183                         57                        224                       138                          193                        92
                              Principal and Interest   13,833,502                    927,096                  14,474,847                 3,411,688                  11,392,710                  1,721,716

WHITE                         Borrowers                             77   100%               21      100%               80        99%             44       100%                   67     97%             25         96%
                              Loans                             183      100%               57      100%              222        99%            138       100%               190        98%             91         99%
                              Principal and Interest   13,833,502        100%        927,096        100%      14,450,364       100%      3,411,688        100%      11,120,445          98%     1,717,156        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   1      1%                  1      4%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   1      1%                  1      1%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%          86,521          1%          4,560          0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  1      1%                  0      0%                   1      1%                  0      0%
                              Loans                                  0      0%                  0      0%                  2      1%                  0      0%                   2      1%                  0      0%
                              Principal and Interest                 0      0%                  0      0%         24,483          0%                  0      0%         185,744          2%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1212
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        STATE OF NORTH DAKOTA
                                                         Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       4,434                      1,721
                              Loans                          12,967                      5,383
                              Principal and Interest   783,514,395                  99,080,423

WHITE                         Borrowers                       4,295         97%          1,635         95%
                              Loans                          12,396         96%          4,996         93%
                              Principal and Interest   729,165,213          93%     82,561,064         83%

AFRICAN AMERICAN              Borrowers                               2      0%                  0      0%
                              Loans                                  13      0%                  0      0%
                              Principal and Interest       484,165           0%                  0      0%

NATIVE AMERICAN               Borrowers                          121         3%              84         5%
                              Loans                              527         4%             377         7%
                              Principal and Interest    51,996,196           7%     16,445,571         17%

ASIAN                         Borrowers                               6      0%                  2      0%
                              Loans                                  16      0%              10         0%
                              Principal and Interest     1,232,134           0%         73,788          0%

OTHER                         Borrowers                               8      0%                  0      0%
                              Loans                                  12      0%                  0      0%
                              Principal and Interest       501,898           0%                  0      0%

HISPANIC                      Borrowers                               2      0%                  0      0%
                              Loans                                   3      0%                  0      0%
                              Prinicpal and Interest       134,793           0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 1213
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  ND BARNES                Approved   No. of Applications             25        25   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     19                     0                   0                0                0
                                      Completion to Approval                    11                     0                   0                0                0
                                      Approval to Loan Closing                  25                     0                   0                0                0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    17                      0                   0                0               0
                                      Completion to Rejected                   14                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     17                      0                   0                0               0
                                     Completion to Withdrawn                    2                      0                   0                0               0

 ND    BOTTINEAU           Approved   No. of Applications             8         8    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    42                      0                   0                0               0
                                      Completion to Approval                   20                      0                   0                0               0
                                      Approval to Loan Closing                 16                      0                   0                0               0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    17                      0                   0                0               0
                                      Completion to Rejected                   14                      0                   0                0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 ND    BOWMAN              Approved   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     5                      0                   0                0               0
                                      Completion to Approval                    7                      0                   0                0               0
                                      Approval to Loan Closing                 19                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                   45                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1214
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  ND CASS                  Approved   No. of Applications             19        19   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     37                     0                   0                0                0
                                      Completion to Approval                    10                     0                   0                0                0
                                      Approval to Loan Closing                  79                     0                   0                0                0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    12                      0                   0                0               0
                                      Completion to Rejected                   20                      0                   0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      3                      0                   0                0               0
                                     Completion to Withdrawn                   13                      0                   0                0               0

 ND    CAVALIER            Approved   No. of Applications            35        35    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    27                      0                   0                0               0
                                      Completion to Approval                    8                      0                   0                0               0
                                      Approval to Loan Closing                 23                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications             18        18    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      8                      0                   0                0               0
                                     Completion to Withdrawn                    4                      0                   0                0               0

 ND    DIVIDE              Approved   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    16                      0                   0                0               0
                                      Completion to Approval                   16                      0                   0                0               0
                                      Approval to Loan Closing                 15                      0                   0                0               0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    9                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1215
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  ND DUNN                  Approved   No. of Applications             16        15   94%               0   0%          1       6%           0   0%           0     0%
                                      Receipt to Completion                     24                     0               0                    0                0
                                      Completion to Approval                    21                     0              26                    0                0
                                      Approval to Loan Closing                  17                     0               8                    0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    18                      0                   0                0               0
                                      Completion to Rejected                   49                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 ND    EDDY                Approved   No. of Applications            45        45    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    34                      0                   0                0               0
                                      Completion to Approval                   38                      0                   0                0               0
                                      Approval to Loan Closing                 21                      0                   0                0               0

                           Rejected   No. of Applications            13        13    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    30                      0                   0                0               0
                                      Completion to Rejected                   73                      0                   0                0               0

                           Withdrawn No. of Applications             67        67    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     30                      0                   0                0               0
                                     Completion to Withdrawn                   31                      0                   0                0               0

 ND    EMMONS              Approved   No. of Applications            13        13    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    14                      0                   0                0               0
                                      Completion to Approval                   24                      0                   0                0               0
                                      Approval to Loan Closing                 13                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                  349                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1216
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American             Asian            Hispanic
  ND GRAND FORKS           Approved   No. of Applications           112      112    100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                    58                     0                   0                 0                0
                                      Completion to Approval                    8                     0                   0                 0                0
                                      Approval to Loan Closing                 30                     0                   0                 0                0

                           Rejected   No. of Applications            5         5    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                   30                      0                   0                 0               0
                                      Completion to Rejected                   5                      0                   0                 0               0

                           Withdrawn No. of Applications             70       70    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                    49                      0                   0                 0               0
                                     Completion to Withdrawn                  16                      0                   0                 0               0

 ND    GRANT               Approved   No. of Applications            26       26    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                   43                      0                   0                 0               0
                                      Completion to Approval                  13                      0                   0                 0               0
                                      Approval to Loan Closing                20                      0                   0                 0               0

                           Rejected   No. of Applications            3         1    33%               0   0%              2   67%           0   0%          0      0%
                                      Receipt to Completion                    3                      0                   0                 0               0
                                      Completion to Rejected                  34                      0                   0                 0               0

                           Withdrawn No. of Applications             0         0     0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                 0               0
                                     Completion to Withdrawn                   0                      0                   0                 0               0

 ND    GRIGGS              Approved   No. of Applications            28       28    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                   28                      0                   0                 0               0
                                      Completion to Approval                  62                      0                   0                 0               0
                                      Approval to Loan Closing                41                      0                   0                 0               0

                           Rejected   No. of Applications            0         0     0%               0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    0                      0                   0                 0               0
                                      Completion to Rejected                   0                      0                   0                 0               0

                           Withdrawn No. of Applications             0         0     0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                 0               0
                                     Completion to Withdrawn                   0                      0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1217
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  ND HETTINGER             Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      15                        0                   0                0                0
                                      Completion to Approval                     18                        0                   0                0                0
                                      Approval to Loan Closing                   25                        0                   0                0                0

                           Rejected   No. of Applications                3           3   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 ND    KIDDER              Approved   No. of Applications            26          26      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      13                        0                   0                0               0
                                      Completion to Approval                     33                        0                   0                0               0
                                      Approval to Loan Closing                   25                        0                   0                0               0

                           Rejected   No. of Applications            17          17      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      13                        0                   0                0               0
                                      Completion to Rejected                     23                        0                   0                0               0

                           Withdrawn No. of Applications             10          10      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       14                        0                   0                0               0
                                     Completion to Withdrawn                     41                        0                   0                0               0

 ND    LAMOURE             Approved   No. of Applications            20          20      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      22                        0                   0                0               0
                                      Completion to Approval                     56                        0                   0                0               0
                                      Approval to Loan Closing                   16                        0                   0                0               0

                           Rejected   No. of Applications                9        9      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      21                        0                   0                0               0
                                      Completion to Rejected                     28                        0                   0                0               0

                           Withdrawn No. of Applications             10          10      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        3                        0                   0                0               0
                                     Completion to Withdrawn                    116                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1218
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  ND MCHENRY               Approved   No. of Applications             19        19   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     18                     0                   0                0                0
                                      Completion to Approval                    31                     0                   0                0                0
                                      Approval to Loan Closing                  28                     0                   0                0                0

                           Rejected   No. of Applications             7         7    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    31                      0                   0                0               0
                                      Completion to Rejected                   24                      0                   0                0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      5                      0                   0                0               0
                                     Completion to Withdrawn                   39                      0                   0                0               0

 ND    MCINTOSH            Approved   No. of Applications            11        11    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    20                      0                   0                0               0
                                      Completion to Approval                   56                      0                   0                0               0
                                      Approval to Loan Closing                 19                      0                   0                0               0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    31                      0                   0                0               0
                                      Completion to Rejected                   21                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 ND    MCLEAN              Approved   No. of Applications            13        13    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     8                      0                   0                0               0
                                      Completion to Approval                   59                      0                   0                0               0
                                      Approval to Loan Closing                 27                      0                   0                0               0

                           Rejected   No. of Applications            19        19    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    13                      0                   0                0               0
                                      Completion to Rejected                   40                      0                   0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     15                      0                   0                0               0
                                     Completion to Withdrawn                   36                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1219
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American              Asian            Hispanic
  ND MERCER                Approved   No. of Applications             10        10   100%              0   0%              0    0%            0   0%           0     0%
                                      Receipt to Completion                     33                     0                   0                  0                0
                                      Completion to Approval                     6                     0                   0                  0                0
                                      Approval to Loan Closing                  16                     0                   0                  0                0

                           Rejected   No. of Applications             8         8    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    19                      0                   0                  0               0
                                      Completion to Rejected                    7                      0                   0                  0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                  0               0
                                     Completion to Withdrawn                    0                      0                   0                  0               0

 ND    MORTON              Approved   No. of Applications            67        67    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    10                      0                   0                  0               0
                                      Completion to Approval                   35                      0                   0                  0               0
                                      Approval to Loan Closing                 42                      0                   0                  0               0

                           Rejected   No. of Applications            51        50    98%           1       2%              0    0%            0   0%          0      0%
                                      Receipt to Completion                     8                 14                       0                  0               0
                                      Completion to Rejected                   39                 55                       0                  0               0

                           Withdrawn No. of Applications             13        13    100%              0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                      8                      0                   0                  0               0
                                     Completion to Withdrawn                  164                      0                   0                  0               0

 ND    MOUNTRAIL           Approved   No. of Applications             2         0     0%               0   0%          2       100%           0   0%          0      0%
                                      Receipt to Completion                     0                      0               0                      0               0
                                      Completion to Approval                    0                      0              27                      0               0
                                      Approval to Loan Closing                  0                      0              14                      0               0

                           Rejected   No. of Applications             1         0     0%               0   0%              1   100%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                  0               0
                                      Completion to Rejected                    0                      0                   7                  0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                  0               0
                                     Completion to Withdrawn                    0                      0                   0                  0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1220
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  ND PEMBIA                Approved   No. of Applications             52        52   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     35                     0                   0                0                0
                                      Completion to Approval                    16                     0                   0                0                0
                                      Approval to Loan Closing                  19                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     7                      0                   0                0               0
                                      Completion to Rejected                    9                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     19                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 ND    PIERCE              Approved   No. of Applications            12        12    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    26                      0                   0                0               0
                                      Completion to Approval                   26                      0                   0                0               0
                                      Approval to Loan Closing                 49                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    14                      0                   0                0               0
                                      Completion to Rejected                   35                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 ND    RAMSEY              Approved   No. of Applications            25        24    96%               0   0%          1       4%           0   0%          0      0%
                                      Receipt to Completion                    18                      0              23                    0               0
                                      Completion to Approval                   27                      0              34                    0               0
                                      Approval to Loan Closing                 30                      0              41                    0               0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    19                      0                   0                0               0
                                      Completion to Rejected                   10                      0                   0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      3                      0                   0                0               0
                                     Completion to Withdrawn                   20                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1221
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American             Asian            Hispanic
  ND RICHLAND              Approved   No. of Applications             27        27   100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                     20                     0                   0                 0                0
                                      Completion to Approval                    31                     0                   0                 0                0
                                      Approval to Loan Closing                  20                     0                   0                 0                0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                 0               0
                                      Completion to Rejected                    0                      0                   0                 0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      1                      0                   0                 0               0
                                     Completion to Withdrawn                   61                      0                   0                 0               0

 ND    ROLETTE             Approved   No. of Applications             6         3    50%               0   0%          3       50%           0   0%          0      0%
                                      Receipt to Completion                    10                      0               2                     0               0
                                      Completion to Approval                   26                      0              25                     0               0
                                      Approval to Loan Closing                 24                      0              13                     0               0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    36                      0                   0                 0               0
                                      Completion to Rejected                   57                      0                   0                 0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                 0               0
                                     Completion to Withdrawn                    0                      0                   0                 0               0

 ND    SARGENT             Approved   No. of Applications            12        12    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    49                      0                   0                 0               0
                                      Completion to Approval                   13                      0                   0                 0               0
                                      Approval to Loan Closing                 20                      0                   0                 0               0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    38                      0                   0                 0               0
                                      Completion to Rejected                   29                      0                   0                 0               0

                           Withdrawn No. of Applications             22        22    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     30                      0                   0                 0               0
                                     Completion to Withdrawn                    8                      0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1222
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African             Native
 State  Servicing Office   Decision           Average Days       Total     White              American            American            Asian            Hispanic
  ND SIOUX                 Approved   No. of Applications             10           0    0%               0   0%           10   100%           0   0%           0     0%
                                      Receipt to Completion                        0                     0                30                  0                0
                                      Completion to Approval                       0                     0                71                  0                0
                                      Approval to Loan Closing                     0                     0                26                  0                0

                           Rejected   No. of Applications             0            0    0%               0   0%           0     0%            0   0%          0      0%
                                      Receipt to Completion                        0                     0                0                   0               0
                                      Completion to Rejected                       0                     0                0                   0               0

                           Withdrawn No. of Applications              2            0    0%               0   0%           2    100%           0   0%          0      0%
                                     Receipt to Completion                         0                     0               73                   0               0
                                     Completion to Withdrawn                       0                     0              121                   0               0

 ND    STARK               Approved   No. of Applications            33        33      100%              0   0%           0     0%            0   0%          0      0%
                                      Receipt to Completion                    11                        0                0                   0               0
                                      Completion to Approval                   34                        0                0                   0               0
                                      Approval to Loan Closing                 32                        0                0                   0               0

                           Rejected   No. of Applications            17        17      100%              0   0%           0     0%            0   0%          0      0%
                                      Receipt to Completion                     1                        0                0                   0               0
                                      Completion to Rejected                    3                        0                0                   0               0

                           Withdrawn No. of Applications              3         3      100%              0   0%           0     0%            0   0%          0      0%
                                     Receipt to Completion                    232                        0                0                   0               0
                                     Completion to Withdrawn                    0                        0                0                   0               0

 ND    STUTSMAN            Approved   No. of Applications            13        13      100%              0   0%           0     0%            0   0%          0      0%
                                      Receipt to Completion                    13                        0                0                   0               0
                                      Completion to Approval                    8                        0                0                   0               0
                                      Approval to Loan Closing                 14                        0                0                   0               0

                           Rejected   No. of Applications             5         5      100%              0   0%           0     0%            0   0%          0      0%
                                      Receipt to Completion                    12                        0                0                   0               0
                                      Completion to Rejected                   14                        0                0                   0               0

                           Withdrawn No. of Applications              7            7   100%              0   0%           0     0%            0   0%          0      0%
                                     Receipt to Completion                         4                     0                0                   0               0
                                     Completion to Withdrawn                       8                     0                0                   0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1223
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  ND TRAILL                Approved   No. of Applications           110      110    100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                    15                     0                   0                0                0
                                      Completion to Approval                   40                     0                   0                0                0
                                      Approval to Loan Closing                 17                     0                   0                0                0

                           Rejected   No. of Applications            1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    3                      0                   0                0               0
                                      Completion to Rejected                   1                      0                   0                0               0

                           Withdrawn No. of Applications             11       11    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     3                      0                   0                0               0
                                     Completion to Withdrawn                  20                      0                   0                0               0

 ND    WALSH               Approved   No. of Applications            35       35    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   35                      0                   0                0               0
                                      Completion to Approval                  28                      0                   0                0               0
                                      Approval to Loan Closing                47                      0                   0                0               0

                           Rejected   No. of Applications            6         6    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    7                      0                   0                0               0
                                      Completion to Rejected                  51                      0                   0                0               0

                           Withdrawn No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Withdrawn                   0                      0                   0                0               0

 ND    WARD                Approved   No. of Applications            13       13    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   16                      0                   0                0               0
                                      Completion to Approval                  29                      0                   0                0               0
                                      Approval to Loan Closing                48                      0                   0                0               0

                           Rejected   No. of Applications            0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    0                      0                   0                0               0
                                      Completion to Rejected                   0                      0                   0                0               0

                           Withdrawn No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Withdrawn                   0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1224
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  ND WILLIAMS              Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      21                        0                   0                0                0
                                      Completion to Approval                     42                        0                   0                0                0
                                      Approval to Loan Closing                   18                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 ND    STATE               Approved   No. of Applications           855         838      98%               0   0%         17       2%           0   0%          0      0%
                                      Receipt to Completion                      27                        0              19                    0               0
                                      Completion to Approval                     27                        0              53                    0               0
                                      Approval to Loan Closing                   28                        0              22                    0               0

                           Rejected   No. of Applications           203         199      98%           1       0%              3   1%           0   0%          0      0%
                                      Receipt to Completion                      14                   14                       0                0               0
                                      Completion to Rejected                     29                   55                       2                0               0

                           Withdrawn No. of Applications            286         284      99%               0   0%          2       1%           0   0%          0      0%
                                     Receipt to Completion                       27                        0              73                    0               0
                                     Completion to Withdrawn                     30                        0             121                    0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1225
                            Demographics         1227
                        FSA’s Loan Portfolio     1239
                        FSA’s Application data   1268




USDA/OIG-A/50801-4-Hq                                   1226
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian              Other                 Hispanic
                                           Total        Number     Percent     Number        Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                 Population       25,371        25,138    99%                 47      0%         67      0%         28      0%              1      0%         90       0%
        Adams County       Borrowers            45            45   100%                  0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms             1,354         1,346    99%                  3      0%          5      0%          0      0%              0      0%          0       0%
                           Land in Farms   196,365       195,705   100%                  0      0%        660      0%          0      0%              0      0%          0       0%

        OH                 Population      109,755        95,442    87%         12,236         11%        180      0%        546      0%        111          0%      1,240       1%
        Allen County       Borrowers            12            12   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                           Farms               978           975   100%              0          0%          3      0%          0      0%          0          0%          0       0%
                           Land in Farms   194,022       194,022   100%              0          0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population       47,507        46,535    98%            456          1%         48      0%        270      1%              7      0%        191       0%
        Ashland County     Borrowers            20            20   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                           Farms               953           953   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   171,129       171,129   100%              0          0%          0      0%          0      0%              0      0%          0       0%

        OH                 Population       99,821        94,579    95%           3,099         3%        184      0%        338      0%         83          0%      1,538       2%
        Ashtabula County   Borrowers            27            27   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                           Farms             1,026         1,011    99%              10         1%          0      0%          0      0%          0          0%          5       0%
                           Land in Farms   155,895       155,179   100%             403         0%          0      0%          0      0%          0          0%        313       0%

        OH                 Population       59,549        55,884    94%           1,654         3%        164      0%      1,361      2%         48          0%        438       1%
        Athens County      Borrowers            15            15   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                           Farms               501           501   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    80,507        80,507   100%               0         0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population       44,585        44,058    99%                 65      0%         40      0%        165      0%         14          0%        243       1%
        Auglaize County    Borrowers            26            25    96%                  1      4%          0      0%          0      0%          0          0%          0       0%
                           Farms               997           997   100%                  0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   205,105       205,105   100%                  0      0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population       71,074        69,357    98%           1,290         2%         75      0%        127      0%         31          0%        194       0%
        Belmont County     Borrowers            15            13    87%               0         0%          2     13%          0      0%          0          0%          0       0%
                           Farms               603           599    99%               0         0%          0      0%          0      0%          0          0%          4       1%
                           Land in Farms   126,195       125,638   100%               0         0%          0      0%          0      0%          0          0%        557       0%

        OH                 Population       34,966        34,451    99%            405          1%         28      0%         30      0%              3      0%         49       0%
        Brown County       Borrowers            43            43   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                           Farms             1,493         1,479    99%             10          1%          0      0%          0      0%              0      0%          4       0%
                           Land in Farms   202,188       200,973    99%            784          0%          0      0%          0      0%              0      0%        431       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1227
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian              Other                 Hispanic
                                            Total        Number     Percent     Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                  Population      291,479       273,854    94%         13,069       4%        363      0%      2,611      1%        115          0%      1,467       1%
        Butler County       Borrowers            12            11    92%              0       0%          0      0%          0      0%          0          0%          1       8%
                            Farms               902           902   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   138,297       138,297   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population       26,521        26,192    99%            134       1%         65      0%         29      0%              2      0%         99       0%
        Carroll County      Borrowers            32            32   100%              0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               689           689   100%              0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   122,480       122,480   100%              0       0%          0      0%          0      0%              0      0%          0       0%

        OH                  Population       36,019        34,564    96%            986       3%         68      0%        111      0%         44          0%        246       1%
        Champaign County    Borrowers            24            22    92%              0       0%          1      4%          0      0%          0          0%          1       4%
                            Farms               871           860    99%              7       1%          0      0%          0      0%          0          0%          4       0%
                            Land in Farms   215,796       215,796   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population      147,548       132,640    90%         12,954       9%        277      0%        627      0%         80          0%        970       1%
        Clark County        Borrowers            35            33    94%              0       0%          2      6%          0      0%          0          0%          0       0%
                            Farms               732           732   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   179,280       179,280   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population      150,187       147,494    98%           1,274      1%        214      0%        450      0%         34          0%        721       0%
        Clermont County     Borrowers             6             5    83%               1     17%          0      0%          0      0%          0          0%          0       0%
                            Farms               821           818   100%               3      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    99,214        99,214   100%               0      0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population       35,415        34,373    97%            713       2%         54      0%        138      0%         15          0%        122       0%
        Clinton County      Borrowers            36            34    94%              0       0%          2      6%          0      0%          0          0%          0       0%
                            Farms               785           785   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   227,382       227,382   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population      108,276       106,057    98%           1,406      1%        165      0%        215      0%         28          0%        405       0%
        Columbiana County   Borrowers            19            19   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               977           977   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   143,773       143,773   100%               0      0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population       35,427        34,723    98%            414       1%         67      0%        112      0%              5      0%        106       0%
        Coshocton County    Borrowers            13            12    92%              0       0%          0      0%          0      0%              1      8%          0       0%
                            Farms               810           810   100%              0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   161,724       161,724   100%              0       0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1228
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian              Other                 Hispanic
                                            Total        Number     Percent     Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                 Population        47,870        47,188    99%            252       1%         66      0%        111      0%              7      0%        246       1%
        Crawford County    Borrowers             12            11    92%              0       0%          0      0%          0      0%              1      8%          0       0%
                           Farms                766           766   100%              0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    223,216       223,216   100%              0       0%          0      0%          0      0%              0      0%          0       0%

        OH                 Population      1,412,140    1,011,481    72%        348,153      25%      2,311      0%     17,736      1%      1,012          0%     31,447       2%
        Cuyahoga County    Borrowers               0            0     0%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 133          133   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms       4,060        4,060   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population        53,619        52,874    99%            183       0%         90      0%        109      0%         20          0%        343       1%
        Darke County       Borrowers             61            61   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms              1,905         1,898   100%              3       0%          0      0%          0      0%          0          0%          4       0%
                           Land in Farms    335,575       335,575   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population        39,350        35,999    91%            472       1%         63      0%        118      0%         25          0%      2,673       7%
        Defiance County    Borrowers             14            14   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms                830           830   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    196,759       196,759   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population        66,929        64,670    97%           1,411      2%        101      0%        377      1%         34          0%        336       1%
        Delaware County    Borrowers             18            18   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                688           688   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    169,017       169,017   100%               0      0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population        76,779        68,861    90%           6,264      8%        140      0%        256      0%         78          0%      1,180       2%
        Erie County        Borrowers              4             4   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                406           406   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms     88,899        88,899   100%               0      0%          0      0%          0      0%          0          0%          0       0%

        OH                 Population       103,461       101,269    98%           1,125      1%        182      0%        374      0%         22          0%        489       0%
        Fairfield County   Borrowers             27            27   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms              1,058         1,055   100%               0      0%          0      0%          0      0%          0          0%          3       0%
                           Land in Farms    197,736       197,532   100%               0      0%          0      0%          0      0%          0          0%        204       0%

        OH                 Population        27,466        26,544    97%            655       2%         49      0%         98      0%         31          0%         89       0%
        Fayette County     Borrowers             30            30   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms                558           558   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    235,971       235,971   100%              0       0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1229
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian              Other             Hispanic
                                          Total        Number     Percent     Number        Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
        OH                Population      961,437       778,255    81%        151,943         16%      1,943      0%     18,968      2%      1,092      0%      9,236       1%
        Franklin County   Borrowers             9             9   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Farms               484           484   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Land in Farms    97,020        97,020   100%              0          0%          0      0%          0      0%          0      0%          0       0%

        OH                Population       38,498        36,367    94%                 85      0%         57      0%        134      0%         13      0%      1,842       5%
        Fulton County     Borrowers            14            14   100%                  0      0%          0      0%          0      0%          0      0%          0       0%
                          Farms               847           847   100%                  0      0%          0      0%          0      0%          0      0%          0       0%
                          Land in Farms   205,633       205,633   100%                  0      0%          0      0%          0      0%          0      0%          0       0%

        OH                Population       30,954        29,727    96%            856          3%         72      0%        133      0%         10      0%        156       1%
        Gallia County     Borrowers            19            19   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Farms               797           786    99%              3          0%          4      1%          0      0%          0      0%          4       1%
                          Land in Farms   109,820       109,133    99%            283          0%        404      0%          0      0%          0      0%          0       0%

        OH                Population       81,129        79,379    98%           1,056         1%         79      0%        306      0%         15      0%        294       0%
        Geauga County     Borrowers             0             0     0%               0         0%          0      0%          0      0%          0      0%          0       0%
                          Farms               622           622   100%               0         0%          0      0%          0      0%          0      0%          0       0%
                          Land in Farms    65,266        65,266   100%               0         0%          0      0%          0      0%          0      0%          0       0%

        OH                Population      136,731       123,209     90%          9,516         7%        370      0%      2,104      2%        153      0%      1,379       1%
        Greene County     Borrowers            32            29     91%              0         0%          3      9%          0      0%          0      0%          0       0%
                          Farms               835           826     99%              6         1%          0      0%          0      0%          0      0%          3       0%
                          Land in Farms   184,280       183,323     99%             23         0%          0      0%          0      0%          0      0%        934       1%

        OH                Population       39,024        38,062    98%            613          2%         70      0%        132      0%         17      0%        130       0%
        Guernsey County   Borrowers            13            13   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Farms               769           769   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Land in Farms   127,867       127,867   100%              0          0%          0      0%          0      0%          0      0%          0       0%

        OH                Population      866,228       669,704    77%        180,531         21%      1,125      0%      8,965      1%        705      0%      5,198       1%
        Hamilton County   Borrowers             1             1   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Farms               313           313   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Land in Farms    28,983        28,983   100%              0          0%          0      0%          0      0%          0      0%          0       0%

        OH                Population       65,536        62,808    96%            562          1%         81      0%        383      1%         22      0%      1,680       3%
        Hancock County    Borrowers            17            17   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Farms             1,032         1,032   100%              0          0%          0      0%          0      0%          0      0%          0       0%
                          Land in Farms   275,644       275,644   100%              0          0%          0      0%          0      0%          0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                 Page 1230
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian              Other                 Hispanic
                                          Total        Number     Percent     Number        Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                Population       31,111        30,555    98%            232          1%         57      0%        112      0%         10          0%        145       0%
        Hardin County     Borrowers            15            15   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Farms               896           896   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   248,400       248,400   100%              0          0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       16,085        15,610    97%            388          2%         22      0%         15      0%              7      0%         43       0%
        Harrison County   Borrowers             7             6    86%              0          0%          1     14%          0      0%              0      0%          0       0%
                          Farms               393           393   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   113,329       113,329   100%              0          0%          0      0%          0      0%              0      0%          0       0%

        OH                Population       29,108        27,487    94%            147          1%         44      0%         87      0%         11          0%      1,332       5%
        Henry County      Borrowers             9             9   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Farms               955           955   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   245,049       245,049   100%              0          0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       35,728        34,785    97%            685          2%         72      0%         71      0%              7      0%        108       0%
        Highland County   Borrowers            23            23   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Farms             1,153         1,149   100%              0          0%          0      0%          0      0%              0      0%          4       0%
                          Land in Farms   230,988       230,624   100%              0          0%          0      0%          0      0%              0      0%        364       0%

        OH                Population       25,533        25,118    98%            234          1%         55      0%         24      0%              9      0%         93       0%
        Hocking County    Borrowers             3             3   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Farms               355           355   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    48,050        48,050   100%              0          0%          0      0%          0      0%              0      0%          0       0%

        OH                Population       32,849        32,607    99%                 52      0%         21      0%         43      0%              3      0%        123       0%
        Holmes County     Borrowers            12            12   100%                  0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms             1,443         1,438   100%                  0      0%          0      0%          0      0%              0      0%          5       0%
                          Land in Farms   177,194       176,177    99%                  0      0%          0      0%          0      0%              0      0%      1,017       1%

        OH                Population       56,240        54,390    97%            589          1%         84      0%        148      0%         23          0%      1,006       2%
        Huron County      Borrowers            20            20   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Farms               843           838    99%              0          0%          0      0%          0      0%          0          0%          5       1%
                          Land in Farms   219,023       218,091   100%              0          0%          0      0%          0      0%          0          0%        932       0%

        OH                Population       30,230        29,828    99%            217          1%         52      0%         36      0%              8      0%         89       0%
        Jackson County    Borrowers             7             7   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Farms               385           385   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    74,461        74,461   100%              0          0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1231
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American             Asian              Other             Hispanic
                                           Total        Number     Percent     Number     Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
        OH                 Population       80,298        74,941    93%           4,484      6%        156      0%        252      0%         39      0%        426       1%
        Jefferson County   Borrowers             8             8   100%               0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               377           374    99%               3      1%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    68,344        67,829    99%             515      1%          0      0%          0      0%          0      0%          0       0%

        OH                 Population       47,473        46,622    98%            374       1%         91      0%        192      0%         23      0%        171       0%
        Knox County        Borrowers            64            63    98%              0       0%          1      2%          0      0%          0      0%          0       0%
                           Farms             1,102         1,102   100%              0       0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms   210,601       210,601   100%              0       0%          0      0%          0      0%          0      0%          0       0%

        OH                 Population      215,499       208,835    97%           3,461      2%        240      0%      1,416      1%         78      0%      1,469       1%
        Lake County        Borrowers             1             1   100%               0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               272           272   100%               0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    17,138        17,138   100%               0      0%          0      0%          0      0%          0      0%          0       0%

        OH                 Population       61,834        60,003    97%           1,555      3%         57      0%         70      0%         10      0%        139       0%
        Lawrence County    Borrowers             8             8   100%               0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               512           509    99%               0      0%          0      0%          0      0%          0      0%          3       1%
                           Land in Farms    61,999        61,815   100%               0      0%          0      0%          0      0%          0      0%        184       0%

        OH                 Population      128,300       124,737    97%           2,198      2%        244      0%        459      0%         58      0%        604       0%
        Licking County     Borrowers            33            33   100%               0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms             1,256         1,256   100%               0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms   227,327       227,327   100%               0      0%          0      0%          0      0%          0      0%          0       0%

        OH                 Population       42,310        41,046    97%            798       2%         58      0%        234      1%         15      0%        159       0%
        Logan County       Borrowers            24            24   100%              0       0%          0      0%          0      0%          0      0%          0       0%
                           Farms               808           808   100%              0       0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms   202,927       202,927   100%              0       0%          0      0%          0      0%          0      0%          0       0%

        OH                 Population      271,126       232,874    86%         20,696       8%        680      0%      1,435      1%        180      0%     15,261       6%
        Lorain County      Borrowers            28            28   100%              0       0%          0      0%          0      0%          0      0%          0       0%
                           Farms               850           847   100%              0       0%          0      0%          0      0%          0      0%          3       0%
                           Land in Farms   142,624       142,564   100%              0       0%          0      0%          0      0%          0      0%         60       0%

        OH                 Population      462,361       372,497    81%         67,856      15%      1,037      0%      4,870      1%        443      0%     15,658       3%
        Lucas County       Borrowers             0             0     0%              0       0%          0      0%          0      0%          0      0%          0       0%
                           Farms               411           407    99%              4       1%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    74,037        73,972   100%             65       0%          0      0%          0      0%          0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                              Page 1232
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian              Other                 Hispanic
                                          Total        Number     Percent     Number        Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                Population       37,068        33,837    91%           2,739         7%         90      0%        148      0%         38          0%        216       1%
        Madison County    Borrowers            39            39   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms               664           664   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   261,320       261,320   100%               0         0%          0      0%          0      0%          0          0%          0       0%

        OH                Population      264,806       218,122    82%         39,213         15%        409      0%        962      0%        154          0%      5,946       2%
        Mahoning County   Borrowers             3             3   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Farms               580           577    99%              0          0%          3      1%          0      0%          0          0%          0       0%
                          Land in Farms    73,484        73,484   100%              0          0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       64,274        60,644    94%           2,688         4%        139      0%        281      0%         37          0%        485       1%
        Marion County     Borrowers             9             9   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms               596           596   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   217,397       217,397   100%               0         0%          0      0%          0      0%          0          0%          0       0%

        OH                Population      122,354       119,934    98%            847          1%        165      0%        673      1%         24          0%        711       1%
        Medina County     Borrowers            20            19    95%              0          0%          0      0%          0      0%          0          0%          1       5%
                          Farms               906           895    99%              5          1%          0      0%          0      0%          0          0%          6       1%
                          Land in Farms   103,857       103,485   100%            193          0%          0      0%          0      0%          0          0%        179       0%

        OH                Population       22,987        22,690    99%            177          1%         41      0%         19      0%              1      0%         59       0%
        Meigs County      Borrowers             9             9   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Farms               493           490    99%              0          0%          0      0%          0      0%              0      0%          3       1%
                          Land in Farms    87,036        86,628   100%              0          0%          0      0%          0      0%              0      0%        408       0%

        OH                Population       39,443        38,972    99%                 12      0%         74      0%         98      0%              7      0%        280       1%
        Mercer County     Borrowers            31            30    97%                  0      0%          0      0%          0      0%              1      3%          0       0%
                          Farms             1,393         1,388   100%                  0      0%          0      0%          0      0%              0      0%          5       0%
                          Land in Farms   269,163       269,163   100%                  0      0%          0      0%          0      0%              0      0%          0       0%

        OH                Population       93,182        90,261    97%           1,769         2%        149      0%        597      1%         40          0%        366       0%
        Miami County      Borrowers            21            20    95%               0         0%          0      0%          0      0%          1          5%          0       0%
                          Farms             1,017         1,017   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   200,405       200,405   100%               0         0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       15,497        15,415    99%                 19      0%         26      0%         12      0%              1      0%         24       0%
        Monroe County     Borrowers             9             9   100%                  0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms               628           628   100%                  0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   109,986       109,986   100%                  0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1233
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number        Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        OH                  Population      573,809       460,568    80%        101,421         18%      1,019      0%      5,757          1%        505          0%      4,539       1%
        Montgomery County   Borrowers            14            14   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms               806           795    99%              8          1%          0      0%          0          0%          0          0%          3       0%
                            Land in Farms   107,157       106,794   100%            250          0%          0      0%          0          0%          0          0%        113       0%

        OH                  Population       14,194        13,493    95%            570          4%         63      0%         12          0%         20          0%         36        0%
        Morgan County       Borrowers             8             6    75%              0          0%          0      0%          1         13%          0          0%          1       13%
                            Farms               559           552    99%              3          1%          0      0%          0          0%          0          0%          4        1%
                            Land in Farms   113,892       113,576   100%              0          0%          0      0%          0          0%          0          0%        316        0%

        OH                  Population       27,749        27,504    99%                 63      0%         49      0%         38          0%              3      0%         92       0%
        Morrow County       Borrowers            28            27    96%                  0      0%          1      4%          0          0%              0      0%          0       0%
                            Farms               746           746   100%                  0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   164,607       164,607   100%                  0      0%          0      0%          0          0%              0      0%          0       0%

        OH                  Population       82,068        77,953    95%           3,440         4%        208      0%        147          0%         73          0%        247       0%
        Muskingum County    Borrowers            24            23    96%               0         0%          1      4%          0          0%          0          0%          0       0%
                            Farms             1,051         1,047   100%               0         0%          0      0%          0          0%          0          0%          4       0%
                            Land in Farms   187,718       187,718   100%               0         0%          0      0%          0          0%          0          0%          0       0%

        OH                  Population       11,336        11,282   100%                 7       0%         15      0%              9      0%              0      0%         23       0%
        Noble County        Borrowers             7             7   100%                 0       0%          0      0%              0      0%              0      0%          0       0%
                            Farms               551           551   100%                 0       0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms   104,197       104,197   100%                 0       0%          0      0%              0      0%              0      0%          0       0%

        OH                  Population       40,029        38,132    95%            261          1%         46      0%         87          0%         12          0%      1,491       4%
        Ottawa County       Borrowers             9             9   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms               522           522   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   106,573       106,573   100%              0          0%          0      0%          0          0%          0          0%          0       0%

        OH                  Population       20,488        19,580    96%            210          1%         43      0%         17          0%         10          0%        628       3%
        Paulding County     Borrowers            12            11    92%              1          8%          0      0%          0          0%          0          0%          0       0%
                            Farms               621           621   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   219,037       219,037   100%              0          0%          0      0%          0          0%          0          0%          0       0%

        OH                  Population       31,557        31,345    99%                 57      0%         45      0%         18          0%         11          0%         81       0%
        Perry County        Borrowers            11            11   100%                  0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms               580           580   100%                  0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms    96,060        96,060   100%                  0      0%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1234
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian              Other                 Hispanic
                                          Total        Number     Percent     Number        Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                Population       48,255        44,711    93%           2,990         6%        119      0%         90      0%         22          0%        323       1%
        Pickaway County   Borrowers            31            31   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms               683           683   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   259,390       259,390   100%               0         0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       24,249        23,736    98%            327          1%         71      0%         40      0%              1      0%         74       0%
        Pike County       Borrowers             3             3   100%              0          0%          0      0%          0      0%              0      0%          0       0%
                          Farms               378           375    99%              3          1%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    87,954        87,654   100%            300          0%          0      0%          0      0%              0      0%          0       0%

        OH                Population      142,585       136,407    96%           3,867         3%        281      0%      1,175      1%         57          0%        798       1%
        Portage County    Borrowers            15            14    93%               0         0%          1      7%          0      0%          0          0%          0       0%
                          Farms               721           721   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms    96,293        96,293   100%               0         0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       40,113        39,746    99%            141          0%         49      0%         62      0%         10          0%        105       0%
        Preble County     Borrowers            40            40   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Farms             1,067         1,067   100%              0          0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   204,079       204,079   100%              0          0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       33,819        32,313    96%                 25      0%         31      0%         24      0%              8      0%      1,418       4%
        Putnam County     Borrowers             4             4   100%                  0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms             1,473         1,473   100%                  0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   286,698       286,698   100%                  0      0%          0      0%          0      0%              0      0%          0       0%

        OH                Population      126,137       114,444    91%           9,914         8%        217      0%        572      0%         87          0%        903       1%
        Richland County   Borrowers            11            10    91%               1         9%          0      0%          0      0%          0          0%          0       0%
                          Farms               922           916    99%               3         0%          0      0%          0      0%          0          0%          3       0%
                          Land in Farms   160,734       160,391   100%               0         0%          0      0%          0      0%          0          0%        343       0%

        OH                Population       69,330        64,137    93%           4,412         6%        146      0%        265      0%         24          0%        346       0%
        Ross County       Borrowers            20            20   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms               809           799    99%               7         1%          0      0%          0      0%          0          0%          3       0%
                          Land in Farms   253,383       252,259   100%           1,124         0%          0      0%          0      0%          0          0%          0       0%

        OH                Population       61,963        56,687    91%           1,490         2%         88      0%        128      0%         26          0%      3,544       6%
        Sandusky County   Borrowers            17            17   100%               0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms               850           846   100%               0         0%          0      0%          0      0%          0          0%          4       0%
                          Land in Farms   202,324       201,422   100%               0         0%          0      0%          0      0%          0          0%        902       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1235
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian              Other                 Hispanic
                                            Total        Number     Percent     Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        OH                  Population       80,327        77,074    96%           2,447      3%        403      1%        124      0%         18          0%        261       0%
        Scioto County       Borrowers             7             7   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               607           607   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    95,704        95,704   100%               0      0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population       59,733        56,574    95%           1,143      2%         78      0%        228      0%         34          0%      1,676       3%
        Seneca County       Borrowers            42            41    98%               0      0%          0      0%          0      0%          1          2%          0       0%
                            Farms             1,265         1,262   100%               0      0%          0      0%          0      0%          0          0%          3       0%
                            Land in Farms   296,368       296,238   100%               0      0%          0      0%          0      0%          0          0%        130       0%

        OH                  Population       44,915        43,673    97%            613       1%         47      0%        382      1%         15          0%        185       0%
        Shelby County       Borrowers             9             9   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Farms               971           964    99%              4       0%          0      0%          0      0%          0          0%          3       0%
                            Land in Farms   203,498       203,315   100%              0       0%          0      0%          0      0%          0          0%        183       0%

        OH                  Population      367,585       337,210    92%         24,895       7%        920      0%      1,507      0%        298          0%      2,755       1%
        Stark County        Borrowers            22            22   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,120         1,120   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   136,612       136,612   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population      514,990       444,821    86%         60,846      12%      1,021      0%      4,906      1%        379          0%      3,017       1%
        Summit County       Borrowers             3             3   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Farms               260           260   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    19,088        19,088   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population      227,813       209,819    92%         15,136       7%        328      0%        960      0%        116          0%      1,454       1%
        Trumbull County     Borrowers             8             8   100%              0       0%          0      0%          0      0%          0          0%          0       0%
                            Farms               842           839   100%              3       0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   120,519       120,519   100%              0       0%          0      0%          0      0%          0          0%          0       0%

        OH                  Population       84,090        82,911    99%            623       1%        136      0%        184      0%              8      0%        228       0%
        Tuscarawas County   Borrowers            13            13   100%              0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               922           922   100%              0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   148,479       148,479   100%              0       0%          0      0%          0      0%              0      0%          0       0%

        OH                  Population       31,969        30,471    95%           1,149      4%         52      0%        126      0%         12          0%        159       0%
        Union County        Borrowers            12            12   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               803           803   100%               0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   222,957       222,957   100%               0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1236
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number        Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        OH                  Population       30,464        29,674    97%            187          1%         28      0%         77          0%         16          0%        482       2%
        Van Wert County     Borrowers             4             4   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms               790           790   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   241,787       241,787   100%              0          0%          0      0%          0          0%          0          0%          0       0%

        OH                  Population       11,098        11,042    99%                 4       0%         16      0%              3      0%              0      0%         33       0%
        Vinton County       Borrowers             0             0     0%                 0       0%          0      0%              0      0%              0      0%          0       0%
                            Farms               205           205   100%                 0       0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms    41,666        41,666   100%                 0       0%          0      0%              0      0%              0      0%          0       0%

        OH                  Population      113,909       110,124    97%           2,385         2%        223      0%        626          1%         27          0%        524       0%
        Warren County       Borrowers             6             6   100%               0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms               792           792   100%               0         0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   129,416       129,416   100%               0         0%          0      0%          0          0%          0          0%          0       0%

        OH                  Population       62,254        60,931    98%            773          1%        111      0%        185          0%         29          0%        225       0%
        Washington County   Borrowers             8             8   100%              0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms               864           856    99%              4          0%          4      0%          0          0%          0          0%          0       0%
                            Land in Farms   139,655       138,397    99%            903          1%        355      0%          0          0%          0          0%          0       0%

        OH                  Population      101,461        98,804    97%           1,547         2%        125      0%        526          1%         30          0%        429       0%
        Wayne County        Borrowers            32            32   100%               0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms             1,582         1,577   100%               0         0%          0      0%          0          0%          0          0%          5       0%
                            Land in Farms   246,938       246,542   100%               0         0%          0      0%          0          0%          0          0%        396       0%

        OH                  Population       36,956        35,934    97%                 20      0%         44      0%        125          0%              7      0%        826       2%
        Williams County     Borrowers             9             9   100%                  0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               763           763   100%                  0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   187,175       187,175   100%                  0      0%          0      0%          0          0%              0      0%          0       0%

        OH                  Population      113,269       107,989     95%          1,149         1%        174      0%      1,014          1%         61          0%      2,882       3%
        Wood County         Borrowers             9             8     89%              0         0%          0      0%          0          0%          1         11%          0       0%
                            Farms             1,089         1,082     99%              0         0%          0      0%          0          0%          0          0%          7       1%
                            Land in Farms   302,456       300,303     99%              0         0%          0      0%          0          0%          0          0%      2,153       1%

        OH                  Population       22,254        21,985    99%                 19      0%         20      0%         65          0%              3      0%        162       1%
        Wyandot County      Borrowers            15            14    93%                  0      0%          1      7%          0          0%              0      0%          0       0%
                            Farms               674           674   100%                  0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   216,318       216,318   100%                  0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1237
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian              Other             Hispanic
                                            Total        Number     Percent     Number     Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
        OH               Population       10,847,115    9,444,622    87%       1,147,440     11%     19,137      0%     89,195      1%      7,025      0%     139,696      1%
        STATE            Borrowers             1,507        1,476    98%               4      0%         16      1%          1      0%          6      0%           4      0%
                         Farms                70,711       70,496   100%              92      0%         19      0%          0      0%          0      0%         104      0%
                         Land in Farms    14,247,969   14,231,588   100%           4,843      0%      1,419      0%          0      0%          0      0%      10,119      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                               Page 1238
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   ADAMS, OHIO                                          ALLEN, OHIO                                  ASHLAND, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       45                        13                         12                        4                      20                        9
                              Loans                          103                        36                         27                       16                      54                       27
                              Principal and Interest   6,356,428                   667,177                  2,131,289                  359,966               4,306,069                  474,820

WHITE                         Borrowers                       45       100%             13        100%             12       100%             4     100%             20       100%             9     100%
                              Loans                          103       100%             36        100%             27       100%            16     100%             54       100%            27     100%
                              Principal and Interest   6,356,428       100%        667,177        100%      2,131,289       100%       359,966     100%      4,306,069       100%       474,820     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1239
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             ASHTABULA, OHIO                                            ATHENS, OHIO                                AUGLAIZE, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       27                        10                         15                        2                      26                        9
                              Loans                           59                        29                         43                        6                      60                       28
                              Principal and Interest   3,505,756                   384,784                  2,006,490                  108,358               4,468,898                  957,839
WHITE                         Borrowers                       27       100%             10        100%             15       100%             2     100%             25         96%            8       89%
                              Loans                           59       100%             29        100%             43       100%             6     100%             58         97%           27       96%
                              Principal and Interest   3,505,756       100%        384,784        100%      2,006,490       100%       108,358     100%      4,023,063         90%      779,111       81%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           4%            1       11%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            2           3%            1        4%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      445,834          10%      178,728       19%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1240
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               BELMONT, OHIO                                            BROWN, OHIO                                      BUTLER, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                         5                         43                        21                     12                        3
                              Loans                           36                        13                        100                        53                     31                        5
                              Principal and Interest   1,714,450                   225,448                  6,238,950                 1,314,456              2,674,625                   76,311
WHITE                         Borrowers                       13         87%             5        100%             43       100%             21    100%             11         92%            3     100%
                              Loans                           30         83%            13        100%            100       100%             53    100%             28         90%            5     100%
                              Principal and Interest   1,289,141         75%       225,448        100%      6,238,950       100%      1,314,456    100%      2,636,259         99%       76,311     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        2         13%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            6         17%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     425,309         25%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           8%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            3          10%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%       38,366           1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1241
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               CARROLL, OHIO                                     CHAMPAIGN, OHIO                                         CLARK, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       32                        15                         24                        9                      35                        9
                              Loans                           88                        34                         39                       14                      63                       19
                              Principal and Interest   5,799,957                   918,804                  3,617,535                  161,005               6,047,646                  248,597
WHITE                         Borrowers                       32       100%             15        100%             22         92%            7       78%            33         94%            9     100%
                              Loans                           88       100%             34        100%             37         95%           12       86%            61         97%           19     100%
                              Principal and Interest   5,799,957       100%        918,804        100%      3,352,129         93%      149,924       93%     5,541,658         92%      248,597     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%            1           4%             1      11%            2           6%              0      0%
                              Loans                                0      0%                  0      0%            1           3%             1       7%            2           3%              0      0%
                              Principal and Interest               0      0%                  0      0%      262,693           7%        10,683       7%      505,988           8%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%             1          4%             1      11%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1          3%             1       7%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%         2,713          0%           398       0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1242
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              CLERMONT, OHIO                                        CLINTON, OHIO                               COLUMBIANA, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        6                         3                         36                       12                      19                       11
                              Loans                           17                         9                         74                       24                      47                       30
                              Principal and Interest   1,328,352                   296,850                  6,253,130                  465,528               4,003,844                  752,601

WHITE                         Borrowers                        5         83%             3        100%             34         94%           12     100%             19       100%            11     100%
                              Loans                           12         71%             9        100%             69         93%           24     100%             47       100%            30     100%
                              Principal and Interest   1,249,660         94%       296,850        100%      6,133,584         98%      465,528     100%      4,003,844       100%       752,601     100%

AFRICAN AMERICAN              Borrowers                        1         17%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            5         29%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      78,692          6%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 2      6%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            5           7%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      119,547           2%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1243
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            COSHOCTON, OHIO                                       CRAWFORD, OHIO                                          DARKE, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                         8                         12                        1                       61                        28
                              Loans                           23                        14                         16                        2                      161                        91
                              Principal and Interest   2,329,213                   301,994                  1,532,292                  251,879               12,924,488                 2,084,271
WHITE                         Borrowers                       12         92%             8        100%             11        92%             1     100%              61       100%        28         100%
                              Loans                           22         96%            14        100%             15        94%             2     100%             161       100%        91         100%
                              Principal and Interest   2,304,815         99%       301,994        100%      1,524,694       100%       251,879     100%      12,924,488       100% 2,084,271         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                        1          8%                  0      0%             1          8%              0      0%                  0      0%              0      0%
                              Loans                            1          4%                  0      0%             1          6%              0      0%                  0      0%              0      0%
                              Principal and Interest      24,398          1%                  0      0%         7,598          0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1244
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               DEFIANCE, OHIO                                     DELAWARE, OHIO                                             ERIE, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                         3                         18                        9                      4                           1
                              Loans                           29                         7                         41                       21                      6                           1
                              Principal and Interest   2,831,141                   517,163                  3,015,798                  338,233                626,553                         737
WHITE                         Borrowers                       14       100%              3        100%             18       100%             9     100%             4         100%              1    100%
                              Loans                           29       100%              7        100%             41       100%            21     100%             6         100%              1    100%
                              Principal and Interest   2,831,141       100%        517,163        100%      3,015,798       100%       338,233     100%       626,553         100%            737    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1245
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              FAIRFIELD, OHIO                                       FAYETTE, OHIO                                   FRANKLIN, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       27                        12                         30                        7                       9                         2
                              Loans                           76                        42                         45                       16                      36                        25
                              Principal and Interest   7,517,927                 2,258,514                  3,516,458                  214,118               2,178,770                 1,115,200
WHITE                         Borrowers                       27       100%             12        100%             30       100%             7     100%              9       100%         2         100%
                              Loans                           76       100%             42        100%             45       100%            16     100%             36       100%        25         100%
                              Principal and Interest   7,517,927       100%      2,258,514        100%      3,516,458       100%       214,118     100%      2,178,770       100% 1,115,200         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1246
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   FULTON, OHIO                                         GALLIA, OHIO                                     GREENE, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                         3                         19                        8                      32                        7
                              Loans                           17                         5                         49                       27                      52                       15
                              Principal and Interest   3,016,692                   124,722                  2,610,729                  462,971               5,217,324                  426,889
WHITE                         Borrowers                       14       100%              3        100%             19       100%             8     100%             29         91%            7     100%
                              Loans                           17       100%              5        100%             49       100%            27     100%             49         94%           15     100%
                              Principal and Interest   3,016,692       100%        124,722        100%      2,610,729       100%       462,971     100%      4,752,902         91%      426,889     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%            3           9%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            3           6%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      464,421           9%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1247
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              GUERNSEY, OHIO                                      HAMILTON, OHIO                                    HANCOCK, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                          4                        1                           0                    17                        1
                              Loans                           39                         10                        3                           0                    28                        1
                              Principal and Interest   1,217,541                      8,711                   33,557                           0             2,713,594                  117,921

WHITE                         Borrowers                       13       100%               4       100%             1        100%               0      0%            17       100%             1     100%
                              Loans                           39       100%              10       100%             3        100%               0      0%            28       100%             1     100%
                              Principal and Interest   1,217,541       100%           8,711       100%        33,557        100%               0      0%     2,713,594       100%       117,921     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1248
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   HARDIN, OHIO                                    HARRISON, OHIO                                        HENRY, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                         3                          7                         1                      9                        1
                              Loans                           27                         4                         20                         2                     10                        1
                              Principal and Interest   2,432,509                    84,211                  1,159,379                    14,955              1,169,004                   91,457

WHITE                         Borrowers                       15       100%              3        100%              6         86%             1    100%              9       100%             1     100%
                              Loans                           27       100%              4        100%             18         90%             2    100%             10       100%             1     100%
                              Principal and Interest   2,432,509       100%         84,211        100%      1,069,373         92%        14,955    100%      1,169,004       100%        91,457     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 1     14%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            2          10%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       90,006           8%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1249
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HIGHLAND, OHIO                                        HOCKING, OHIO                                    HOLMES, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       23                         5                         3                         1                      12                        3
                              Loans                           56                         6                         8                         5                      33                        7
                              Principal and Interest   2,691,090                    17,528                   468,861                   163,582               2,536,318                  156,317
WHITE                         Borrowers                       23       100%              5        100%             3        100%             1     100%             12       100%             3     100%
                              Loans                           56       100%              6        100%             8        100%             5     100%             33       100%             7     100%
                              Principal and Interest   2,691,090       100%         17,528        100%       468,861        100%       163,582     100%      2,536,318       100%       156,317     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1250
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   HURON, OHIO                                      JACKSON, OHIO                                  JEFFERSON, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                        10                          7                        4                       8                        3
                              Loans                           51                        30                         22                       12                      14                        4
                              Principal and Interest   4,364,438                 1,044,477                  1,215,131                  128,323               1,571,197                  396,733

WHITE                         Borrowers                       20       100%             10        100%              7       100%             4     100%              8       100%             3     100%
                              Loans                           51       100%             30        100%             22       100%            12     100%             14       100%             4     100%
                              Principal and Interest   4,364,438       100%      1,044,477        100%      1,215,131       100%       128,323     100%      1,571,197       100%       396,733     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1251
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    KNOX, OHIO                                               LAKE, OHIO                              LAWRENCE, OHIO
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        64                        26                         1                            0                     8                        5
                              Loans                           134                        64                         2                            0                    28                       23
                              Principal and Interest   12,962,454                 2,291,376                    84,786                            0             1,452,283                  349,716
WHITE                         Borrowers                        63         98%            26        100%             1         100%               0      0%             8       100%             5     100%
                              Loans                           133         99%            64        100%             2         100%               0      0%            28       100%            23     100%
                              Principal and Interest   12,708,022         98%     2,291,376        100%        84,786         100%               0      0%     1,452,283       100%       349,716     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                         1          2%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                             1          1%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest      254,432          2%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1252
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LICKING, OHIO                                        LOGAN, OHIO                                      LORAIN, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                         8                         24                         8                     28                       11
                              Loans                           59                        21                         40                        14                     73                       36
                              Principal and Interest   3,647,405                   705,160                  4,977,297                 1,152,037              6,341,669                  991,249

WHITE                         Borrowers                       33       100%              8        100%             24       100%              8    100%             28       100%            11     100%
                              Loans                           59       100%             21        100%             40       100%             14    100%             73       100%            36     100%
                              Principal and Interest   3,647,405       100%        705,160        100%      4,977,297       100%      1,152,037    100%      6,341,669       100%       991,249     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1253
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   MADISON, OHIO                                  MAHONING, OHIO                                         MARION, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       39                        15                         3                          2                      9                        1
                              Loans                           77                        41                         5                          2                     14                        1
                              Principal and Interest   5,777,584                   593,654                   339,053                     13,309              1,558,153                   16,760

WHITE                         Borrowers                       39       100%             15        100%             3        100%              2    100%              9       100%             1     100%
                              Loans                           77       100%             41        100%             5        100%              2    100%             14       100%             1     100%
                              Principal and Interest   5,777,584       100%        593,654        100%       339,053        100%         13,309    100%      1,558,153       100%        16,760     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1254
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   MEDINA, OHIO                                         MEIGS, OHIO                                  MERCER, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                         9                          9                        4                      31                       10
                              Loans                           37                        19                         34                       20                      77                       37
                              Principal and Interest   3,640,539                   535,913                  1,689,410                  239,694               6,685,325                  991,169
WHITE                         Borrowers                       19         95%             9        100%              9       100%             4     100%             30         97%           10     100%
                              Loans                           36         97%            19        100%             34       100%            20     100%             73         95%           37     100%
                              Principal and Interest   3,583,634         98%       535,913        100%      1,689,410       100%       239,694     100%      6,609,842         99%      991,169     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            4           5%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       75,483           1%              0      0%
HISPANIC                      Borrowers                        1          5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest      56,905          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1255
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   MIAMI, OHIO                                      MONROE, OHIO                               MONTGOMERY, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                         7                         9                          4                     14                        7
                              Loans                           51                        16                        23                          9                     37                       20
                              Principal and Interest   3,244,336                   322,765                   573,746                     29,098              2,588,939                  544,872

WHITE                         Borrowers                       20         95%             7        100%             9        100%              4    100%             14       100%             7     100%
                              Loans                           49         96%            16        100%            23        100%              9    100%             37       100%            20     100%
                              Principal and Interest   3,177,771         98%       322,765        100%       573,746        100%         29,098    100%      2,588,939       100%       544,872     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      66,565          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1256
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   MORGAN, OHIO                                     MORROW, OHIO                                 MUSKINGUM, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        8                         3                         28                        10                     24                        4
                              Loans                           21                         7                         92                        52                     41                       10
                              Principal and Interest     992,018                    48,099                  6,106,812                 1,538,766              2,838,072                  204,437

WHITE                         Borrowers                        6         75%             3        100%             27         96%            10    100%             23         96%            4     100%
                              Loans                           18         86%             7        100%             89         97%            52    100%             40         98%           10     100%
                              Principal and Interest     749,499         76%        48,099        100%      6,049,958         99%     1,538,766    100%      2,746,734         97%      204,437     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 1      4%              0      0%                 1      4%              0      0%
                              Loans                                0      0%                  0      0%            3           3%              0      0%            1           2%              0      0%
                              Principal and Interest               0      0%                  0      0%       56,853           1%              0      0%       91,338           3%              0      0%

ASIAN                         Borrowers                         1        13%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             1         5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest        1,518         0%                  0                         0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            1     13%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                2     10%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest     241,001         24%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1257
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   NOBLE, OHIO                                          OTTAWA, OHIO                                PAULDING, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                          3                         9                          0                    12                        6
                              Loans                            8                          3                        10                          0                    18                        7
                              Principal and Interest     203,318                      7,299                 1,126,930                          0             1,846,226                   55,101

WHITE                         Borrowers                        7       100%               3       100%              9       100%               0      0%            11         92%            6     100%
                              Loans                            8       100%               3       100%             10       100%               0      0%            17         94%            7     100%
                              Principal and Interest     203,318       100%           7,299       100%      1,126,930       100%               0      0%     1,724,973         93%       55,101     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           8%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            1           6%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      121,253           7%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1258
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    PERRY, OHIO                                    PICKAWAY, OHIO                                             PIKE, OHIO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                          3                         31                        13                     3                          1
                              Loans                           22                         11                         67                        32                     6                          1
                              Principal and Interest   1,833,340                    264,891                  5,011,646                 1,017,385               534,054                     11,592

WHITE                         Borrowers                            11   100%               3       100%              31      100%              13   100%                  3    100%               1   100%
                              Loans                                22   100%              11       100%              67      100%              32   100%                  6    100%               1   100%
                              Principal and Interest   1,833,340        100%        264,891        100%      5,011,646       100%      1,017,385    100%       534,054         100%        11,592     100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%              0      0%                 0       0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1259
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               PORTAGE, OHIO                                            PREBLE, OHIO                                     PUTNAM, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                        11                         40                       19                      4                          1
                              Loans                           44                        30                        123                       59                      6                          2
                              Principal and Interest   4,406,184                   768,911                  7,945,515                  772,942                410,756                      3,931
WHITE                         Borrowers                       14         93%            10          91%            40       100%            19     100%             4        100%              1    100%
                              Loans                           40         91%            27          90%           123       100%            59     100%             6        100%              2    100%
                              Principal and Interest   4,201,181         95%       757,267          98%     7,945,515       100%       772,942     100%       410,756        100%          3,931    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1          7%             1           9%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            4          9%             3          10%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     205,003          5%        11,644           2%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1260
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              RICHLAND, OHIO                                                ROSS, OHIO                              SANDUSKY, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         2                         20                         9                      17                        3
                              Loans                           16                         2                         42                        23                      29                        6
                              Principal and Interest   1,620,344                    22,878                  3,284,177                   538,523               2,531,381                  223,164

WHITE                         Borrowers                       10         91%              1         50%            20        100%             9     100%             17       100%             3     100%
                              Loans                           15         94%              1         50%            42        100%            23     100%             29       100%             6     100%
                              Principal and Interest   1,470,547         91%          9,584         42%     3,284,177        100%       538,523     100%      2,531,381       100%       223,164     100%

AFRICAN AMERICAN              Borrowers                        1          9%             1          50%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                            1          6%             1          50%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest     149,797          9%        13,294          58%                 0       0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0       0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1261
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   SCIOTO, OHIO                                         SENECA, OHIO                                     SHELBY, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                         4                         42                        4                       9                        1
                              Loans                           21                        12                         70                       17                      17                        3
                              Principal and Interest   1,082,052                    84,934                  5,413,685                  192,070               1,469,180                   68,419
WHITE                         Borrowers                        7       100%              4        100%             41        98%             4     100%              9       100%             1     100%
                              Loans                           21       100%             12        100%             69        99%            17     100%             17       100%             3     100%
                              Principal and Interest   1,082,052       100%         84,934        100%      5,411,714       100%       192,070     100%      1,469,180       100%        68,419     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%             1          2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1          1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%         1,971          0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1262
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   STARK, OHIO                                          SUMMIT, OHIO                               TRUMBULL, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                         9                         3                          2                      8                        6
                              Loans                           63                        22                         4                          2                     17                       13
                              Principal and Interest   4,533,249                   790,706                   355,155                     30,876              1,040,113                  147,431
WHITE                         Borrowers                       22       100%              9        100%             3        100%              2    100%              8       100%             6     100%
                              Loans                           63       100%             22        100%             4        100%              2    100%             17       100%            13     100%
                              Principal and Interest   4,533,249       100%        790,706        100%       355,155        100%         30,876    100%      1,040,113       100%       147,431     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1263
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           TUSCARAWAS, OHIO                                             UNION, OHIO                                VAN WERT, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                         6                         12                        6                      4                          1
                              Loans                           26                        15                         22                       13                      5                          2
                              Principal and Interest   2,629,875                   755,171                  2,490,334                  631,997                154,907                      3,510
WHITE                         Borrowers                       13       100%              6        100%             12       100%             6     100%             4        100%              1    100%
                              Loans                           26       100%             15        100%             22       100%            13     100%             5        100%              2    100%
                              Principal and Interest   2,629,875       100%        755,171        100%      2,490,334       100%       631,997     100%       154,907        100%          3,510    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1264
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   WARREN, OHIO                                 WASHINGTON, OHIO                                         WAYNE, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        6                         2                          8                        3                      32                        8
                              Loans                           19                         7                         28                       18                      96                       31
                              Principal and Interest   1,715,107                   427,226                  2,379,390                  615,413               7,367,989                  986,476
WHITE                         Borrowers                        6       100%              2        100%              8       100%             3     100%             32       100%             8     100%
                              Loans                           19       100%              7        100%             28       100%            18     100%             96       100%            31     100%
                              Principal and Interest   1,715,107       100%        427,226        100%      2,379,390       100%       615,413     100%      7,367,989       100%       986,476     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1265
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               WILLIAMS, OHIO                                           WOOD, OHIO                                  WYANDOT, OHIO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                         2                          9                         4                     15                        2
                              Loans                           14                         2                         13                         5                     26                        6
                              Principal and Interest   1,007,883                    18,808                  1,194,718                    41,213              2,661,013                  100,450

WHITE                         Borrowers                        9       100%              2        100%              8         89%             3      75%            14         93%            2     100%
                              Loans                           14       100%              2        100%             12         92%             4      80%            25         96%            6     100%
                              Principal and Interest   1,007,883       100%         18,808        100%      1,155,043         97%        37,831      92%     2,408,068         90%      100,450     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 1      7%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            1           4%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      252,945          10%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%            1          11%             1      25%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            1           8%             1      20%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       39,675           3%         3,382       8%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1266
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                     STATE OF OHIO
                                                         Portfolio       Percent    Delinquent       Percent
TOTAL                         Borrowers                      1,507                        525
                              Loans                          3,380                      1,427
                              Principal and Interest   261,091,825                 36,882,841
WHITE                         Borrowers                      1,476         98%        519              99%
                              Loans                          3,324         98%      1,419              99%
                              Principal and Interest   257,011,519         98% 36,664,712              99%
AFRICAN AMERICAN              Borrowers                          4          0%              2           0%
                              Loans                              9          0%              2           0%
                              Principal and Interest       795,576          0%        192,022           1%
NATIVE AMERICAN               Borrowers                         16          1%              2           0%
                              Loans                             29          1%              4           0%
                              Principal and Interest     2,728,535          1%         22,327           0%
ASIAN                         Borrowers                              1      0%                   0      0%
                              Loans                                  1      0%                   0      0%
                              Principal and Interest          1,518         0%                   0      0%
OTHER                         Borrowers                          6          0%               1          0%
                              Loans                             10          0%               1          0%
                              Principal and Interest       215,690          0%           3,382          0%
HISPANIC                      Borrowers                          4          0%               1          0%
                              Loans                              7          0%               1          0%
                              Prinicpal and Interest       338,985          0%             398          0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 1267
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OH AUGLAIZE              Approved   No. of Applications                9        9      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      96                        0                   0                0                0
                                      Completion to Approval                     31                        0                   0                0                0
                                      Approval to Loan Closing                   30                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OH    BROWN               Approved   No. of Applications                3        1      33%               0   0%              0   0%           0   0%          2     67%
                                      Receipt to Completion                      34                        0                   0                0              44
                                      Completion to Approval                     36                        0                   0                0              14
                                      Approval to Loan Closing                   21                        0                   0                0              63

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OH    DEFIANCE            Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       6                        0                   0                0               0
                                      Completion to Approval                      9                        0                   0                0               0
                                      Approval to Loan Closing                   18                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1268
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African             Native
 State   Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OH FAIRFIELD              Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                      13                        0                   0                0                0
                                       Completion to Approval                     61                        0                   0                0                0
                                       Approval to Loan Closing                    9                        0                   0                0                0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0

 OH    FAYETTE              Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      83                        0                   0                0               0
                                       Completion to Approval                      5                        0                   0                0               0
                                       Approval to Loan Closing                  156                        0                   0                0               0

                            Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      29                        0                   0                0               0
                                       Completion to Rejected                      0                        0                   0                0               0

                            Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0

 OH    GREENE               Approved   No. of Applications            11          11      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      57                        0                   0                0               0
                                       Completion to Approval                     15                        0                   0                0               0
                                       Approval to Loan Closing                   17                        0                   0                0               0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1269
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OH HURON                 Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      11                        0                   0                0                0
                                      Completion to Approval                     13                        0                   0                0                0
                                      Approval to Loan Closing                   14                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OH    JACKSON             Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      42                        0                   0                0               0
                                      Completion to Approval                      3                        0                   0                0               0
                                      Approval to Loan Closing                   17                        0                   0                0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      50                        0                   0                0               0
                                      Completion to Rejected                     19                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OH    KNOX                Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       3                        0                   0                0               0
                                      Completion to Approval                     10                        0                   0                0               0
                                      Approval to Loan Closing                   39                        0                   0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      39                        0                   0                0               0
                                      Completion to Rejected                     30                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1270
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OH LOGAN                 Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      25                        0                   0                0                0
                                      Completion to Approval                     41                        0                   0                0                0
                                      Approval to Loan Closing                   20                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 4           4   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           5                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OH    MUSKINGUM           Approved   No. of Applications            12          12      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       6                        0                   0                0               0
                                      Completion to Approval                     11                        0                   0                0               0
                                      Approval to Loan Closing                   65                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OH    PORTAGE             Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      56                        0                   0                0               0
                                      Completion to Approval                     55                        0                   0                0               0
                                      Approval to Loan Closing                   19                        0                   0                0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      18                        0                   0                0               0
                                      Completion to Rejected                      9                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1271
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African               Native
 State  Servicing Office   Decision           Average Days       Total       White              American              American             Asian            Hispanic
  OH PREBLE                Approved   No. of Applications                9        9      100%              0    0%               0   0%            0   0%           0     0%
                                      Receipt to Completion                      24                        0                     0                 0                0
                                      Completion to Approval                     13                        0                     0                 0                0
                                      Approval to Loan Closing                   28                        0                     0                 0                0

                           Rejected   No. of Applications                0           0    0%               0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                     0                 0               0
                                      Completion to Rejected                         0                     0                     0                 0               0

                           Withdrawn No. of Applications                 6           6   100%              0    0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                     0                 0               0
                                     Completion to Withdrawn                         0                     0                     0                 0               0

 OH    SENECA              Approved   No. of Applications            11          11      100%              0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                      55                        0                     0                 0               0
                                      Completion to Approval                      6                        0                     0                 0               0
                                      Approval to Loan Closing                   67                        0                     0                 0               0

                           Rejected   No. of Applications                1           1   100%              0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                     0                 0               0
                                      Completion to Rejected                         0                     0                     0                 0               0

                           Withdrawn No. of Applications                 3           3   100%              0    0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                     0                 0               0
                                     Completion to Withdrawn                         0                     0                     0                 0               0

 OH    TUSCARAWAS          Approved   No. of Applications                4        2      50%               0    0%           2       50%           0   0%          0      0%
                                      Receipt to Completion                      22                        0                15                     0               0
                                      Completion to Approval                     45                        0                16                     0               0
                                      Approval to Loan Closing                   29                        0                33                     0               0

                           Rejected   No. of Applications                1        1      100%              0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                      18                        0                     0                 0               0
                                      Completion to Rejected                      7                        0                     0                 0               0

                           Withdrawn No. of Applications                 2           0    0%           2       100%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                48                         0                 0               0
                                     Completion to Withdrawn                         0                55                         0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                        Page 1272
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  OH STATE                 Approved   No. of Applications             82        78   95%               0   0%           2       2%           0   0%           2     2%
                                      Receipt to Completion                     39                     0               15                    0              44
                                      Completion to Approval                    21                     0               16                    0              14
                                      Approval to Loan Closing                  37                     0               33                    0              63

                           Rejected   No. of Applications            10        10    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    30                      0                    0                0               0
                                      Completion to Rejected                   15                      0                    0                0               0

                           Withdrawn No. of Applications             18        16    89%           2       11%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      1                 48                        0                0               0
                                     Completion to Withdrawn                    0                 55                        0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1273
                            Demographics         1275
                        FSA’s Loan Portfolio     1285
                        FSA’s Application data   1311




USDA/OIG-A/50801-4-Hq                                   1274
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                           Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         OK                Population       18,421         10,171    55%                 4      0%      7,985    43%          12          0%              4      0%        245       1%
         Adair County      Borrowers            64             47    73%                 0      0%         16    25%           1          2%              0      0%          0       0%
                           Farms             1,006            870    86%                 0      0%        131    13%           0          0%              0      0%          5       0%
                           Land in Farms   207,333        186,590    90%                 0      0%     20,497    10%           0          0%              0      0%        246       0%

         OK                Population        6,416          5,941    93%            202         3%        157      2%              6      0%              8      0%        102       2%
         Alfalfa County    Borrowers            44             44   100%              0         0%          0      0%              0      0%              0      0%          0       0%
                           Farms               774            771   100%              0         0%          0      0%              0      0%              0      0%          3       0%
                           Land in Farms   487,638        485,979   100%              0         0%          0      0%              0      0%              0      0%      1,659       0%

         OK                Population       12,778         10,325    81%            751         6%      1,567    12%          16          0%              1      0%        118       1%
         Atoka County      Borrowers           142            131    92%              2         1%          6     4%           1          1%              1      1%          1       1%
                           Farms               982            941    96%              0         0%         41     4%           0          0%              0      0%          0       0%
                           Land in Farms   375,683        375,683   100%              0         0%          0     0%           0          0%              0      0%          0       0%

         OK                Population        6,023          5,653    94%                 1      0%         61      1%              3      0%              5      0%        300       5%
         Beaver County     Borrowers            72             72   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               736            736   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms   986,621        986,621   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         OK                Population       18,812         17,270    92%            375         2%        332      2%         42          0%              5      0%        788       4%
         Beckham County    Borrowers            82             80    98%              0         0%          2      2%          0          0%              0      0%          0       0%
                           Farms               732            728    99%              0         0%          0      0%          0          0%              0      0%          4       1%
                           Land in Farms   493,631        491,899   100%              0         0%          0      0%          0          0%              0      0%      1,732       0%

         OK                Population       11,470          9,697    85%            483         4%        979      9%         18          0%              6      0%        287       3%
         Blaine County     Borrowers            68             68   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                           Farms               825            814    99%              7         1%          4      0%          0          0%              0      0%          0       0%
                           Land in Farms   513,789        508,749    99%              0         0%      5,040      1%          0          0%              0      0%          0       0%

         OK                Population       32,089         26,540    83%            422         1%      4,516    14%         140          0%              6      0%        465       1%
         Bryan County      Borrowers           115            103    90%              2         2%          9     8%           0          0%              0      0%          1       1%
                           Farms             1,360          1,290    95%              0         0%         67     5%           0          0%              0      0%          3       0%
                           Land in Farms   412,673        412,058   100%              0         0%          0     0%           0          0%              0      0%        615       0%

         OK                Population       29,550         21,031    71%            738         2%      6,274    21%          67          0%         10          0%      1,430       5%
         Caddo County      Borrowers           109            109   100%              0         0%          0     0%           0          0%          0          0%          0       0%
                           Farms             1,441          1,388    96%              0         0%         38     3%           0          0%          5          0%         10       1%
                           Land in Farms   726,481        702,957    97%              0         0%     21,444     3%           0          0%          0          0%      2,080       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1275
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian                  Other                 Hispanic
                                             Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         OK                 Population        74,409         66,469    89%          1,766         2%      3,033      4%      1,188          2%         32          0%      1,921       3%
         Canadian County    Borrowers             24             22    92%              2         8%          0      0%          0          0%          0          0%          0       0%
                            Farms              1,071          1,053    98%              0         0%          6      1%          0          0%          3          0%          9       1%
                            Land in Farms    499,876        496,262    99%              0         0%          0      0%          0          0%          0          0%      3,614       1%

         OK                 Population        42,919         34,865    81%          3,544        8%       3,557      8%        163          0%              9      0%        781       2%
         Carter County      Borrowers             22             16    73%              6       27%           0      0%          0          0%              0      0%          0       0%
                            Farms                992            923    93%             35        4%          34      3%          0          0%              0      0%          0       0%
                            Land in Farms    372,901        363,405    97%              0        0%       9,496      3%          0          0%              0      0%          0       0%

         OK                 Population        34,049         21,900    64%            377         1%     11,232    33%          66          0%              4      0%        470       1%
         Cherokee County    Borrowers             77             65    84%              0         0%         12    16%           0          0%              0      0%          0       0%
                            Farms                977            836    86%              6         1%        131    13%           0          0%              0      0%          4       0%
                            Land in Farms    218,803        199,526    91%              0         0%     18,927     9%           0          0%              0      0%        350       0%

         OK                 Population        15,302         10,837    71%          1,954       13%       2,286    15%          24          0%              6      0%        195       1%
         Choctaw County     Borrowers            206            182    88%              5        2%          17     8%           1          0%              0      0%          1       0%
                            Farms                833            761    91%             25        3%          41     5%           0          0%              0      0%          6       1%
                            Land in Farms    300,829        285,246    95%              0        0%      11,518     4%           0          0%              0      0%      4,065       1%

         OK                 Population          3,301         2,851    86%                 0      0%         23      1%         12          0%              3      0%        412    12%
         Cimarron County    Borrowers             139           135    97%                 0      0%          2      1%          0          0%              0      0%          2     1%
                            Farms                 446           442    99%                 0      0%          0      0%          0          0%              0      0%          4     1%
                            Land in Farms   1,034,980     1,031,960   100%                 0      0%          0      0%          0          0%              0      0%      3,020     0%

         OK                 Population       174,253        151,661    87%          5,203         3%      8,730      5%      3,929          2%         75          0%      4,655       3%
         Cleveland County   Borrowers             10             10   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms                866            841    97%              5         1%         17      2%          0          0%          0          0%          3       0%
                            Land in Farms    157,105        154,904    99%              0         0%      2,140      1%          0          0%          0          0%         61       0%

         OK                 Population         5,780          4,746    82%             48         1%        945    16%               2      0%              0      0%         39       1%
         Coal County        Borrowers             80             75    94%              0         0%          4     5%               1      1%              0      0%          0       0%
                            Farms                536            501    93%              0         0%         31     6%               0      0%              0      0%          4       1%
                            Land in Farms    264,890        263,689   100%              0         0%          0     0%               0      0%              0      0%      1,201       0%

         OK                 Population       111,486         77,187    69%         19,547       18%       4,812      4%      2,879          3%        138          0%      6,923       6%
         Comanche County    Borrowers             77             75    97%              0        0%           1      1%          0          0%          1          1%          0       0%
                            Farms                937            889    95%              3        0%          20      2%          0          0%          6          1%         19       2%
                            Land in Farms    405,831        398,890    98%              0        0%       2,875      1%          0          0%          0          0%      4,066       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1276
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                           Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         OK                Population        6,651          5,771    87%            140         2%        499      8%              6      0%              4      0%        231       3%
         Cotton County     Borrowers            93             91    98%              1         1%          1      1%              0      0%              0      0%          0       0%
                           Farms               540            531    98%              0         0%          6      1%              0      0%              0      0%          3       1%
                           Land in Farms   358,446        358,446   100%              0         0%          0      0%              0      0%              0      0%          0       0%

         OK                Population       14,104         10,819    77%            470         3%      2,680    19%          31          0%              3      0%        101       1%
         Craig County      Borrowers            94             76    81%              1         1%         16    17%           0          0%              0      0%          1       1%
                           Farms             1,049            935    89%             10         1%        104    10%           0          0%              0      0%          0       0%
                           Land in Farms   447,212        409,224    92%          2,822         1%     35,166     8%           0          0%              0      0%          0       0%

         OK                Population       60,915         53,134    87%          1,911        3%       5,068      8%        133          0%              9      0%        660       1%
         Creek County      Borrowers            19             17    89%              2       11%           0      0%          0          0%              0      0%          0       0%
                           Farms             1,123          1,060    94%             23        2%          32      3%          0          0%              0      0%          8       1%
                           Land in Farms   336,285        325,822    97%              0        0%       9,367      3%          0          0%              0      0%      1,096       0%

         OK                Population       26,897         22,585    84%            928         3%      1,581      6%        163          1%         15          0%      1,625       6%
         Custer County     Borrowers            50             48    96%              1         2%          1      2%          0          0%          0          0%          0       0%
                           Farms               864            858    99%              0         0%          6      1%          0          0%          0          0%          0       0%
                           Land in Farms   633,874        631,614   100%              0         0%      2,260      0%          0          0%          0          0%          0       0%

         OK                Population       28,070         20,743    74%             20         0%      7,038    25%          40          0%              2      0%        227       1%
         Delaware County   Borrowers           155             97    63%              0         0%         58    37%           0          0%              0      0%          0       0%
                           Farms             1,144          1,024    90%              5         0%        112    10%           0          0%              0      0%          3       0%
                           Land in Farms   242,097        221,134    91%            724         0%     19,980     8%           0          0%              0      0%        259       0%

         OK                Population        5,551          5,160    93%                 5      0%        306      6%              6      0%              1      0%         73       1%
         Dewey County      Borrowers            82             81    99%                 0      0%          1      1%              0      0%              0      0%          0       0%
                           Farms               692            692   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms   583,098        583,098   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         OK                Population        4,497          4,281    95%                 2      0%         63      1%         11          0%              2      0%        138       3%
         Ellis County      Borrowers            79             79   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               599            599   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   699,515        699,515   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

         OK                Population       56,735         51,906    91%          2,002         4%      1,171      2%        554          1%         16          0%      1,086       2%
         Garfield County   Borrowers           133            131    98%              2         2%          0      0%          0          0%          0          0%          0       0%
                           Farms             1,152          1,147   100%              0         0%          0      0%          0          0%          0          0%          5       0%
                           Land in Farms   662,121        659,861   100%              0         0%          0      0%          0          0%          0          0%      2,260       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1277
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                           Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         OK                Population       26,605         23,629    89%            721         3%      1,864      7%         57          0%              3      0%        331       1%
         Garvin County     Borrowers            79             74    94%              0         0%          5      6%          0          0%              0      0%          0       0%
                           Farms             1,307          1,240    95%             13         1%         50      4%          0          0%              0      0%          4       0%
                           Land in Farms   419,760        404,847    96%          2,364         1%     10,501      3%          0          0%              0      0%      2,048       0%

         OK                Population       41,747         37,286    89%          1,524         4%      2,086      5%        117          0%          6          0%        728       2%
         Grady County      Borrowers            98             96    98%              0         0%          2      2%          0          0%          0          0%          0       0%
                           Farms             1,432          1,386    97%              0         0%         30      2%          0          0%          5          0%         11       1%
                           Land in Farms   566,152        555,645    98%              0         0%      6,113      1%          0          0%        113          0%      4,281       1%

         OK                Population        5,689          5,542    97%                 3      0%         72      1%         14          0%              0      0%         58       1%
         Grant County      Borrowers           142            140    99%                 0      0%          2      1%          0          0%              0      0%          0       0%
                           Farms               764            757    99%                 4      1%          0      0%          0          0%              0      0%          3       0%
                           Land in Farms   599,536        596,791   100%                 0      0%          0      0%          0          0%              0      0%      2,745       0%

         OK                Population        6,559          5,611    86%            450         7%        141      2%         16          0%              5      0%        336       5%
         Greer County      Borrowers            57             56    98%              0         0%          1      2%          0          0%              0      0%          0       0%
                           Farms               449            443    99%              0         0%          6      1%          0          0%              0      0%          0       0%
                           Land in Farms   338,529        338,529   100%              0         0%          0      0%          0          0%              0      0%          0       0%

         OK                Population        3,793          2,818    74%            280         7%         33      1%              6      0%              0      0%        656    17%
         Harmon County     Borrowers           122            119    98%              0         0%          0      0%              0      0%              0      0%          3     2%
                           Farms               332            332   100%              0         0%          0      0%              0      0%              0      0%          0     0%
                           Land in Farms   286,379        286,379   100%              0         0%          0      0%              0      0%              0      0%          0     0%

         OK                Population        4,063          3,952    97%                 3      0%         30      1%              6      0%              0      0%         72       2%
         Harper County     Borrowers            51             51   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               441            441   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms   607,180        607,180   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         OK                Population       10,940          9,177    84%             98         1%      1,583    14%               8      0%              0      0%         74       1%
         Haskell County    Borrowers           137             88    64%              1         1%         45    33%               1      1%              1      1%          1       1%
                           Farms               763            717    94%              0         0%         43     6%               0      0%              0      0%          3       0%
                           Land in Farms   268,038        266,708   100%              0         0%          0     0%               0      0%              0      0%      1,330       0%

         OK                Population       13,023         10,283    79%            381         3%      2,205    17%          13          0%              5      0%        136       1%
         Hughes County     Borrowers            38             37    97%              0         0%          1     3%           0          0%              0      0%          0       0%
                           Farms               772            741    96%              3         0%         28     4%           0          0%              0      0%          0       0%
                           Land in Farms   346,572        327,973    95%            320         0%     18,279     5%           0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1278
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                             Total         Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         OK                  Population       28,764         21,925    76%          2,641      9%        449      2%        367      1%         57          0%      3,325    12%
         Jackson County      Borrowers            74             74   100%              0      0%          0      0%          0      0%          0          0%          0     0%
                             Farms               634            628    99%              0      0%          6      1%          0      0%          0          0%          0     0%
                             Land in Farms   469,883        469,883   100%              0      0%          0      0%          0      0%          0          0%          0     0%

         OK                  Population        7,010          6,306    90%             40      1%        338      5%         16      0%              0      0%        310       4%
         Jefferson County    Borrowers            87             86    99%              0      0%          1      1%          0      0%              0      0%          0       0%
                             Farms               468            456    97%              0      0%         12      3%          0      0%              0      0%          0       0%
                             Land in Farms   405,271        400,345    99%              0      0%      4,926      1%          0      0%              0      0%          0       0%

         OK                  Population       10,032          8,126    81%            213      2%      1,558    16%          14      0%              1      0%        120       1%
         Johnston County     Borrowers            54             51    94%              0      0%          3     6%           0      0%              0      0%          0       0%
                             Farms               572            530    93%              0      0%         42     7%           0      0%              0      0%          0       0%
                             Land in Farms   323,534        323,534   100%              0      0%          0     0%           0      0%              0      0%          0       0%

         OK                  Population       48,056         42,552    89%            854      2%      3,555      7%        236      0%              8      0%        851       2%
         Kay County          Borrowers            79             77    97%              0      0%          2      3%          0      0%              0      0%          0       0%
                             Farms               964            953    99%              0      0%         11      1%          0      0%              0      0%          0       0%
                             Land in Farms   477,655        476,526   100%              0      0%      1,129      0%          0      0%              0      0%          0       0%

         OK                  Population       13,212         12,132    92%            304      2%        352      3%         13      0%              4      0%        407       3%
         Kingfisher County   Borrowers           107             97    91%              7      7%          2      2%          0      0%              1      1%          0       0%
                             Farms               921            889    97%             22      2%          4      0%          0      0%              0      0%          6       1%
                             Land in Farms   521,820        502,293    96%         17,662      3%          0      0%          0      0%              0      0%      1,865       0%

         OK                  Population       11,347          9,365    83%            609      5%        728      6%         35      0%              6      0%        604       5%
         Kiowa County        Borrowers           128            124    97%              2      2%          1      1%          0      0%              0      0%          1       1%
                             Farms               692            688    99%              4      1%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   558,313        558,313   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         OK                  Population       10,333          8,488    82%            150      1%      1,561    15%          18      0%              1      0%        115       1%
         Latimer County      Borrowers            27             20    74%              0      0%          6    22%           0      0%              1      4%          0       0%
                             Farms               547            502    92%              0      0%         45     8%           0      0%              0      0%          0       0%
                             Land in Farms   194,253        177,421    91%              0      0%     16,832     9%           0      0%              0      0%          0       0%

         OK                  Population       43,270         36,674    85%          1,025      2%      5,050    12%          92      0%         10          0%        419       1%
         Le Flore County     Borrowers           172            136    79%              2      1%         32    19%           0      0%          1          1%          1       1%
                             Farms             1,467          1,371    93%              6      0%         84     6%           0      0%          0          0%          6       0%
                             Land in Farms   380,529        363,320    95%            549      0%     15,676     4%           0      0%          0          0%        984       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1279
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                            Total         Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         OK                 Population       29,216         26,258    90%            780         3%      1,814      6%         55      0%              2      0%        307       1%
         Lincoln County     Borrowers            56             54    96%              2         4%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,656          1,588    96%             13         1%         46      3%          3      0%              0      0%          6       0%
                            Land in Farms   397,909        386,811    97%              0         0%      9,247      2%          0      0%              0      0%      1,851       0%

         OK                 Population       29,011         23,444    81%          3,974       14%         921      3%         96      0%         20          0%        556       2%
         Logan County       Borrowers            48             44    92%              3        6%           1      2%          0      0%          0          0%          0       0%
                            Farms               879            823    94%             26        3%          21      2%          0      0%          4          0%          5       1%
                            Land in Farms   344,280        325,743    95%          5,552        2%       6,875      2%          0      0%      1,780          1%      4,330       1%

         OK                 Population        8,157          6,911    85%            360         4%        538     7%          12      0%              1      0%        335       4%
         Love County        Borrowers            28             19    68%              2         7%          6    21%           1      4%              0      0%          0       0%
                            Farms               556            541    97%              0         0%         15     3%           0      0%              0      0%          0       0%
                            Land in Farms   255,538        255,538   100%              0         0%          0     0%           0      0%              0      0%          0       0%

         OK                 Population       22,795         20,488    90%            229         1%      1,460      6%         35      0%              5      0%        578       3%
         McClain County     Borrowers            38             37    97%              0         0%          1      3%          0      0%              0      0%          0       0%
                            Farms               851            843    99%              0         0%          8      1%          0      0%              0      0%          0       0%
                            Land in Farms   253,652        253,652   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         OK                 Population       33,433         24,659    74%          3,428       10%       4,798    14%          84      0%              5      0%        459       1%
         McCurtain County   Borrowers           187            169    90%              6        3%          12     6%           0      0%              0      0%          0       0%
                            Farms             1,314          1,230    94%             22        2%          55     4%           0      0%              0      0%          7       1%
                            Land in Farms   314,987        298,067    95%          2,772        1%      11,489     4%           0      0%              0      0%      2,659       1%

         OK                 Population       16,779         12,674    76%            880         5%      3,038    18%          26      0%         11          0%        150       1%
         McIntosh County    Borrowers            38             29    76%              0         0%          9    24%           0      0%          0          0%          0       0%
                            Farms               805            717    89%             20         2%         62     8%           0      0%          0          0%          6       1%
                            Land in Farms   236,766        212,030    90%          2,692         1%     21,367     9%           0      0%          0          0%        677       0%

         OK                 Population        8,055          7,781    97%                 3      0%        128      2%         10      0%              1      0%        132       2%
         Major County       Borrowers            88             87    99%                 0      0%          0      0%          0      0%              0      0%          1       1%
                            Farms               848            848   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   494,277        494,277   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         OK                 Population       10,829          9,295    86%            184         2%      1,058    10%          13      0%              4      0%        275       3%
         Marshall County    Borrowers            58             41    71%              0         0%         16    28%           0      0%              0      0%          1       2%
                            Farms               349            339    97%              0         0%         10     3%           0      0%              0      0%          0       0%
                            Land in Farms   162,690        159,785    98%              0         0%      2,905     2%           0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1280
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                  Other                 Hispanic
                                           Total         Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         OK                Population       33,366         26,952    81%             68      0%      5,966    18%          69          0%              3      0%        308       1%
         Mayes County      Borrowers            35             34    97%              0      0%          1     3%           0          0%              0      0%          0       0%
                           Farms             1,227          1,144    93%              0      0%         83     7%           0          0%              0      0%          0       0%
                           Land in Farms   277,981        258,101    93%              0      0%     19,880     7%           0          0%              0      0%          0       0%

         OK                Population       12,042         10,337    86%            203      2%      1,311    11%          16          0%              6      0%        169       1%
         Murray County     Borrowers            32             32   100%              0      0%          0     0%           0          0%              0      0%          0       0%
                           Farms               411            389    95%              0      0%         22     5%           0          0%              0      0%          0       0%
                           Land in Farms   230,832        230,832   100%              0      0%          0     0%           0          0%              0      0%          0       0%

         OK                Population       68,078         48,503    71%          9,495    14%       8,936    13%         252          0%         19          0%        873       1%
         Muskogee County   Borrowers            63             45    71%              7    11%          11    17%           0          0%          0          0%          0       0%
                           Farms             1,265          1,108    88%             59     5%          92     7%           0          0%          0          0%          6       0%
                           Land in Farms   347,480        324,459    93%              0     0%      20,616     6%           0          0%          0          0%      2,405       1%

         OK                Population       11,045          9,783    89%            199      2%        912      8%         24          0%              1      0%        126       1%
         Noble County      Borrowers            78             74    95%              0      0%          3      4%          0          0%              1      1%          0       0%
                           Farms               704            695    99%              0      0%          5      1%          0          0%              0      0%          4       1%
                           Land in Farms   390,957        388,317    99%              0      0%          0      0%          0          0%              0      0%      2,640       1%

         OK                Population        9,992          7,934    79%            359      4%      1,619    16%               6      0%              1      0%         73       1%
         Nowata County     Borrowers            66             63    95%              0      0%          3     5%               0      0%              0      0%          0       0%
                           Farms               695            618    89%             11      2%         62     9%               0      0%              0      0%          4       1%
                           Land in Farms   282,659        261,313    92%          2,100      1%     18,476     7%               0      0%              0      0%        770       0%

         OK                Population       11,551          7,760    67%          1,325    11%       2,306    20%          17          0%              3      0%        140       1%
         Okfuskee County   Borrowers            66             47    71%             16    24%           1     2%           0          0%              0      0%          2       3%
                           Farms               677            610    90%             35     5%          32     5%           0          0%              0      0%          0       0%
                           Land in Farms   257,577        243,426    95%          5,196     2%       8,955     3%           0          0%              0      0%          0       0%

         OK                Population      599,611        451,584    75%         87,597    15%      23,060      4%     11,556          2%        362          0%     25,452       4%
         Oklahoma County   Borrowers            19             16    84%              3    16%           0      0%          0          0%          0          0%          0       0%
                           Farms               848            796    94%             35     4%          10      1%          0          0%          0          0%          7       1%
                           Land in Farms   156,748        153,331    98%          2,070     1%           0      0%          0          0%          0          0%      1,347       1%

         OK                Population       36,490         27,157    74%          4,413    12%       4,379    12%          75          0%              8      0%        458       1%
         Okmulgee County   Borrowers            49             37    76%             11    22%           1     2%           0          0%              0      0%          0       0%
                           Farms               931            836    90%             51     5%          44     5%           0          0%              0      0%          0       0%
                           Land in Farms   280,533        256,777    92%          7,278     3%      16,478     6%           0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1281
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American             Asian                  Other                 Hispanic
                                                Total         Number     Percent     Number    Percent   Number    Percent   Number       Percent   Number       Percent   Number   Percent
         OK                    Population         41,645        30,703    74%          4,148    10%        6,054    15%          70          0%         10          0%        660       2%
         Osage County          Borrowers              52            39    75%              0     0%           12    23%           0          0%          0          0%          1       2%
                               Farms               1,065           929    87%              5     0%          124    12%           3          0%          0          0%          4       0%
                               Land in Farms   1,116,090     1,006,044    90%          1,420     0%      106,493    10%         295          0%          0          0%      1,838       0%

         OK                    Population        30,561         24,378    80%            188      1%       5,514    18%          97          0%              9      0%        375       1%
         Ottawa County         Borrowers            124            112    90%              0      0%          10     8%           0          0%              0      0%          2       2%
                               Farms                898            825    92%              0      0%          73     8%           0          0%              0      0%          0       0%
                               Land in Farms    207,118        193,319    93%              0      0%      13,799     7%           0          0%              0      0%          0       0%

         OK                    Population        15,575         13,706    88%            117      1%       1,613    10%          24          0%              2      0%        113       1%
         Pawnee County         Borrowers             62             54    87%              1      2%           6    10%           0          0%              1      2%          0       0%
                               Farms                631            628   100%              0      0%           3     0%           0          0%              0      0%          0       0%
                               Land in Farms    282,211        282,211   100%              0      0%           0     0%           0          0%              0      0%          0       0%

         OK                    Population        61,507         54,439    89%          1,759      3%       2,618      4%      1,739          3%         35          0%        917       1%
         Payne County          Borrowers             61             60    98%              0      0%           1      2%          0          0%          0          0%          0       0%
                               Farms              1,115          1,088    98%              3      0%          17      2%          0          0%          3          0%          4       0%
                               Land in Farms    328,976        324,982    99%              0      0%       3,994      1%          0          0%          0          0%          0       0%

         OK                    Population        40,581         33,552    83%          1,498      4%       4,940    12%         100          0%         12          0%        479       1%
         Pittsburg County      Borrowers            104             90    87%              0      0%          13    13%           0          0%          1          1%          0       0%
                               Farms              1,372          1,280    93%             11      1%          70     5%           0          0%          4          0%          7       1%
                               Land in Farms    481,244        460,950    96%          1,940      0%      16,969     4%           0          0%        255          0%      1,130       0%

         OK                    Population        34,119         28,064    82%            855      3%       4,675    14%         108          0%              6      0%        411       1%
         Pontotoc County       Borrowers             80             73    91%              2      3%           4     5%           0          0%              0      0%          1       1%
                               Farms              1,037            992    96%              0      0%          42     4%           3          0%              0      0%          0       0%
                               Land in Farms    353,045        340,728    97%              0      0%      12,317     3%           0          0%              0      0%          0       0%

         OK                    Population        58,760         49,481    84%          1,313      2%       6,630    11%         311          1%         35          0%        990       2%
         Pottawatomie County   Borrowers             27             27   100%              0      0%           0     0%           0          0%          0          0%          0       0%
                               Farms              1,184          1,129    95%              7      1%          43     4%           0          0%          0          0%          5       0%
                               Land in Farms    299,263        289,532    97%          1,041      0%       8,273     3%           0          0%          0          0%        417       0%

         OK                    Population        10,997          9,094    83%            112      1%       1,648    15%               6      0%              1      0%        136       1%
         Pushmataha County     Borrowers            152            114    75%              2      1%          33    22%               1      1%              2      1%          0       0%
                               Farms                646            608    94%              0      0%          34     5%               0      0%              0      0%          4       1%
                               Land in Farms    239,971        215,394    90%              0      0%      24,327    10%               0      0%              0      0%        250       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1282
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American               Asian                  Other                 Hispanic
                                               Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         OK                   Population         4,147          3,909    94%                 2      0%        160      4%              3      0%              0      0%         73       2%
         Roger Mills County   Borrowers             52             52   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Farms                677            677   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms    660,214        660,214   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         OK                   Population        55,170         46,870    85%            442         1%      7,043    13%         186          0%         11          0%        618       1%
         Rogers County        Borrowers             15             13    87%              0         0%          2    13%           0          0%          0          0%          0       0%
                              Farms              1,258          1,160    92%              0         0%         93     7%           0          0%          0          0%          5       0%
                              Land in Farms    309,614        309,104   100%              0         0%          0     0%           0          0%          0          0%        510       0%

         OK                   Population        25,412         18,885    74%          1,913         8%      4,236    17%          37          0%              1      0%        340       1%
         Seminole County      Borrowers             32             29    91%              1         3%          2     6%           0          0%              0      0%          0       0%
                              Farms                872            826    95%             17         2%         25     3%           0          0%              0      0%          4       0%
                              Land in Farms    250,958        246,802    98%              0         0%      3,733     1%           0          0%              0      0%        423       0%

         OK                   Population        33,828         25,720    76%            782         2%      6,949    21%          74          0%              4      0%        299       1%
         Sequoyah County      Borrowers             57             29    51%              2         4%         25    44%           0          0%              0      0%          1       2%
                              Farms                913            804    88%             11         1%         88    10%           0          0%              3      0%          7       1%
                              Land in Farms    215,222        197,159    92%          1,947         1%     15,422     7%           0          0%              0      0%        694       0%

         OK                   Population        42,299         38,553    91%            941         2%      1,696      4%        152          0%         14          0%        943       2%
         Stephens County      Borrowers             76             73    96%              0         0%          1      1%          0          0%          0          0%          2       3%
                              Farms              1,093          1,068    98%              0         0%         25      2%          0          0%          0          0%          0       0%
                              Land in Farms    421,233        411,471    98%              0         0%      9,762      2%          0          0%          0          0%          0       0%

         OK                   Population         16,419        14,511    88%             69         0%        157      1%         34          0%         14          0%      1,634    10%
         Texas County         Borrowers              89            89   100%              0         0%          0      0%          0          0%          0          0%          0     0%
                              Farms                 704           704   100%              0         0%          0      0%          0          0%          0          0%          0     0%
                              Land in Farms   1,051,384     1,051,384   100%              0         0%          0      0%          0          0%          0          0%          0     0%

         OK                   Population        10,384          7,541    73%          1,018       10%         323      3%         23          0%         18          0%      1,461    14%
         Tillman County       Borrowers             84             84   100%              0        0%           0      0%          0          0%          0          0%          0     0%
                              Farms                587            587   100%              0        0%           0      0%          0          0%          0          0%          0     0%
                              Land in Farms    480,948        480,948   100%              0        0%           0      0%          0          0%          0          0%          0     0%

         OK                   Population       503,341        411,379    82%         49,173       10%      24,769     5%       5,815          1%        247          0%     11,958       2%
         Tulsa County         Borrowers             11              9    82%              0        0%           2    18%           0          0%          0          0%          0       0%
                              Farms                766            724    95%              7        1%          32     4%           0          0%          0          0%          3       0%
                              Land in Farms    134,096        127,936    95%              0        0%       6,132     5%           0          0%          0          0%         28       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1283
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American             Asian              Other                 Hispanic
                                               Total         Number      Percent     Number    Percent   Number    Percent   Number   Percent   Number       Percent   Number   Percent
         OK                  Population         47,883         40,739     85%          1,977      4%       4,341      9%        171      0%         17          0%        638       1%
         Wagoner County      Borrowers              36             32     89%              2      6%           2      6%          0      0%          0          0%          0       0%
                             Farms                 823            758     92%             24      3%          32      4%          0      0%          3          0%          6       1%
                             Land in Farms     216,638        205,752     95%          3,650      2%       5,204      2%          0      0%          0          0%      2,032       1%

         OK                  Population         48,066         41,870     87%          1,268      3%       3,717      8%        408      1%         15          0%        788       2%
         Washington County   Borrowers              18             17     94%              0      0%           1      6%          0      0%          0          0%          0       0%
                             Farms                 651            616     95%              0      0%          35      5%          0      0%          0          0%          0       0%
                             Land in Farms     216,268        203,989     94%              0      0%      12,279      6%          0      0%          0          0%          0       0%

         OK                  Population         11,441         10,752     94%             20      0%        235       2%         27      0%              1      0%        406       4%
         Washita County      Borrowers              87             87    100%              0      0%          0       0%          0      0%              0      0%          0       0%
                             Farms               1,004          1,001    100%              0      0%          0       0%          0      0%              0      0%          3       0%
                             Land in Farms     577,693        577,693    100%              0      0%          0       0%          0      0%              0      0%          0       0%

         OK                  Population          9,103          8,759     96%             49      1%        126       1%         28      0%              0      0%        141       2%
         Woods County        Borrowers              80             80    100%              0      0%          0       0%          0      0%              0      0%          0       0%
                             Farms                 677            677    100%              0      0%          0       0%          0      0%              0      0%          0       0%
                             Land in Farms     743,563        743,563    100%              0      0%          0       0%          0      0%              0      0%          0       0%

         OK                  Population         18,976         17,754     94%            132      1%        443       2%         68      0%              4      0%        575       3%
         Woodward County     Borrowers              51             51    100%              0      0%          0       0%          0      0%              0      0%          0       0%
                             Farms                 746            742     99%              0      0%          0       0%          0      0%              0      0%          4       1%
                             Land in Farms     687,299        687,299    100%              0      0%          0       0%          0      0%              0      0%          0       0%

         OK                  Population       3,145,585      2,547,588    81%        231,462      7%     246,631      8%     32,366      1%      1,378          0%     86,160       3%
         STATE               Borrowers            5,787          5,222    90%             96      2%         428      7%          7      0%         11          0%         23       0%
                             Farms               66,937         63,652    95%            528      1%       2,485      4%          9      0%         36          0%        227       0%
                             Land in Farms   32,143,030     31,407,752    98%         62,099      0%     607,158      2%        295      0%      2,148          0%     63,578       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1284
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ADAIR, OKLAHOMA                                ALFALFA, OKLAHOMA                                   ATOKA, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       64                       14                      44                       21                      142                        50
                              Loans                           89                       24                      74                       36                      232                        87
                              Principal and Interest   5,106,233                  633,455               5,212,562                  378,597               11,190,458                 3,847,213

WHITE                         Borrowers                       47         73%            8       57%            44       100%            21     100%             131        92%             47         94%
                              Loans                           60         67%           10       42%            74       100%            36     100%             217        94%             82         94%
                              Principal and Interest   2,883,127         56%      168,002       27%     5,212,562       100%       378,597     100%      10,794,318        96%      3,735,755         97%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%             2           1%                  1      2%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             3           1%                  1      1%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       121,517           1%                  0      0%

NATIVE AMERICAN               Borrowers                        16        25%              5     36%                 0      0%              0      0%                  6      4%                  0      0%
                              Loans                           25         28%           10       42%                 0      0%              0      0%              6          3%                  0      0%
                              Principal and Interest   1,799,149         35%      230,776       36%                 0      0%              0      0%         95,121          1%                  0      0%

ASIAN                         Borrowers                       1           2%            1        7%                 0      0%              0      0%              1          1%             1           2%
                              Loans                           4           4%            4       17%                 0      0%              0      0%              1          0%             1           1%
                              Principal and Interest    423,958           8%      234,677       37%                 0      0%              0      0%         64,872          1%        68,276           2%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%               1         1%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               1         0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%           3,159         0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  1      1%                  1      2%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  4      2%                  3      3%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%       111,470           1%        43,182           1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1285
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          BEAVER, OKLAHOMA                                BECKHAM, OKLAHOMA                                    BLAINE, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        72                        24                     82                        42                      68                        37
                              Loans                           148                        59                    243                       129                     158                        86
                              Principal and Interest   13,635,571                 3,912,264              8,456,618                 1,097,922              14,199,633                 2,574,396
WHITE                         Borrowers                        72       100%             24    100%             80        98%        42         100%              68       100%             37        100%
                              Loans                           148       100%             59    100%            233        96%       129         100%             158       100%             86        100%
                              Principal and Interest   13,635,571       100%      3,912,264    100%      7,761,818        92% 1,097,922         100%      14,199,633       100%      2,574,396        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%            2           2%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%           10           4%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%      694,800           8%              0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1286
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BRYAN, OKLAHOMA                                   CADDO, OKLAHOMA                                CANADIAN, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       115                        67                     109                         44                     24                         7
                              Loans                           360                       232                     286                        128                     45                        18
                              Principal and Interest   18,732,544                 4,329,676              21,894,791                  4,154,406              3,744,624                   255,867

WHITE                         Borrowers                       103         90%            60      90%            109        100%        44         100%             22        92%              5         71%
                              Loans                           333         93%           212      91%            286        100%       128         100%             43        96%             16         89%
                              Principal and Interest   17,152,323         92%     4,126,361      95%     21,894,791        100% 4,154,406         100%      3,730,335       100%        255,477        100%

AFRICAN AMERICAN              Borrowers                        2           2%            2        3%                   0      0%              0      0%             2          8%              2        29%
                              Loans                            6           2%            5        2%                   0      0%              0      0%             2          4%              2        11%
                              Principal and Interest     435,843           2%      115,731        3%                   0      0%              0      0%        14,289          0%            390         0%

NATIVE AMERICAN               Borrowers                             9      8%              5      7%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                           20           6%            15       6%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest     899,206           5%        87,584       2%                   0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             1      1%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 1      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest     245,171           1%              0      0%                   0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1287
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CARTER, OKLAHOMA                               CHEROKEE, OKLAHOMA                                 CHOCTAW, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       22                         8                     77                       20                      206                        111
                              Loans                           38                        10                    152                       47                      534                        306
                              Principal and Interest   2,850,550                    19,731              8,580,327                  783,664               48,169,867                 20,972,673
WHITE                         Borrowers                       16         73%             5      63%            65        84%            19      95%             182        88%              97        87%
                              Loans                           28         74%             5      50%           128        84%            46      98%             448        84%             257        84%
                              Principal and Interest   2,618,222         92%        11,721      59%     6,655,515        78%       780,062     100%      43,697,259        91%      19,949,880        95%
AFRICAN AMERICAN              Borrowers                       6          27%             3      38%                 0      0%              0      0%             5           2%             4           4%
                              Loans                          10          26%             5      50%                 0      0%              0      0%            17           3%            10           3%
                              Principal and Interest    232,328           8%         8,010      41%                 0      0%              0      0%       400,365           1%        57,219           0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%            12        16%              1       5%             17         8%              9          8%
                              Loans                                0      0%              0      0%            24        16%              1       2%             66        12%             38         12%
                              Principal and Interest               0      0%              0      0%     1,924,812        22%          3,602       0%      3,851,116         8%        895,393          4%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%             1           0%             1           1%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             2           0%             1           0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       140,862           0%        70,181           0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%              1          0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              1          0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%         80,265          0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1288
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CIMARRON, OKLAHOMA                               CLEVELAND, OKLAHOMA                                    COAL, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       139                        37                    10                         3                      80                        33
                              Loans                           419                       128                    26                        17                     144                        67
                              Principal and Interest   30,951,102                 3,846,747               880,338                    95,489               4,889,204                   872,053
WHITE                         Borrowers                       135         97%            36     97%            10        100%             3     100%             75        94%             31         94%
                              Loans                           413         99%           127     99%            26        100%            17     100%            138        96%             65         97%
                              Principal and Interest   30,361,251         98%     3,837,457    100%       880,338        100%        95,489     100%      4,746,038        97%        868,774        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                        2           1%              0      0%                 0      0%              0      0%            4           5%              1          3%
                              Loans                            3           1%              0      0%                 0      0%              0      0%            5           3%              1          1%
                              Principal and Interest     283,222           1%              0      0%                 0      0%              0      0%      137,487           3%          3,245          0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%              1         1%               1         3%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%              1         1%               1         1%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          5,679         0%              34         0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                        2           1%             1       3%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            3           1%             1       1%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest     306,629           1%         9,290       0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1289
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        COMANCHE, OKLAHOMA                                   COTTON, OKLAHOMA                                     CRAIG, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        77                        33                      93                         33                      94                         23
                              Loans                           184                        77                     301                        141                     228                         51
                              Principal and Interest   11,477,915                 2,153,876              18,848,945                  5,301,597              11,109,898                    641,648

WHITE                         Borrowers                        75         97%            33    100%              91         98%        31           94%             76         81%             20         87%
                              Loans                           180         98%            77    100%             284         94%       126           89%            182         80%             45         88%
                              Principal and Interest   11,205,913         98%     2,153,876    100%      17,873,121         95% 4,878,567           92%      8,401,982         76%        550,221         86%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%              1           1%            1        3%              1           1%                  0      0%
                              Loans                                 0      0%              0      0%             14           5%           14       10%              1           0%                  0      0%
                              Principal and Interest                0      0%              0      0%        750,311           4%      418,864        8%         27,870           0%                  0      0%

NATIVE AMERICAN               Borrowers                             1      1%              0      0%                   1      1%              1      3%                  16    17%                   3    13%
                              Loans                            3           2%              0      0%              3           1%             1       1%             40         18%              6         12%
                              Principal and Interest     214,985           2%              0      0%        225,513           1%         4,166       0%      2,382,459         21%         91,428         14%

ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                         1          1%              0      0%                   0      0%              0      0%                   0      0%                  0      0%
                              Loans                             1          1%              0      0%                   0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest       57,016          0%              0      0%                   0      0%              0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                   1      1%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                   5      2%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%       297,587            3%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1290
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CREEK, OKLAHOMA                                CUSTER, OKLAHOMA                                DELAWARE, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       19                         7                     50                       13                      155                        31
                              Loans                           35                         8                     82                       19                      292                        88
                              Principal and Interest   1,664,100                    19,288              6,795,656                  366,422               15,572,145                   765,575
WHITE                         Borrowers                       17         89%             6      86%            48        96%            12       92%             97        63%             25         81%
                              Loans                           32         91%             7      88%            77        94%            17       89%            207        71%             74         84%
                              Principal and Interest   1,628,013         98%        16,595      86%     6,622,176        97%       331,880       91%     12,144,433        78%        668,006         87%
AFRICAN AMERICAN              Borrowers                        2         11%             1      14%            1           2%            1        8%                  0      0%                  0      0%
                              Loans                            3          9%             1      13%            4           5%            2       11%                  0      0%                  0      0%
                              Principal and Interest      36,087          2%         2,693      14%      162,803           2%       34,542        9%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%            1           2%              0      0%             58        37%              6         19%
                              Loans                                0      0%              0      0%            1           1%              0      0%             85        29%             14         16%
                              Principal and Interest               0      0%              0      0%       10,676           0%              0      0%      3,427,711        22%         97,570         13%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1291
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           DEWEY, OKLAHOMA                                      ELLIS, OKLAHOMA                               GARFIELD, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        82                        27                      79                         35                     133                        33
                              Loans                           143                        53                     221                        116                     260                        57
                              Principal and Interest   10,146,126                 1,166,247              10,738,734                  1,548,510              18,437,681                   816,847
WHITE                         Borrowers                         81        99%             27   100%               79       100%             35    100%              131       98%               32       97%
                              Loans                            138        97%             53   100%              221       100%            116    100%              257       99%               55       96%
                              Principal and Interest   10,020,403         99%     1,166,247    100%      10,738,734        100% 1,548,510         100%      18,296,573        99%        806,991         99%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                   0      0%              0      0%             2           2%              1          3%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%             3           1%              2          4%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%       141,108           1%          9,856          1%
NATIVE AMERICAN               Borrowers                        1           1%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                            5           3%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest     125,723           1%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1292
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           GARVIN, OKLAHOMA                                   GRADY, OKLAHOMA                                    GRANT, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        79                        21                      98                         31                     142                        39
                              Loans                           161                        53                     241                         81                     290                        71
                              Principal and Interest   10,502,128                 1,018,584              13,827,630                  1,148,444              19,543,456                 1,310,098

WHITE                         Borrowers                        74         94%            21    100%              96         98%        30           97%            140        99%             38         97%
                              Loans                           150         93%            53    100%             238         99%        79           98%            286        99%             68         96%
                              Principal and Interest    9,362,097         89%     1,018,584    100%      13,523,893         98% 1,128,671           98%     19,167,116        98%      1,176,601         90%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             5      6%              0      0%                   2      2%              1      3%                  2      1%                  1      3%
                              Loans                            11          7%              0      0%              3           1%            2        2%             4           1%             3          4%
                              Principal and Interest    1,140,032         11%              0      0%        303,736           2%       19,773        2%       376,340           2%       133,497         10%

ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1293
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           GREER, OKLAHOMA                                 HARMON, OKLAHOMA                                   HARPER, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       57                        16                     122                         53                     51                        20
                              Loans                          138                        34                     558                        183                    101                        45
                              Principal and Interest   4,276,101                    96,251              18,426,557                  1,748,512              8,998,721                   972,003

WHITE                         Borrowers                       56         98%            16    100%             119         98%        53         100%             51       100%             20        100%
                              Loans                          137         99%            34    100%             551         99%       183         100%            101       100%             45        100%
                              Principal and Interest   4,219,870         99%        96,251    100%      18,207,287         99% 1,748,512         100%      8,998,721       100%        972,003        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1      2%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1          1%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      56,231          1%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                   3      2%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                   7      1%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%        219,270           1%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1294
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        HASKELL, OKLAHOMA                             HUGHES, OKLAHOMA                                  JACKSON, OKLAHOMA
                                                       Portfolio   Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                      137                   38                      38                        19                      74                        36
                              Loans                          220                   70                      91                        55                     199                       116
                              Principal and Interest   8,633,548              819,377               4,954,980                 1,403,457              10,581,232                 1,444,400
WHITE                         Borrowers                       88     64%           26       68%            37        97%        19         100%              74       100%             36        100%
                              Loans                          150     68%           48       69%            89        98%        55         100%             199       100%            116        100%
                              Principal and Interest   5,261,196     61%      580,203       71%     4,908,889        99% 1,403,457         100%      10,581,232       100%      1,444,400        100%
AFRICAN AMERICAN              Borrowers                        1      1%             1       3%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                            1      0%             1       1%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest       6,506      0%           672       0%                 0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                       45     33%           11       29%            1           3%              0      0%                  0      0%                  0      0%
                              Loans                           65     30%           21       30%            2           2%              0      0%                  0      0%                  0      0%
                              Principal and Interest   3,175,182     37%      238,502       29%       46,091           1%              0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                        1      1%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                            2      1%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest      29,500      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                       1       1%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                           1       0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest    155,711       2%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                        1      1%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                            1      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest       5,454      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1295
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        JEFFERSON, OKLAHOMA                              JOHNSTON, OKLAHOMA                                      KAY, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        87                        37                     54                        17                     79                        23
                              Loans                           188                        89                    179                        75                    145                        42
                              Principal and Interest   16,073,405                 2,186,249              7,359,183                 1,387,353              9,453,492                   459,332
WHITE                         Borrowers                        86        99%             37    100%             51        94%        16          94%             77        97%             23        100%
                              Loans                           187        99%             89    100%            174        97%        74          99%            142        98%             42        100%
                              Principal and Interest   16,039,737       100%      2,186,249    100%      7,066,064        96% 1,386,229         100%      9,279,889        98%        459,332        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                         1          1%              0      0%            3           6%             1       6%            2           3%                  0      0%
                              Loans                             1          1%              0      0%            5           3%             1       1%            3           2%                  0      0%
                              Principal and Interest       33,668          0%              0      0%      293,119           4%         1,124       0%      173,602           2%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1296
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       KINGFISHER, OKLAHOMA                                   KIOWA, OKLAHOMA                                 LATIMER, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       107                        47                     128                         51                     27                        14
                              Loans                           299                       183                     354                        114                     54                        32
                              Principal and Interest   25,426,909                 7,223,757              19,605,247                  1,728,893              1,928,386                   219,180

WHITE                         Borrowers                        97         91%            43      91%            124         97%        50           98%            20        74%             12         86%
                              Loans                           263         88%           160      87%            336         95%       112           98%            40        74%             28         88%
                              Principal and Interest   21,327,559         84%     6,307,082      87%     18,506,085         94% 1,703,611           99%     1,142,007        59%        191,057         87%

AFRICAN AMERICAN              Borrowers                         7          7%            4        9%              2           2%              0      0%                 0      0%                  0      0%
                              Loans                            31         10%           23       13%             15           4%              0      0%                 0      0%                  0      0%
                              Principal and Interest    2,327,147          9%      916,675       13%        778,507           4%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             2      2%              0      0%                   1      1%              0      0%                 6    22%                   2    14%
                              Loans                            2           1%              0      0%              1           0%              0      0%           13         24%              4         13%
                              Principal and Interest     222,016           1%              0      0%        222,072           1%              0      0%      617,316         32%         28,123         13%

ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                         1          1%              0      0%                   0      0%              0      0%            1           4%                  0      0%
                              Loans                             3          1%              0      0%                   0      0%              0      0%            1           2%                  0      0%
                              Principal and Interest    1,550,188          6%              0      0%                   0      0%              0      0%      169,063           9%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                   1      1%              1      2%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   2      1%              2      2%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%         98,583           1%       25,283        1%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1297
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LE FLORE, OKLAHOMA                                LINCOLN, OKLAHOMA                                  LOGAN, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       172                        72                     56                        29                     48                        23
                              Loans                           273                       134                    146                        86                    100                        53
                              Principal and Interest   12,995,900                 1,859,895              5,909,458                 1,361,255              8,294,034                   726,509

WHITE                         Borrowers                       136         79%            56      78%            54        96%        29         100%             44        92%             20         87%
                              Loans                           230         84%           116      87%           140        96%        86         100%             90        90%             48         91%
                              Principal and Interest   11,698,657         90%     1,816,104      98%     5,476,886        93% 1,361,255         100%      7,227,768        87%        660,335         91%

AFRICAN AMERICAN              Borrowers                         2          1%             1       1%            2           4%              0      0%            3           6%             2           9%
                              Loans                             4          1%             2       1%            6           4%              0      0%            9           9%             4           8%
                              Principal and Interest       73,179          1%         4,278       0%      432,572           7%              0      0%      757,450           9%        61,764           9%

NATIVE AMERICAN               Borrowers                         32        19%             15     21%                 0      0%              0      0%                 1      2%                  1      4%
                              Loans                            37         14%            16      12%                 0      0%              0      0%            1           1%              1          2%
                              Principal and Interest    1,142,324          9%        39,512       2%                 0      0%              0      0%      308,816           4%          4,410          1%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                         1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                             1          0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       78,770          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             1      1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 1      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest        2,970          0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1298
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LOVE, OKLAHOMA                                   MAJOR, OKLAHOMA                                MARSHALL, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       28                        10                      88                        25                       58                        21
                              Loans                           59                        27                     183                        50                      228                       123
                              Principal and Interest   5,850,989                 1,847,455              11,112,278                   714,059               26,107,172                 6,400,227
WHITE                         Borrowers                       19         68%             7      70%             87         99%            25     100%              41        71%             14         67%
                              Loans                           36         61%            17      63%            181         99%            50     100%             176        77%            105         85%
                              Principal and Interest   4,399,400         75%     1,739,957      94%     10,911,028         98%       714,059     100%      21,962,800        84%      6,164,060         96%
AFRICAN AMERICAN              Borrowers                       2           7%            2       20%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                           7          12%            6       22%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest    192,485           3%      103,172        6%                   0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                        6         21%             1      10%                   0      0%              0      0%             16        28%              7         33%
                              Loans                           15         25%             4      15%                   0      0%              0      0%             46        20%             18         15%
                              Principal and Interest   1,248,632         21%         4,326       0%                   0      0%              0      0%      3,865,721        15%        236,167          4%
ASIAN                         Borrowers                        1          4%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                            1          2%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest      10,471          0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%              1           1%              0      0%             1           2%                  0      0%
                              Loans                                0      0%              0      0%              2           1%              0      0%             6           3%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%        201,250           2%              0      0%       278,651           1%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1299
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MAYES, OKLAHOMA                               MCCLAIN, OKLAHOMA                                MCCURTAIN, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       35                       15                      38                        12                     187                         82
                              Loans                           92                       57                     120                        57                     337                        176
                              Principal and Interest   4,284,011                  959,466               7,531,318                 1,224,831              15,576,372                  5,302,520

WHITE                         Borrowers                       34        97%            15     100%             37        97%        12         100%             169         90%             70         85%
                              Loans                           91        99%            57     100%            119        99%        57         100%             312         93%            162         92%
                              Principal and Interest   4,276,422       100%       959,466     100%      7,463,114        99% 1,224,831         100%      14,727,028         95%      5,175,886         98%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%             6            3%             4           5%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             9            3%             5           3%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       470,690            3%       109,670           2%

NATIVE AMERICAN               Borrowers                            1      3%              0      0%                 1      3%              0      0%                  12      6%                  8    10%
                              Loans                            1          1%              0      0%            1           1%              0      0%            16            5%             9           5%
                              Principal and Interest       7,589          0%              0      0%       68,204           1%              0      0%       378,654            2%        16,963           0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1300
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MCINTOSH, OKLAHOMA                                 MURRAY, OKLAHOMA                               MUSKOGEE, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       38                        12                     32                       13                      63                        23
                              Loans                           53                        13                     64                       32                     134                        59
                              Principal and Interest   2,267,569                    83,276              3,191,467                  598,987               7,342,322                   937,843
WHITE                         Borrowers                       29         76%            12    100%             32       100%            13     100%             45        71%             16         70%
                              Loans                           42         79%            13    100%             64       100%            32     100%             99        74%             41         69%
                              Principal and Interest   1,974,371         87%        83,276    100%      3,191,467       100%       598,987     100%      4,926,548        67%        812,282         87%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%            7         11%              3         13%
                              Loans                                0      0%              0      0%                 0      0%              0      0%           19         14%             14         24%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%      414,879          6%         91,612         10%
NATIVE AMERICAN               Borrowers                       9          24%              0      0%                 0      0%              0      0%            11        17%              4         17%
                              Loans                          11          21%              0      0%                 0      0%              0      0%            16        12%              4          7%
                              Principal and Interest    293,198          13%              0      0%                 0      0%              0      0%     2,000,895        27%         33,949          4%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1301
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            NOBLE, OKLAHOMA                                NOWATA, OKLAHOMA                                OKFUSKEE, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        78                        21                     66                        23                     66                        43
                              Loans                           167                        55                    217                       114                    220                       167
                              Principal and Interest   15,203,540                 3,020,585              6,575,893                 1,079,146              7,384,880                 2,795,677
WHITE                         Borrowers                         74        95%             20     95%            63        95%             23    100%              47       71%              28        65%
                              Loans                            163        98%             54     98%           206        95%            114    100%             158       72%             117        70%
                              Principal and Interest   14,944,713         98%     3,020,038    100%      6,411,783        98% 1,079,146         100%      5,490,771        74%      1,912,666         68%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%           16         24%             12         28%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%           33         15%             21         13%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%      608,152          8%        161,295          6%
NATIVE AMERICAN               Borrowers                        3           4%             1       5%            3           5%              0      0%            1          2%              1          2%
                              Loans                            3           2%             1       2%           11           5%              0      0%           16          7%             16         10%
                              Principal and Interest     172,852           1%           547       0%      164,110           2%              0      0%      964,567         13%        568,434         20%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                         1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                             1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       85,975          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 2      3%                  2      5%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%           13           6%            13           8%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%      321,390           4%       153,282           5%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1302
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       OKLAHOMA, OKLAHOMA                               OKMULGEE, OKLAHOMA                                   OSAGE, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       19                        11                     49                       22                      52                        18
                              Loans                           60                        43                    129                       56                     113                        60
                              Principal and Interest   4,214,253                 1,346,593              4,577,615                  505,951               6,702,098                 1,916,718
WHITE                         Borrowers                       16         84%             9      82%            37        76%            16       73%            39        75%             16         89%
                              Loans                           43         72%            28      65%            91        71%            38       68%            92        81%             53         88%
                              Principal and Interest   3,634,053         86%     1,095,985      81%     3,984,916        87%       458,992       91%     5,708,053        85%      1,908,777        100%
AFRICAN AMERICAN              Borrowers                       3          16%            2       18%           11         22%             6       27%                 0      0%                  0      0%
                              Loans                          17          28%           15       35%           36         28%            18       32%                 0      0%                  0      0%
                              Principal and Interest    580,200          14%      250,609       19%      564,929         12%        46,959        9%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%            1           2%              0      0%           12         23%               2        11%
                              Loans                                0      0%              0      0%            2           2%              0      0%           20         18%               7        12%
                              Principal and Interest               0      0%              0      0%       27,770           1%              0      0%      858,802         13%           7,942         0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%            1           2%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%            1           1%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%      135,243           2%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1303
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          OTTAWA, OKLAHOMA                                 PAWNEE, OKLAHOMA                                    PAYNE, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       124                        48                     62                        30                     61                        32
                              Loans                           404                       173                    116                        54                    148                        96
                              Principal and Interest   22,332,741                 3,473,263              8,546,968                 1,826,250              8,002,591                 1,767,503

WHITE                         Borrowers                       112         90%            48    100%             54        87%            27       90%            60        98%             31         97%
                              Loans                           385         95%           173    100%            100        86%            47       87%           147        99%             95         99%
                              Principal and Interest   21,600,092         97%     3,473,263    100%      5,025,006        59%       662,275       36%     7,905,238        99%      1,763,423        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%            1           2%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%            1           1%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%       66,502           1%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                         10         8%              0      0%                 6    10%               2      7%                 1      2%                  1      3%
                              Loans                           12           3%              0      0%            13        11%             5        9%             1          1%              1          1%
                              Principal and Interest     210,904           1%              0      0%     1,291,893        15%       376,915       21%        97,353          1%          4,080          0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%             1         2%             1        3%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%             2         2%             2        4%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%     2,163,567        25%       787,059       43%                 0      0%                  0      0%

HISPANIC                      Borrowers                             2      2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 7      2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest     521,745           2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1304
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PITTSBURG, OKLAHOMA                               PONTOTOC, OKLAHOMA                                POTTAWATOMIE, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                      104                       37                       80                         37                      27                         8
                              Loans                          164                       67                      176                         89                      44                        15
                              Principal and Interest   5,169,106                  327,971               11,373,070                  1,968,285               1,626,072                   218,553

WHITE                         Borrowers                       90         87%           29       78%             73         91%        33           89%             27       100%              8        100%
                              Loans                          147         90%           58       87%            159         90%        76           85%             44       100%             15        100%
                              Principal and Interest   4,847,370         94%      320,690       98%     10,210,324         90% 1,539,964           78%      1,626,072       100%        218,553        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%              2           3%            2        5%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%              9           5%            9       10%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        681,243           6%      390,511       20%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                        13        13%              7     19%                   4      5%              1      3%                  0      0%                  0      0%
                              Loans                          14           9%             8      12%              7           4%            3        3%                  0      0%                  0      0%
                              Principal and Interest    201,034           4%         7,194       2%        476,612           4%       36,950        2%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                       1           1%              1      3%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                           3           2%              1      1%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest    120,702           2%             86      0%                   0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                   1      1%              1      3%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                   1      1%              1      1%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%           4,890          0%           860       0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1305
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PUSHMATAHA, OKLAHOMA                              ROGER MILLS, OKLAHOMA                                ROGERS, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       152                        77                     52                        20                      15                         6
                              Loans                           378                       232                    108                        42                      22                        11
                              Principal and Interest   16,567,167                 5,720,063              3,385,105                   137,051               2,903,133                   319,020

WHITE                         Borrowers                       114         75%            59      77%            52        100%            20     100%             13        87%              5         83%
                              Loans                           315         83%           190      82%           108        100%            42     100%             20        91%             10         91%
                              Principal and Interest   13,711,724         83%     4,758,129      83%     3,385,105        100%       137,051     100%      2,538,510        87%        299,150         94%

AFRICAN AMERICAN              Borrowers                         2          1%             1       1%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                             8          2%             6       3%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       97,717          1%        29,302       1%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                         33        22%             14     18%                  0      0%              0      0%                 2    13%                   1    17%
                              Loans                            51         13%           32       14%                  0      0%              0      0%            2          9%              1           9%
                              Principal and Interest    2,672,278         16%      913,551       16%                  0      0%              0      0%      364,624         13%         19,870           6%

ASIAN                         Borrowers                         1          1%             1       1%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                             1          0%             1       0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       50,122          0%         2,572       0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                         2          1%             2       3%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                             3          1%             3       1%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       35,326          0%        16,507       0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1306
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SEMINOLE, OKLAHOMA                              SEQUOYAH, OKLAHOMA                                 STEPHENS, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       32                       11                      57                       15                       76                        39
                              Loans                           48                       18                      90                       39                      228                       141
                              Principal and Interest   1,832,725                  124,459               2,748,276                  844,562               12,156,071                 2,473,432

WHITE                         Borrowers                       29         91%            10      91%            29        51%            10       67%             73        96%             38         97%
                              Loans                           41         85%            16      89%            56        62%            31       79%            221        97%            140         99%
                              Principal and Interest   1,315,823         72%        83,922      67%     2,028,965        74%       761,243       90%     11,800,683        97%      2,472,561        100%

AFRICAN AMERICAN              Borrowers                       1           3%             1       9%            2           4%             1       7%                  0      0%                  0      0%
                              Loans                           2           4%             2      11%            3           3%             1       3%                  0      0%                  0      0%
                              Principal and Interest    175,852          10%        40,537      33%       98,369           4%         1,556       0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            2      6%              0      0%             25       44%               4     27%                  1      1%                  0      0%
                              Loans                           5          10%              0      0%           30         33%             7       18%             5           2%                  0      0%
                              Principal and Interest    341,049          19%              0      0%      593,233         22%        81,763       10%       279,113           2%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 1      2%              0      0%                  2      3%                  1      3%
                              Loans                                0      0%              0      0%                 1      1%              0      0%                  2      1%                  1      1%
                              Prinicpal and Interest               0      0%              0      0%       27,709           1%              0      0%         76,275          1%            871          0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1307
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            TEXAS, OKLAHOMA                                 TILLMAN, OKLAHOMA                                    TULSA, OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        89                        29                      84                         35                     11                         5
                              Loans                           202                        79                     213                         82                     25                        15
                              Principal and Interest   17,366,922                 4,748,818              10,430,480                  1,202,306              1,776,535                   739,967
WHITE                         Borrowers                        89       100%             29    100%              84        100%        35         100%              9        82%              5        100%
                              Loans                           202       100%             79    100%             213        100%        82         100%             23        92%             15        100%
                              Principal and Interest   17,366,922       100%      4,748,818    100%      10,430,480        100% 1,202,306         100%      1,769,232       100%        739,967        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                   0      0%              0      0%              2       18%                   0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%              2        8%                   0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%          7,303        0%                   0      0%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1308
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        WAGONER, OKLAHOMA                               WASHINGTON, OKLAHOMA                                 WASHITA, OKLAHOMA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       36                       18                      18                         5                       87                        31
                              Loans                           84                       46                      31                         7                      155                        80
                              Principal and Interest   5,116,187                  870,844               1,057,338                    35,382               10,920,173                 1,631,661

WHITE                         Borrowers                       32         89%           17       94%            17         94%             5     100%              87       100%             31        100%
                              Loans                           79         94%           45       98%            30         97%             7     100%             155       100%             80        100%
                              Principal and Interest   4,594,464         90%      864,613       99%     1,055,733        100%        35,382     100%      10,920,173       100%      1,631,661        100%

AFRICAN AMERICAN              Borrowers                       2           6%             1       6%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                           2           2%             1       2%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest    102,740           2%         6,231       1%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            2      6%              0      0%                  1      6%              0      0%                  0      0%                  0      0%
                              Loans                           3           4%              0      0%              1          3%              0      0%                  0      0%                  0      0%
                              Principal and Interest    418,982           8%              0      0%          1,605          0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1309
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           WOODS, OKLAHOMA                               WOODWARD, OKLAHOMA                                     STATE OF OKLAHOMA
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent     Portfolio   Percent     Delinquent   Percent
TOTAL                         Borrowers                        80                        37                      51                         25                    5,787                   2,235
                              Loans                           193                       104                     101                         57                   13,537                   6,036
                              Principal and Interest   12,835,920                 1,908,010              10,119,244                  2,440,306              804,263,590             149,178,752
WHITE                         Borrowers                        80       100%             37    100%              51        100%        25         100%            5,222    90%       2,043          91%
                              Loans                           193       100%            104    100%             101        100%        57         100%           12,426    92%       5,581          92%
                              Principal and Interest   12,835,920       100%      1,908,010    100%      10,119,244        100% 2,440,306         100%      744,242,949    93% 140,717,087          94%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                   0      0%              0      0%              96      2%              59       3%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%             275      2%             170       3%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%      10,751,640      1%       2,862,148       2%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                   0      0%              0      0%             428      7%             117       5%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%             749      6%             250       4%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%      41,189,502      5%       4,187,356       3%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%              7       0%               5       0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%             12       0%               8       0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%        725,464       0%         375,740       0%
OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%              11      0%               4       0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%              17      0%               6       0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%       4,419,477      1%         803,652       1%
HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%              23      0%               7       0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%              58      0%              21       0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%       2,934,552      0%         232,768       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1310
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  OK ATOKA                 Approved   No. of Applications             10        10   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     21                     0                   0                0                0
                                      Completion to Approval                    40                     0                   0                0                0
                                      Approval to Loan Closing                  11                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   144                      0                   0                0               0
                                      Completion to Rejected                    3                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 OK    BECKHAM             Approved   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Approval                    0                      0                   0                0               0
                                      Approval to Loan Closing                  0                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 OK    BRYAN               Approved   No. of Applications            17        17    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    39                      0                   0                0               0
                                      Completion to Approval                   50                      0                   0                0               0
                                      Approval to Loan Closing                 29                      0                   0                0               0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                   43                      0                   0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      3                      0                   0                0               0
                                     Completion to Withdrawn                   84                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1311
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American             Asian            Hispanic
  OK CADDO                 Approved   No. of Applications             21        21   100%              0   0%               0   0%            0   0%           0     0%
                                      Receipt to Completion                   165                      0                    0                 0                0
                                      Completion to Approval                    27                     0                    0                 0                0
                                      Approval to Loan Closing                  21                     0                    0                 0                0

                           Rejected   No. of Applications             2         2    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications             14        14    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                     32                      0                    0                 0               0
                                     Completion to Withdrawn                    5                      0                    0                 0               0

 OK    CHEROKEE            Approved   No. of Applications            37        26    70%               0   0%          11       30%           0   0%          0      0%
                                      Receipt to Completion                    50                      0               49                     0               0
                                      Completion to Approval                   23                      0               13                     0               0
                                      Approval to Loan Closing                 17                      0               25                     0               0

                           Rejected   No. of Applications             6         4    67%           2       33%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    23                 21                        0                 0               0
                                      Completion to Rejected                    4                  1                        0                 0               0

                           Withdrawn No. of Applications              3         2    67%           1       33%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     80                 47                        0                 0               0
                                     Completion to Withdrawn                   32                  0                        0                 0               0

 OK    CHOCTAW             Approved   No. of Applications             8         6    75%               0   0%           2       25%           0   0%          0      0%
                                      Receipt to Completion                    42                      0               31                     0               0
                                      Completion to Approval                   13                      0                5                     0               0
                                      Approval to Loan Closing                 14                      0               10                     0               0

                           Rejected   No. of Applications             1         1    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    32                      0                    0                 0               0
                                      Completion to Rejected                   28                      0                    0                 0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                 0               0
                                     Completion to Withdrawn                    2                      0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1312
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American              Asian            Hispanic
  OK CIMARRON              Approved   No. of Applications             34        33   97%               0   0%          1        3%            0   0%           0     0%
                                      Receipt to Completion                     45                     0              19                      0                0
                                      Completion to Approval                     8                     0               0                      0                0
                                      Approval to Loan Closing                  52                     0              58                      0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                  0               0
                                      Completion to Rejected                    0                      0                   0                  0               0

                           Withdrawn No. of Applications              9         9    100%              0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                  0               0
                                     Completion to Withdrawn                    0                      0                   0                  0               0

 OK    COTTON              Approved   No. of Applications             5         5    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    32                      0                   0                  0               0
                                      Completion to Approval                    3                      0                   0                  0               0
                                      Approval to Loan Closing                 63                      0                   0                  0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                  0               0
                                      Completion to Rejected                    0                      0                   0                  0               0

                           Withdrawn No. of Applications              3         2    67%               0   0%          1       33%            0   0%          0      0%
                                     Receipt to Completion                      0                      0               0                      0               0
                                     Completion to Withdrawn                    0                      0              45                      0               0

 OK    CRAIG               Approved   No. of Applications             7         5    71%               0   0%          2       29%            0   0%          0      0%
                                      Receipt to Completion                    24                      0              49                      0               0
                                      Completion to Approval                    9                      0              96                      0               0
                                      Approval to Loan Closing                 15                      0             106                      0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                  0               0
                                      Completion to Rejected                    0                      0                   0                  0               0

                           Withdrawn No. of Applications              6         0     0%               0   0%          6       100%           0   0%          0      0%
                                     Receipt to Completion                      0                      0              47                      0               0
                                     Completion to Withdrawn                    0                      0              25                      0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1313
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  OK CUSTER                Approved   No. of Applications             33        32   97%               0   0%          1       3%           0   0%           0     0%
                                      Receipt to Completion                     30                     0              24                    0                0
                                      Completion to Approval                    10                     0              10                    0                0
                                      Approval to Loan Closing                  32                     0              17                    0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     15                      0                   0                0               0
                                     Completion to Withdrawn                   24                      0                   0                0               0

 OK    DELAWARE            Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   180                      0                   0                0               0
                                      Completion to Approval                   41                      0                   0                0               0
                                      Approval to Loan Closing                  0                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 OK    ELLIS               Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    68                      0                   0                0               0
                                      Completion to Approval                    3                      0                   0                0               0
                                      Approval to Loan Closing                 16                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1314
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American             Asian            Hispanic
  OK GARFIELD              Approved   No. of Applications             81        79   98%               0   0%               0   0%            0   0%           2     2%
                                      Receipt to Completion                     34                     0                    0                 0              20
                                      Completion to Approval                    25                     0                    0                 0                0
                                      Approval to Loan Closing                  72                     0                    0                 0              71

                           Rejected   No. of Applications            23        22    96%               1   4%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    19                      0                    0                 0               0
                                      Completion to Rejected                   15                      0                    0                 0               0

                           Withdrawn No. of Applications             28        28    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                     19                      0                    0                 0               0
                                     Completion to Withdrawn                   43                      0                    0                 0               0

 OK    GARVIN              Approved   No. of Applications            23        23    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    47                      0                    0                 0               0
                                      Completion to Approval                   10                      0                    0                 0               0
                                      Approval to Loan Closing                 43                      0                    0                 0               0

                           Rejected   No. of Applications             4         2    50%           2       50%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    50                 15                        0                 0               0
                                      Completion to Rejected                    0                 11                        0                 0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      4                      0                    0                 0               0
                                     Completion to Withdrawn                   58                      0                    0                 0               0

 OK    GRADY               Approved   No. of Applications            12         9    75%               0   0%           3       25%           0   0%          0      0%
                                      Receipt to Completion                   119                      0               65                     0               0
                                      Completion to Approval                   17                      0               35                     0               0
                                      Approval to Loan Closing                 39                      0               14                     0               0

                           Rejected   No. of Applications             5         5    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    13                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                 0               0
                                     Completion to Withdrawn                    0                      0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1315
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  OK HARMON                Approved   No. of Applications                5        5      100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                      31                        0                   0                 0                0
                                      Completion to Approval                    199                        0                   0                 0                0
                                      Approval to Loan Closing                    0                        0                   0                 0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 OK    JEFFERSON           Approved   No. of Applications                3        3      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      35                        0                   0                 0               0
                                      Completion to Approval                     15                        0                   0                 0               0
                                      Approval to Loan Closing                   42                        0                   0                 0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      30                        0                   0                 0               0
                                      Completion to Rejected                     19                        0                   0                 0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                       38                        0                   0                 0               0
                                     Completion to Withdrawn                     15                        0                   0                 0               0

 OK    JOHNSTON COUNTY     Approved   No. of Applications            10           9      90%               0   0%          1       10%           0   0%          0      0%
                                      Receipt to Completion                      19                        0              29                     0               0
                                      Completion to Approval                     16                        0              18                     0               0
                                      Approval to Loan Closing                   18                        0              23                     0               0

                           Rejected   No. of Applications                3           3   100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 4        1      25%               0   0%              3   75%           0   0%          0      0%
                                     Receipt to Completion                       58                        0                   0                 0               0
                                     Completion to Withdrawn                     18                        0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1316
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American             Asian            Hispanic
  OK KINGFIGHER            Approved   No. of Applications             14        12   86%           2       14%              0   0%            0   0%           0     0%
                                      Receipt to Completion                     23                 0                        0                 0                0
                                      Completion to Approval                    12                59                        0                 0                0
                                      Approval to Loan Closing                  73                36                        0                 0                0

                           Rejected   No. of Applications             4         3    75%               1   25%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    13                      0                    0                 0               0
                                      Completion to Rejected                   13                      0                    0                 0               0

                           Withdrawn No. of Applications              6         3    50%               3   50%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     12                      0                    0                 0               0
                                     Completion to Withdrawn                   19                      0                    0                 0               0

 OK    KIOWA               Approved   No. of Applications            17        17    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    45                      0                    0                 0               0
                                      Completion to Approval                   16                      0                    0                 0               0
                                      Approval to Loan Closing                 17                      0                    0                 0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                     99                      0                    0                 0               0
                                     Completion to Withdrawn                    7                      0                    0                 0               0

 OK    LEFLORE             Approved   No. of Applications            52        43    83%               0   0%           9       17%           0   0%          0      0%
                                      Receipt to Completion                    19                      0                9                     0               0
                                      Completion to Approval                   10                      0                2                     0               0
                                      Approval to Loan Closing                 26                      0              128                     0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              3         2    67%               1   33%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                 0               0
                                     Completion to Withdrawn                    0                      0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1317
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American             Asian            Hispanic
  OK MCCURTON              Approved   No. of Applications             11        11   100%              0   0%               0   0%            0   0%           0     0%
                                      Receipt to Completion                     26                     0                    0                 0                0
                                      Completion to Approval                    11                     0                    0                 0                0
                                      Approval to Loan Closing                  31                     0                    0                 0                0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                 0               0
                                     Completion to Withdrawn                    0                      0                    0                 0               0

 OK    OKMULGEE            Approved   No. of Applications            16        13    81%           1       6%           2       13%           0   0%          0      0%
                                      Receipt to Completion                    31                  0                    0                     0               0
                                      Completion to Approval                   32                 71                   14                     0               0
                                      Approval to Loan Closing                 21                 22                   28                     0               0

                           Rejected   No. of Applications             3         3    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     4                      0                    0                 0               0
                                      Completion to Rejected                   29                      0                    0                 0               0

                           Withdrawn No. of Applications              2         0     0%               1   50%          1       50%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                0                     0               0
                                     Completion to Withdrawn                    0                      7               18                     0               0

 OK    OTTAWA              Approved   No. of Applications             4         4    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    45                      0                    0                 0               0
                                      Completion to Approval                   17                      0                    0                 0               0
                                      Approval to Loan Closing                 19                      0                    0                 0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                 0               0
                                     Completion to Withdrawn                    0                      0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1318
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American             Asian            Hispanic
  OK PAYNE                 Approved   No. of Applications             16        12   75%           3       19%          1       6%            0   0%           0     0%
                                      Receipt to Completion                     30                15                   20                     0                0
                                      Completion to Approval                    17                34                   12                     0                0
                                      Approval to Loan Closing                  26                14                   15                     0                0

                           Rejected   No. of Applications             3         3    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     3                      0                    0                 0               0
                                      Completion to Rejected                    9                      0                    0                 0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                 0               0
                                     Completion to Withdrawn                    5                      0                    0                 0               0

 OK    PONTOTOC            Approved   No. of Applications            20        17    85%           1       5%           2       10%           0   0%          0      0%
                                      Receipt to Completion                    32                 23                   48                     0               0
                                      Completion to Approval                   20                 22                    7                     0               0
                                      Approval to Loan Closing                 39                 13                   39                     0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              5         3    60%               1   20%          1       20%           0   0%          0      0%
                                     Receipt to Completion                      0                      0              102                     0               0
                                     Completion to Withdrawn                    0                      0               21                     0               0

 OK    TEXAS               Approved   No. of Applications            24        24    100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    73                      0                    0                 0               0
                                      Completion to Approval                   16                      0                    0                 0               0
                                      Approval to Loan Closing                 60                      0                    0                 0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                 0               0
                                      Completion to Rejected                    0                      0                    0                 0               0

                           Withdrawn No. of Applications              9         9    100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      4                      0                    0                 0               0
                                     Completion to Withdrawn                    3                      0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1319
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African             Native
 State   Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OK TILLMAN                Approved   No. of Applications                9        9      100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                      69                        0                   0                0                0
                                       Completion to Approval                     28                        0                   0                0                0
                                       Approval to Loan Closing                   10                        0                   0                0                0

                            Rejected   No. of Applications                4           4   100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                        0                        0                   0                0               0
                                      Completion to Withdrawn                     47                        0                   0                0               0

 OK    WOODS                Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      26                        0                   0                0               0
                                       Completion to Approval                    105                        0                   0                0               0
                                       Approval to Loan Closing                   27                        0                   0                0               0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 8        8      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       21                        0                   0                0               0
                                      Completion to Withdrawn                     41                        0                   0                0               0

 OK    WOODWARD             Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      21                        0                   0                0               0
                                       Completion to Approval                     14                        0                   0                0               0
                                       Approval to Loan Closing                   33                        0                   0                0               0

                            Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                       0                        0                   0                0               0
                                       Completion to Rejected                     24                        0                   0                0               0

                            Withdrawn No. of Applications                 3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       88                        0                   0                0               0
                                      Completion to Withdrawn                      2                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1320
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African             Native
 State  Servicing Office   Decision           Average Days       Total    White           American            American          Asian            Hispanic
  OK STATE                 Approved   No. of Applications           499      455    91%          7       1%           35   7%           0   0%           2     0%
                                      Receipt to Completion                    45               10                    33                0              20
                                      Completion to Approval                   21               45                    16                0                0
                                      Approval to Loan Closing                 39               21                    56                0              71

                           Rejected   No. of Applications            66       60    91%          6       9%           0    0%           0   0%          0      0%
                                      Receipt to Completion                   16                12                    0                 0               0
                                      Completion to Rejected                  13                 4                    0                 0               0

                           Withdrawn No. of Applications            139      120    86%              7   5%          12    9%           0   0%          0      0%
                                     Receipt to Completion                    17                     7               32                 0               0
                                     Completion to Withdrawn                  23                     1               20                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                             Page 1321
                            Demographics         1323
                        FSA’s Loan Portfolio     1328
                        FSA’s Application data   1341




USDA/OIG-A/50801-4-Hq                                   1322
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                             Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          OR                 Population       15,317       14,829     97%            29      0%        137      1%         45      0%              1      0%        276       2%
          Baker County       Borrowers            68           65     96%             0      0%          0      0%          0      0%              3      4%          0       0%
                             Farms               593          586     99%             0      0%          0      0%          0      0%              0      0%          7       1%
                             Land in Farms   818,736      813,682     99%             0      0%          0      0%          0      0%              0      0%      5,054       1%

          OR                 Population       70,811       64,103    91%            580      1%        501      1%      3,845      5%         47          0%      1,735       2%
          Benton County      Borrowers            10           10   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               658          643    98%              0      0%          0      0%          5      1%          4          1%          6       1%
                             Land in Farms   118,818      118,662   100%              0      0%          0      0%        156      0%          0          0%          0       0%

          OR                 Population      278,850      263,965     95%         1,107      0%      1,824      1%      4,723      2%        102          0%      7,129       3%
          Clackamas County   Borrowers            51           48     94%             0      0%          0      0%          1      2%          0          0%          2       4%
                             Farms             3,155        3,086     98%             0      0%         11      0%         16      1%         17          1%         25       1%
                             Land in Farms   148,848      145,694     98%             0      0%      1,620      1%          0      0%        683          0%        851       1%

          OR                 Population       33,301       31,756    95%             99      0%        361      1%        419      1%         18          0%        648       2%
          Clatsop County     Borrowers             6            6   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               233          233   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    24,740       24,740   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          OR                 Population       37,557       36,067    96%             37      0%        485      1%        273      1%         11          0%        684       2%
          Columbia County    Borrowers            10           10   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               661          661   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    71,839       71,839   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          OR                 Population       60,273       56,879     94%           133      0%      1,338      2%        556      1%         14          0%      1,353       2%
          Coos County        Borrowers            74           69     93%             0      0%          2      3%          1      1%          0          0%          2       3%
                             Farms               722          708     98%             0      0%          7      1%          0      0%          0          0%          7       1%
                             Land in Farms   174,872      173,622     99%             0      0%        817      0%          0      0%          0          0%        433       0%

          OR                 Population       14,111       13,455    95%             11      0%        207      1%         47      0%              3      0%        388       3%
          Crook County       Borrowers            12           11    92%              0      0%          1      8%          0      0%              0      0%          0       0%
                             Farms               503          497    99%              0      0%          3      1%          0      0%              0      0%          3       1%
                             Land in Farms   894,853      894,809   100%              0      0%          0      0%          0      0%              0      0%         44       0%

          OR                 Population       19,327       18,367     95%            31      0%        444      2%        121      1%         10          0%        354       2%
          Curry County       Borrowers            12           10     83%             0      0%          1      8%          0      0%          1          8%          0       0%
                             Farms               177          169     95%             0      0%          8      5%          0      0%          0          0%          0       0%
                             Land in Farms    74,375       72,743     98%             0      0%      1,632      2%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1323
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American               Asian                  Other                 Hispanic
                                                Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          OR                  Population        74,958        72,303    96%             78         0%        609      1%        426          1%         16          0%      1,526       2%
          Deschutes County    Borrowers              6             6   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                              Farms              1,036         1,010    97%              0         0%          6      1%          4          0%          3          0%         13       1%
                              Land in Farms    139,483       138,828   100%              0         0%        175      0%          0          0%          0          0%        480       0%

          OR                  Population        94,649        90,196     95%           140         0%      1,428      2%        629          1%         31          0%      2,225       2%
          Douglas County      Borrowers             33            32     97%             0         0%          0      0%          0          0%          0          0%          1       3%
                              Farms              1,823         1,769     97%             0         0%         14      1%          6          0%          8          0%         26       1%
                              Land in Farms    402,023       395,910     98%             0         0%      2,735      1%          0          0%          0          0%      3,378       1%

          OR                  Population         1,717         1,668    97%                 0      0%         10      1%              9      1%              0      0%         30       2%
          Gilliam County      Borrowers              7             7   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Farms                143           143   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms    766,373       766,373   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

          OR                  Population          7,853        7,595    97%                 6      0%         86      1%         14          0%              0      0%        152       2%
          Grant County        Borrowers              19           19   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Farms                 394          388    98%                 0      0%          3      1%          0          0%              0      0%          3       1%
                              Land in Farms   1,154,399    1,154,242   100%                 0      0%        157      0%          0          0%              0      0%          0       0%

          OR                  Population          7,060        6,544     93%                2      0%        252      4%         39          1%          2          0%        221       3%
          Harney County       Borrowers              54           50     93%                0      0%          0      0%          0          0%          3          6%          1       2%
                              Farms                 442          423     96%                0      0%          5      1%          0          0%          5          1%          9       2%
                              Land in Farms   1,457,339    1,436,061     99%                0      0%          0      0%          0          0%      5,804          0%     15,474       1%

          OR                  Population        16,903        13,628     81%            36         0%        186      1%        284          2%         17          0%      2,752       16%
          Hood River County   Borrowers             21            20     95%             0         0%          0      0%          0          0%          1          5%          0        0%
                              Farms                563           509     90%             0         0%          0      0%         43          8%          4          1%          7        1%
                              Land in Farms     27,201        23,817     88%             0         0%          0      0%      2,727         10%          0          0%        657        2%

          OR                  Population       146,389       136,957     94%           319         0%      1,722      1%      1,386          1%         56          0%      5,949       4%
          Jackson County      Borrowers             24            22     92%             0         0%          0      0%          0          0%          1          4%          1       4%
                              Farms              1,573         1,537     98%             0         0%          8      1%          8          1%          3          0%         17       1%
                              Land in Farms    262,251       260,302     99%             0         0%        268      0%        365          0%         52          0%      1,264       0%

          OR                  Population        13,676         9,590    70%             20         0%      2,551     19%         62          0%              5      0%      1,448       11%
          Jefferson County    Borrowers             25            24    96%              0         0%          1      4%          0          0%              0      0%          0        0%
                              Farms                345           345   100%              0         0%          0      0%          0          0%              0      0%          0        0%
                              Land in Farms    530,960       530,960   100%              0         0%          0      0%          0          0%              0      0%          0        0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1324
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian              Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          OR                 Population        62,649        59,521    95%            123         0%        802      1%        434      1%         20          0%      1,749       3%
          Josephine County   Borrowers             10            10   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Farms                607           596    98%              0         0%          7      1%          0      0%          0          0%          4       1%
                             Land in Farms     31,249        31,047    99%              0         0%          0      0%          0      0%          0          0%        202       1%

          OR                 Population        57,702        51,704     90%           352         1%      2,202      4%        442      1%         18          0%      2,984       5%
          Klamath County     Borrowers             65            64     98%             0         0%          1      2%          0      0%          0          0%          0       0%
                             Farms                954           922     97%             0         0%          8      1%          8      1%          4          0%         12       1%
                             Land in Farms    720,153       712,388     99%             0         0%          0      0%      6,204      1%          0          0%      1,561       0%

          OR                 Population         7,186         6,689    93%                 5      0%        178      2%         41      1%              3      0%        270       4%
          Lake County        Borrowers             37            37   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms                366           361    99%                 0      0%          5      1%          0      0%              0      0%          0       0%
                             Land in Farms    833,025       831,554   100%                 0      0%      1,471      0%          0      0%              0      0%          0       0%

          OR                 Population       282,912       265,391    94%          2,040         1%      3,017      1%      5,419      2%        193          0%      6,852       2%
          Lane County        Borrowers             23            23   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Farms              1,969         1,941    99%              3         0%          6      0%          6      0%          4          0%          9       0%
                             Land in Farms    242,121       241,651   100%              0         0%        127      0%        159      0%          0          0%        184       0%

          OR                 Population        38,889        36,962    95%             63         0%        926      2%        329      1%         11          0%        598       2%
          Lincoln County     Borrowers              1             1   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Farms                283           283   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms     34,292        34,292   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          OR                 Population        91,227        87,081    95%            171         0%      1,001      1%        765      1%         32          0%      2,177       2%
          Linn County        Borrowers             44            44   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Farms              1,948         1,913    98%              0         0%          5      0%          6      0%          9          0%         15       1%
                             Land in Farms    380,464       377,048    99%              0         0%         49      0%        177      0%      1,434          0%      1,756       0%

          OR                 Population         26,038       19,839     76%            63         0%        177      1%        783      3%         21          0%      5,155       20%
          Malheur County     Borrowers             160          147     92%             0         0%          2      1%          4      3%          5          3%          2        1%
                             Farms               1,186        1,079     91%             0         0%          0      0%         65      5%         14          1%         28        2%
                             Land in Farms   1,318,447    1,248,862     95%             0         0%          0      0%     24,813      2%      1,828          0%     42,944        3%

          OR                 Population       228,483       201,218     88%         2,039         1%      2,970      1%      3,874      2%        157          0%     18,225       8%
          Marion County      Borrowers             85            82     96%             0         0%          3      4%          0      0%          0          0%          0       0%
                             Farms              2,494         2,431     97%             0         0%          7      0%          7      0%         15          1%         34       1%
                             Land in Farms    302,462       297,486     98%             0         0%        831      0%          0      0%      1,345          0%      2,800       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1325
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian              Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          OR                 Population          7,625        6,688    88%                 8      0%         65      1%         30      0%              9      0%        825       11%
          Morrow County      Borrowers               9            8    89%                 0      0%          0      0%          0      0%              1     11%          0        0%
                             Farms                 348          348   100%                 0      0%          0      0%          0      0%              0      0%          0        0%
                             Land in Farms   1,119,004    1,119,004   100%                 0      0%          0      0%          0      0%              0      0%          0        0%

          OR                 Population       583,887       497,700     85%        34,415         6%      6,122      1%     26,626      5%        634          0%     18,390       3%
          Multnomah County   Borrowers              5             4     80%             0         0%          0      0%          1     20%          0          0%          0       0%
                             Farms                602           581     97%             3         0%          0      0%         15      2%          0          0%          3       0%
                             Land in Farms     31,294        30,401     97%             0         0%          0      0%        893      3%          0          0%          0       0%

          OR                 Population        49,541        45,145     91%           192         0%        704      1%        653      1%         45          0%      2,802       6%
          Polk County        Borrowers             47            46     98%             0         0%          0      0%          0      0%          0          0%          1       2%
                             Farms              1,027         1,007     98%             0         0%          4      0%          3      0%          4          0%          9       1%
                             Land in Farms    167,880       166,791     99%             0         0%          0      0%          0      0%        239          0%        850       1%

          OR                 Population         1,918         1,853    97%                 0      0%         24      1%         13      1%              0      0%         28       1%
          Sherman County     Borrowers             20            20   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms                179           179   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    487,534       487,534   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          OR                 Population        21,570        20,765     96%            38         0%        231      1%        154      1%              8      0%        374       2%
          Tillamook County   Borrowers             24            23     96%             0         0%          0      0%          0      0%              1      4%          0       0%
                             Farms                338           334     99%             0         0%          0      0%          0      0%              0      0%          4       1%
                             Land in Farms     39,559        39,100     99%             0         0%          0      0%          0      0%              0      0%        459       1%

          OR                 Population         59,249       51,303     87%           350         1%      1,746      3%        503      1%         40          0%      5,307       9%
          Umatilla County    Borrowers              36           33     92%             0         0%          1      3%          0      0%          2          6%          0       0%
                             Farms               1,441        1,415     98%             0         0%          4      0%          3      0%          6          0%         13       1%
                             Land in Farms   1,466,580    1,426,410     97%             0         0%          0      0%          0      0%          0          0%     40,170       3%

          OR                 Population        23,598        22,612    96%             99         0%        226      1%        268      1%         12          0%        381       2%
          Union County       Borrowers             23            22    96%              0         0%          1      4%          0      0%          0          0%          0       0%
                             Farms                751           742    99%              0         0%          3      0%          3      0%          0          0%          3       0%
                             Land in Farms    473,316       473,036   100%              0         0%          0      0%        135      0%          0          0%        145       0%

          OR                 Population         6,911         6,738    97%                 6      0%         31      0%         23      0%          0          0%        113       2%
          Wallowa County     Borrowers             30            18    60%                 0      0%          0      0%          0      0%         12         40%          0       0%
                             Farms                459           459   100%                 0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    694,304       694,304   100%                 0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1326
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American               Asian                  Other                 Hispanic
                                                 Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
          OR                  Population          21,683        19,474    90%             59         0%        844      4%        235          1%              6      0%       1,065      5%
          Wasco County        Borrowers               31            28    90%              0         0%          0      0%          0          0%              3     10%           0      0%
                              Farms                  456           453    99%              0         0%          0      0%          0          0%              0      0%           3      1%
                              Land in Farms    1,152,965     1,152,839   100%              0         0%          0      0%          0          0%              0      0%         126      0%

          OR                  Population        311,554       280,239      90%         1,986         1%      1,575      1%     13,190          4%        163          0%      14,401      5%
          Washington County   Borrowers              14            13      93%             0         0%          0      0%          0          0%          0          0%           1      7%
                              Farms               1,627         1,589      98%             0         0%          4      0%          6          0%          9          1%          19      1%
                              Land in Farms     139,820       137,442      98%             0         0%          0      0%        171          0%        854          1%       1,353      1%

          OR                  Population          1,396         1,370     98%                 1      0%         11      1%              2      0%              0      0%         12       1%
          Wheeler County      Borrowers               2             2    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Farms                 145           145    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms     728,131       728,131    100%                 0      0%          0      0%              0      0%              0      0%          0       0%

          OR                  Population         65,551        59,538     91%            344         1%        756      1%        760          1%         24          0%       4,129      6%
          Yamhill County      Borrowers              21            19     90%              0         0%          1      5%          0          0%          1          5%           0      0%
                              Farms               1,691         1,658     98%              3         0%          5      0%          9          1%          4          0%          12      1%
                              Land in Farms     179,787       179,089    100%             14         0%        163      0%        246          0%         49          0%         226      0%

          OR                  Population       2,842,321     2,579,732     91%        44,982         2%     35,749      1%     67,422          2%      1,729          0%     112,707      4%
          STATE               Borrowers            1,119         1,053     94%             0         0%         14      1%          7          1%         34          3%          11      1%
                              Farms               31,892        31,143     98%             9         0%        123      0%        213          1%        113          0%         291      1%
                              Land in Farms   17,609,497    17,430,693     99%            14         0%     10,045      0%     36,046          0%     12,288          0%     120,411      1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1327
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                BAKER, OREGON                                      BENTON, OREGON                              CLACKAMAS, OREGON
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        68                         4                         10                        5                      51                       14
                              Loans                           127                        10                         21                       12                     111                       33
                              Principal and Interest   11,249,821                   140,799                  2,337,515                  396,379               9,233,574                  761,085

WHITE                         Borrowers                        65        96%              4        100%             10       100%             5     100%             48         94%           13       93%
                              Loans                           122        96%             10        100%             21       100%            12     100%            108         97%           32       97%
                              Principal and Interest   11,206,171       100%        140,799        100%      2,337,515       100%       396,379     100%      9,096,328         99%      744,023       98%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%        21,014          0%              0      0%

OTHER                         Borrowers                         3          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             5          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       43,649          0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%            2           4%             1       7%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%            2           2%             1       3%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%      116,233           1%        17,062       2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1328
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CLATSOP, OREGON                                    COLUMBIA, OREGON                                       COOS, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        6                              0                    10                        6                       74                       24
                              Loans                           27                              0                    29                       19                      152                       47
                              Principal and Interest   1,525,910                              0             1,358,648                  111,977               14,341,937                  793,023

WHITE                         Borrowers                        6       100%                   0      0%            10       100%             6     100%              69         93%           22       92%
                              Loans                           27       100%                   0      0%            29       100%            19     100%             141         93%           43       91%
                              Principal and Interest   1,525,910       100%                   0      0%     1,358,648       100%       111,977     100%      13,495,528         94%      781,325       99%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  2      3%              2      8%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             6           4%             4       9%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       451,734           3%        11,698       1%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1          1%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              2          1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%         52,651          0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  2      3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  3      2%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%       342,025           2%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1329
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              CROOK, OREGON                                        CURRY, OREGON                               DESCHUTES, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       12                         2                         12                         3                      6                        4
                              Loans                           18                         2                         20                         4                     13                        7
                              Principal and Interest   2,380,667                    37,828                  1,857,279                    80,063              2,378,621                  678,362

WHITE                         Borrowers                       11         92%             2        100%             10         83%             2      67%             6       100%             4     100%
                              Loans                           16         89%             2        100%             16         80%             2      50%            13       100%             7     100%
                              Principal and Interest   2,125,483         89%        37,828        100%      1,240,566         67%        32,700      41%     2,378,621       100%       678,362     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            1      8%                  0      0%                 1      8%              1     33%                 0      0%              0      0%
                              Loans                            2         11%                  0      0%            3          15%             2      50%                 0      0%              0      0%
                              Principal and Interest     255,184         11%                  0      0%      264,613          14%        47,363      59%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%            1           8%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            1           5%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      352,099          19%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1330
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            DOUGLAS, OREGON                                      GILLIAM, OREGON                                    GRANT, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                        11                          7                         1                     19                         3
                              Loans                           59                        21                         17                         5                     32                         5
                              Principal and Interest   6,453,507                 1,007,555                  3,043,909                    89,632              3,032,783                    51,903
WHITE                         Borrowers                       32         97%            10          91%             7       100%              1    100%             19       100%              3    100%
                              Loans                           58         98%            20          95%            17       100%              5    100%             32       100%              5    100%
                              Principal and Interest   6,351,114         98%       928,063          92%     3,043,909       100%         89,632    100%      3,032,783       100%         51,903    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                        1          3%             1           9%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%             1           5%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest     102,393          2%        79,492           8%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1331
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HARNEY, OREGON                                  HOOD RIVER, OREGON                                   JACKSON, OREGON
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        54                        17                         21                        9                      24                        8
                              Loans                           138                        30                         46                       25                      58                       25
                              Principal and Interest   10,396,035                   678,692                  4,169,992                  427,566               4,454,762                  479,942
WHITE                         Borrowers                        50         93%            17        100%             20        95%             9     100%             22         92%            8     100%
                              Loans                           134         97%            30        100%             45        98%            25     100%             56         97%           25     100%
                              Principal and Interest    8,916,485         86%       678,692        100%      4,155,921       100%       427,566     100%      3,684,387         83%      479,942     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                         3          6%                  0      0%             1          5%              0      0%            1           4%              0      0%
                              Loans                             3          2%                  0      0%             1          2%              0      0%            1           2%              0      0%
                              Principal and Interest    1,451,761         14%                  0      0%        14,071          0%              0      0%      731,348          16%              0      0%
HISPANIC                      Borrowers                         1          2%                  0      0%                 0      0%              0      0%             1          4%              0      0%
                              Loans                             1          1%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Prinicpal and Interest       27,789          0%                  0      0%                 0      0%              0      0%        39,028          1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1332
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          JEFFERSON, OREGON                                    JOSEPHINE, OREGON                             KLAMATH FALLS, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                        10                         10                        5                       65                        27
                              Loans                           75                        39                         26                       11                      157                        71
                              Principal and Interest   7,139,106                 2,186,769                  1,438,840                  110,171               15,516,280                 1,599,936
WHITE                         Borrowers                       24         96%             9         90%             10       100%             5     100%              64         98%            26      96%
                              Loans                           74         99%            38         97%             26       100%            11     100%             154         98%            68      96%
                              Principal and Interest   6,951,649         97%     2,180,425        100%      1,438,840       100%       110,171     100%      15,382,009         99%     1,584,622      99%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1          4%              1         10%                 0      0%              0      0%             1           2%             1       4%
                              Loans                            1          1%              1          3%                 0      0%              0      0%             3           2%             3       4%
                              Principal and Interest     187,457          3%          6,344          0%                 0      0%              0      0%       134,271           1%        15,314       1%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1333
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LAKE, OREGON                                         LANE, OREGON                              LINCOLN, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       37                        11                         23                        6                       1                         1
                              Loans                          103                        34                         39                       11                       1                         1
                              Principal and Interest   7,441,230                   312,748                  3,189,852                  189,724                  27,886                     1,457

WHITE                         Borrowers                       37       100%             11        100%             23       100%             6     100%              1       100%              1    100%
                              Loans                          103       100%             34        100%             39       100%            11     100%              1       100%              1    100%
                              Principal and Interest   7,441,230       100%        312,748        100%      3,189,852       100%       189,724     100%         27,886       100%          1,457    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1334
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LINN, OREGON                                  MALHEUR, OREGON                                     MARION, OREGON
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       44                         8                         160                        41                      85                        32
                              Loans                           87                        22                         356                        87                     262                       141
                              Principal and Interest   6,689,623                   276,606                  27,574,896                 1,487,422              25,237,902                 6,026,006
WHITE                         Borrowers                       44       100%              8        100%             147         92%            39      95%             82         96%            31      97%
                              Loans                           87       100%             22        100%             334         94%            83      95%            251         96%           135      96%
                              Principal and Interest   6,689,623       100%        276,606        100%      23,899,350         87%     1,436,658      97%     24,326,373         96%     5,698,462      95%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%             2           1%              0      0%             3           4%            1        3%
                              Loans                                0      0%                  0      0%             4           1%              0      0%            11           4%            6        4%
                              Principal and Interest               0      0%                  0      0%       588,401           2%              0      0%       911,529           4%      327,543        5%
ASIAN                         Borrowers                            0      0%                  0      0%             4           3%             2       5%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%             7           2%             4       5%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       836,718           3%        50,764       3%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%              5          3%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%              7          2%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      2,025,954          7%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%             2           1%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%             4           1%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%       224,473           1%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1335
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MORROW, OREGON                                   MULTNOMAH, OREGON                                        POLK, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                         1                         5                           1                     47                        20
                              Loans                           18                         1                         7                           1                    126                        55
                              Principal and Interest   2,757,962                    10,598                   701,004                          14             13,272,735                 3,541,470

WHITE                         Borrowers                        8         89%             1        100%             4          80%              1   100%              46        98%             20    100%
                              Loans                           17         94%             1        100%             6          86%              1   100%             124        98%             55    100%
                              Principal and Interest   2,446,228         89%        10,598        100%       447,508          64%             14   100%      13,209,958       100%      3,541,470    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%            1          20%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%            1          14%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      253,496          36%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                        1         11%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                            1          6%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest     311,733         11%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  1      2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  2      2%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%         62,778          0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1336
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SHERMAN, OREGON                                   TILLAMOOK, OREGON                                 UMATILLA, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                         8                         24                        4                      36                        6
                              Loans                           65                        35                         60                       17                      68                        7
                              Principal and Interest   5,401,504                 1,341,928                  4,597,290                  273,986               6,685,598                  149,276

WHITE                         Borrowers                       20       100%              8        100%             23         96%            4     100%             33         92%            6     100%
                              Loans                           65       100%             35        100%             59         98%           17     100%             64         94%            7     100%
                              Principal and Interest   5,401,504       100%      1,341,928        100%      4,551,104         99%      273,986     100%      6,295,991         94%      149,276     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 1      3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            2           3%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      194,362           3%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%             1          4%              0      0%            2           6%              0      0%
                              Loans                                0      0%                  0      0%             1          2%              0      0%            2           3%              0      0%
                              Principal and Interest               0      0%                  0      0%        46,187          1%              0      0%      195,245           3%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1337
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               UNION, OREGON                                   WALLOWA, OREGON                                      WASCO, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       23                         3                         30                         5                     31                        6
                              Loans                           52                         5                         44                         5                     84                       20
                              Principal and Interest   3,713,418                    13,484                  1,689,810                    26,628              7,071,426                  908,181

WHITE                         Borrowers                       22         96%             3        100%             18         60%             5    100%             28         90%            6     100%
                              Loans                           50         96%             5        100%             28         64%             5    100%             81         96%           20     100%
                              Principal and Interest   3,385,207         91%        13,484        100%      1,236,394         73%        26,628    100%      6,368,943         90%      908,181     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            1      4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     328,210          9%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%           12          40%              0      0%            3          10%              0      0%
                              Loans                                0      0%                  0      0%           16          36%              0      0%            3           4%              0      0%
                              Principal and Interest               0      0%                  0      0%      453,415          27%              0      0%      702,483          10%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1338
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        WASHINGTON, OREGON                                      WHEELER, OREGON                                  YAMHILL, OREGON
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                         5                         2                           0                    21                       11
                              Loans                           23                         7                         2                           0                    58                       30
                              Principal and Interest   1,818,843                    15,411                   132,725                           0             3,481,254                  424,858
WHITE                         Borrowers                       13         93%             5        100%             2        100%               0      0%            19         90%           10       91%
                              Loans                           20         87%             7        100%             2        100%               0      0%            55         95%           28       93%
                              Principal and Interest   1,383,974         76%        15,411        100%       132,725        100%               0      0%     3,218,995         92%      371,837       88%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           5%             1       9%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            2           3%             2       7%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      189,868           5%        53,021      12%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          5%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        72,391          2%              0      0%
HISPANIC                      Borrowers                        1          7%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            3         13%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest     434,869         24%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1339
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              STATE OF OREGON
                                                         Portfolio        Percent    Delinquent       Percent
TOTAL                         Borrowers                      1,119                         322
                              Loans                          2,581                         845
                              Principal and Interest   223,794,144                  24,631,479
WHITE                         Borrowers                      1,053          94%        311              97%
                              Loans                          2,475          96%        821              97%
                              Principal and Interest   211,374,712          94% 24,022,877              98%
AFRICAN AMERICAN              Borrowers                               0      0%                   0      0%
                              Loans                                   0      0%                   0      0%
                              Principal and Interest                  0      0%                   0      0%
NATIVE AMERICAN               Borrowers                              14      1%               7          2%
                              Loans                                  36      1%              18          2%
                              Principal and Interest     3,505,629           2%        461,283           2%
ASIAN                         Borrowers                          7           1%              2           1%
                              Loans                             11           0%              4           0%
                              Principal and Interest     1,163,879           1%         50,764           0%
OTHER                         Borrowers                         34           3%                   0      0%
                              Loans                             42           2%                   0      0%
                              Principal and Interest     6,400,336           3%                   0      0%
HISPANIC                      Borrowers                              11      1%                   2      1%
                              Loans                             17           1%              2           0%
                              Prinicpal and Interest     1,349,588           1%         96,554           0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 1340
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  OR BAKER                 Approved   No. of Applications             12        12   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     21                     0                   0                0                0
                                      Completion to Approval                     6                     0                   0                0                0
                                      Approval to Loan Closing                  27                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 OR    CLACKAMAS           Approved   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   117                      0                   0                0               0
                                      Completion to Approval                   15                      0                   0                0               0
                                      Approval to Loan Closing                 81                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    73                      0                   0                0               0
                                      Completion to Rejected                   11                      0                   0                0               0

                           Withdrawn No. of Applications              6         5    83%               0   0%              0   0%           0   0%          1     17%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 OR    CLATSOP             Approved   No. of Applications            14        14    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   140                      0                   0                0               0
                                      Completion to Approval                   32                      0                   0                0               0
                                      Approval to Loan Closing                 55                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              6         6    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     17                      0                   0                0               0
                                     Completion to Withdrawn                    4                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1341
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian             Hispanic
  OR COLUMBIA              Approved   No. of Applications                2        1      50%               0   0%              0   0%           0   0%            1    50%
                                      Receipt to Completion                      79                        0                   0                0               60
                                      Completion to Approval                     15                        0                   0                0                 3
                                      Approval to Loan Closing                   40                        0                   0                0               22

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                          0                     0                   0                0                0
                                      Completion to Rejected                         0                     0                   0                0                0

                           Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                           0                     0                   0                0                0
                                     Completion to Withdrawn                         0                     0                   0                0                0

 OR    COOS                Approved   No. of Applications            28          23      82%               0   0%          2       7%        3      11%          0      0%
                                      Receipt to Completion                      21                        0               8                12                   0
                                      Completion to Approval                     35                        0              23                 2                   0
                                      Approval to Loan Closing                   25                        0              17                11                   0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                          0                     0                   0                0                0
                                      Completion to Rejected                         0                     0                   0                0                0

                           Withdrawn No. of Applications                 3        3      100%              0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                       12                        0                   0                0                0
                                     Completion to Withdrawn                     41                        0                   0                0                0

 OR    CROOK               Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                      79                        0                   0                0                0
                                      Completion to Approval                     19                        0                   0                0                0
                                      Approval to Loan Closing                   22                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                          0                     0                   0                0                0
                                      Completion to Rejected                         0                     0                   0                0                0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                           0                     0                   0                0                0
                                     Completion to Withdrawn                         0                     0                   0                0                0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1342
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OR DOUGLASS              Approved   No. of Applications                5           5   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                          5                     0                   0                0                0
                                      Completion to Approval                         3                     0                   0                0                0
                                      Approval to Loan Closing                       0                     0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    GRANT               Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      12                        0                   0                0               0
                                      Completion to Approval                     65                        0                   0                0               0
                                      Approval to Loan Closing                    0                        0                   0                0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      52                        0                   0                0               0
                                      Completion to Rejected                     14                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    HARNEY              Approved   No. of Applications            15          15      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      21                        0                   0                0               0
                                      Completion to Approval                      9                        0                   0                0               0
                                      Approval to Loan Closing                   14                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1343
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OR HOOD RIVER            Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      21                        0                   0                0                0
                                      Completion to Approval                     14                        0                   0                0                0
                                      Approval to Loan Closing                   14                        0                   0                0                0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      34                        0                   0                0               0
                                      Completion to Rejected                     28                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    JACKSON             Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      82                        0                   0                0               0
                                      Completion to Approval                     62                        0                   0                0               0
                                      Approval to Loan Closing                   38                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    JEFFERSON           Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     121                        0                   0                0               0
                                      Completion to Approval                      0                        0                   0                0               0
                                      Approval to Loan Closing                   27                        0                   0                0               0

                           Rejected   No. of Applications                1           1   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1344
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OR KLAMATH               Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      28                        0                   0                0                0
                                      Completion to Approval                     39                        0                   0                0                0
                                      Approval to Loan Closing                   29                        0                   0                0                0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      68                        0                   0                0               0
                                      Completion to Rejected                     78                        0                   0                0               0

                           Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        5                        0                   0                0               0
                                     Completion to Withdrawn                     33                        0                   0                0               0

 OR    LAKE                Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       8                        0                   0                0               0
                                      Completion to Approval                     15                        0                   0                0               0
                                      Approval to Loan Closing                   26                        0                   0                0               0

                           Rejected   No. of Applications                2           2   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    LANE                Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      43                        0                   0                0               0
                                      Completion to Approval                      4                        0                   0                0               0
                                      Approval to Loan Closing                   23                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1345
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African             Native
 State   Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OR LINCOLN                Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                      58                        0                   0                0                0
                                       Completion to Approval                     15                        0                   0                0                0
                                       Approval to Loan Closing                   15                        0                   0                0                0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       65                        0                   0                0               0
                                      Completion to Withdrawn                      1                        0                   0                0               0

 OR    MALHEUR              Approved   No. of Applications            35          35      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      39                        0                   0                0               0
                                       Completion to Approval                     22                        0                   0                0               0
                                       Approval to Loan Closing                   18                        0                   0                0               0

                            Rejected   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      13                        0                   0                0               0
                                       Completion to Rejected                     19                        0                   0                0               0

                            Withdrawn No. of Applications                 7        7      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                        2                        0                   0                0               0
                                      Completion to Withdrawn                     26                        0                   0                0               0

 OR    MARION               Approved   No. of Applications            13          13      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      42                        0                   0                0               0
                                       Completion to Approval                     10                        0                   0                0               0
                                       Approval to Loan Closing                   64                        0                   0                0               0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1346
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OR MORROW                Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      28                        0                   0                0                0
                                      Completion to Approval                      0                        0                   0                0                0
                                      Approval to Loan Closing                   11                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    POLK                Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      55                        0                   0                0               0
                                      Completion to Approval                      5                        0                   0                0               0
                                      Approval to Loan Closing                   15                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    SHERMAN             Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       0                        0                   0                0               0
                                      Completion to Approval                     40                        0                   0                0               0
                                      Approval to Loan Closing                    0                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1347
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  OR UMATILLA              Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      36                        0                   0                0                0
                                      Completion to Approval                     28                        0                   0                0                0
                                      Approval to Loan Closing                   40                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    UNION               Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      26                        0                   0                0               0
                                      Completion to Approval                     25                        0                   0                0               0
                                      Approval to Loan Closing                   47                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 OR    YAMHILL             Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      67                        0                   0                0               0
                                      Completion to Approval                     13                        0                   0                0               0
                                      Approval to Loan Closing                   31                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1348
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  OR STATE                 Approved   No. of Applications           170      164    96%               0   0%          2       1%        3      2%           1     1%
                                      Receipt to Completion                    45                     0               8                12                 60
                                      Completion to Approval                   21                     0              23                 2                   3
                                      Approval to Loan Closing                 29                     0              17                11                 22

                           Rejected   No. of Applications            19       19    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   26                      0                   0                0               0
                                      Completion to Rejected                  24                      0                   0                0               0

                           Withdrawn No. of Applications             33       32    97%               0   0%              0   0%           0   0%          1      3%
                                     Receipt to Completion                    11                      0                   0                0               0
                                     Completion to Withdrawn                  12                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1349
                            Demographics         1351
                        FSA’s Loan Portfolio     1360
                        FSA’s Application data   1381




USDA/OIG-A/50801-4-Hq                                   1350
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other             Hispanic
                                              Total      Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
        PA                  Population        78,274      75,735     97%            861      1%         78      0%        363      0%         21      0%      1,216       2%
        Adams County        Borrowers             58          58    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms                957         953    100%              0      0%          0      0%          0      0%          0      0%          4       0%
                            Land in Farms    172,366     171,703    100%              0      0%          0      0%          0      0%          0      0%        663       0%

        PA                  Population      1,336,449   1,163,292    87%        148,599     11%      1,320      0%     13,329      1%      1,178      0%      8,731       1%
        Allegheny County    Borrowers               2           2   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms                 338         338   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Land in Farms      32,526      32,526   100%              0      0%          0      0%          0      0%          0      0%          0       0%

        PA                  Population        73,478      72,585     99%            564      1%         59      0%         78      0%         28      0%        164       0%
        Armstrong County    Borrowers              4           4    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms                667         664    100%              0      0%          0      0%          0      0%          0      0%          3       0%
                            Land in Farms    119,566     119,404    100%              0      0%          0      0%          0      0%          0      0%        162       0%

        PA                  Population       186,093     173,870     93%         10,411      6%        193      0%        370      0%        125      0%      1,124       1%
        Beaver County       Borrowers              6           6    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms                512         507     99%              5      1%          0      0%          0      0%          0      0%          0       0%
                            Land in Farms     57,960      57,960    100%              0      0%          0      0%          0      0%          0      0%          0       0%

        PA                  Population        47,919      47,526     99%            146      0%         40      0%         78      0%         11      0%        118       0%
        Bedford County      Borrowers             65          65    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms                938         938    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Land in Farms    199,056     199,056    100%              0      0%          0      0%          0      0%          0      0%          0       0%

        PA                  Population       336,523     307,387     91%          9,214      3%        265      0%      2,334      1%        149      0%     17,174       5%
        Berks County        Borrowers             24          24    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms              1,558       1,551    100%              0      0%          0      0%          0      0%          0      0%          7       0%
                            Land in Farms    221,981     220,266     99%              0      0%          0      0%          0      0%          0      0%      1,715       1%

        PA                  Population       130,542     128,525     98%          1,056      1%        115      0%        372      0%         43      0%        431       0%
        Blair County        Borrowers             38          38    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms                415         415    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Land in Farms     76,466      76,466    100%              0      0%          0      0%          0      0%          0      0%          0       0%

        PA                  Population        60,967      60,253     99%            148      0%        114      0%        212      0%         22      0%        218       0%
        Bradford County     Borrowers             99          99    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                            Farms              1,335       1,329    100%              0      0%          0      0%          0      0%          0      0%          6       0%
                            Land in Farms    310,672     309,138    100%              0      0%          0      0%          0      0%          0      0%      1,534       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                               Page 1351
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian                  Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number       Percent
        PA                  Population      541,174   508,282     94%         14,928         3%        530      0%      8,262          2%        277          0%      8,895          2%
        Bucks County        Borrowers            21        21    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Farms               680       676     99%              4         1%          0      0%          0          0%          0          0%          0          0%
                            Land in Farms    76,790    76,790    100%              0         0%          0      0%          0          0%          0          0%          0          0%

        PA                  Population      152,013   149,954     99%            806         1%        107      0%        538          0%         45          0%        563          0%
        Butler County       Borrowers            15        14     93%              0         0%          0      0%          0          0%          1          7%          0          0%
                            Farms             1,012     1,012    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Land in Farms   129,323   129,323    100%              0         0%          0      0%          0          0%          0          0%          0          0%

        PA                  Population      163,029   157,800     97%          3,682         2%        103      0%        373          0%         86          0%        985          1%
        Cambria County      Borrowers            24        23     96%              0         0%          0      0%          0          0%          1          4%          0          0%
                            Farms               518       518    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Land in Farms    76,997    76,997    100%              0         0%          0      0%          0          0%          0          0%          0          0%

        PA                  Population        5,913     5,878     99%                 7      0%         14      0%              6      0%              5      0%              3      0%
        Cameron County      Borrowers             1         1    100%                 0      0%          0      0%              0      0%              0      0%              0      0%
                            Farms                25        25    100%                 0      0%          0      0%              0      0%              0      0%              0      0%
                            Land in Farms         0         0                         0                  0                      0                      0                      0

        PA                  Population       56,846    55,991     98%            113         0%         44      0%        167          0%         22          0%        509          1%
        Carbon County       Borrowers             0         0      0%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Farms               147       147    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Land in Farms    19,026    19,026    100%              0         0%          0      0%          0          0%          0          0%          0          0%

        PA                  Population      123,786   115,655     93%          2,726         2%        171      0%      3,817          3%         67          0%      1,350          1%
        Centre County       Borrowers            93        93    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Farms               734       734    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Land in Farms   139,918   139,918    100%              0         0%          0      0%          0          0%          0          0%          0          0%

        PA                  Population      376,396   339,637     90%         23,479         6%        443      0%      4,011          1%        261          0%      8,565          2%
        Chester County      Borrowers            46        38     83%              0         0%          0      0%          7         15%          0          0%          1          2%
                            Farms             1,367     1,350     99%              3         0%          0      0%         14          1%          0          0%          0          0%
                            Land in Farms   176,643   176,415    100%             52         0%          0      0%        176          0%          0          0%          0          0%

        PA                  Population       41,699    41,107     99%            197         0%         63      0%        206          0%         10          0%        116          0%
        Clarion County      Borrowers            15        15    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Farms               444       444    100%              0         0%          0      0%          0          0%          0          0%          0          0%
                            Land in Farms    94,817    94,817    100%              0         0%          0      0%          0          0%          0          0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1352
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American            Asian              Other                 Hispanic
                                            Total     Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        PA                  Population       78,097    77,448     99%            175      0%         86      0%        176      0%         12          0%        200       0%
        Clearfield County   Borrowers            19        19    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               346       346    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    55,023    55,023    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population       37,182    36,782     99%            143      0%         49      0%        116      0%              1      0%         91       0%
        Clinton County      Borrowers            45        44     98%              0      0%          0      0%          0      0%              1      2%          0       0%
                            Farms               243       243    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    39,412    39,412    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                  Population       63,202    62,317     99%            265      0%         37      0%        223      0%         19          0%        341       1%
        Columbia County     Borrowers            29        29    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               598       598    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   101,816   101,816    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population       86,169    84,381      98%         1,058      1%        108      0%        272      0%         47          0%        303       0%
        Crawford County     Borrowers            98        97      99%             0      0%          1      1%          0      0%          0          0%          0       0%
                            Farms             1,122     1,113      99%             4      0%          0      0%          0      0%          0          0%          5       0%
                            Land in Farms   211,037   209,243      99%           732      0%          0      0%          0      0%          0          0%      1,062       1%

        PA                  Population      195,257   188,129     96%          2,979      2%        235      0%      2,473      1%         86          0%      1,355       1%
        Cumberland County   Borrowers            21        21    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               940       940    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   141,919   141,919    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population      237,813   193,697     81%         34,843     15%        297      0%      2,683      1%        269          0%      6,024       3%
        Dauphin County      Borrowers            23        23    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               580       580    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    90,298    90,298    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population      547,651   470,258     86%         60,688     11%        566      0%      9,840      2%        301          0%      5,998       1%
        Delaware County     Borrowers             0         0      0%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms                68        68    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms     5,095     5,095    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population       34,878    34,677     99%             15      0%         29      0%         98      0%              3      0%         56       0%
        Elk County          Borrowers             2         2    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               145       145    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    16,371    16,371    100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1353
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American            Asian                  Other                 Hispanic
                                            Total     Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        PA                  Population      275,572   256,177     93%         14,008      5%        417      0%      1,374          0%        232          0%      3,364       1%
        Erie County         Borrowers            65        65    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms             1,165     1,160    100%              0      0%          0      0%          0          0%          0          0%          5       0%
                            Land in Farms   167,863   167,512    100%              0      0%          0      0%          0          0%          0          0%        351       0%

        PA                  Population      145,351   139,398     96%          5,083      3%        134      0%        219          0%         65          0%        452       0%
        Fayette County      Borrowers            16        15     94%              0      0%          0      0%          0          0%          1          6%          0       0%
                            Farms               767       767    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   106,390   106,390    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        PA                  Population        4,802     4,722     98%             43      1%         11      0%              3      0%              0      0%         23       0%
        Forest County       Borrowers             0         0      0%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms                36        36    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms     4,702     4,702    100%              0      0%          0      0%              0      0%              0      0%          0       0%

        PA                  Population      121,082   116,506     96%          2,699      2%        160      0%        593          0%         59          0%      1,065       1%
        Franklin County     Borrowers            36        36    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms             1,283     1,278    100%              0      0%          0      0%          0          0%          0          0%          5       0%
                            Land in Farms   234,391   232,116     99%              0      0%          0      0%          0          0%          0          0%      2,275       1%

        PA                  Population       13,837    13,642     99%            124      1%         22      0%         17          0%              1      0%         31       0%
        Fulton County       Borrowers             6         6    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               438       438    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms    88,982    88,982    100%              0      0%          0      0%          0          0%              0      0%          0       0%

        PA                  Population       39,550    38,789     98%            365      1%         68      0%        107          0%         12          0%        209       1%
        Greene County       Borrowers            11        11    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms               633       633    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   125,707   125,707    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        PA                  Population       44,164    41,874     95%          1,951      4%         48      0%         79          0%         17          0%        195       0%
        Huntingdon County   Borrowers            46        46    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms               558       558    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   129,503   129,503    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        PA                  Population       89,994    87,768     98%          1,168      1%         88      0%        567          1%         33          0%        370       0%
        Indiana County      Borrowers            23        23    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms               747       740     99%              0      0%          0      0%          0          0%          0          0%          7       1%
                            Land in Farms   143,036   140,202     98%              0      0%          0      0%          0          0%          0          0%      2,834       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1354
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American            Asian              Other                 Hispanic
                                            Total     Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        PA                  Population       46,083    45,815     99%             49      0%         46      0%         70      0%              5      0%         98       0%
        Jefferson County    Borrowers            15        15    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               410       410    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    79,310    79,310    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                  Population       20,625    20,487     99%             26      0%         17      0%         41      0%              5      0%         49       0%
        Juniata County      Borrowers            39        38     97%              0      0%          0      0%          0      0%              1      3%          0       0%
                            Farms               539       539    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    85,113    85,113    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                  Population      219,039   214,817     98%          1,537      1%        158      0%      1,325      1%        113          0%      1,089       0%
        Lackawanna County   Borrowers             7         7    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               239       239    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    36,963    36,963    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population      422,822   392,898     93%          9,147      2%        441      0%      4,533      1%        164          0%     15,639       4%
        Lancaster County    Borrowers           118       117     99%              0      0%          0      0%          1      1%          0          0%          0       0%
                            Farms             4,490     4,482    100%              0      0%          0      0%          0      0%          0          0%          8       0%
                            Land in Farms   388,368   387,516    100%              0      0%          0      0%          0      0%          0          0%        852       0%

        PA                  Population       96,246    92,645     96%          2,894      3%         54      0%        257      0%         39          0%        357       0%
        Lawrence County     Borrowers            14        14    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               625       622    100%              0      0%          0      0%          0      0%          0          0%          3       0%
                            Land in Farms    86,402    85,406     99%              0      0%          0      0%          0      0%          0          0%        996       1%

        PA                  Population      113,744   109,486     96%            615      1%         88      0%        874      1%         15          0%      2,666       2%
        Lebanon County      Borrowers            32        32    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               892       887     99%              0      0%          0      0%          0      0%          0          0%          5       1%
                            Land in Farms   104,519   103,973     99%              0      0%          0      0%          0      0%          0          0%        546       1%

        PA                  Population      291,130   265,946     91%          6,107      2%        251      0%      3,573      1%        252          0%     15,001       5%
        Lehigh County       Borrowers             5         5    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               427       427    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    82,982    82,982    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                  Population      328,149   320,571     98%          3,795      1%        210      0%      1,465      0%         85          0%      2,023       1%
        Luzerne County      Borrowers            12        12    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               376       376    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    49,850    49,850    100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1355
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian              Other                 Hispanic
                                             Total     Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
        PA                   Population      118,710   114,593     97%          2,779      2%        211          0%        454      0%         32          0%        641       1%
        Lycoming County      Borrowers            29        29    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               803       803    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms   132,999   132,999    100%              0      0%          0          0%          0      0%          0          0%          0       0%

        PA                   Population       47,131    45,888     97%            460      1%        106          0%        150      0%         16          0%        511       1%
        McKean County        Borrowers             7         7    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               211       211    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    39,561    39,561    100%              0      0%          0          0%          0      0%          0          0%          0       0%

        PA                   Population      121,003   114,086     94%          5,858      5%        108          0%        381      0%         64          0%        506       0%
        Mercer County        Borrowers            44        44    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms             1,045     1,045    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms   160,802   160,802    100%              0      0%          0          0%          0      0%          0          0%          0       0%

        PA                   Population       46,197    45,840     99%             97      0%         31          0%         96      0%              1      0%        132       0%
        Mifflin County       Borrowers            29        29    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                             Farms               618       618    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms    81,426    81,426    100%              0      0%          0          0%          0      0%              0      0%          0       0%

        PA                   Population       95,709    91,171     95%          1,662      2%        109          0%        647      1%         68          0%      2,052       2%
        Monroe County        Borrowers             1         1    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               147       147    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    20,777    20,777    100%              0      0%          0          0%          0      0%          0          0%          0       0%

        PA                   Population      678,111   614,659     91%         38,303      6%        657          0%     15,815      2%        320          0%      8,357       1%
        Montgomery County    Borrowers             9         9    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               461       461    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    44,425    44,425    100%              0      0%          0          0%          0      0%          0          0%          0       0%

        PA                   Population       17,735    17,397     98%             76      0%              5      0%        136      1%              5      0%        116       1%
        Montour County       Borrowers            14        14    100%              0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms               249       249    100%              0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms    41,347    41,347    100%              0      0%              0      0%          0      0%              0      0%          0       0%

        PA                   Population      247,105   227,521     92%          4,968      2%        187          0%      2,638      1%        200          0%     11,591       5%
        Northampton County   Borrowers             6         6    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               391       391    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    81,479    81,479    100%              0      0%          0          0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1356
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian              Other                 Hispanic
                                                  Total     Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        PA                      Population        96,771     95,659     99%            311      0%         74      0%        170      0%         25          0%        532       1%
        Northumberland County   Borrowers             33         33    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                Farms                561        558     99%              0      0%          0      0%          0      0%          0          0%          3       1%
                                Land in Farms    109,438    108,513     99%              0      0%          0      0%          0      0%          0          0%        925       1%

        PA                      Population        41,172     40,758     99%             95      0%         49      0%         69      0%              7      0%        194       0%
        Perry County            Borrowers             22         22    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms                562        562    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms    104,292    104,292    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                      Population      1,585,577   825,839     52%        623,510     39%      3,144      0%     42,156      3%      1,735          0%     89,193       6%
        Philadelphia County     Borrowers               0         0      0%              0      0%          0      0%          0      0%          0          0%          0       0%
                                Farms                   6         6    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                Land in Farms           0         0      0%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                      Population        27,966     26,890     96%            246      1%         45      0%        129      0%              5      0%        651       2%
        Pike County             Borrowers              0          0      0%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms                 36         36    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms      6,197      6,197    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                      Population        16,717     16,573     99%             20      0%         25      0%         27      0%              0      0%         72       0%
        Potter County           Borrowers             35         35    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms                293        293    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms     90,065     90,065    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                      Population       152,585    150,486     99%            805      1%        103      0%        491      0%         23          0%        677       0%
        Schuylkill County       Borrowers             13         13    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                Farms                578        578    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                Land in Farms     89,045     89,045    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        PA                      Population        36,680     36,260     99%            143      0%         30      0%         93      0%              6      0%        148       0%
        Snyder County           Borrowers             48         46     96%              0      0%          1      2%          0      0%              1      2%          0       0%
                                Farms                664        664    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms     87,253     87,253    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        PA                      Population        78,218     77,701     99%            101      0%         41      0%        138      0%              6      0%        231       0%
        Somerset County         Borrowers             56         56    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms                973        970    100%              0      0%          0      0%          0      0%              0      0%          3       0%
                                Land in Farms    219,933    219,933    100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1357
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American            Asian                  Other                 Hispanic
                                             Total     Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        PA                   Population        6,104     5,985     98%             56      1%         29      0%              9      0%              0      0%         25       0%
        Sullivan County      Borrowers             3         3    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                             Farms               142       142    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms    30,613    30,613    100%              0      0%          0      0%              0      0%              0      0%          0       0%

        PA                   Population       40,380    39,961     99%             79      0%         83      0%         87          0%              8      0%        162       0%
        Susquehanna County   Borrowers            28        27     96%              0      0%          1      4%          0          0%              0      0%          0       0%
                             Farms               710       707    100%              3      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   177,215   176,987    100%            228      0%          0      0%          0          0%              0      0%          0       0%

        PA                   Population       41,126    40,553     99%            212      1%        106      0%        105          0%         11          0%        139       0%
        Tioga County         Borrowers           127       126     99%              0      0%          0      0%          0          0%          1          1%          0       0%
                             Farms               823       820    100%              0      0%          0      0%          0          0%          0          0%          3       0%
                             Land in Farms   212,477   211,912    100%              0      0%          0      0%          0          0%          0          0%        565       0%

        PA                   Population       36,176    34,376     95%            858      2%         64      0%        230          1%         10          0%        638       2%
        Union County         Borrowers            28        28    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms               451       451    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    63,159    63,159    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        PA                   Population       59,381    58,488     98%            484      1%         52      0%        135          0%         21          0%        201       0%
        Venango County       Borrowers            12        12    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms               348       348    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    52,760    52,760    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        PA                   Population       45,050    44,687     99%             53      0%         71      0%        110          0%         13          0%        116       0%
        Warren County        Borrowers            11        11    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms               385       385    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    67,388    67,388    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        PA                   Population      204,584   195,820     96%          6,754      3%        189      0%        519          0%        116          0%      1,186       1%
        Washington County    Borrowers            32        32    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms             1,369     1,363    100%              3      0%          0      0%          0          0%          0          0%          3       0%
                             Land in Farms   203,026   202,444    100%            582      0%          0      0%          0          0%          0          0%          0       0%

        PA                   Population       39,944    39,153     98%            276      1%         42      0%         94          0%              8      0%        371       1%
        Wayne County         Borrowers            24        24    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               600       600    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   121,907   121,907    100%              0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1358
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian               Other             Hispanic
                                                 Total     Number      Percent     Number    Percent   Number   Percent   Number    Percent   Number   Percent   Number    Percent
        PA                    Population        370,321     360,067     97%          6,848      2%        252      0%       1,549      0%        246      0%       1,359      0%
        Westmoreland County   Borrowers              38          38    100%              0      0%          0      0%           0      0%          0      0%           0      0%
                              Farms               1,139       1,139    100%              0      0%          0      0%           0      0%          0      0%           0      0%
                              Land in Farms     153,897     153,897    100%              0      0%          0      0%           0      0%          0      0%           0      0%

        PA                    Population         28,076      27,691     99%            133      0%         25      0%         81       0%         11      0%        135       0%
        Wyoming County        Borrowers              18          18    100%              0      0%          0      0%          0       0%          0      0%          0       0%
                              Farms                 299         299    100%              0      0%          0      0%          0       0%          0      0%          0       0%
                              Land in Farms      62,740      62,740    100%              0      0%          0      0%          0       0%          0      0%          0       0%

        PA                    Population        339,574     321,249     95%         10,558      3%        388      0%       2,053      1%        161      0%       5,165      2%
        York County           Borrowers              56          56    100%              0      0%          0      0%           0      0%          0      0%           0      0%
                              Farms               1,692       1,684    100%              3      0%          0      0%           0      0%          0      0%           5      0%
                              Land in Farms     252,052     251,443    100%            109      0%          0      0%           0      0%          0      0%         500      0%

        PA                    Population      11,881,643 10,422,058     88% 1,072,459           9%     13,505      0%     134,056      1%      7,303      0%     232,262      2%
        STATE                 Borrowers            1,916      1,897     99%         0           0%          3      0%           8      0%          7      0%           1      0%
                              Farms               44,870     44,756    100%        25           0%          0      0%          14      0%          0      0%          75      0%
                              Land in Farms    7,185,432 7,168,573     100%     1,703           0%          0      0%         176      0%          0      0%      14,980      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                 Page 1359
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      ADAMS, PENNSYLVANIA                               ALLEGHENY, PENNSYLVANIA                           ARMSTRONG, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                        58                        20                         2                           0                      4                          1
                          Loans                           185                        51                         2                           0                     11                          2
                          Principal and Interest   11,829,406                   614,041                   356,492                           0                329,064                        329
WHITE                     Borrowers                        58      100%              20       100%              2        100%               0      0%              4       100%               1       100%
                          Loans                           185      100%              51       100%              2        100%               0      0%             11       100%               2       100%
                          Principal and Interest   11,829,406      100%         614,041       100%        356,492        100%               0      0%        329,064       100%             329       100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1360
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    BEAVER, PENNSYLVANIA                                BEDFORD, PENNSYLVANIA                               BERKS, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                           6                        2                        65                       13                      24                         6
                          Loans                               9                        2                       204                       41                      56                        18
                          Principal and Interest        629,939                    2,128                12,967,580                  872,644               4,507,892                 1,009,153
WHITE                     Borrowers                           6    100%                2      100%              65       100%            13     100%             24       100%              6        100%
                          Loans                               9    100%                2      100%             204       100%            41     100%             56       100%             18        100%
                          Principal and Interest        629,939    100%            2,128      100%      12,967,580       100%       872,644     100%      4,507,892       100%      1,009,153        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1361
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      BLAIR, PENNSYLVANIA                               BRADFORD, PENNSYLVANIA                              BUCKS, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         38                        6                         99                       28                      21                        10
                          Loans                            129                        9                        278                       54                      78                        43
                          Principal and Interest     8,339,951                   27,019                 15,153,962                  346,572               6,227,822                 1,641,892
WHITE                     Borrowers                         38     100%               6       100%              99       100%            28     100%             21       100%             10        100%
                          Loans                            129     100%               9       100%             278       100%            54     100%             78       100%             43        100%
                          Principal and Interest     8,339,951     100%          27,019       100%      15,153,962       100%       346,572     100%      6,227,822       100%      1,641,892        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1362
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     BUTLER, PENNSYLVANIA                               CAMBRIA, PENNSYLVANIA                            CAMERON, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         15                         3                       24                         2                      1                              0
                          Loans                             38                         5                       62                         4                      3                              0
                          Principal and Interest     1,539,134                     6,820                3,337,435                    60,006                127,196                              0
WHITE                     Borrowers                         14       93%               3      100%             23         96%             2    100%              1       100%                   0      0%
                          Loans                             36       95%               5      100%             60         97%             4    100%              3       100%                   0      0%
                          Principal and Interest     1,481,131       96%           6,820      100%      3,257,243         98%        60,006    100%        127,196       100%                   0      0%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                           1       7%                  0      0%            1           4%              0      0%                 0      0%                  0      0%
                          Loans                               2       5%                  0      0%            2           3%              0      0%                 0      0%                  0      0%
                          Principal and Interest         58,003       4%                  0      0%       80,193           2%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1363
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     CENTRE, PENNSYLVANIA                               CHESTER, PENNSYLVANIA                            CLARION, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                        93                        20                        46                        9                      15                         6
                          Loans                           211                        29                        76                       15                      34                        12
                          Principal and Interest   12,796,369                   198,645                 6,321,562                  347,090               1,421,049                   131,895
WHITE                     Borrowers                        93      100%              20       100%             38         83%            8       89%            15       100%              6        100%
                          Loans                           211      100%              29       100%             62         82%           14       93%            34       100%             12        100%
                          Principal and Interest   12,796,369      100%         198,645       100%      4,263,964         67%      328,472       95%     1,421,049       100%        131,895        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%             7         15%             1      11%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%            13         17%             1       7%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%     2,013,396         32%        18,618       5%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%            1           2%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%            1           1%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%       44,202           1%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1364
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   CLEARFIELD, PENNSYLVANIA                              CLINTON, PENNSYLVANIA                            COLUMBIA, PENNSYLVANIA
                                                    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                          19                        3                        45                        8                      29                        14
                          Loans                              45                        9                        94                       17                     117                        43
                          Principal and Interest      1,686,481                   25,901                 6,298,169                  399,720               6,168,694                   570,535
WHITE                     Borrowers                          19     100%               3       100%             44         98%            8     100%             29       100%             14        100%
                          Loans                              45     100%               9       100%             92         98%           17     100%            117       100%             43        100%
                          Principal and Interest      1,686,481     100%          25,901       100%      6,081,768         97%      399,720     100%      6,168,694       100%        570,535        100%
AFRICAN AMERICAN          Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                             0      0%                  0      0%            1           2%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%            2           2%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%      216,402           3%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1365
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   CRAWFORD, PENNSYLVANIA                               CUMBERLAND, PENNSYLVANIA                           DAUPHIN, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                        98                        34                         21                          2                     23                         3
                          Loans                           306                        94                         42                          2                     93                         8
                          Principal and Interest   12,481,326                 1,273,618                  2,730,619                     14,941              5,617,132                    73,467
WHITE                     Borrowers                        97        99%             33         97%             21        100%              2    100%             23       100%              3        100%
                          Loans                           302        99%             90         96%             42        100%              2    100%             93       100%              8        100%
                          Principal and Interest   12,199,055        98%      1,220,746         96%      2,730,619        100%         14,941    100%      5,617,132       100%         73,467        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                           1       1%              1          3%                   0      0%              0      0%                 0      0%                  0      0%
                          Loans                               4       1%              4          4%                   0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest        282,271       2%         52,872          4%                   0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1366
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ELK, PENNSYLVANIA                                 ERIE, PENNSYLVANIA                             FAYETTE, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                           2                       1                        65                       25                      16                         5
                          Loans                               9                       8                       179                       68                      41                        10
                          Principal and Interest        964,285                 519,351                 9,476,951                  556,580               1,922,153                    79,242
WHITE                     Borrowers                           2    100%               1       100%             65       100%            25     100%             15        94%              4          80%
                          Loans                               9    100%               8       100%            179       100%            68     100%             40        98%              9          90%
                          Principal and Interest        964,285    100%         519,351       100%      9,476,951       100%       556,580     100%      1,918,626       100%         77,432          98%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1         6%              1         20%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%              1         2%              1         10%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%          3,528         0%          1,810          2%
HISPANIC                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1367
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   FRANKLIN, PENNSYLVANIA                               FULTON, PENNSYLVANIA                             GREENE, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         36                        9                        6                          1                     11                          3
                          Loans                             99                       27                       18                          1                     22                          5
                          Principal and Interest     7,807,796                  640,655                  918,930                     33,177                914,832                      5,747
WHITE                     Borrowers                         36     100%               9       100%             6        100%              1    100%             11       100%               3       100%
                          Loans                             99     100%              27       100%            18        100%              1    100%             22       100%               5       100%
                          Principal and Interest     7,807,796     100%         640,655       100%       918,930        100%         33,177    100%        914,832       100%           5,747       100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1368
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   HUNTINGDON, PENNSYLVANIA                              INDIANA, PENNSYLVANIA                            JEFFERSON, PENNSYLVANIA
                                                    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                          46                        8                        23                       11                      15                          5
                          Loans                             166                       14                        77                       37                      33                          7
                          Principal and Interest      8,896,762                   60,851                 5,900,413                  820,005               1,828,886                     89,807
WHITE                     Borrowers                          46     100%               8       100%             23       100%            11     100%             15        100%              5        100%
                          Loans                             166     100%              14       100%             77       100%            37     100%             33        100%              7        100%
                          Principal and Interest      8,896,762     100%          60,851       100%      5,900,413       100%       820,005     100%      1,828,886        100%         89,807        100%
AFRICAN AMERICAN          Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN           Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
ASIAN                     Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                     Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                  Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%
                          Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1369
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    JUNIATA, PENNSYLVANIA                               LACKAWANNA, PENNSYLVANIA LANCASTER, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         39                        5                           7                        4                      118                        10
                          Loans                            116                       15                          15                        7                      221                        22
                          Principal and Interest     6,867,446                  117,132                   1,514,979                  130,586               20,263,976                 1,143,979
WHITE                     Borrowers                         38       97%              5       100%                7       100%             4     100%             117         99%            10        100%
                          Loans                            112       97%             15       100%               15       100%             7     100%             218         99%            22        100%
                          Principal and Interest     6,737,793       98%        117,132       100%        1,514,979       100%       130,586     100%      19,922,144         98%     1,143,979        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                   0      0%              0      0%              1          1%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%              3          1%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%        341,832          2%                  0      0%
OTHER                     Borrowers                           1       3%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                               4       3%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest        129,652       2%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1370
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   LAWRENCE, PENNSYLVANIA                               LEBANON, PENNSYLVANIA                            LEHIGH, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         14                        4                        32                        5                       5                         1
                          Loans                             29                        9                        60                       11                      11                         2
                          Principal and Interest     1,349,505                  132,807                 6,703,713                  244,569                 821,439                    12,215
WHITE                     Borrowers                         14     100%               4       100%             32       100%             5     100%              5       100%              1        100%
                          Loans                             29     100%               9       100%             60       100%            11     100%             11       100%              2        100%
                          Principal and Interest     1,349,505     100%         132,807       100%      6,703,713       100%       244,569     100%        821,439       100%         12,215        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1371
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   LUZERNE, PENNSYLVANIA                                LYCOMING, PENNSYLVANIA                            MCKEAN, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         12                        7                        29                         7                       7                          2
                          Loans                             40                       23                        89                        20                      27                          3
                          Principal and Interest     1,700,424                  201,003                 4,425,405                   174,370               1,019,588                      4,509
WHITE                     Borrowers                         12     100%               7       100%             29        100%             7     100%              7       100%               2       100%
                          Loans                             40     100%              23       100%             89        100%            20     100%             27       100%               3       100%
                          Principal and Interest     1,700,424     100%         201,003       100%      4,425,405        100%       174,370     100%      1,019,588       100%           4,509       100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1372
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    MERCER, PENNSYLVANIA                                MIFFLIN, PENNSYLVANIA                            MONROE, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         44                        8                        29                        8                       1                         1
                          Loans                             98                       21                        91                       24                       5                         5
                          Principal and Interest     5,758,785                  273,050                 6,122,151                  370,949                 496,098                   308,355
WHITE                     Borrowers                         44     100%               8       100%             29       100%             8     100%              1       100%              1        100%
                          Loans                             98     100%              21       100%             91       100%            24     100%              5       100%              5        100%
                          Principal and Interest     5,758,785     100%         273,050       100%      6,122,151       100%       370,949     100%        496,098       100%        308,355        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1373
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   MONTGOMERY, PENNSYLVANIA                              MONTOUR, PENNSYLVANIA                             NORTHAMPTON, PENNSYLVANIA
                                                    Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                           9                        3                        14                         4                         6                         5
                          Loans                              29                        4                        55                        14                        37                        33
                          Principal and Interest      1,387,708                  162,465                 3,797,407                   128,180                 2,693,704                   977,309

WHITE                     Borrowers                           9     100%               3       100%             14        100%             4     100%                6       100%              5        100%
                          Loans                              29     100%               4       100%             55        100%            14     100%               37       100%             33        100%
                          Principal and Interest      1,387,708     100%         162,465       100%      3,797,407        100%       128,180     100%        2,693,704       100%        977,309        100%

AFRICAN AMERICAN          Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN           Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

ASIAN                     Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

OTHER                     Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

HISPANIC                  Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1374
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   NORTHUMBERLAND, PENNSYLVANIA                             PERRY, PENNSYLVANIA                             POTTER, PENNSYLVANIA
                                                      Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                            33                        9                        22                        5                      35                        12
                          Loans                               111                       35                        53                        6                     122                        29
                          Principal and Interest        6,502,239                  351,609                 3,752,654                  146,260               5,833,665                    65,716
WHITE                     Borrowers                            33     100%               9       100%             22       100%             5     100%             35       100%             12        100%
                          Loans                               111     100%              35       100%             53       100%             6     100%            122       100%             29        100%
                          Principal and Interest        6,502,239     100%         351,609       100%      3,752,654       100%       146,260     100%      5,833,665       100%         65,716        100%
AFRICAN AMERICAN          Borrowers                               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                   0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                  0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                   0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                  0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                   0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                  0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                   0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                  0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                   0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest                  0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1375
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   SCHUYLKILL, PENNSYLVANIA                              SNYDER, PENNSYLVANIA                             SOMERSET, PENNSYLVANIA
                                                    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                          13                        3                        48                        10                     56                          4
                          Loans                              27                        4                       141                        18                    160                          4
                          Principal and Interest      1,362,971                   51,136                 6,614,387                    59,640              8,793,650                      7,826
WHITE                     Borrowers                          13     100%               3       100%             46         96%            10    100%             56       100%               4       100%
                          Loans                              27     100%               4       100%            137         97%            18    100%            160       100%               4       100%
                          Principal and Interest      1,362,971     100%          51,136       100%      5,934,528         90%        59,640    100%      8,793,650       100%           7,826       100%
AFRICAN AMERICAN          Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                             0      0%                  0      0%            1           2%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%            3           2%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%      219,231           3%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                             0      0%                  0      0%            1           2%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%            1           1%              0      0%                 0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%      460,629           7%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1376
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   SULLIVAN, PENNSYLVANIA                               SUSQUEHANNA, PENNSYLVANIA                             TIOGA, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                           3                           0                      28                        7                      127                        48
                          Loans                               8                           0                      72                       15                      534                       155
                          Principal and Interest        507,598                           0               4,266,633                  377,005               21,202,467                   983,272
WHITE                     Borrowers                           3    100%                   0      0%              27         96%            6       86%            126        99%             48        100%
                          Loans                               8    100%                   0      0%              71         99%           14       93%            533       100%            155        100%
                          Principal and Interest        507,598    100%                   0      0%       4,133,122         97%      365,195       97%     21,121,846       100%        983,272        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%              1           4%             1      14%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%              1           1%             1       7%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%        133,511           3%        11,809       3%                  0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                   0      0%              0      0%              1          1%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%              1          0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                   0      0%              0      0%         80,621          0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Loans                                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1377
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      UNION, PENNSYLVANIA                               VENANGO, PENNSYLVANIA                            WARREN, PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         28                        5                       12                          4                     11                         5
                          Loans                             79                        7                       29                          9                     29                         7
                          Principal and Interest     4,015,312                   58,931                  958,581                     22,391                872,332                    44,522
WHITE                     Borrowers                         28     100%               5       100%            12        100%              4    100%             11       100%              5        100%
                          Loans                             79     100%               7       100%            29        100%              9    100%             29       100%              7        100%
                          Principal and Interest     4,015,312     100%          58,931       100%       958,581        100%         22,391    100%        872,332       100%         44,522        100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                     Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1378
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   WASHINGTON, PENNSYLVANIA                               WAYNE, PENNSYLVANIA                             WESTMORELAND, PENNSYLVANIA
                                                    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent      Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                          32                        8                        24                         5                        38                        10
                          Loans                              93                       16                        60                        10                       118                        22
                          Principal and Interest      3,699,705                  107,435                 3,040,812                    57,076                 7,045,074                   264,158

WHITE                     Borrowers                          32     100%               8       100%             24       100%              5    100%                38       100%             10        100%
                          Loans                              93     100%              16       100%             60       100%             10    100%               118       100%             22        100%
                          Principal and Interest      3,699,705     100%         107,435       100%      3,040,812       100%         57,076    100%         7,045,074       100%        264,158        100%

AFRICAN AMERICAN          Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

NATIVE AMERICAN           Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

ASIAN                     Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

OTHER                     Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

HISPANIC                  Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Loans                                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                          Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1379
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   WYOMING, PENNSYLVANIA                                   YORK, PENNSYLVANIA                               STATE OF PENNSYLVANIA
                                                   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent
TOTAL                     Borrowers                         18                        7                         56                        18                    1,916                        492
                          Loans                             44                       16                        194                        51                    5,514                      1,252
                          Principal and Interest     2,179,430                  127,427                 15,302,755                 1,131,250              320,370,875                 18,658,963
WHITE                     Borrowers                         18     100%               7       100%              56       100%             18    100%            1,897         99%            488        99%
                          Loans                             44     100%              16       100%             194       100%             51    100%            5,476         99%          1,245        99%
                          Principal and Interest     2,179,430     100%         127,427       100%      15,302,755       100%      1,131,250    100%      316,307,407         99%     18,573,853       100%
AFRICAN AMERICAN          Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
NATIVE AMERICAN           Borrowers                            0      0%                  0      0%                  0      0%              0      0%               3          0%             2           0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%               8          0%             5           0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%         635,013          0%        64,681           0%
ASIAN                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%               8          0%             1           0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%              16          0%             1           0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%       2,355,228          1%        18,618           0%
OTHER                     Borrowers                            0      0%                  0      0%                  0      0%              0      0%               7          0%              1          0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%              13          0%              1          0%
                          Principal and Interest               0      0%                  0      0%                  0      0%              0      0%       1,029,028          0%          1,810          0%
HISPANIC                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%               1          0%                  0      0%
                          Loans                                0      0%                  0      0%                  0      0%              0      0%               1          0%                  0      0%
                          Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%          44,202          0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1380
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  PA ADAMS                 Approved   No. of Applications             83        83   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     31                     0                   0                0                0
                                      Completion to Approval                    23                     0                   0                0                0
                                      Approval to Loan Closing                  51                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications             11        11    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     11                      0                   0                0               0
                                     Completion to Withdrawn                   95                      0                   0                0               0

  PA   ARMSTRONG           Approved   No. of Applications            80        80    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    36                      0                   0                0               0
                                      Completion to Approval                   20                      0                   0                0               0
                                      Approval to Loan Closing                 29                      0                   0                0               0

                           Rejected   No. of Applications            14        14    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     6                      0                   0                0               0
                                      Completion to Rejected                    8                      0                   0                0               0

                           Withdrawn No. of Applications             17        17    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     33                      0                   0                0               0
                                     Completion to Withdrawn                   31                      0                   0                0               0

  PA   BERKS               Approved   No. of Applications            23        22    96%               0   0%              0   0%        1      4%          0      0%
                                      Receipt to Completion                    15                      0                   0            47                  0
                                      Completion to Approval                   12                      0                   0             9                  0
                                      Approval to Loan Closing                 24                      0                   0            28                  0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    35                      0                   0                0               0
                                      Completion to Rejected                   18                      0                   0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     26                      0                   0                0               0
                                     Completion to Withdrawn                    2                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1381
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State   Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  PA BLAIR                  Approved   No. of Applications             43        43   100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                     13                     0                   0                0                0
                                       Completion to Approval                     3                     0                   0                0                0
                                       Approval to Loan Closing                  49                     0                   0                0                0

                            Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      3                      0                   0                0               0
                                      Completion to Withdrawn                    7                      0                   0                0               0

  PA   BRADFORD             Approved   No. of Applications            48        48    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    46                      0                   0                0               0
                                       Completion to Approval                    7                      0                   0                0               0
                                       Approval to Loan Closing                 27                      0                   0                0               0

                            Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications             12        11    92%               1   8%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      0                      0                   0                0               0
                                      Completion to Withdrawn                    0                      0                   0                0               0

  PA   CENTRE               Approved   No. of Applications           111       111    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    16                      0                   0                0               0
                                       Completion to Approval                    3                      0                   0                0               0
                                       Approval to Loan Closing                 24                      0                   0                0               0

                            Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      0                      0                   0                0               0
                                      Completion to Withdrawn                  251                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1382
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  PA CLEARFIELD            Approved   No. of Applications             12        12   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     22                     0                   0                0                0
                                      Completion to Approval                     5                     0                   0                0                0
                                      Approval to Loan Closing                  23                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     20                      0                   0                0               0
                                     Completion to Withdrawn                   43                      0                   0                0               0

  PA   COLUMBIA            Approved   No. of Applications            26        26    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    50                      0                   0                0               0
                                      Completion to Approval                   32                      0                   0                0               0
                                      Approval to Loan Closing                 25                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   143                      0                   0                0               0
                                      Completion to Rejected                   13                      0                   0                0               0

                           Withdrawn No. of Applications             17        17    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     40                      0                   0                0               0
                                     Completion to Withdrawn                   77                      0                   0                0               0

  PA   DAUPHIN             Approved   No. of Applications            21        21    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    36                      0                   0                0               0
                                      Completion to Approval                   28                      0                   0                0               0
                                      Approval to Loan Closing                 23                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1383
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State   Servicing Office   Decision           Average Days       Total     White            American            American            Asian             Hispanic
  PA ERIE                   Approved   No. of Applications             44        44   100%              0   0%              0   0%           0   0%            0     0%
                                       Receipt to Completion                     37                     0                   0                0                 0
                                       Completion to Approval                     9                     0                   0                0                 0
                                       Approval to Loan Closing                  35                     0                   0                0                 0

                            Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%           0      0%
                                       Receipt to Completion                     9                      0                   0                0                0
                                       Completion to Rejected                    1                      0                   0                0                0

                            Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                      0                      0                   0                0                0
                                      Completion to Withdrawn                    0                      0                   0                0                0

  PA   LANCASTER            Approved   No. of Applications            30        27    90%               0   0%              0   0%        3      10%          0      0%
                                       Receipt to Completion                    37                      0                   0            47                   0
                                       Completion to Approval                    8                      0                   0            20                   0
                                       Approval to Loan Closing                 40                      0                   0            59                   0

                            Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%           0      0%
                                       Receipt to Completion                     0                      0                   0                0                0
                                       Completion to Rejected                    0                      0                   0                0                0

                            Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                     22                      0                   0                0                0
                                      Completion to Withdrawn                    5                      0                   0                0                0

  PA   MERCER               Approved   No. of Applications            16        16    100%              0   0%              0   0%           0   0%           0      0%
                                       Receipt to Completion                    19                      0                   0                0                0
                                       Completion to Approval                   33                      0                   0                0                0
                                       Approval to Loan Closing                 23                      0                   0                0                0

                            Rejected   No. of Applications             8         8    100%              0   0%              0   0%           0   0%           0      0%
                                       Receipt to Completion                    30                      0                   0                0                0
                                       Completion to Rejected                   38                      0                   0                0                0

                            Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%           0      0%
                                      Receipt to Completion                     12                      0                   0                0                0
                                      Completion to Withdrawn                   72                      0                   0                0                0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1384
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  PA MONROE                Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      28                        0                   0                0                0
                                      Completion to Approval                     11                        0                   0                0                0
                                      Approval to Loan Closing                   42                        0                   0                0                0

                           Rejected   No. of Applications                1           1   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 5           5   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

  PA   SOMERSET            Approved   No. of Applications            74          72      97%           1       1%          1       1%           0   0%          0      0%
                                      Receipt to Completion                      13                    0                  21                    0               0
                                      Completion to Approval                     17                    0                   0                    0               0
                                      Approval to Loan Closing                   46                   48                  20                    0               0

                           Rejected   No. of Applications                5        5      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      19                        0                   0                0               0
                                      Completion to Rejected                     37                        0                   0                0               0

                           Withdrawn No. of Applications             18          18      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        6                        0                   0                0               0
                                     Completion to Withdrawn                     11                        0                   0                0               0

  PA   TIOGA               Approved   No. of Applications            44          44      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      34                        0                   0                0               0
                                      Completion to Approval                      5                        0                   0                0               0
                                      Approval to Loan Closing                   49                        0                   0                0               0

                           Rejected   No. of Applications                3           3   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1385
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  PA UNION                 Approved   No. of Applications             46        46   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     20                     0                   0                0                0
                                      Completion to Approval                     8                     0                   0                0                0
                                      Approval to Loan Closing                  29                     0                   0                0                0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     7                      0                   0                0               0
                                      Completion to Rejected                   17                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      6                      0                   0                0               0
                                     Completion to Withdrawn                    6                      0                   0                0               0

  PA   STATE               Approved   No. of Applications           706       700    99%           1       0%          1       0%        4      1%          0      0%
                                      Receipt to Completion                    27                  0                  21                47                  0
                                      Completion to Approval                   13                  0                   0                17                  0
                                      Approval to Loan Closing                 35                 48                  20                51                  0

                           Rejected   No. of Applications            45        45    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    15                      0                   0                0               0
                                      Completion to Rejected                   16                      0                   0                0               0

                           Withdrawn No. of Applications            113       112    99%               1   1%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     17                      0                   0                0               0
                                     Completion to Withdrawn                   33                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1386
                            Demographics         1388
                        FSA’s Loan Portfolio     1389
                        FSA’s Application data   1391




USDA/OIG-A/50801-4-Hq                                   1387
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other             Hispanic
                                              Total      Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
         RI                  Population        48,859     47,640     98%           178       0%         38     0%         295      1%         36      0%        672       1%
         Bristol County      Borrowers              3          2     67%             0       0%          1    33%           0      0%          0      0%          0       0%
                             Farms                 27         27    100%             0       0%          0     0%           0      0%          0      0%          0       0%
                             Land in Farms      1,468      1,468    100%             0       0%          0     0%           0      0%          0      0%          0       0%

         RI                  Population       161,135    156,759     97%          1,010      1%        279      0%      1,262      1%         88      0%      1,737       1%
         Kent County         Borrowers              5          5    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Farms                 70         70    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms      5,636      5,636    100%              0      0%          0      0%          0      0%          0      0%          0       0%

         RI                  Population        87,194     80,700     93%          3,272      4%        332      0%      1,005      1%        173      0%      1,712       2%
         Newport County      Borrowers             16         15     94%              0      0%          1      6%          0      0%          0      0%          0       0%
                             Farms                120        120    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms      9,631      9,631    100%              0      0%          0      0%          0      0%          0      0%          0       0%

         RI                  Population       596,270    505,558     85%         28,793      5%      1,998      0%     13,602      2%      5,750      1%     40,569       7%
         Providence County   Borrowers             19         19    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Farms                232        232    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms     12,408     12,408    100%              0      0%          0      0%          0      0%          0      0%          0       0%

         RI                  Population       110,006    105,452     96%          1,030      1%        982      1%      1,420      1%         60      0%      1,062       1%
         Washington County   Borrowers              9          9    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Farms                200        200    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms     20,458     20,458    100%              0      0%          0      0%          0      0%          0      0%          0       0%

         RI                  Population      1,003,464   896,109     89%         34,283      3%      3,629      0%     17,584      2%      6,107      1%     45,752       5%
         STATE               Borrowers              52        50     96%              0      0%          2      4%          0      0%          0      0%          0       0%
                             Farms                 649       649    100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms      49,601    49,601    100%              0      0%          0      0%          0      0%          0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 1388
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BRISTOL, RHODE ISLAND                               KENT, RHODE ISLAND                                NEWPORT, RHODE ISLAND
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       3                          1                     5                          3                         16                        3
                              Loans                           8                          2                    20                         12                         30                        5
                              Principal and Interest    277,988                      3,127               760,461                     68,798                  2,396,662                  414,283
WHITE                         Borrowers                       2          67%             1    100%             5        100%              3        100%             15        94%             3     100%
                              Loans                           7          88%             2    100%            20        100%             12        100%             29        97%             5     100%
                              Principal and Interest    172,896          62%         3,127    100%       760,461        100%         68,798        100%      2,390,458       100%       414,283     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       1          33%              0      0%                 0      0%                  0      0%             1          6%              0      0%
                              Loans                           1          13%              0      0%                 0      0%                  0      0%             1          3%              0      0%
                              Principal and Interest    105,092          38%              0      0%                 0      0%                  0      0%         6,204          0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1389
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PROVIDENCE, RHODE ISLAND                           WASHINGTON, RHODE ISLAND                               STATE OF RHODE ISLAND
                                                         Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        19                         6                        9                          5                         52                        18
                              Loans                            53                        19                       25                         14                        136                        52
                              Principal and Interest    3,676,203                   183,687                1,567,632                    364,797                  8,678,946                 1,034,692
WHITE                         Borrowers                        19        100%             6     100%               9        100%              5        100%             50         96%        18        100%
                              Loans                            53        100%            19     100%              25        100%             14        100%            134         99%        52        100%
                              Principal and Interest    3,676,203        100%       183,687     100%       1,567,632        100%        364,797        100%      8,567,650         99% 1,034,692        100%
AFRICAN AMERICAN              Borrowers                              0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                              0      0%              0      0%                   0      0%                  0      0%            2           4%              0      0%
                              Loans                                  0      0%              0      0%                   0      0%                  0      0%            2           1%              0      0%
                              Principal and Interest                 0      0%              0      0%                   0      0%                  0      0%      111,296           1%              0      0%
ASIAN                         Borrowers                              0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                              0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                              0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%              0      0%                   0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1390
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  RI KENT                  Approved   No. of Applications             26        25   96%               0   0%          1       4%           0   0%           0     0%
                                      Receipt to Completion                     28                     0              32                    0                0
                                      Completion to Approval                     7                     0              10                    0                0
                                      Approval to Loan Closing                  77                     0              36                    0                0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    33                      0                   0                0               0
                                      Completion to Rejected                   19                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

  RI   STATE               Approved   No. of Applications            26        25    96%               0   0%          1       4%           0   0%          0      0%
                                      Receipt to Completion                    28                      0              32                    0               0
                                      Completion to Approval                    7                      0              10                    0               0
                                      Approval to Loan Closing                 77                      0              36                    0               0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    33                      0                   0                0               0
                                      Completion to Rejected                   19                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1391
                            Demographics         1393
                        FSA’s Loan Portfolio     1399
                        FSA’s Application data   1415




USDA/OIG-A/50801-4-Hq                                   1392
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          SC                 Population       23,862       16,195     68%          7,499     31%         17      0%         50          0%              3      0%         98       0%
          Abbeville County   Borrowers            22           20     91%              1      5%          1      5%          0          0%              0      0%          0       0%
                             Farms               491          471     96%             17      3%          0      0%          0          0%              0      0%          3       1%
                             Land in Farms    89,935       89,935    100%              0      0%          0      0%          0          0%              0      0%          0       0%

          SC                 Population      120,940       90,130      75%        29,176     24%        213      0%        528          0%         26          0%        867       1%
          Aiken County       Borrowers            31           23      74%             8     26%          0      0%          0          0%          0          0%          0       0%
                             Farms               669          607      91%            59      9%          0      0%          0          0%          0          0%          3       0%
                             Land in Farms   136,565      135,695      99%             0      0%          0      0%          0          0%          0          0%        870       1%

          SC                 Population       11,722        3,598      31%         7,939     68%         11      0%              7      0%              6      0%        161       1%
          Allendale County   Borrowers            14           10      71%             4     29%          0      0%              0      0%              0      0%          0       0%
                             Farms               114           81      71%            33     29%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms    81,257       77,197      95%         4,060      5%          0      0%              0      0%              0      0%          0       0%

          SC                 Population      145,196      120,013      83%        24,097     17%        163      0%        334          0%         30          0%        559       0%
          Anderson County    Borrowers            36           33      92%             3      8%          0      0%          0          0%          0          0%          0       0%
                             Farms             1,076        1,063      99%            13      1%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms   160,659      159,140      99%         1,519      1%          0      0%          0          0%          0          0%          0       0%

          SC                 Population       16,902        6,428      38%        10,356     61%         22      0%         20          0%              1      0%         75       0%
          Bamberg County     Borrowers            33           30      91%             3      9%          0      0%          0          0%              0      0%          0       0%
                             Farms               234          205      88%            29     12%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms    87,355       83,968      96%         3,387      4%          0      0%          0          0%              0      0%          0       0%

          SC                 Population       20,293       11,421      56%         8,677     43%         31      0%         17          0%              1      0%        146       1%
          Barnwell County    Borrowers            23           21      91%             2      9%          0      0%          0          0%              0      0%          0       0%
                             Farms               279          269      96%            10      4%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms    74,733       73,545      98%         1,188      2%          0      0%          0          0%              0      0%          0       0%

          SC                 Population       86,425       58,842      68%        24,415     28%        233      0%        731          1%         36          0%      2,168       3%
          Beaufort County    Borrowers             7            2      29%             5     71%          0      0%          0          0%          0          0%          0       0%
                             Farms               120           85      71%            35     29%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    44,800       42,422      95%         2,378      5%          0      0%          0          0%          0          0%          0       0%

          SC                 Population      128,776       92,460      72%        30,909     24%        374      0%      2,391          2%         43          0%      2,599       2%
          Berkeley County    Borrowers            10            7      70%             3     30%          0      0%          0          0%          0          0%          0       0%
                             Farms               308          211      69%            94     31%          3      1%          0          0%          0          0%          0       0%
                             Land in Farms    51,020       46,447      91%         4,525      9%         48      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1393
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American            Asian                  Other                 Hispanic
                                                Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          SC                    Population       12,753        6,134     48%          6,565     51%         12      0%              3      0%              0      0%         39       0%
          Calhoun County        Borrowers            10            8     80%              2     20%          0      0%              0      0%              0      0%          0       0%
                                Farms               261          243     93%             18      7%          0      0%              0      0%              0      0%          0       0%
                                Land in Farms    90,995       90,995    100%              0      0%          0      0%              0      0%              0      0%          0       0%

          SC                    Population      295,039      185,343     63%        102,522     35%        644      0%      2,534          1%        123          0%      3,873       1%
          Charleston County     Borrowers            15           11     73%              4     27%          0      0%          0          0%          0          0%          0       0%
                                Farms               216          192     89%             24     11%          0      0%          0          0%          0          0%          0       0%
                                Land in Farms    32,392       32,392    100%              0      0%          0      0%          0          0%          0          0%          0       0%

          SC                    Population       44,506       34,873     78%          9,120     20%         63      0%        186          0%              5      0%        259       1%
          Cherokee County       Borrowers            31           29     94%              2      6%          0      0%          0          0%              0      0%          0       0%
                                Farms               388          382     98%              6      2%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms    66,165       66,165    100%              0      0%          0      0%          0          0%              0      0%          0       0%

          SC                    Population       32,170       19,154      60%        12,830     40%         71      0%         35          0%              0      0%         80       0%
          Chester County        Borrowers            11            9      82%             2     18%          0      0%          0          0%              0      0%          0       0%
                                Farms               373          358      96%            15      4%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms    94,193       92,726      98%         1,467      2%          0      0%          0          0%              0      0%          0       0%

          SC                    Population       38,577       25,505      66%        12,814     33%         63      0%         28          0%              7      0%        160       0%
          Chesterfield County   Borrowers            35           32      91%             2      6%          1      3%          0          0%              0      0%          0       0%
                                Farms               491          469      96%            19      4%          3      1%          0          0%              0      0%          0       0%
                                Land in Farms   109,652      108,141      99%         1,141      1%        370      0%          0          0%              0      0%          0       0%

          SC                    Population       28,450       12,223     43%         16,021     56%         31      0%         27          0%              4      0%        144       1%
          Clarendon County      Borrowers           109           77     71%             31     28%          0      0%          0          0%              1      1%          0       0%
                                Farms               372          265     71%            107     29%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms   135,766      135,766    100%              0      0%          0      0%          0          0%              0      0%          0       0%

          SC                    Population       34,377       18,603      54%        15,395     45%        165      0%         35          0%              3      0%        176       1%
          Colleton County       Borrowers            47           34      72%            13     28%          0      0%          0          0%              0      0%          0       0%
                                Farms               502          427      85%            71     14%          4      1%          0          0%              0      0%          0       0%
                                Land in Farms   126,370      121,444      96%         4,926      4%          0      0%          0          0%              0      0%          0       0%

          SC                    Population       61,851       36,794      59%        24,707     40%         71      0%         65          0%              3      0%        211       0%
          Darlington County     Borrowers            58           52      90%             5      9%          0      0%          0          0%              1      2%          0       0%
                                Farms               370          321      87%            49     13%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms   156,853      150,968      96%         5,885      4%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1394
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          SC                  Population       29,114       15,844      54%        12,705     44%        423      1%         65      0%              1      0%         76       0%
          Dillon County       Borrowers            36           32      89%             4     11%          0      0%          0      0%              0      0%          0       0%
                              Farms               259          232      90%            24      9%          3      1%          0      0%              0      0%          0       0%
                              Land in Farms   108,848      107,716      99%         1,026      1%        106      0%          0      0%              0      0%          0       0%

          SC                  Population       83,060       61,684      74%        19,026     23%        540      1%        741      1%         29          0%      1,040       1%
          Dorchester County   Borrowers            12            9      75%             3     25%          0      0%          0      0%          0          0%          0       0%
                              Farms               321          273      85%            43     13%          5      2%          0      0%          0          0%          0       0%
                              Land in Farms    62,108       60,008      97%         1,960      3%        140      0%          0      0%          0          0%          0       0%

          SC                  Population       18,375        9,756     53%          8,496     46%         11      0%         29      0%              4      0%         79       0%
          Edgefield County    Borrowers            29           26     90%              2      7%          0      0%          0      0%              1      3%          0       0%
                              Farms               262          244     93%             18      7%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    68,858       68,858    100%              0      0%          0      0%          0      0%              0      0%          0       0%

          SC                  Population       22,295        9,200     41%         12,948     58%         14      0%         28      0%              0      0%        105       0%
          Fairfield County    Borrowers             1            1    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               189          172     91%             17      9%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    55,712       54,519     98%          1,193      2%          0      0%          0      0%              0      0%          0       0%

          SC                  Population      114,344       69,252      61%        44,136     39%        141      0%        280      0%         27          0%        508       0%
          Florence County     Borrowers            56           47      84%             9     16%          0      0%          0      0%          0          0%          0       0%
                              Farms               781          665      85%           108     14%          0      0%          0      0%          0          0%          8       1%
                              Land in Farms   194,822      186,676      96%         7,234      4%          0      0%          0      0%          0          0%        912       0%

          SC                  Population       46,302       26,070      56%        19,925     43%         49      0%         54      0%         17          0%        187       0%
          Georgetown County   Borrowers            10            6      60%             4     40%          0      0%          0      0%          0          0%          0       0%
                              Farms               220          179      81%            41     19%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    37,287       35,624      96%         1,663      4%          0      0%          0      0%          0          0%          0       0%

          SC                  Population      320,167      257,069      80%        57,485     18%        439      0%      2,082      1%         64          0%      3,028       1%
          Greenville County   Borrowers            27           22      81%             4     15%          0      0%          0      0%          1          4%          0       0%
                              Farms               689          670      97%            19      3%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    66,809       65,639      98%         1,170      2%          0      0%          0      0%          0          0%          0       0%

          SC                  Population       59,567       41,108      69%        17,923     30%         50      0%        232      0%              3      0%        251       0%
          Greenwood County    Borrowers            13            8      62%             4     31%          0      0%          0      0%              1      8%          0       0%
                              Farms               385          372      97%            13      3%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    70,277       69,274      99%         1,003      1%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1395
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian              Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
          SC                 Population       18,191        8,253     45%          9,844     54%              6      0%         17      0%              0      0%         71       0%
          Hampton County     Borrowers            20           16     80%              4     20%              0      0%          0      0%              0      0%          0       0%
                             Farms               242          194     80%             48     20%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms    97,241       97,241    100%              0      0%              0      0%          0      0%              0      0%          0       0%

          SC                 Population      144,053      116,284      81%        25,052     17%        330          0%      1,089      1%         39          0%      1,259       1%
          Horry County       Borrowers            69           63      91%             6      9%          0          0%          0      0%          0          0%          0       0%
                             Farms             1,048        1,010      96%            31      3%          0          0%          0      0%          0          0%          7       1%
                             Land in Farms   195,697      191,498      98%         2,444      1%          0          0%          0      0%          0          0%      1,755       1%

          SC                 Population       15,487        6,496      42%         8,872     57%         20          0%         30      0%              0      0%         69       0%
          Jasper County      Borrowers             9            7      78%             2     22%          0          0%          0      0%              0      0%          0       0%
                             Farms               146          109      75%            37     25%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms    72,500       68,021      94%         4,479      6%          0          0%          0      0%              0      0%          0       0%

          SC                 Population       43,599       30,862      71%        12,315     28%         68          0%         97      0%         12          0%        245       1%
          Kershaw County     Borrowers            17           15      88%             2     12%          0          0%          0      0%          0          0%          0       0%
                             Farms               239          223      93%            16      7%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    52,978       52,041      98%           937      2%          0          0%          0      0%          0          0%          0       0%

          SC                 Population       54,516       40,394     74%         13,780     25%         60          0%         58      0%         12          0%        212       0%
          Lancaster County   Borrowers            20           20    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               444          423     95%             21      5%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    58,323       58,323    100%              0      0%          0          0%          0      0%          0          0%          0       0%

          SC                 Population       58,092       41,369      71%        16,362     28%         45          0%         91      0%         14          0%        211       0%
          Laurens County     Borrowers            19           18      95%             1      5%          0          0%          0      0%          0          0%          0       0%
                             Farms               666          647      97%            19      3%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms   128,124      127,027      99%         1,097      1%          0          0%          0      0%          0          0%          0       0%

          SC                 Population       18,437        6,839     37%         11,481     62%         17          0%         25      0%              0      0%         75       0%
          Lee County         Borrowers            67           54     81%             13     19%          0          0%          0      0%              0      0%          0       0%
                             Farms               280          255     91%             25      9%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms   136,151      136,151    100%              0      0%          0          0%          0      0%              0      0%          0       0%

          SC                 Population      167,611      146,535      87%        18,427     11%        321          0%        997      1%         29          0%      1,302       1%
          Lexington County   Borrowers            29           26      90%             3     10%          0          0%          0      0%          0          0%          0       0%
                             Farms               718          706      98%             8      1%          0          0%          0      0%          0          0%          4       1%
                             Land in Farms    82,634       82,055      99%             0      0%          0          0%          0      0%          0          0%        579       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1396
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                Asian              Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
          SC                  Population        8,868        3,640      41%         5,180     58%              6      0%         11      0%              5      0%         26       0%
          McCormick County    Borrowers             4            2      50%             1     25%              0      0%          0      0%              1     25%          0       0%
                              Farms                84           78      93%             6      7%              0      0%          0      0%              0      0%          0       0%
                              Land in Farms    19,486       18,961      97%           525      3%              0      0%          0      0%              0      0%          0       0%

          SC                  Population       33,899       15,095      45%        18,479     55%         85          0%        123      0%              7      0%        110       0%
          Marion County       Borrowers            38           29      76%             9     24%          0          0%          0      0%              0      0%          0       0%
                              Farms               265          211      80%            54     20%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms    78,382       68,968      88%         9,414     12%          0          0%          0      0%              0      0%          0       0%

          SC                  Population       29,361       14,287     49%         14,222     48%        732          2%         25      0%         16          0%         79       0%
          Marlboro County     Borrowers            33           31     94%              1      3%          0          0%          0      0%          1          3%          0       0%
                              Farms               174          165     95%              9      5%          0          0%          0      0%          0          0%          0       0%
                              Land in Farms   104,862      104,862    100%              0      0%          0          0%          0      0%          0          0%          0       0%

          SC                  Population       33,172       21,426      65%        11,470     35%         40          0%         79      0%         10          0%        147       0%
          Newberry County     Borrowers            29           27      93%             2      7%          0          0%          0      0%          0          0%          0       0%
                              Farms               510          497      97%            13      3%          0          0%          0      0%          0          0%          0       0%
                              Land in Farms    93,970       93,224      99%           746      1%          0          0%          0      0%          0          0%          0       0%

          SC                  Population       57,494       51,683     90%          5,029      9%         69          0%        169      0%         16          0%        528       1%
          Oconee County       Borrowers            27           27    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                              Farms               646          636     98%              7      1%          0          0%          0      0%          0          0%          3       0%
                              Land in Farms    69,897       69,400     99%              0      0%          0          0%          0      0%          0          0%        497       1%

          SC                  Population       84,803       34,830      41%        49,109     58%        210          0%        315      0%              8      0%        331       0%
          Orangeburg County   Borrowers            88           60      68%            28     32%          0          0%          0      0%              0      0%          0       0%
                              Farms               910          771      85%           139     15%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   262,093      248,337      95%        13,756      5%          0          0%          0      0%              0      0%          0       0%

          SC                  Population       93,894       85,617     91%          6,780      7%        152          0%        756      1%         18          0%        571       1%
          Pickens County      Borrowers             5            4     80%              0      0%          0          0%          0      0%          1         20%          0       0%
                              Farms               496          495    100%              1      0%          0          0%          0      0%          0          0%          0       0%
                              Land in Farms    44,200       44,200    100%              0      0%          0          0%          0      0%          0          0%          0       0%

          SC                  Population      285,720      157,969     55%        118,652     42%        657          0%      3,680      1%        115          0%      4,647       2%
          Richland County     Borrowers            10            9     90%              1     10%          0          0%          0      0%          0          0%          0       0%
                              Farms               339          287     85%             52     15%          0          0%          0      0%          0          0%          0       0%
                              Land in Farms    66,355       66,355    100%              0      0%          0          0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1397
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                   White             African American Native American            Asian                  Other                 Hispanic
                                                  Total        Number      Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          SC                    Population        16,357        10,842       66%         5,406     33%         15      0%              8      0%              0      0%         86       1%
          Saluda County         Borrowers            130           118       91%            12      9%          0      0%              0      0%              0      0%          0       0%
                                Farms                584           554       95%            30      5%          0      0%              0      0%              0      0%          0       0%
                                Land in Farms    110,679       107,530       97%         3,149      3%          0      0%              0      0%              0      0%          0       0%

          SC                    Population       226,800       176,556       78%        46,750     21%        314      0%      1,633          1%         26          0%      1,521       1%
          Spartanburg County    Borrowers             39            35       90%             4     10%          0      0%          0          0%          0          0%          0       0%
                                Farms              1,015           994       98%            11      1%          0      0%          5          0%          0          0%          5       0%
                                Land in Farms    107,058       106,208       99%           527      0%          0      0%        323          0%          0          0%          0       0%

          SC                    Population       102,637        56,130      55%         44,139     43%        198      0%        880          1%         51          0%      1,239       1%
          Sumter County         Borrowers             80            40      50%             40     50%          0      0%          0          0%          0          0%          0       0%
                                Farms                406           274      67%            132     33%          0      0%          0          0%          0          0%          0       0%
                                Land in Farms    138,573       138,573     100%              0      0%          0      0%          0          0%          0          0%          0       0%

          SC                    Population        30,337        21,149       70%         9,059     30%         26      0%         30          0%              4      0%         69       0%
          Union County          Borrowers              8             7       88%             1     13%          0      0%          0          0%              0      0%          0       0%
                                Farms                278           266       96%            12      4%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms     55,992        54,477       97%         1,515      3%          0      0%          0          0%              0      0%          0       0%

          SC                    Population        36,815        13,082       36%        23,560     64%         15      0%         25          0%              4      0%        129       0%
          Williamsburg County   Borrowers             86            50       58%            36     42%          0      0%          0          0%              0      0%          0       0%
                                Farms                705           501       71%           200     28%          0      0%          0          0%              0      0%          4       1%
                                Land in Farms    173,188       154,421       89%        18,767     11%          0      0%          0          0%              0      0%          0       0%

          SC                    Population       131,497       103,019      78%         26,293     20%        767      1%        664          1%         19          0%        735        1%
          York County           Borrowers              5             4      80%              0      0%          0      0%          0          0%          0          0%          1       20%
                                Farms                677           660      97%             12      2%          0      0%          0          0%          0          0%          5        1%
                                Land in Farms    120,755       120,578     100%              0      0%          0      0%          0          0%          0          0%        177        0%

          SC                    Population      3,486,703     2,390,056      69%     1,035,947     30%      8,004      0%     21,304          1%        841          0%     30,551       1%
          STATE                 Borrowers           1,508         1,211      80%           286     19%          2      0%          0          0%          8          1%          1       0%
                                Farms              20,242        18,412      91%         1,765      9%         18      0%          5          0%          0          0%         42       0%
                                Land in Farms   4,472,569     4,363,711      98%       103,081      2%        664      0%        323          0%          0          0%      4,790       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1398
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ABBEVILLE, SOUTH CAROLINA                               AIKEN, SOUTH CAROLINA                                  ALLENDALE, SOUTH CAROLINA
                                                         Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              22                          7                         31                          15                           14                          5
                              Loans                                  52                      12                            83                          52                           35                      16
                              Principal and Interest      2,632,006                     78,445                 2,695,693                     613,624                    2,613,776                    401,106

WHITE                         Borrowers                              20     91%                  6     86%                 23     74%                  10     67%                   10     71%                  4     80%
                              Loans                                  47     90%                  8     67%                 50     60%                  23     44%                   27     77%              14        88%
                              Principal and Interest      2,424,485         92%         50,739         65%     1,790,562          66%        182,353          30%       2,430,775          93%       399,963        100%

AFRICAN AMERICAN              Borrowers                               1      5%                  1     14%                  8     26%                   5     33%                    4     29%                  1     20%
                              Loans                                   4      8%                  4     33%                 33     40%                  29     56%                    8     23%                  2     13%
                              Principal and Interest         159,627         6%         27,705         35%        905,131         34%        431,271          70%          183,001          7%          1,143          0%

NATIVE AMERICAN               Borrowers                               1      5%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                   1      2%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest          47,894         2%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1399
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ANDERSON, SOUTH CAROLINA                               BAMBERG, SOUTH CAROLINA                                 BARNWELL, SOUTH CAROLINA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             36                      12                             33                          16                           23                      11
                              Loans                                 63                      22                         127                             74                           85                      60
                              Principal and Interest     2,570,989                   265,169                   8,371,390                   1,476,227                    8,485,713                  4,943,317

WHITE                         Borrowers                             33     92%              11        92%                  30     91%                  16   100%                    21     91%              10        91%
                              Loans                                 58     92%              21        95%              119        94%                  74   100%                    70     82%              48        80%
                              Principal and Interest     2,479,119         96%       265,166        100%       8,282,754          99%      1,476,227        100%        6,662,847          79%     3,710,582          75%

AFRICAN AMERICAN              Borrowers                              3      8%                  1      8%                   3      9%                   0      0%                    2      9%                  1      9%
                              Loans                                  5      8%                  1      5%                   8      6%                   0      0%                   15     18%              12        20%
                              Principal and Interest         91,870         4%                  3      0%          88,636          1%                   0      0%       1,822,866          21%     1,232,735          25%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1400
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BEAUFORT, SOUTH CAROLINA                               BERKELEY, SOUTH CAROLINA                               CALHOUN, SOUTH CAROLINA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              7                          5                          10                          3                          10                          4
                              Loans                                 45                      42                             18                          8                          13                          4
                              Principal and Interest     3,398,787                 2,424,795                      706,046                     21,523                  1,079,745                     88,908

WHITE                         Borrowers                              2     29%                  1     20%                   7     70%                  3   100%                    8     80%                  2     50%
                              Loans                                  3      7%                  2      5%                  13     72%                  8   100%                   10     77%                  2     50%
                              Principal and Interest        386,341        11%       100,331           4%         597,781         85%         21,523       100%          578,839         54%        11,322          13%

AFRICAN AMERICAN              Borrowers                              5     71%                  4     80%                   3     30%                  0      0%                   2     20%                  2     50%
                              Loans                                 42     93%              40        95%                   5     28%                  0      0%                   3     23%                  2     50%
                              Principal and Interest     3,012,446         89%     2,324,464          96%         108,265         15%                  0      0%         500,906         46%        77,586          87%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                   0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1401
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CHARLESTON, SOUTH CAROLINA                               CHEROKEE, SOUTH CAROLINA                                CHESTER, SOUTH CAROLINA
                                                          Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               15                          7                          31                          10                          11                          5
                              Loans                                   33                      21                         106                             55                          24                          6
                              Principal and Interest       3,977,239                 1,538,510                   4,530,882                   1,738,756                   1,160,475                    108,624

WHITE                         Borrowers                               11     73%                  4     57%                  29     94%                   8     80%                   9     82%                  5   100%
                              Loans                                   17     52%                  7     33%                  99     93%                  52     95%                  22     92%                  6   100%
                              Principal and Interest       3,079,895         77%       896,212          58%      4,438,405          98%      1,731,388        100%       1,142,109          98%       108,624        100%

AFRICAN AMERICAN              Borrowers                                4     27%                  3     43%                   2      6%                   2     20%                   2     18%                  0      0%
                              Loans                                   16     48%              14        67%                   7      7%                   3      5%                   2      8%                  0      0%
                              Principal and Interest          897,344        23%       642,298          42%          92,477          2%           7,368          0%          18,366          2%                  0      0%

NATIVE AMERICAN               Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%

OTHER                         Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1402
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CHESTERFIELD, SOUTH CAROLINA CLARENDON, SOUTH CAROLINA                                                          COLLETON, SOUTH CAROLINA
                                                          Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               35                      21                        109                             44                           47                      19
                              Loans                                   92                      58                        223                             99                       142                         82
                              Principal and Interest       3,536,740                 1,029,156                  13,009,345                  1,063,462                    4,992,780                  1,678,623

WHITE                         Borrowers                               32     91%              20        95%                 77     71%                  28     64%                   34     72%              12        63%
                              Loans                                   84     91%              55        95%             155        70%                  61     62%               106        75%              57        70%
                              Principal and Interest       3,314,095         94%     1,006,662          98%     10,141,702         78%        483,592          45%       4,539,458          91%     1,473,274          88%

AFRICAN AMERICAN              Borrowers                                2      6%                  1      5%                 31     28%                  16     36%                   13     28%                  7     37%
                              Loans                                    4      4%                  3      5%                 67     30%                  38     38%                   36     25%              25        30%
                              Principal and Interest          140,451         4%         22,494          2%      2,847,434         22%        579,870          55%          453,322          9%       205,349          12%

NATIVE AMERICAN               Borrowers                                1      3%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                    4      4%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest           82,193         2%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%

OTHER                         Borrowers                                0      0%                  0      0%                  1      1%                   0      0%                    0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  1      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%         20,208          0%                   0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                  0      0%                  0      0%                   0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1403
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       DARLINGTON, SOUTH CAROLINA                               DILLON, SOUTH CAROLINA                                DORCHESTER, SOUTH CAROLINA
                                                         Portfolio         Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent      Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               58                      14                            36                          6                            12                          2
                              Loans                                  187                      30                            68                          7                            22                          3
                              Principal and Interest      6,543,457                    414,221                  4,019,688                      21,399                       929,756                      8,361

WHITE                         Borrowers                               52     90%              12        86%                 32     89%                  5     83%                     9     75%                  2   100%
                              Loans                                  170     91%              28        93%                 61     90%                  5     71%                    18     82%                  3   100%
                              Principal and Interest      6,204,920          95%       409,501          99%     3,550,340          88%         20,649         96%           895,025         96%          8,361       100%

AFRICAN AMERICAN              Borrowers                                5      9%                  1      7%                  4     11%                  1     17%                     3     25%                  0      0%
                              Loans                                   16      9%                  1      3%                  7     10%                  2     29%                     4     18%                  0      0%
                              Principal and Interest         310,742          5%          2,097          1%        469,348         12%             750         4%            34,730          4%                  0      0%

NATIVE AMERICAN               Borrowers                                0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%

OTHER                         Borrowers                                1      2%                  1      7%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                    1      1%                  1      3%                  0      0%                  0      0%                     0      0%                  0      0%
                              Principal and Interest          27,796          0%          2,623          1%                  0      0%                  0      0%                     0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                  0      0%                  0      0%                  0      0%                     0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1404
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       EDGEFIELD, SOUTH CAROLINA                               FAIRFIELD, SOUTH CAROLINA                             FLORENCE, SOUTH CAROLINA
                                                         Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              29                      15                             1                          1                           56                      18
                              Loans                                  77                      45                             1                          1                       151                         74
                              Principal and Interest     10,815,712                 4,992,376                       33,496                      1,766                  5,962,294                  1,929,801

WHITE                         Borrowers                              26     90%              14        93%                  1   100%                   1   100%                    47     84%              15        83%
                              Loans                                  71     92%              43        96%                  1   100%                   1   100%                132        87%              68        92%
                              Principal and Interest     10,555,005         98%     4,977,300        100%           33,496      100%            1,766      100%        5,807,785          97%     1,927,613        100%

AFRICAN AMERICAN              Borrowers                               2      7%                  1      7%                  0      0%                  0      0%                    9     16%                  3     17%
                              Loans                                   4      5%                  2      4%                  0      0%                  0      0%                   19     13%                  6      8%
                              Principal and Interest          42,494         0%         15,075          0%                  0      0%                  0      0%          154,508          3%          2,187          0%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

OTHER                         Borrowers                               1      3%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   2      3%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest         218,214         2%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1405
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GEORGETOWN, SOUTH CAROLINA GREENVILLE, SOUTH CAROLINA GREENWOOD, SOUTH CAROLINA
                                                          Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               10                          3                         27                           7                         13                          2
                              Loans                                   25                          6                         58                          14                         24                          3
                              Principal and Interest       1,497,091                     10,564                 2,733,453                     458,577                  1,349,156                         664

WHITE                         Borrowers                                6     60%                  0      0%                 22     81%                   5     71%                  8     62%                  0      0%
                              Loans                                   16     64%                  0      0%                 47     81%                   8     57%                 13     54%                  0      0%
                              Principal and Interest       1,245,298         83%                  0      0%     2,523,685          92%        394,767          86%        459,230         34%                  0      0%

AFRICAN AMERICAN              Borrowers                                4     40%                  3   100%                   4     15%                   2     29%                  4     31%                  2   100%
                              Loans                                    9     36%                  6   100%                  10     17%                   6     43%                  9     38%                  3   100%
                              Principal and Interest          251,793        17%         10,564       100%         198,606          7%         63,810          14%        674,827         50%            664       100%

NATIVE AMERICAN               Borrowers                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%

OTHER                         Borrowers                                0      0%                  0      0%                  1      4%                   0      0%                  1      8%                  0      0%
                              Loans                                    0      0%                  0      0%                  1      2%                   0      0%                  2      8%                  0      0%
                              Principal and Interest                   0      0%                  0      0%         11,162          0%                   0      0%        215,099         16%                  0      0%

HISPANIC                      Borrowers                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1406
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HAMPTON, SOUTH CAROLINA                                HORRY, SOUTH CAROLINA                                  JASPER, SOUTH CAROLINA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent        Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             20                      14                            69                          15                          9                          4
                              Loans                                 60                      51                        130                             40                         25                      17
                              Principal and Interest     4,520,150                 1,643,656                  7,461,654                   1,391,351                  1,023,689                    493,713

WHITE                         Borrowers                             16     80%              11        79%                 63     91%                  13     87%                  7     78%                  4   100%
                              Loans                                 54     90%              47        92%             119        92%                  37     93%                 21     84%              17      100%
                              Principal and Interest     4,446,656         98%     1,619,785          99%     7,105,903          95%      1,366,311          98%        974,864         95%       493,713        100%

AFRICAN AMERICAN              Borrowers                              4     20%                  3     21%                  6      9%                   2     13%                  2     22%                  0      0%
                              Loans                                  6     10%                  4      8%                 11      8%                   3      8%                  4     16%                  0      0%
                              Principal and Interest         73,494         2%         23,872          1%        355,751          5%         25,040           2%         48,825          5%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1407
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       KERSHAW, SOUTH CAROLINA                                LANCASTER, SOUTH CAROLINA                                LAURENS, SOUTH CAROLINA
                                                        Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             17                          8                           20                          14                          19                          5
                              Loans                                 85                      60                              38                          26                          41                          7
                              Principal and Interest     3,191,866                 1,064,323                    1,289,912                     113,932                   1,102,174                    111,418

WHITE                         Borrowers                             15     88%                  6     75%                   20   100%                   14   100%                   18     95%                  4     80%
                              Loans                                 71     84%              46        77%                   38   100%                   26   100%                   39     95%                  6     86%
                              Principal and Interest     2,665,078         83%       665,778          63%       1,289,912        100%         113,932        100%       1,091,825          99%       111,417        100%

AFRICAN AMERICAN              Borrowers                              2     12%                  2     25%                    0      0%                   0      0%                   1      5%                  1     20%
                              Loans                                 14     16%              14        23%                    0      0%                   0      0%                   2      5%                  1     14%
                              Principal and Interest        526,787        17%       398,545          37%                    0      0%                   0      0%          10,349          1%                  1      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1408
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LEE, SOUTH CAROLINA                                  LEXINGTON, SOUTH CAROLINA                                MARION, SOUTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent     Portfolio        Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             67                      21                              29                          10                          38                      17
                              Loans                                185                      40                          102                             56                          98                      33
                              Principal and Interest    8,475,794                    707,236                    6,422,249                   2,300,531                   8,509,539                  2,503,100

WHITE                         Borrowers                             54     81%              15        71%                   26     90%                  10   100%                   29     76%              11        65%
                              Loans                                150     81%              30        75%                   96     94%                  56   100%                   80     82%              24        73%
                              Principal and Interest    7,938,743          94%       667,285          94%       6,315,865          98%      2,300,531        100%       8,069,264          95%     2,384,745          95%

AFRICAN AMERICAN              Borrowers                             13     19%                  6     29%                    3     10%                   0      0%                   9     24%                  6     35%
                              Loans                                 35     19%              10        25%                    6      6%                   0      0%                  18     18%                  9     27%
                              Principal and Interest       537,051          6%         39,951          6%          106,384          2%                   0      0%         440,275          5%       118,354           5%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1409
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MARLBORO, SOUTH CAROLINA                                 MCCORMICK, SOUTH CAROLINA                               NEWBERRY, SOUTH CAROLINA
                                                         Portfolio         Percent   Delinquent       Percent     Portfolio       Percent   Delinquent        Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                               33                          6                           4                           1                           29                          9
                              Loans                                  107                      21                              6                           1                           87                      18
                              Principal and Interest      6,097,014                    711,242                       112,741                             29               3,671,578                    195,792

WHITE                         Borrowers                               31     94%                  6   100%                    2     50%                   1   100%                    27     93%                  8     89%
                              Loans                                  102     95%              21      100%                    4     67%                   1   100%                    82     94%              17        94%
                              Principal and Interest      5,733,468          94%       711,242        100%            60,955        54%                  29   100%        3,637,694          99%       195,751        100%

AFRICAN AMERICAN              Borrowers                                1      3%                  0      0%                   1     25%                   0      0%                    2      7%                  1     11%
                              Loans                                    4      4%                  0      0%                   1     17%                   0      0%                    5      6%                  1      6%
                              Principal and Interest         193,392          3%                  0      0%           10,646         9%                   0      0%           33,884          1%              41         0%

NATIVE AMERICAN               Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Principal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%

OTHER                         Borrowers                                1      3%                  0      0%                   1     25%                   0      0%                    0      0%                  0      0%
                              Loans                                    1      1%                  0      0%                   1     17%                   0      0%                    0      0%                  0      0%
                              Principal and Interest         170,155          3%                  0      0%           41,140        36%                   0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                                0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Loans                                    0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                   0      0%                  0      0%                   0      0%                   0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1410
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       OCONEE, SOUTH CAROLINA                                ORANGEBURG, SOUTH CAROLINA                               PICKENS, SOUTH CAROLINA
                                                       Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent        Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            27                      14                              88                          41                           5                          1
                              Loans                                63                      32                          250                        138                              12                          6
                              Principal and Interest    4,996,350                   524,598                    12,464,017                  2,662,612                   1,638,671                    793,666

WHITE                         Borrowers                            27   100%               14      100%                    60     68%                  23     56%                   4     80%                  1   100%
                              Loans                                63   100%               32      100%                154        62%                  75     54%                  11     92%                  6   100%
                              Principal and Interest    4,996,350       100%        524,598        100%         9,668,882         78%      1,867,746          70%      1,624,220          99%       793,666        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   28     32%                  18     44%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   96     38%                  63     46%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        2,795,135         22%        794,865          30%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                    0      0%                   0      0%                   1     20%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                   0      0%                   1      8%                  0      0%
                              Principal and Interest                0      0%                  0      0%                    0      0%                   0      0%          14,451          1%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                    0      0%                   0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1411
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RICHLAND, SOUTH CAROLINA                               SALUDA, SOUTH CAROLINA                                 SPARTANBURG, SOUTH CAROLINA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent        Percent      Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             10                          5                     130                             36                            39                          9
                              Loans                                 27                      16                        371                        117                                93                      22
                              Principal and Interest    13,182,565                 1,831,737                  14,845,644                    964,149                     3,726,554                    337,902

WHITE                         Borrowers                              9     90%                  5   100%              118        91%                  31     86%                    35     90%                  9   100%
                              Loans                                 25     93%              16      100%              337        91%             102         87%                    89     96%              22      100%
                              Principal and Interest    12,945,130         98%     1,831,737        100%      13,573,055         91%        842,293          87%        3,699,560          99%       337,902        100%

AFRICAN AMERICAN              Borrowers                              1     10%                  0      0%                 12      9%                   5     14%                     4     10%                  0      0%
                              Loans                                  2      7%                  0      0%                 34      9%                  15     13%                     4      4%                  0      0%
                              Principal and Interest        237,435         2%                  0      0%      1,272,588          9%        121,856          13%            26,995          1%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%                   0      0%                     0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1412
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SUMTER, SOUTH CAROLINA                                 UNION, SOUTH CAROLINA                                WILLIAMSBURG, SOUTH CAROLINA
                                                       Portfolio         Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent       Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             80                      41                            8                          0                             86                      50
                              Loans                                233                    131                             9                          0                         314                       228
                              Principal and Interest    8,218,895                  2,498,412                     264,561                             0                13,995,995                  5,037,624

WHITE                         Borrowers                             40     50%              18        44%                 7     88%                  0      0%                     50     58%              29        58%
                              Loans                                118     51%              68        52%                 8     89%                  0      0%                 158        50%            119         52%
                              Principal and Interest    6,885,333          84%     2,298,940          92%        253,658        96%                  0      0%        10,232,917          73%     3,320,793          66%

AFRICAN AMERICAN              Borrowers                             40     50%              23        56%                 1     13%                  0      0%                     36     42%              21        42%
                              Loans                                115     49%              63        48%                 1     11%                  0      0%                 156        50%            109         48%
                              Principal and Interest    1,333,562          16%       199,472           8%         10,903         4%                  0      0%         3,763,078          27%     1,716,831          34%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                 0      0%                  0      0%                      0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1413
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       YORK, SOUTH CAROLINA                                  STATE OF SOUTH CAROLINA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             5                          2                    1,508                        575
                              Loans                                19                      10                       4,109                      1,864
                              Principal and Interest       966,419                  371,137                  223,823,740                 51,566,134

WHITE                         Borrowers                             4     80%                  2   100%             1,211        80%             429        75%
                              Loans                                18     95%              10      100%             3,246        79%           1,372        74%
                              Principal and Interest       658,348        68%       371,137        100%      197,431,631         88%     42,477,246         82%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%              286        19%             145        25%
                              Loans                                 0      0%                  0      0%              847        21%             491        26%
                              Principal and Interest                0      0%                  0      0%      25,235,724         11%      9,086,261         18%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   2      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   5      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%         130,087          0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   8      1%                  1      0%
                              Loans                                 0      0%                  0      0%                  10      0%                  1      0%
                              Principal and Interest                0      0%                  0      0%         718,225          0%           2,623         0%

HISPANIC                      Borrowers                             1     20%                  0      0%                   1      0%                  0      0%
                              Loans                                 1      5%                  0      0%                   1      0%                  0      0%
                              Prinicpal and Interest       308,072        32%                  0      0%         308,072          0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                      Page 1414
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African               Native
 State  Servicing Office   Decision           Average Days       Total     White            American              American            Asian            Hispanic
  SC ANDERSON              Approved   No. of Applications             22        19   86%           3       14%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     56                78                         0                0                0
                                      Completion to Approval                    23                 0                         0                0                0
                                      Approval to Loan Closing                  30                42                         0                0                0

                           Rejected   No. of Applications             6         6    100%              0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    27                      0                     0                0               0
                                      Completion to Rejected                    1                      0                     0                0               0

                           Withdrawn No. of Applications             10         8    80%           2       20%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     66                 31                         0                0               0
                                     Completion to Withdrawn                   11                 38                         0                0               0

 SC    BARNWELL            Approved   No. of Applications             1         0     0%           1       100%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                  0                         0                0               0
                                      Completion to Approval                    0                 21                         0                0               0
                                      Approval to Loan Closing                  0                 10                         0                0               0

                           Rejected   No. of Applications             1         0     0%           1       100%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                  0                         0                0               0
                                      Completion to Rejected                    0                 32                         0                0               0

                           Withdrawn No. of Applications              0         0     0%               0    0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                     0                0               0
                                     Completion to Withdrawn                    0                      0                     0                0               0

 SC    CLARENDON           Approved   No. of Applications            20        13    65%           7       35%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    20                 24                         0                0               0
                                      Completion to Approval                    1                  2                         0                0               0
                                      Approval to Loan Closing                 10                 11                         0                0               0

                           Rejected   No. of Applications             4         3    75%               1   25%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                     0                0               0
                                      Completion to Rejected                    0                      0                     0                0               0

                           Withdrawn No. of Applications             12         6    50%               6   50%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      5                      0                     0                0               0
                                     Completion to Withdrawn                    3                      0                     0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1415
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African               Native
 State  Servicing Office   Decision           Average Days       Total     White            American              American            Asian            Hispanic
  SC COLLETON              Approved   No. of Applications             11        10   91%           1        9%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     24                64                         0                0                0
                                      Completion to Approval                    13                 1                         0                0                0
                                      Approval to Loan Closing                  22                20                         0                0                0

                           Rejected   No. of Applications             0         0     0%               0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                     0                0               0
                                      Completion to Rejected                    0                      0                     0                0               0

                           Withdrawn No. of Applications              2         0     0%               2   100%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                     0                0               0
                                     Completion to Withdrawn                    0                      0                     0                0               0

 SC    FLORENCE            Approved   No. of Applications            14        11    79%           3       21%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    40                 44                         0                0               0
                                      Completion to Approval                   10                  2                         0                0               0
                                      Approval to Loan Closing                 18                 21                         0                0               0

                           Rejected   No. of Applications             3         3    100%              0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    60                      0                     0                0               0
                                      Completion to Rejected                   74                      0                     0                0               0

                           Withdrawn No. of Applications              4         3    75%               1   25%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     38                      0                     0                0               0
                                     Completion to Withdrawn                   64                      0                     0                0               0

 SC    HORRY               Approved   No. of Applications            11         9    82%           2       18%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    55                 37                         0                0               0
                                      Completion to Approval                   11                 15                         0                0               0
                                      Approval to Loan Closing                 23                 28                         0                0               0

                           Rejected   No. of Applications             0         0     0%               0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                     0                0               0
                                      Completion to Rejected                    0                      0                     0                0               0

                           Withdrawn No. of Applications              2         2    100%              0    0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                     0                0               0
                                     Completion to Withdrawn                    0                      0                     0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1416
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African              Native
 State  Servicing Office   Decision           Average Days       Total       White              American             American             Asian            Hispanic
  SC LANCASTER             Approved   No. of Applications                5        3      60%               0   0%           2       40%           0   0%           0     0%
                                      Receipt to Completion                      35                        0                0                     0                0
                                      Completion to Approval                      0                        0               26                     0                0
                                      Approval to Loan Closing                   13                        0               11                     0                0

                           Rejected   No. of Applications                2        2      100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                      23                        0                    0                 0               0
                                      Completion to Rejected                      0                        0                    0                 0               0

                           Withdrawn No. of Applications                 4           2   50%           2       50%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           4                 1                        0                 0               0
                                     Completion to Withdrawn                         0                28                        0                 0               0

 SC    LEE                 Approved   No. of Applications                9        7      78%           2       22%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      14                    2                        0                 0               0
                                      Completion to Approval                      1                    0                        0                 0               0
                                      Approval to Loan Closing                   10                   12                        0                 0               0

                           Rejected   No. of Applications                5        5      100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                      13                        0                    0                 0               0
                                      Completion to Rejected                      3                        0                    0                 0               0

                           Withdrawn No. of Applications                 2        2      100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                        2                        0                    0                 0               0
                                     Completion to Withdrawn                     13                        0                    0                 0               0

 SC    MALBORO             Approved   No. of Applications            13          11      85%           2       15%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      21                   62                        0                 0               0
                                      Completion to Approval                     41                    9                        0                 0               0
                                      Approval to Loan Closing                   14                   12                        0                 0               0

                           Rejected   No. of Applications                2           1   50%               1   50%              0   0%            0   0%          0      0%
                                      Receipt to Completion                          6                     0                    0                 0               0
                                      Completion to Rejected                         9                     0                    0                 0               0

                           Withdrawn No. of Applications                 3           0    0%           2       67%              1   33%           0   0%          0      0%
                                     Receipt to Completion                           0                11                        0                 0               0
                                     Completion to Withdrawn                         0                10                        0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1417
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  SC ORANGEBURG            Approved   No. of Applications             17        12   71%           5       29%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     42               131                        0                0                0
                                      Completion to Approval                    17                38                        0                0                0
                                      Approval to Loan Closing                  15                23                        0                0                0

                           Rejected   No. of Applications             7         6    86%           1       14%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                 59                        0                0               0
                                      Completion to Rejected                    0                 11                        0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 SC    SALUDA              Approved   No. of Applications             4         4    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                   121                      0                    0                0               0
                                      Completion to Approval                  167                      0                    0                0               0
                                      Approval to Loan Closing                 18                      0                    0                0               0

                           Rejected   No. of Applications             5         5    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     38                      0                    0                0               0
                                     Completion to Withdrawn                   52                      0                    0                0               0

 SC    SPARTANBURG         Approved   No. of Applications             9         9    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    50                      0                    0                0               0
                                      Completion to Approval                    4                      0                    0                0               0
                                      Approval to Loan Closing                 23                      0                    0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              6         3    50%           3       50%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     31                136                        0                0               0
                                     Completion to Withdrawn                    0                  0                        0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1418
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African            Native
 State  Servicing Office   Decision           Average Days       Total    White           American           American            Asian            Hispanic
  SC STATE                 Approved   No. of Applications           136      108    79%           26   19%          2       1%           0   0%           0     0%
                                      Receipt to Completion                    40                 56                0                    0                0
                                      Completion to Approval                   20                 11               26                    0                0
                                      Approval to Loan Closing                 19                 20               11                    0                0

                           Rejected   No. of Applications            35       31    89%           4    11%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   15                 15                     0                0               0
                                      Completion to Rejected                   8                 11                     0                0               0

                           Withdrawn No. of Applications             54       35    65%          18    33%              1   2%           0   0%          0      0%
                                     Receipt to Completion                    24                 27                     0                0               0
                                     Completion to Withdrawn                  12                  8                     0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 1419
                            Demographics         1421
                        FSA’s Loan Portfolio     1430
                        FSA’s Application data   1453




USDA/OIG-A/50801-4-Hq                                   1420
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number       Percent
        SD                 Population         3,135         3,085    98%                 0      0%          40      1%              3      0%              0      0%              7      0%
        Aurora County      Borrowers             82            82   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                           Farms                438           438   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                           Land in Farms    379,973       379,973   100%                 0      0%           0      0%              0      0%              0      0%              0      0%

        SD                 Population        18,253        17,898    98%             66         0%         159      1%         51          0%              3      0%         76          0%
        Beadle County      Borrowers            212           212   100%              0         0%           0      0%          0          0%              0      0%          0          0%
                           Farms                813           813   100%              0         0%           0      0%          0          0%              0      0%          0          0%
                           Land in Farms    724,776       724,776   100%              0         0%           0      0%          0          0%              0      0%          0          0%

        SD                 Population         3,206         1,698     53%                8      0%       1,462     46%              2      0%              1      0%         35          1%
        Bennett County     Borrowers             63            47     75%                0      0%          15     24%              1      2%              0      0%          0          0%
                           Farms                284           261     92%                0      0%          23      8%              0      0%              0      0%          0          0%
                           Land in Farms    787,857       525,832     67%                0      0%     262,025     33%              0      0%              0      0%          0          0%

        SD                 Population         7,089         6,874    97%             22         0%         154      2%              4      0%              1      0%         34          0%
        Bon Homme County   Borrowers             86            85    99%              0         0%           0      0%              0      0%              1      1%          0          0%
                           Farms                737           737   100%              0         0%           0      0%              0      0%              0      0%          0          0%
                           Land in Farms    322,432       322,432   100%              0         0%           0      0%              0      0%              0      0%          0          0%

        SD                 Population        25,207        24,600    98%             73         0%         154      1%        296          1%              8      0%         76          0%
        Brookings County   Borrowers            118           118   100%              0         0%           0      0%          0          0%              0      0%          0          0%
                           Farms                959           959   100%              0         0%           0      0%          0          0%              0      0%          0          0%
                           Land in Farms    444,440       444,440   100%              0         0%           0      0%          0          0%              0      0%          0          0%

        SD                 Population         35,580       34,307    96%             44         0%         976      3%        139          0%              3      0%        111          0%
        Brown County       Borrowers             126          125    99%              0         0%           0      0%          0          0%              1      1%          0          0%
                           Farms               1,089        1,080    99%              0         0%           4      0%          0          0%              0      0%          5          0%
                           Land in Farms   1,026,353    1,023,246   100%              0         0%           0      0%          0          0%              0      0%      3,107          0%

        SD                 Population         5,485         5,059    92%                 6      0%         378      7%         11          0%              0      0%         31          1%
        Brule County       Borrowers             83            81    98%                 0      0%           1      1%          0          0%              1      1%          0          0%
                           Farms                419           419   100%                 0      0%           0      0%          0          0%              0      0%          0          0%
                           Land in Farms    496,799       496,799   100%                 0      0%           0      0%          0          0%              0      0%          0          0%

        SD                 Population         1,759           393    22%                 0      0%       1,363     77%              0      0%              0      0%              3      0%
        Buffalo County     Borrowers             26            18    69%                 0      0%           6     23%              1      4%              1      4%              0      0%
                           Farms                 83            80    96%                 0      0%           3      4%              0      0%              0      0%              0      0%
                           Land in Farms    279,202       279,202   100%                 0      0%           0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1421
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                              Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
        SD                   Population          7,914        7,548    95%             21         0%         109         1%         17          0%              0      0%        219          3%
        Butte County         Borrowers              68           66    97%              0         0%           0         0%          0          0%              2      3%          0          0%
                             Farms                 541          541   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                             Land in Farms   1,243,168    1,243,168   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                   Population         1,965         1,960   100%                 2      0%              3      0%              0      0%              0      0%              0      0%
        Campbell County      Borrowers             43            41    95%                 0      0%              0      0%              0      0%              2      5%              0      0%
                             Farms                323           323   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms    417,697       417,697   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

        SD                   Population         9,131         7,106    78%                 4      0%       1,983        22%              4      0%              0      0%         34          0%
        Charles Mix County   Borrowers            185           182    98%                 0      0%           1         1%              0      0%              2      1%          0          0%
                             Farms                796           796   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                             Land in Farms    688,081       688,081   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD                   Population         4,403         4,368     99%                6      0%           8         0%              7      0%              1      0%         13          0%
        Clark County         Borrowers            148           147     99%                0      0%           0         0%              0      0%              1      1%          0          0%
                             Farms                610           604     99%                0      0%           3         0%              0      0%              0      0%          3          0%
                             Land in Farms    534,829       529,760     99%                0      0%         259         0%              0      0%              0      0%      4,810          1%

        SD                   Population        13,186        12,503    95%             56         0%         382         3%        142          1%              3      0%        100          1%
        Clay County          Borrowers            121           121   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                             Farms                437           437   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                             Land in Farms    236,608       236,608   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                   Population        22,698        22,298    98%             16         0%         257         1%         72          0%              0      0%         55          0%
        Codington County     Borrowers             99            99   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                             Farms                658           655   100%              0         0%           3         0%          0          0%              0      0%          0          0%
                             Land in Farms    392,935       392,935   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                   Population          4,195        2,143    51%                 1      0%       2,001        48%              3      0%              0      0%         47          1%
        Corson County        Borrowers              85           82    96%                 0      0%           1         1%              0      0%              2      2%          0          0%
                             Farms                 450          424    94%                 0      0%          26         6%              0      0%              0      0%          0          0%
                             Land in Farms   1,701,991    1,701,991   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD                   Population         6,179         5,962    96%                 9      0%         154         2%              9      0%              0      0%         45          1%
        Custer County        Borrowers             36            35    97%                 0      0%           0         0%              0      0%              1      3%          0          0%
                             Farms                323           323   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                             Land in Farms    462,238       462,238   100%                 0      0%           0         0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1422
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
        SD                  Population        17,503        17,143    98%             22         0%         238         1%         60          0%              2      0%         38          0%
        Davison County      Borrowers             68            67    99%              0         0%           0         0%          0          0%              1      1%          0          0%
                            Farms                462           462   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Land in Farms    270,665       270,665   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                  Population         6,978         6,496    93%                 1      0%         467         7%              2      0%              1      0%         11          0%
        Day County          Borrowers            175           172    98%                 0      0%           0         0%              0      0%              3      2%          0          0%
                            Farms                721           721   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Land in Farms    561,312       561,312   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD                  Population         4,522         4,487    99%                 1      0%          10         0%              9      0%              1      0%         14          0%
        Deuel County        Borrowers            156           155    99%                 0      0%           0         0%              0      0%              1      1%          0          0%
                            Farms                634           634   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Land in Farms    341,131       341,131   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD                  Population          5,523        1,815     33%            11         0%     3,646          66%              5      0%              0      0%         46          1%
        Dewey County        Borrowers              90           53     59%             0         0%        30          33%              2      2%              4      4%          1          1%
                            Farms                 409          320     78%             0         0%        89          22%              0      0%              0      0%          0          0%
                            Land in Farms   1,859,161      766,089     41%             0         0% 1,093,072          59%              0      0%              0      0%          0          0%

        SD                  Population         3,746         3,720    99%                 0      0%          21         1%              2      0%              1      0%              2      0%
        Douglas County      Borrowers            102           102   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Farms                442           442   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Land in Farms    252,419       252,419   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD                  Population         4,356         4,327    99%                 1      0%          19         0%              4      0%              0      0%              5      0%
        Edmunds County      Borrowers            166           166   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Farms                494           494   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Land in Farms    641,911       641,911   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD                  Population         7,353         6,731    92%             27         0%         444         6%         30          0%              1      0%        120          2%
        Fall River County   Borrowers             63            63   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Farms                298           298   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Land in Farms    974,811       974,811   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                  Population         2,744         2,734   100%                 0      0%              6      0%              1      0%              0      0%              3      0%
        Faulk County        Borrowers             89            88    99%                 0      0%              0      0%              0      0%              1      1%              0      0%
                            Farms                326           326   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    560,057       560,057   100%                 0      0%              0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1423
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
        SD               Population          8,372         8,308    99%                 3      0%          33         0%         17          0%              0      0%         11          0%
        Grant County     Borrowers             111           111   100%                 0      0%           0         0%          0          0%              0      0%          0          0%
                         Farms                 644           644   100%                 0      0%           0         0%          0          0%              0      0%          0          0%
                         Land in Farms     373,787       373,787   100%                 0      0%           0         0%          0          0%              0      0%          0          0%

        SD               Population          5,359         5,044    94%                 1      0%         281         5%              5      0%              1      0%         27          1%
        Gregory County   Borrowers             101            99    98%                 0      0%           1         1%              0      0%              1      1%          0          0%
                         Farms                 609           603    99%                 0      0%           6         1%              0      0%              0      0%          0          0%
                         Land in Farms     601,034       598,334   100%                 0      0%       2,700         0%              0      0%              0      0%          0          0%

        SD               Population           2,624        2,561    98%                 4      0%          36         1%         12          0%              0      0%         11          0%
        Haakon County    Borrowers               51           49    96%                 0      0%           0         0%          0          0%              2      4%          0          0%
                         Farms                  321          318    99%                 0      0%           3         1%          0          0%              0      0%          0          0%
                         Land in Farms    1,204,465    1,204,465   100%                 0      0%           0         0%          0          0%              0      0%          0          0%

        SD               Population          4,974         4,940    99%                 4      0%          10         0%              7      0%              0      0%         13          0%
        Hamlin County    Borrowers              83            83   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                         Farms                 468           468   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                         Land in Farms     276,744       276,744   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD               Population          4,272         4,242    99%                 3      0%              5      0%         11          0%              0      0%         11          0%
        Hand County      Borrowers             133           129    97%                 1      1%              0      0%          0          0%              2      2%          1          1%
                         Farms                 542           542   100%                 0      0%              0      0%          0          0%              0      0%          0          0%
                         Land in Farms     861,129       861,129   100%                 0      0%              0      0%          0          0%              0      0%          0          0%

        SD               Population          2,994         2,985   100%                 0      0%              7      0%              0      0%              0      0%              2      0%
        Hanson County    Borrowers              53            52    98%                 0      0%              0      0%              0      0%              1      2%              0      0%
                         Farms                 353           353   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                         Land in Farms     245,174       245,174   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

        SD               Population           1,669        1,644    99%                 5      0%          16         1%              0      0%              1      0%              3      0%
        Harding County   Borrowers               28           25    89%                 0      0%           0         0%              0      0%              3     11%              0      0%
                         Farms                  282          279    99%                 0      0%           0         0%              0      0%              0      0%              3      1%
                         Land in Farms    1,657,305    1,657,305   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD               Population         14,817        13,687     92%            18         0%         966         7%         34          0%              0      0%        112          1%
        Hughes County    Borrowers              68            66     97%             0         0%           1         1%          1          1%              0      0%          0          0%
                         Farms                 256           252     98%             0         0%           4         2%          0          0%              0      0%          0          0%
                         Land in Farms     390,720       388,309     99%             0         0%       2,411         1%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1424
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
        SD                  Population         8,262         8,216    99%                 1      0%          20         0%         11          0%              0      0%         14          0%
        Hutchinson County   Borrowers            136           135    99%                 0      0%           0         0%          0          0%              1      1%          0          0%
                            Farms                931           931   100%                 0      0%           0         0%          0          0%              0      0%          0          0%
                            Land in Farms    502,469       502,469   100%                 0      0%           0         0%          0          0%              0      0%          0          0%

        SD                  Population         1,696         1,630    96%                 1      0%          57         3%              1      0%              0      0%              7      0%
        Hyde County         Borrowers             41            40    98%                 0      0%           0         0%              0      0%              1      2%              0      0%
                            Farms                240           240   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Land in Farms    545,064       545,064   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD                  Population          2,811        1,607     57%                3      0%       1,182        42%              5      0%              0      0%         14          0%
        Jackson County      Borrowers              58           26     45%                0      0%          31        53%              1      2%              0      0%          0          0%
                            Farms                 327          284     87%                0      0%          43        13%              0      0%              0      0%          0          0%
                            Land in Farms   1,361,106      890,147     65%                0      0%     470,959        35%              0      0%              0      0%          0          0%

        SD                  Population         2,425         2,412    99%                 0      0%              5      0%              7      0%              0      0%              1      0%
        Jerauld County      Borrowers             54            54   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                282           282   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    334,057       334,057   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

        SD                  Population         1,324         1,315    99%                 0      0%              7      1%              1      0%              0      0%              1      0%
        Jones County        Borrowers             23            22    96%                 0      0%              1      4%              0      0%              0      0%              0      0%
                            Farms                198           198   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    584,231       584,231   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

        SD                  Population         5,925         5,902   100%                 0      0%          11         0%              7      0%              0      0%              5      0%
        Kingsbury County    Borrowers            101            99    98%                 0      0%           0         0%              0      0%              2      2%              0      0%
                            Farms                614           614   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Land in Farms    460,063       460,063   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD                  Population        10,550        10,449    99%             12         0%          33         0%         22          0%              7      0%         27          0%
        Lake County         Borrowers            154           154   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Farms                573           570    99%              0         0%           0         0%          0          0%              0      0%          3          1%
                            Land in Farms    297,819       297,819   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                  Population        20,655        19,726    96%             29         0%         514         2%         56          0%              3      0%        327          2%
        Lawrence County     Borrowers              3             3   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Farms                272           272   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Land in Farms    195,077       195,077   100%              0         0%           0         0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1425
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
        SD                 Population        15,427        15,282    99%             21         0%          58         0%         42          0%              1      0%         23          0%
        Lincoln County     Borrowers             81            80    99%              0         0%           0         0%          0          0%              1      1%          0          0%
                           Farms                939           936   100%              0         0%           0         0%          0          0%              0      0%          3          0%
                           Land in Farms    322,802       321,998   100%              0         0%           0         0%          0          0%              0      0%        804          0%

        SD                 Population         3,638         2,575     71%                3      0%       1,040        29%              2      0%              0      0%         18          0%
        Lyman County       Borrowers             76            70     92%                0      0%           4         5%              0      0%              2      3%          0          0%
                           Farms                421           411     98%                0      0%          10         2%              0      0%              0      0%          0          0%
                           Land in Farms    846,435       821,193     97%                0      0%      25,242         3%              0      0%              0      0%          0          0%

        SD                 Population         5,688         5,646    99%                 0      0%          28         0%              6      0%              0      0%              8      0%
        McCook County      Borrowers            125           124    99%                 0      0%           0         0%              0      0%              1      1%              0      0%
                           Farms                619           619   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                           Land in Farms    325,998       325,998   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD                 Population         3,228         3,223   100%                 1      0%              2      0%              2      0%              0      0%              0      0%
        McPherson County   Borrowers             67            67   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                464           464   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    661,474       661,474   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

        SD                 Population         4,844         4,563    94%                 1      0%         265         5%              2      0%              0      0%         13          0%
        Marshall County    Borrowers             83            83   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                           Farms                487           487   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                           Land in Farms    485,748       485,748   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD                 Population         21,878       20,437    93%            508         2%         375         2%        166          1%              5      0%        387          2%
        Meade County       Borrowers             103           98    95%              0         0%           2         2%          0          0%              3      3%          0          0%
                           Farms                 811          805    99%              0         0%           6         1%          0          0%              0      0%          0          0%
                           Land in Farms   2,076,199    2,076,199   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                 Population         2,137         1,126     53%                1      0%         992        46%              2      0%              1      0%         15          1%
        Mellette County    Borrowers             33            26     79%                0      0%           7        21%              0      0%              0      0%          0          0%
                           Farms                265           255     96%                0      0%          10         4%              0      0%              0      0%          0          0%
                           Land in Farms    701,352       653,772     93%                0      0%      47,580         7%              0      0%              0      0%          0          0%

        SD                 Population         3,272         3,261   100%                 0      0%              4      0%              0      0%              1      0%              6      0%
        Miner County       Borrowers             78            76    97%                 0      0%              0      0%              0      0%              2      3%              0      0%
                           Farms                424           421    99%                 0      0%              0      0%              0      0%              0      0%              3      1%
                           Land in Farms    313,435       313,435   100%                 0      0%              0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1426
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
        SD                  Population       123,809       120,047    97%            739         1%       1,645         1%        689          1%         41          0%        648          1%
        Minnehaha County    Borrowers             92            91    99%              0         0%           0         0%          0          0%          1          1%          0          0%
                            Farms              1,262         1,262   100%              0         0%           0         0%          0          0%          0          0%          0          0%
                            Land in Farms    425,288       425,288   100%              0         0%           0         0%          0          0%          0          0%          0          0%

        SD                  Population         6,507         5,945    91%             10         0%         526         8%         13          0%              0      0%         13          0%
        Moody County        Borrowers            108           105    97%              0         0%           0         0%          0          0%              3      3%          0          0%
                            Farms                640           640   100%              0         0%           0         0%          0          0%              0      0%          0          0%
                            Land in Farms    284,888       284,888   100%              0         0%           0         0%          0          0%              0      0%          0          0%

        SD                  Population         81,343       71,882    88%          1,249         2%       5,518         7%        884          1%         33          0%      1,777          2%
        Pennington County   Borrowers              51           48    94%              1         2%           1         2%          0          0%          1          2%          0          0%
                            Farms                 636          633   100%              0         0%           3         0%          0          0%          0          0%          0          0%
                            Land in Farms   1,066,060    1,066,060   100%              0         0%           0         0%          0          0%          0          0%          0          0%

        SD                  Population          3,932        3,851    98%                 6      0%          56         1%              2      0%              0      0%         17          0%
        Perkins County      Borrowers             121          120    99%                 0      0%           1         1%              0      0%              0      0%          0          0%
                            Farms                 555          555   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Land in Farms   1,726,299    1,726,299   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

        SD                  Population         3,190         3,157    99%                 0      0%          26         1%              2      0%              0      0%              5      0%
        Potter County       Borrowers             83            83   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Farms                321           321   100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Land in Farms    507,101       507,101   100%                 0      0%           0         0%              0      0%              0      0%              0      0%

        SD                  Population         9,914         7,609     77%                0      0%       2,267        23%         10          0%              0      0%         28          0%
        Roberts County      Borrowers            133           127     95%                0      0%           3         2%          0          0%              3      2%          0          0%
                            Farms                904           892     99%                0      0%           9         1%          0          0%              0      0%          3          0%
                            Land in Farms    604,219       600,034     99%                0      0%       1,818         0%          0          0%              0      0%      2,367          0%

        SD                  Population         2,833         2,815    99%                 0      0%              0      0%              3      0%              0      0%         15          1%
        Sanborn County      Borrowers             76            76   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms                408           408   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    322,784       322,784   100%                 0      0%              0      0%              0      0%              0      0%          0          0%

        SD                  Population          9,902          492      5%                4      0%     9,221          93%              5      0%              1      0%        179          2%
        Shannon County      Borrowers              40            9     23%                0      0%        28          70%              1      3%              1      3%          1          3%
                            Farms                 191           91     48%                0      0%       100          52%              0      0%              0      0%          0          0%
                            Land in Farms   1,417,516      204,296     14%                0      0% 1,213,220          86%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1427
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number       Percent
        SD                Population         7,981         7,898    99%                 2      0%          64      1%              2      0%              0      0%         15          0%
        Spink County      Borrowers            139           137    99%                 0      0%           0      0%              0      0%              2      1%          0          0%
                          Farms                743           743   100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                          Land in Farms    890,711       890,711   100%                 0      0%           0      0%              0      0%              0      0%          0          0%

        SD                Population         2,453         2,287    93%                 1      0%         154      6%              0      0%              1      0%         10          0%
        Stanley County    Borrowers             35            29    83%                 2      6%           3      9%              0      0%              1      3%          0          0%
                          Farms                198           194    98%                 0      0%           4      2%              0      0%              0      0%          0          0%
                          Land in Farms    903,980       903,980   100%                 0      0%           0      0%              0      0%              0      0%          0          0%

        SD                Population         1,589         1,569    99%                 1      0%          15      1%              0      0%              1      0%              3      0%
        Sully County      Borrowers             58            58   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                          Farms                282           282   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                          Land in Farms    615,479       615,479   100%                 0      0%           0      0%              0      0%              0      0%              0      0%

        SD                Population          8,352        1,424     17%            10         0%       6,789     81%              6      0%              0      0%        123          1%
        Todd County       Borrowers              37           21     57%             0         0%          14     38%              1      3%              1      3%          0          0%
                          Farms                 245          191     78%             0         0%          54     22%              0      0%              0      0%          0          0%
                          Land in Farms   1,079,266      454,174     42%             0         0%     625,092     58%              0      0%              0      0%          0          0%

        SD                Population          6,924        6,238    90%                 0      0%         670     10%              7      0%              0      0%              9      0%
        Tripp County      Borrowers             130          129    99%                 0      0%           1      1%              0      0%              0      0%              0      0%
                          Farms                 741          741   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                          Land in Farms   1,006,831    1,006,831   100%                 0      0%           0      0%              0      0%              0      0%              0      0%

        SD                Population         8,576         8,524    99%                 4      0%          26      0%              4      0%              0      0%         18          0%
        Turner County     Borrowers            100           100   100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                          Farms                955           955   100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                          Land in Farms    367,239       367,239   100%                 0      0%           0      0%              0      0%              0      0%          0          0%

        SD                Population        10,189        10,047    99%             20         0%          27      0%         27          0%              1      0%         67          1%
        Union County      Borrowers            117           115    98%              0         0%           0      0%          0          0%              2      2%          0          0%
                          Farms                560           560   100%              0         0%           0      0%          0          0%              0      0%          0          0%
                          Land in Farms    259,517       259,517   100%              0         0%           0      0%          0          0%              0      0%          0          0%

        SD                Population         6,087         5,589    92%                 1      0%         460      8%         11          0%              0      0%         26          0%
        Walworth County   Borrowers             54            51    94%                 0      0%           2      4%          0          0%              1      2%          0          0%
                          Farms                378           375    99%                 0      0%           0      0%          0          0%              0      0%          3          1%
                          Land in Farms    448,834       448,834   100%                 0      0%           0      0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1428
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number      Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number   Percent
        SD               Population          19,252        18,589     97%            110         1%         408      2%         53          0%              3      0%         89       0%
        Yankton County   Borrowers               71            71    100%              0         0%           0      0%          0          0%              0      0%          0       0%
                         Farms                  692           687     99%              0         0%           0      0%          0          0%              0      0%          5       1%
                         Land in Farms      271,200       269,004     99%              0         0%           0      0%          0          0%              0      0%      2,196       1%

        SD               Population            2,220           789     36%                3      0%       1,395     63%              4      0%              0      0%         29       1%
        Ziebach County   Borrowers                62            44     71%                0      0%          17     27%              0      0%              1      2%          0       0%
                         Farms                   258           216     84%                0      0%          39     15%              0      0%              0      0%          3       1%
                         Land in Farms     1,406,379     1,264,491     90%                0      0%     129,978      9%              0      0%              0      0%     11,910       1%

        SD               Population          696,004       634,788     91%         3,176         0%    49,648        7%      3,013          0%        127          0%      5,252       1%
        STATE            Borrowers             5,841         5,592     96%             4         0%       171        3%          8          0%         63          1%          3       0%
                         Farms                34,057        33,581     99%             0         0%       442        1%          0          0%          0          0%         34       0%
                         Land in Farms    44,828,124    40,928,574     91%             0         0% 3,874,356        9%          0          0%          0          0%     25,194       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1429
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       AURORA, SOUTH DAKOTA                                  BEADLE, SOUTH DAKOTA                              BENNETT, SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            82                      34                       212                         84                         63                     16
                              Loans                           215                         104                       777                       329                      137                        31
                              Principal and Interest   8,398,894                     817,204                 37,114,908                 6,593,196              6,122,638                     89,404

WHITE                         Borrowers                            82   100%               34      100%             212       100%              84   100%                  47     75%             13         81%
                              Loans                           215       100%              104      100%             777       100%            329    100%              110        80%             27         87%
                              Principal and Interest   8,398,894        100%         817,204       100%      37,114,908       100%      6,593,196    100%      4,545,781          74%        68,486          77%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 15     24%                  3     19%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 23     17%                  4     13%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%     1,497,947          24%        20,918          23%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  1      2%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  4      3%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%         78,909          1%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1430
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BON HOMME, SOUTH DAKOTA                                BROOKINGS, SOUTH DAKOTA                            BROWN, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             86                      24                        118                         43                     126                       29
                              Loans                            172                          48                        304                       101                      378                       80
                              Principal and Interest    7,945,553                     321,834                  12,747,114                  506,707               15,934,891                  304,459

WHITE                         Borrowers                             85    99%               24      100%              118       100%              43   100%              125       99%             29       100%
                              Loans                            171        99%               48      100%              304       100%            101    100%              375       99%             80       100%
                              Principal and Interest    7,936,469        100%         321,834       100%       12,747,114       100%       506,707     100%      15,860,012      100%        304,459        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                              1      1%                  0      0%                   0      0%              0      0%                 1      1%                  0      0%
                              Loans                                  1      1%                  0      0%                   0      0%              0      0%                 3      1%                  0      0%
                              Principal and Interest         9,084          0%                  0      0%                   0      0%              0      0%         74,879         0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1431
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BRULE, SOUTH DAKOTA                                  BUFFALO, SOUTH DAKOTA                             BUTTE, SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            83                      32                         26                        11                         68                     10
                              Loans                           238                         121                         74                        38                     121                        20
                              Principal and Interest   9,014,546                     531,097                 9,347,249                   939,881               5,710,717                    152,233

WHITE                         Borrowers                            81    98%               31       97%               18       69%               8     73%                 66     97%             10       100%
                              Loans                           236        99%              120       99%               56       76%              35     92%             118        98%             20       100%
                              Principal and Interest   8,858,729         98%         525,604        99%      3,120,687         33%       619,557       66%     5,361,488          94%       152,233        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1      1%                  1      3%                  6    23%               3     27%                  0      0%                  0      0%
                              Loans                                 1      0%                  1      1%              10       14%               3      8%                  0      0%                  0      0%
                              Principal and Interest      34,984           0%           5,493         1%     1,271,783         14%       320,324       34%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  1      4%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  4      5%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        32,975           0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             1      1%                  0      0%                  1      4%              0      0%                  2      3%                  0      0%
                              Loans                                 1      0%                  0      0%                  4      5%              0      0%                  3      2%                  0      0%
                              Principal and Interest     120,833           1%                  0      0%     4,921,804         53%               0      0%       349,230           6%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1432
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CAMPBELL, SOUTH DAKOTA CHARLES MIX, SOUTH DAKOTA                                                          CLARK, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             43                      13                       185                         62                     148                       49
                              Loans                            143                          54                       485                       134                      407                      120
                              Principal and Interest    5,918,036                     466,141                 20,559,669                  852,464               18,071,372                  543,036

WHITE                         Borrowers                             41    95%               13      100%             182        98%              61     98%             147       99%             49       100%
                              Loans                            141        99%               54      100%             479        99%            131      98%             406     100%             120       100%
                              Principal and Interest    5,791,233         98%         466,141       100%      19,180,835        93%       776,071       91%     18,050,525      100%        543,036        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  1      1%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  1      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%        22,967           0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                              2      5%                  0      0%                  2      1%              1      2%                 1      1%                  0      0%
                              Loans                                  2      1%                  0      0%                  5      1%              3      2%                 1      0%                  0      0%
                              Principal and Interest      126,803           2%                  0      0%      1,355,867          7%        76,393       9%         20,847         0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1433
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CLAY, SOUTH DAKOTA                                 CODINGTON, SOUTH DAKOTA                            CORSON, SOUTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        121                         36                          99                        40                         85                     23
                              Loans                            279                         83                        325                       124                      253                        76
                              Principal and Interest   14,301,911                 1,001,633                   14,178,530                 1,484,922              11,065,477                 1,325,226

WHITE                         Borrowers                        121      100%               36      100%                99      100%              40   100%                  82     96%             23       100%
                              Loans                            279      100%               83      100%              325       100%            124    100%              250        99%             76       100%
                              Principal and Interest   14,301,911       100%      1,001,633        100%       14,178,530       100%      1,484,922    100%      10,545,089         95%     1,325,226        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  1      1%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  1      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%       315,633           3%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  2      2%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  2      1%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%       204,755           2%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1434
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CUSTER, SOUTH DAKOTA                                  DAVISON, SOUTH DAKOTA                               DAY, SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            36                          0                     68                        12                     175                       65
                              Loans                                71                          0                   163                         46                     488                      152
                              Principal and Interest   3,996,916                               0             7,394,498                 1,527,304              21,402,211                  868,745

WHITE                         Borrowers                            35    97%                   0      0%             67       99%              12   100%              172       98%             65       100%
                              Loans                                69    97%                   0      0%           162        99%              46   100%              485       99%            152       100%
                              Principal and Interest   3,954,616         99%                   0      0%     7,318,932        99%      1,527,304    100%      21,299,430      100%        868,745        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             1      3%                  0      0%                 1      1%              0      0%                 3      2%                  0      0%
                              Loans                                 2      3%                  0      0%                 1      1%              0      0%                 3      1%                  0      0%
                              Principal and Interest      42,300           1%                  0      0%       75,566           1%              0      0%       102,781          0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1435
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         DEUEL, SOUTH DAKOTA                                  DEWEY, SOUTH DAKOTA                              DOUGLAS, SOUTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        156                         44                         90                        33                     102                       24
                              Loans                            382                         88                       281                       104                      321                       78
                              Principal and Interest   15,894,688                    400,307                 14,477,810                 1,923,036              12,889,303                1,693,670

WHITE                         Borrowers                        155       99%               44      100%               53       59%              20     61%             102     100%              24       100%
                              Loans                            381      100%               88      100%             176        63%              70     67%             321     100%              78       100%
                              Principal and Interest   15,840,090       100%         400,307       100%       6,737,123        47%       937,955       49%     12,889,303      100%      1,693,670        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%              30       33%              10     30%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%              93       33%              28     27%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%      4,651,368        32%       969,011       50%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  2      2%              1      3%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  5      2%              4      4%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       182,734           1%        12,767       1%                 0      0%                  0      0%

OTHER                         Borrowers                             1      1%                  0      0%                  4      4%              1      3%                 0      0%                  0      0%
                              Loans                                 1      0%                  0      0%                  6      2%              1      1%                 0      0%                  0      0%
                              Principal and Interest       54,598          0%                  0      0%      2,852,373        20%              30      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  1      1%              1      3%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      0%              1      1%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%        54,212           0%         3,274       0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1436
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       EDMUNDS, SOUTH DAKOTA                                 FALL RIVER, SOUTH DAKOTA                            FAULK, SOUTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        166                         47                          63                        11                         89                     22
                              Loans                            551                        145                        127                         20                     278                        77
                              Principal and Interest   25,925,563                    718,063                  6,148,421                   162,777               14,240,866                   441,740

WHITE                         Borrowers                        166      100%               47      100%                63      100%              11   100%                  88     99%             22       100%
                              Loans                            551      100%              145      100%              127       100%              20   100%              276        99%             77       100%
                              Principal and Interest   25,925,563       100%         718,063       100%       6,148,421        100%       162,777     100%      13,809,961         97%       441,740        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  1      1%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  2      1%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%       430,905           3%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1437
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         GRANT, SOUTH DAKOTA                                 GREGORY, SOUTH DAKOTA                             HAAKON, SOUTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        111                         45                       101                         43                         51                          8
                              Loans                            318                        118                       240                         97                     106                        26
                              Principal and Interest   12,192,264                    690,139                 11,524,082                 1,422,274              6,192,404                  1,013,628

WHITE                         Borrowers                        111      100%               45      100%               99       98%              43   100%                  49     96%                  8   100%
                              Loans                            318      100%              118      100%             237        99%              97   100%              104        98%             26       100%
                              Principal and Interest   12,192,264       100%         690,139       100%      11,384,898        99%      1,422,274    100%      6,040,882          98%     1,013,628        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  1      1%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       123,601           1%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  1      1%              0      0%                  2      4%                  0      0%
                              Loans                                 0      0%                  0      0%                  2      1%              0      0%                  2      2%                  0      0%
                              Principal and Interest                0      0%                  0      0%        15,582           0%              0      0%       151,522           2%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1438
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        HAMLIN, SOUTH DAKOTA                                    HAND, SOUTH DAKOTA                              HANSON, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             83                      28                       133                         37                         53                     14
                              Loans                            259                          89                       389                       122                      135                        36
                              Principal and Interest   11,082,066                     581,054                 18,768,158                 1,429,978              4,547,892                    152,632

WHITE                         Borrowers                             83   100%               28      100%             129        97%              37   100%                  52     98%             14       100%
                              Loans                            259       100%               89      100%             383        98%            122    100%              133        99%             36       100%
                              Principal and Interest   11,082,066        100%         581,054       100%      18,445,172        98%      1,429,978    100%      4,479,278          98%       152,632        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  1      1%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  1      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%        26,717           0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  2      2%              0      0%                  1      2%                  0      0%
                              Loans                                  0      0%                  0      0%                  3      1%              0      0%                  2      1%                  0      0%
                              Principal and Interest                 0      0%                  0      0%        75,769           0%              0      0%         68,615          2%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  1      1%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  2      1%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%       220,500           1%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1439
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HARDING, SOUTH DAKOTA                                 HUGHES, SOUTH DAKOTA                              HUTCHINSON, SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            28                          7                      68                        21                       136                       33
                              Loans                                86                      29                       180                         71                       355                       93
                              Principal and Interest   4,241,671                      84,472                 11,359,030                 1,532,178               13,204,862                   891,956

WHITE                         Borrowers                            25    89%                   7   100%               66       97%              21   100%                135       99%             33       100%
                              Loans                                81    94%               29      100%             176        98%              71   100%                354     100%              93       100%
                              Principal and Interest   3,467,212         82%          84,472       100%      11,332,163       100%      1,532,178    100%       13,190,780       100%        891,956        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  1      1%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  2      1%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        19,951           0%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  1      1%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  2      1%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%          6,916          0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             3    11%                   0      0%                  0      0%              0      0%                   1      1%                  0      0%
                              Loans                                 5      6%                  0      0%                  0      0%              0      0%                   1      0%                  0      0%
                              Principal and Interest     774,459         18%                   0      0%                  0      0%              0      0%           14,082         0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1440
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HYDE, SOUTH DAKOTA                                  JACKSON, SOUTH DAKOTA                             JACKSON,S, SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            41                      13                         18                         4                          40                          8
                              Loans                           141                          52                         41                         8                          65                     21
                              Principal and Interest   8,659,243                  1,573,718                  1,582,615                     36,593               4,199,096                    938,501

WHITE                         Borrowers                            40    98%               13      100%               18      100%               4   100%                    8     20%                  2     25%
                              Loans                           137        97%               52      100%               41      100%               8   100%                   12     18%                  5     24%
                              Principal and Interest   8,479,239         98%      1,573,718        100%      1,582,615        100%         36,593    100%         765,640          18%        46,042           5%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  31     78%                  6     75%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  50     77%             16         76%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%      3,352,824          80%       892,459          95%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   1      3%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                   3      5%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%          80,632          2%                  0      0%

OTHER                         Borrowers                             1      2%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 4      3%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest     180,004           2%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1441
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       JERAULD, SOUTH DAKOTA                                 JONES, SOUTH DAKOTA                              KINGSBURY, SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            54                      25                        23                         4                      101                        32
                              Loans                           140                          56                        48                        11                      239                        79
                              Principal and Interest   5,779,022                     254,392                 1,880,789                    37,889               11,200,862                   802,344

WHITE                         Borrowers                            54   100%               25      100%              22       96%               4   100%                   99     98%             31         97%
                              Loans                           140       100%               56      100%              47       98%              11   100%               237        99%             78         99%
                              Principal and Interest   5,779,022        100%         254,392       100%      1,862,250        99%         37,889    100%       11,060,182         99%       796,484          99%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 1      4%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 1      2%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       18,539           1%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   2      2%                  1      3%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   2      1%                  1      1%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%        140,680           1%          5,860          1%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1442
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          LAKE, SOUTH DAKOTA                                 LAWRENCE, SOUTH DAKOTA                            LINCOLN, SOUTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        154                         44                             3                      0                         81                     15
                              Loans                            365                        105                             3                      0                     167                        27
                              Principal and Interest   14,528,979                    511,957                   147,674                           0             9,050,836                    131,368

WHITE                         Borrowers                        154      100%               44      100%                   3   100%               0      0%                 80     99%             15       100%
                              Loans                            365      100%              105      100%                   3   100%               0      0%             166        99%             27       100%
                              Principal and Interest   14,528,979       100%         511,957       100%        147,674        100%               0      0%     8,996,403          99%       131,368        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  1      1%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  1      1%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%         54,434          1%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1443
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LYMAN, SOUTH DAKOTA                                   MARSHALL, SOUTH DAKOTA                            MCCOOK, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             76                      27                         83                        25                     125                       40
                              Loans                            189                          71                       226                         62                     347                      105
                              Principal and Interest   19,564,747                  1,161,029                   9,172,946                  279,265               16,686,258                2,082,833

WHITE                         Borrowers                             70    92%               26       96%               83      100%              25   100%              124       99%             40       100%
                              Loans                            176        93%               69       97%             226       100%              62   100%              345       99%            105       100%
                              Principal and Interest   15,016,162         77%         840,613        72%       9,172,946       100%       279,265     100%      16,622,531      100%      2,082,833        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              4      5%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 10      5%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      452,122           2%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                              2      3%                  1      4%                  0      0%              0      0%                 1      1%                  0      0%
                              Loans                                  3      2%                  2      3%                  0      0%              0      0%                 2      1%                  0      0%
                              Principal and Interest    4,096,464         21%         320,416        28%                   0      0%              0      0%         63,727         0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1444
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MCPHERSON, SOUTH DAKOTA                                MEADE, SOUTH DAKOTA                              MELLETTE,E, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             67                      15                      103                         11                           18                          7
                              Loans                            179                          43                      207                         31                           43                     12
                              Principal and Interest    8,815,352                     325,760                 8,314,728                  122,025                 2,646,343                    147,526

WHITE                         Borrowers                             67   100%               15      100%              98       95%              10     91%                   15     83%                  5     71%
                              Loans                            179       100%               43      100%            199        96%              27     87%                   35     81%             10         83%
                              Principal and Interest    8,815,352        100%         325,760       100%      7,680,187        92%       111,571       91%       1,894,816          72%       135,770          92%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                 2      2%              1      9%                    3     17%                  2     29%
                              Loans                                  0      0%                  0      0%                 5      2%              4     13%                    8     19%                  2     17%
                              Principal and Interest                 0      0%                  0      0%      200,627           2%        10,454       9%         751,527          28%        11,756           8%

ASIAN                         Borrowers                              0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                 3      3%              0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 3      1%              0      0%                    0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%      433,914           5%              0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1445
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MELLETTE,W, SOUTH DAKOTA                                MINER, SOUTH DAKOTA                              MINNEHAHA, SOUTH DAKOTA
                                                         Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              15                          3                     78                        25                           92                     24
                              Loans                                  35                          5                   241                         68                       183                        59
                              Principal and Interest     1,779,217                      30,199                 7,910,479                  298,110                10,396,808                    930,518

WHITE                         Borrowers                              11    73%                   3   100%              76       97%              25   100%                    91     99%             24       100%
                              Loans                                  22    63%                   5   100%            239        99%              68   100%                182        99%             59       100%
                              Principal and Interest     1,562,856         88%          30,199       100%      7,801,434        99%       298,110     100%       10,353,252        100%        930,518        100%

AFRICAN AMERICAN              Borrowers                               0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               4    27%                   0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                  13    37%                   0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Principal and Interest       216,361         12%                   0      0%                 0      0%              0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                               0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                 2      3%              0      0%                    1      1%                  0      0%
                              Loans                                   0      0%                  0      0%                 2      1%              0      0%                    1      1%                  0      0%
                              Principal and Interest                  0      0%                  0      0%      109,045           1%              0      0%           43,556          0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                 0      0%              0      0%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1446
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MOODY, SOUTH DAKOTA                                  PENNINGTON, SOUTH DAKOTA                           PERKINS, SOUTH DAKOTA
                                                        Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        108                         30                          51                         4                     121                       29
                              Loans                            234                         68                        101                          5                     294                       68
                              Principal and Interest   10,771,063                    716,916                   4,720,839                    12,975              13,118,440                  640,827

WHITE                         Borrowers                        105       97%               30      100%                48       94%               4   100%              120       99%             28         97%
                              Loans                            229       98%               68      100%                92       91%               5   100%              293     100%              67         99%
                              Principal and Interest   10,491,007        97%         716,916       100%        4,398,681        93%         12,975    100%      13,114,675      100%        639,751        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   1      2%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   7      7%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        111,006           2%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   1      2%              0      0%                 1      1%                  1      3%
                              Loans                                 0      0%                  0      0%                   1      1%              0      0%                 1      0%                  1      1%
                              Principal and Interest                0      0%                  0      0%        140,219           3%              0      0%          3,765         0%          1,076          0%

ASIAN                         Borrowers                             0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             3      3%                  0      0%                   1      2%              0      0%                 0      0%                  0      0%
                              Loans                                 5      2%                  0      0%                   1      1%              0      0%                 0      0%                  0      0%
                              Principal and Interest      280,056          3%                  0      0%         70,933           2%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                   0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1447
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        POTTER, SOUTH DAKOTA                                  ROBERTS, SOUTH DAKOTA                             SANBORN, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             83                      15                       133                         28                         76                     27
                              Loans                            234                          43                       440                         93                     160                        57
                              Principal and Interest   10,992,829                     146,994                 24,730,083                 2,450,294              5,708,662                    298,198

WHITE                         Borrowers                             83   100%               15      100%             127        95%              28   100%                  76   100%              27       100%
                              Loans                            234       100%               43      100%             428        97%              93   100%              160      100%              57       100%
                              Principal and Interest   10,992,829        100%         146,994       100%      18,746,521        76%      2,450,294    100%      5,708,662        100%        298,198        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  3      2%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  6      1%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%       320,163           1%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  3      2%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  6      1%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%      5,663,400        23%               0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1448
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SHANNON,PT, SOUTH DAKOTA                                  SPINK, SOUTH DAKOTA                             STANLEY, SOUTH DAKOTA
                                                         Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              40                      13                       139                         40                         35                     10
                              Loans                             102                          30                       468                       100                      108                        44
                              Principal and Interest    21,573,464                     121,302                 21,997,225                 1,430,894              9,466,455                  2,731,926

WHITE                         Borrowers                               9    23%                   4    31%             137        99%              39     98%                 29     83%                  7     70%
                              Loans                                  19    19%                   6    20%             465        99%              99     99%                 81     75%             23         52%
                              Principal and Interest       806,071           4%         20,466        17%      21,968,832       100%      1,430,875    100%      5,623,813          59%       466,899          17%

AFRICAN AMERICAN              Borrowers                               0      0%                  0      0%                  0      0%              0      0%                  2      6%                  2     20%
                              Loans                                   0      0%                  0      0%                  0      0%              0      0%                 22     20%             20         45%
                              Principal and Interest                  0      0%                  0      0%                  0      0%              0      0%     3,230,312          34%     2,256,293          83%

NATIVE AMERICAN               Borrowers                              28    70%                   7    54%                   0      0%              0      0%                  3      9%                  1     10%
                              Loans                                  57    56%               12       40%                   0      0%              0      0%                  3      3%                  1      2%
                              Principal and Interest     1,911,060           9%         30,059        25%                   0      0%              0      0%       320,597           3%          8,734          0%

ASIAN                         Borrowers                               1      3%                  1      8%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                   1      1%                  1      3%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest        30,577           0%         12,129        10%                   0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                               1      3%                  0      0%                  2      1%              1      3%                  1      3%                  0      0%
                              Loans                                  14    14%                   0      0%                  3      1%              1      1%                  2      2%                  0      0%
                              Principal and Interest    18,583,742         86%                   0      0%        28,393           0%             19      0%       291,732           3%                  0      0%

HISPANIC                      Borrowers                               1      3%                  1      8%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  11    11%               11       37%                   0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest       242,013           1%         58,648        48%                   0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1449
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         SULLY, SOUTH DAKOTA                                    TODD, SOUTH DAKOTA                               TRIPP, SOUTH DAKOTA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             58                      22                         37                         9                     130                       54
                              Loans                            200                          62                       100                         20                     387                      140
                              Principal and Interest   12,370,676                  2,904,641                  13,391,169                  161,850               15,230,439                1,023,524

WHITE                         Borrowers                             58   100%               22      100%               21       57%               5     56%             129       99%             53         98%
                              Loans                            200       100%               62      100%               60       60%              14     70%             380       98%            139         99%
                              Principal and Interest   12,370,676        100%      2,904,641        100%       3,053,627        23%       113,490       70%     15,045,935        99%     1,021,865        100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%              14       38%               4     44%                 1      1%                  1      2%
                              Loans                                  0      0%                  0      0%              29       29%               6     30%                 7      2%                  1      1%
                              Principal and Interest                 0      0%                  0      0%      1,228,883          9%        48,360      30%       184,504          1%          1,658          0%

ASIAN                         Borrowers                              0      0%                  0      0%                  1      3%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  3      3%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%        94,709           1%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  1      3%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  8      8%              0      0%                 0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%      9,013,950        67%               0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1450
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       TURNER, SOUTH DAKOTA                                  UNION, SOUTH DAKOTA                              WALWORTH, SOUTH DAKOTA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       100                         24                       117                         14                          54                     11
                              Loans                           203                         53                       253                         27                      167                        37
                              Principal and Interest   7,675,031                    415,946                 10,649,558                  314,274                 6,671,594                   469,010

WHITE                         Borrowers                       100      100%               24      100%             115        98%              14   100%                   51     94%             10         91%
                              Loans                           203      100%               53      100%             248        98%              27   100%               163        98%             36         97%
                              Principal and Interest   7,675,031       100%         415,946       100%      10,390,345        98%       314,274     100%        6,397,811         96%       463,370          99%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   2      4%                  1      9%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   3      2%                  1      3%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%        167,733           3%          5,640          1%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                  2      2%              0      0%                   1      2%                  0      0%
                              Loans                                0      0%                  0      0%                  5      2%              0      0%                   1      1%                  0      0%
                              Principal and Interest               0      0%                  0      0%       259,213           2%              0      0%        106,050           2%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1451
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       YANKTON, SOUTH DAKOTA                                 ZIEBACH, SOUTH DAKOTA                            STATE OF SOUTH DAKOTA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            71                      18                        62                        26                    5,841                      1,696
                              Loans                           164                          53                      175                         75                   15,687                      4,644
                              Principal and Interest   7,175,808                     899,638                 8,950,353                 2,090,239              759,423,892                  57,956,865

WHITE                         Borrowers                            71   100%               18      100%              44       71%              17     65%            5,592         96%          1,635         96%
                              Loans                           164       100%               53      100%            118        67%              36     48%           15,123         96%          4,480         96%
                              Principal and Interest   7,175,808        100%         899,638       100%      4,618,153        52%       259,847       12%     682,230,376          90%     51,054,702         88%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    4      0%                  2      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   30      0%             20          0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%       3,368,035           0%      2,256,293          4%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%             17       27%               9     35%               171         3%             50          3%
                              Loans                                 0      0%                  0      0%             54       31%              39     52%               380         2%            119          3%
                              Principal and Interest                0      0%                  0      0%     4,198,891        47%      1,830,393      88%      21,406,049           3%      4,156,335          7%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    8      0%                  2      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   22      0%                  5      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%         507,452           0%        24,896           0%

OTHER                         Borrowers                             0      0%                  0      0%                 1      2%              0      0%                   63      1%                  5      0%
                              Loans                                 0      0%                  0      0%                 3      2%              0      0%               118         1%                  8      0%
                              Principal and Interest                0      0%                  0      0%      133,309           1%              0      0%      51,395,256           7%       402,718           1%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                    3      0%                  2      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   14      0%             12          0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%         516,725           0%        61,922           0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1452
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State  Servicing Office   Decision           Average Days       Total       White           American            American             Asian            Hispanic
  SD AURORA                Approved   No. of Applications                4        4   100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                      21                     0                   0                 0                0
                                      Completion to Approval                     10                     0                   0                 0                0
                                      Approval to Loan Closing                   46                     0                   0                 0                0

                           Rejected   No. of Applications                5        5   100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      13                     0                   0                 0               0
                                      Completion to Rejected                     25                     0                   0                 0               0

                           Withdrawn No. of Applications                 1        1   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                       27                     0                   0                 0               0
                                     Completion to Withdrawn                      7                     0                   0                 0               0

 SD    BEADLE              Approved   No. of Applications                8        8   100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                       6                     0                   0                 0               0
                                      Completion to Approval                     44                     0                   0                 0               0
                                      Approval to Loan Closing                   42                     0                   0                 0               0

                           Rejected   No. of Applications                2        2   100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      33                     0                   0                 0               0
                                      Completion to Rejected                     51                     0                   0                 0               0

                           Withdrawn No. of Applications                 6        6   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                        4                     0                   0                 0               0
                                     Completion to Withdrawn                     38                     0                   0                 0               0

 SD    BENNETT             Approved   No. of Applications            23           6   26%               0   0%         17       74%           0   0%          0      0%
                                      Receipt to Completion                      16                     0              21                     0               0
                                      Completion to Approval                     22                     0              29                     0               0
                                      Approval to Loan Closing                   23                     0              39                     0               0

                           Rejected   No. of Applications                3        2   67%               0   0%          1       33%           0   0%          0      0%
                                      Receipt to Completion                      25                     0              20                     0               0
                                      Completion to Rejected                      9                     0               9                     0               0

                           Withdrawn No. of Applications                 7        2   29%               0   0%          4       57%           0   0%          1     14%
                                     Receipt to Completion                       32                     0              20                     0               0
                                     Completion to Withdrawn                      7                     0              79                     0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1453
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  SD BROOKINGS             Approved   No. of Applications             14        14   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     14                     0                   0                0                0
                                      Completion to Approval                     6                     0                   0                0                0
                                      Approval to Loan Closing                  39                     0                   0                0                0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     9                      0                   0                0               0
                                      Completion to Rejected                    5                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      9                      0                   0                0               0
                                     Completion to Withdrawn                   14                      0                   0                0               0

 SD    BROWN               Approved   No. of Applications            12        12    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    13                      0                   0                0               0
                                      Completion to Approval                   15                      0                   0                0               0
                                      Approval to Loan Closing                 23                      0                   0                0               0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     4                      0                   0                0               0
                                      Completion to Rejected                    7                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 SD    BRULE               Approved   No. of Applications            15        14    93%               0   0%          1       7%           0   0%          0      0%
                                      Receipt to Completion                    48                      0              -1                    0               0
                                      Completion to Approval                   16                      0              29                    0               0
                                      Approval to Loan Closing                 28                      0              27                    0               0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1454
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  SD BUTTE                 Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      11                        0                   0                0                0
                                      Completion to Approval                     26                        0                   0                0                0
                                      Approval to Loan Closing                   20                        0                   0                0                0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      27                        0                   0                0               0
                                      Completion to Rejected                      7                        0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 SD    CHARLES MIX         Approved   No. of Applications            15          15      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      12                        0                   0                0               0
                                      Completion to Approval                      6                        0                   0                0               0
                                      Approval to Loan Closing                   34                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 3           3   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 SD    CLARK               Approved   No. of Applications                6        6      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      12                        0                   0                0               0
                                      Completion to Approval                     28                        0                   0                0               0
                                      Approval to Loan Closing                   59                        0                   0                0               0

                           Rejected   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      23                        0                   0                0               0
                                      Completion to Rejected                     42                        0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       71                        0                   0                0               0
                                     Completion to Withdrawn                     67                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1455
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian             Hispanic
  SD CLAY                  Approved   No. of Applications                4        4      100%              0   0%              0   0%            0   0%            0     0%
                                      Receipt to Completion                       1                        0                   0                 0                 0
                                      Completion to Approval                     17                        0                   0                 0                 0
                                      Approval to Loan Closing                   37                        0                   0                 0                 0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%           0      0%
                                      Receipt to Completion                          0                     0                   0                 0                0
                                      Completion to Rejected                         0                     0                   0                 0                0

                           Withdrawn No. of Applications                 4           4   100%              0   0%              0   0%            0   0%           0      0%
                                     Receipt to Completion                           3                     0                   0                 0                0
                                     Completion to Withdrawn                         7                     0                   0                 0                0

 SD    CODINGTON           Approved   No. of Applications            13          13      100%              0   0%              0   0%            0   0%           0      0%
                                      Receipt to Completion                      34                        0                   0                 0                0
                                      Completion to Approval                     47                        0                   0                 0                0
                                      Approval to Loan Closing                   46                        0                   0                 0                0

                           Rejected   No. of Applications                6        6      100%              0   0%              0   0%            0   0%           0      0%
                                      Receipt to Completion                      32                        0                   0                 0                0
                                      Completion to Rejected                     46                        0                   0                 0                0

                           Withdrawn No. of Applications                 5        5      100%              0   0%              0   0%            0   0%           0      0%
                                     Receipt to Completion                        2                        0                   0                 0                0
                                     Completion to Withdrawn                     23                        0                   0                 0                0

 SD    CORSON              Approved   No. of Applications            14           1       7%               0   0%         13       93%           0   0%           0      0%
                                      Receipt to Completion                       8                        0              15                     0                0
                                      Completion to Approval                     23                        0              34                     0                0
                                      Approval to Loan Closing                   18                        0              21                     0                0

                           Rejected   No. of Applications                3        1      33%               0   0%          1       33%        1      33%          0      0%
                                      Receipt to Completion                      71                        0              35                  5                   0
                                      Completion to Rejected                      9                        0              45                 10                   0

                           Withdrawn No. of Applications                 2        1      50%               0   0%              1   50%           0   0%           0      0%
                                     Receipt to Completion                       29                        0                   0                 0                0
                                     Completion to Withdrawn                     79                        0                   0                 0                0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1456
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  SD DAVISON               Approved   No. of Applications                6        6      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      40                        0                   0                0                0
                                      Completion to Approval                      8                        0                   0                0                0
                                      Approval to Loan Closing                  106                        0                   0                0                0

                           Rejected   No. of Applications                4        4      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      23                        0                   0                0               0
                                      Completion to Rejected                     12                        0                   0                0               0

                           Withdrawn No. of Applications             17          17      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        2                        0                   0                0               0
                                     Completion to Withdrawn                     30                        0                   0                0               0

 SD    DAY                 Approved   No. of Applications            13          13      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      11                        0                   0                0               0
                                      Completion to Approval                     12                        0                   0                0               0
                                      Approval to Loan Closing                   12                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        0                        0                   0                0               0
                                     Completion to Withdrawn                     50                        0                   0                0               0

 SD    DEUEL               Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      14                        0                   0                0               0
                                      Completion to Approval                     10                        0                   0                0               0
                                      Approval to Loan Closing                   32                        0                   0                0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      42                        0                   0                0               0
                                      Completion to Rejected                      3                        0                   0                0               0

                           Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       10                        0                   0                0               0
                                     Completion to Withdrawn                     37                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1457
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American              Asian            Hispanic
  SD DEWEY                 Approved   No. of Applications                3        1      33%               0   0%          2       67%            0   0%           0     0%
                                      Receipt to Completion                      28                        0              20                      0                0
                                      Completion to Approval                     22                        0              41                      0                0
                                      Approval to Loan Closing                   21                        0              16                      0                0

                           Rejected   No. of Applications                3           0    0%               0   0%          3       100%           0   0%          0      0%
                                      Receipt to Completion                          0                     0              17                      0               0
                                      Completion to Rejected                         0                     0              17                      0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                  0               0
                                     Completion to Withdrawn                         0                     0                   0                  0               0

 SD    EDMUNDS             Approved   No. of Applications                6        6      100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                      22                        0                   0                  0               0
                                      Completion to Approval                     15                        0                   0                  0               0
                                      Approval to Loan Closing                   17                        0                   0                  0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                  0               0
                                      Completion to Rejected                         0                     0                   0                  0               0

                           Withdrawn No. of Applications                 3           3   100%              0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                           3                     0                   0                  0               0
                                     Completion to Withdrawn                         8                     0                   0                  0               0

 SD    FALL RIVER          Approved   No. of Applications            12          12      100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                      11                        0                   0                  0               0
                                      Completion to Approval                     12                        0                   0                  0               0
                                      Approval to Loan Closing                   19                        0                   0                  0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                      18                        0                   0                  0               0
                                      Completion to Rejected                      6                        0                   0                  0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                  0               0
                                     Completion to Withdrawn                         0                     0                   0                  0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1458
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  SD FAULK                 Approved   No. of Applications             10        10   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      4                     0                   0                0                0
                                      Completion to Approval                    20                     0                   0                0                0
                                      Approval to Loan Closing                  78                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      8                      0                   0                0               0
                                     Completion to Withdrawn                    7                      0                   0                0               0

 SD    GRANT               Approved   No. of Applications             7         7    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    33                      0                   0                0               0
                                      Completion to Approval                   16                      0                   0                0               0
                                      Approval to Loan Closing                 25                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    29                      0                   0                0               0
                                      Completion to Rejected                   57                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     23                      0                   0                0               0
                                     Completion to Withdrawn                   49                      0                   0                0               0

 SD    GREGORY             Approved   No. of Applications             8         8    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    13                      0                   0                0               0
                                      Completion to Approval                   32                      0                   0                0               0
                                      Approval to Loan Closing                 19                      0                   0                0               0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    28                      0                   0                0               0
                                      Completion to Rejected                   49                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1459
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  SD HAAKON                Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                       6                        0                   0                0                0
                                      Completion to Approval                      6                        0                   0                0                0
                                      Approval to Loan Closing                   16                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 SD    HAMIL               Approved   No. of Applications                8        8      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       9                        0                   0                0               0
                                      Completion to Approval                     28                        0                   0                0               0
                                      Approval to Loan Closing                   28                        0                   0                0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       0                        0                   0                0               0
                                      Completion to Rejected                     44                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 SD    HAND                Approved   No. of Applications                6        6      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      25                        0                   0                0               0
                                      Completion to Approval                     50                        0                   0                0               0
                                      Approval to Loan Closing                   41                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       17                        0                   0                0               0
                                     Completion to Withdrawn                    371                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1460
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  SD HUGHES                Approved   No. of Applications             14        14   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     42                     0                   0                0                0
                                      Completion to Approval                    53                     0                   0                0                0
                                      Approval to Loan Closing                  87                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    44                      0                   0                0               0
                                      Completion to Rejected                  163                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 SD    HUTCHINSON          Approved   No. of Applications            17        17    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    17                      0                   0                0               0
                                      Completion to Approval                   17                      0                   0                0               0
                                      Approval to Loan Closing                123                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 SD    JERAULD             Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    12                      0                   0                0               0
                                      Completion to Approval                   56                      0                   0                0               0
                                      Approval to Loan Closing                 25                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1461
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State   Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  SD KINGSBURY              Approved   No. of Applications             22        22   100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                     14                     0                   0                0                0
                                       Completion to Approval                    33                     0                   0                0                0
                                       Approval to Loan Closing                  33                     0                   0                0                0

                            Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    14                      0                   0                0               0
                                       Completion to Rejected                   29                      0                   0                0               0

                            Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      8                      0                   0                0               0
                                      Completion to Withdrawn                   32                      0                   0                0               0

 SD    LAKE                 Approved   No. of Applications            23        23    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    36                      0                   0                0               0
                                       Completion to Approval                   27                      0                   0                0               0
                                       Approval to Loan Closing                 37                      0                   0                0               0

                            Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    15                      0                   0                0               0
                                       Completion to Rejected                    7                      0                   0                0               0

                            Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      0                      0                   0                0               0
                                      Completion to Withdrawn                    0                      0                   0                0               0

 SD    MARSHALL             Approved   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     2                      0                   0                0               0
                                       Completion to Approval                   52                      0                   0                0               0
                                       Approval to Loan Closing                108                      0                   0                0               0

                            Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      0                      0                   0                0               0
                                      Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1462
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  SD MCCOOK                Approved   No. of Applications                8        8      100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                       6                        0                   0                 0                0
                                      Completion to Approval                      1                        0                   0                 0                0
                                      Approval to Loan Closing                   17                        0                   0                 0                0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      13                        0                   0                 0               0
                                      Completion to Rejected                      1                        0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 SD    MCPHERSON           Approved   No. of Applications                6        6      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      21                        0                   0                 0               0
                                      Completion to Approval                     19                        0                   0                 0               0
                                      Approval to Loan Closing                   23                        0                   0                 0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      13                        0                   0                 0               0
                                      Completion to Rejected                     58                        0                   0                 0               0

                           Withdrawn No. of Applications                 4           4   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 SD    MEADE               Approved   No. of Applications                8        8      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      22                        0                   0                 0               0
                                      Completion to Approval                     19                        0                   0                 0               0
                                      Approval to Loan Closing                   18                        0                   0                 0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      22                        0                   0                 0               0
                                      Completion to Rejected                     14                        0                   0                 0               0

                           Withdrawn No. of Applications                 5           4   80%               0   0%              1   20%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1463
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American              Asian            Hispanic
  SD MELLETT-TODD          Approved   No. of Applications                2        2      100%              0   0%              0    0%            0   0%           0     0%
                                      Receipt to Completion                      28                        0                   0                  0                0
                                      Completion to Approval                     31                        0                   0                  0                0
                                      Approval to Loan Closing                   16                        0                   0                  0                0

                           Rejected   No. of Applications                2           0    0%               0   0%          2       100%           0   0%          0      0%
                                      Receipt to Completion                          0                     0              29                      0               0
                                      Completion to Rejected                         0                     0             120                      0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                  0               0
                                     Completion to Withdrawn                         0                     0                   0                  0               0

 SD    MINNEHAHA           Approved   No. of Applications                7        7      100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                      11                        0                   0                  0               0
                                      Completion to Approval                      9                        0                   0                  0               0
                                      Approval to Loan Closing                   31                        0                   0                  0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                  0               0
                                      Completion to Rejected                         0                     0                   0                  0               0

                           Withdrawn No. of Applications                 5           5   100%              0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                           7                     0                   0                  0               0
                                     Completion to Withdrawn                         3                     0                   0                  0               0

 SD    MOODY               Approved   No. of Applications                5        5      100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                      16                        0                   0                  0               0
                                      Completion to Approval                      2                        0                   0                  0               0
                                      Approval to Loan Closing                   14                        0                   0                  0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                  0               0
                                      Completion to Rejected                         0                     0                   0                  0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                  0               0
                                     Completion to Withdrawn                         0                     0                   0                  0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1464
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  SD PENNINGTON            Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                       5                        0                   0                0                0
                                      Completion to Approval                      1                        0                   0                0                0
                                      Approval to Loan Closing                   47                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        5                        0                   0                0               0
                                     Completion to Withdrawn                     38                        0                   0                0               0

 SD    PERKINS             Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      17                        0                   0                0               0
                                      Completion to Approval                     41                        0                   0                0               0
                                      Approval to Loan Closing                   26                        0                   0                0               0

                           Rejected   No. of Applications                1           1   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       12                        0                   0                0               0
                                     Completion to Withdrawn                     35                        0                   0                0               0

 SD    POTTER              Approved   No. of Applications            12          12      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      21                        0                   0                0               0
                                      Completion to Approval                     39                        0                   0                0               0
                                      Approval to Loan Closing                   48                        0                   0                0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      11                        0                   0                0               0
                                      Completion to Rejected                     27                        0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1465
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  SD ROBERTS               Approved   No. of Applications                3        3      100%              0   0%              0   0%            0   0%           0     0%
                                      Receipt to Completion                       7                        0                   0                 0                0
                                      Completion to Approval                     17                        0                   0                 0                0
                                      Approval to Loan Closing                   11                        0                   0                 0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                        1                        0                   0                 0               0
                                     Completion to Withdrawn                     15                        0                   0                 0               0

 SD    SPINK               Approved   No. of Applications            39          39      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      25                        0                   0                 0               0
                                      Completion to Approval                     22                        0                   0                 0               0
                                      Approval to Loan Closing                   25                        0                   0                 0               0

                           Rejected   No. of Applications                3           3   100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         9                     0                   0                 0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                        3                        0                   0                 0               0
                                     Completion to Withdrawn                     12                        0                   0                 0               0

 SD    TRIPP               Approved   No. of Applications                6        4      67%               0   0%          2       33%           0   0%          0      0%
                                      Receipt to Completion                      24                        0               7                     0               0
                                      Completion to Approval                      9                        0               7                     0               0
                                      Approval to Loan Closing                   10                        0              20                     0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      66                        0                   0                 0               0
                                      Completion to Rejected                     47                        0                   0                 0               0

                           Withdrawn No. of Applications                 3        3      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                       15                        0                   0                 0               0
                                     Completion to Withdrawn                      3                        0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1466
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  SD UNION                 Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                       8                        0                   0                0                0
                                      Completion to Approval                     17                        0                   0                0                0
                                      Approval to Loan Closing                   24                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 SD    WALWORTH            Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      31                        0                   0                0               0
                                      Completion to Approval                     27                        0                   0                0               0
                                      Approval to Loan Closing                   45                        0                   0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      18                        0                   0                0               0
                                      Completion to Rejected                     39                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 SD    YANKTON             Approved   No. of Applications                8        8      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      15                        0                   0                0               0
                                      Completion to Approval                     27                        0                   0                0               0
                                      Approval to Loan Closing                   68                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 3           3   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           9                     0                   0                0               0
                                     Completion to Withdrawn                         5                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1467
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African             Native
 State   Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  SD ZIEBACH                Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                      20                        0                   0                0                0
                                       Completion to Approval                     71                        0                   0                0                0
                                       Approval to Loan Closing                   34                        0                   0                0                0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0

 SD    STATE                Approved   No. of Applications           434         399      92%               0   0%         35       8%           0   0%          0      0%
                                       Receipt to Completion                      20                        0              17                    0               0
                                       Completion to Approval                     23                        0              30                    0               0
                                       Approval to Loan Closing                   39                        0              30                    0               0

                            Rejected   No. of Applications            74          66      89%               0   0%          7       9%        1      1%          0      0%
                                       Receipt to Completion                      20                        0              23                 5                  0
                                       Completion to Rejected                     25                        0              49                10                  0

                            Withdrawn No. of Applications            117         109      93%               0   0%          7       6%           0   0%          1      1%
                                      Receipt to Completion                        6                        0              31                    0               0
                                      Completion to Withdrawn                     23                        0              45                    0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1468
